<html>
<title> - OFFSHORE AQUACULTURE</title>
<body><pre>[Senate Hearing 109-1109]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1109
 
                          OFFSHORE AQUACULTURE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON NATIONAL OCEAN 
                              POLICY STUDY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 6, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
64-138                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

              SUBCOMMITTEE ON NATIONAL OCEAN POLICY STUDY

                JOHN E. SUNUNU, New Hampshire, Chairman
TED STEVENS, Alaska                  BARBARA BOXER, California, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              MARIA CANTWELL, Washington
GORDON H. SMITH, Oregon              FRANK R. LAUTENBERG, New Jersey
JIM DeMINT, South Carolina
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 6, 2006....................................     1
Statement of Senator Boxer.......................................    10
    Article from the Marine Aquaculture in The United States 
      Report entitled, ``Disease and Parasites''.................    62
    Letter, dated April 5, 2006, to Hon. Ted Stevens and Hon. 
      Daniel K. Inouye from Peter M. Douglas, Executive Director, 
      California Coastal Commission..............................    63
    Prepared statement...........................................    11
Statement of Senator Inouye......................................    12
Statement of Senator Snowe.......................................    27
    Prepared statement...........................................    27
Statement of Senator Stevens.....................................    54
Statement of Senator Sununu......................................     1

                               Witnesses

Belle, Sebastian, Executive Director, Maine Aquaculture 
  Association....................................................    49
    Prepared statement...........................................    51
Cates, John R., President, Cates International, Inc..............    18
    Prepared statement...........................................    19
Goldburg, Rebecca, Ph.D., Senior Scientist, Environmental Defense    28
    Prepared statement with attachments..........................    30
Hogarth, Dr. William T., Assistant Administrator for Fisheries, 
  National Marine Fisheries Service, National Oceanic and 
  Atmospheric Administration (DOC)...............................     3
    Prepared statement...........................................     5
Langan, Dr. Richard, Director, University of New Hampshire Open 
  Ocean Aquaculture Project......................................    12
    Prepared statement...........................................    14
Vinsel, Mark, Executive Director, United Fishermen of Alaska.....    22
    Prepared statement...........................................    24

                                Appendix

Anderson, Bruce S., Ph.D., President, Oceanic Institute, prepared 
  statement......................................................    65
Ayers, Jim, Vice President and Michael F. Hirschfield, Ph.D., 
  Vice President, Oceana, joint prepared statement...............    94
Benetti, Dr. Daniel, Chairman, Division of Marine Affairs and 
  Policy, Assoc. Professor and Director of Aquaculture, 
  University of Miami Rosenstiel School of Marine and Atmospheric 
  Science (UM-RSMAS), prepared statement.........................    88
Connelly, John, President, National Fisheries Institute (NFI), 
  prepared statement.............................................    95
Cufone, Marianne, Esq., Environmental Attorney and Advocate, 
  Environment Matters, prepared statement........................    91
Hauter, Wenonah, Executive Director, Food & Water Watch, prepared 
  statement......................................................    93
International Game Fish Association, Marine Fisheries Advisory 
  Committee, National Oceanic and Atmospheric Administration 
  (DOC)--Offshore Aquaculture Act--Resolution (March 3, 2006)....    65
Kent, Donald B., President, Hubbs-SeaWorld Research Institute 
  (HSWRI), prepared statement....................................    90
Lautenberg, Hon. Frank R., U.S. Senator from New Jersey, prepared 
  statement......................................................    65
Letter, dated May 24, 2005, Subject: Protect Ocean Health and 
  Ensure Responsible Governance, Do Not Support NOAA's Offshore 
  Aquaculture Bill...............................................    70
Letter, dated April 4, 2006, Subject: Protect Ocean Health and 
  Ensure Responsible Governance, Do Not Support NOAA's Offshore 
  Aquaculture Bill...............................................    76
Nardi, George, Chief Technical Officer, GreatBay Aquaculture, 
  LLC, prepared statement........................................    92
MacMillan, John R., Ph.D., President, National Aquaculture 
  Association, prepared statement................................    96
O'Hanlon, Brian, President and Founder, Snapperfarm, Inc., 
  prepared statement.............................................   101
Pacific Coast Federation of Fishermen's Associations, prepared 
  statement......................................................    78
Response to written questions submitted by Hon. Barbara Boxer to 
  Dr. William T. Hogarth.........................................   110
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Sebastian Belle..............................................   128
    John R. Cates................................................   119
    Rebecca Goldburg, Ph.D.......................................   124
    Dr. William T. Hogarth.......................................   110
    Dr. Richard Langan...........................................   117
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    John R. Cates................................................   118
    Rebecca Goldburg, Ph.D.......................................   122
    Dr. William T. Hogarth.......................................   106
    Dr. Richard Langan...........................................   113
    Mark Vinsel..................................................   120
Response to written questions submitted by Hon. Olympia J. Snowe 
  to:
    Sebastian Belle..............................................   125
    Rebecca Goldburg, Ph.D.......................................   124
    Dr. William T. Hogarth.......................................   105
    Dr. Richard Langan...........................................   116
Sims, Neil Anthony, President, Kona Blue, prepared statement.....    68
Taylor, William, President, Taylor Shellfish Farms, prepared 
  statement......................................................   103
The Ocean Conservancy, prepared statement........................    72


                          OFFSHORE AQUACULTURE

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                               U.S. Senate,
       Subcommittee on National Ocean Policy Study,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SD-562 Dirksen Senate Office Building, Hon. John E. 
Sununu, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Good morning. Welcome to this hearing of 
the National Ocean Policy Study on offshore aquaculture. I want 
to welcome our witnesses and appreciate them taking the time to 
be here today. Some of you have traveled from very far away, 
but we value your expertise, and we appreciate your patience. 
American consumers are enjoying more seafood every year. But to 
a large degree, the increase in consumption is not coming from 
the wild. Global fishing harvests nationally have been level 
for the past decade, and we are seeing increased pressure on 
wild fish populations in all of our fisheries. We are getting a 
great deal of this increase from overseas, and much of the 
increase in imports comes from fish farms far from the reach of 
U.S. environmental regulations. We have imported over a billion 
pounds of shrimp for each of the last 3 years. Atlantic salmon 
imports have more than doubled since 2000, and tilapia imports 
have tripled in the same time. Today's hearing will examine an 
alternative method for meeting this growing demand; growing 
fish in underwater cages in the open ocean, aquaculture. The 
United States lags behind a dozen nations, as far away as 
China, Norway, and Australia, and as close as Mexico and 
Canada, in developing offshore aquaculture. We are joined today 
by some of our country's pioneers in this emerging field. We'll 
learn how far aquaculture technology has come in recent years 
and the complex questions that need to be answered before we 
can implement a strong national policy for offshore aquaculture 
in this country. Today, I'd ask that the witnesses submit any 
written testimony that they have and that all of the material 
they submit be part of the record, but we will keep the record 
open for 2 weeks for any additional questions that Members of 
the Commerce Committee might have for today's witnesses. We 
have also received testimony from a number of organizations, 
including the National Fisheries Institute, Hubbs-SeaWorld 
Research Institute, The Marine Fisheries Advisory Committee, 
and Environment Matters, and I ask consent that all of their 
testimony be made part of the record.
    We also have opening statements from Senators that have 
been submitted, and all Senators opening statements will be 
included in full in the record.
    We have six witnesses with us today, each providing a 
different perspective of background experience and expertise, 
which the Committee values. It has been a long time since 
Congress has really taken up the issue of aquaculture. I 
believe the first national aquaculture legislation was passed 
back in 1980. But even though that legislation called for a 
national framework, we have still yet to develop a 
comprehensive national policy. So, my hope is that this hearing 
will be part of the process of developing legislation that 
makes sense, that exercises the right amount of caution and 
prudence in dealing with environmental matters, but at the same 
time, takes advantage of the technologies and the approaches 
that we know exist and that can provide safe quality seafood 
for consumers in America and around the world. I will ask that 
we provide testimony. We'll go from left to right. Let me 
briefly introduce each of our panelists, and then we'll begin 
with Dr. Bill Hogarth. Dr. Hogarth is Assistant Administrator 
of the National Marine Fisheries Service, responsible for 
overseeing the management and conservation of marine fisheries 
and the protection of marine mammals, sea turtles, and coastal 
fisheries within the United State's Exclusive Economic Zone. We 
are also joined by Dr. Richard Langan from UNH. That's the 
University of New Hampshire for those of you that aren't 
running for President this year. They have partnered with NOAA 
for 10 years, since the late 1990s, on demonstration products 
for showing different techniques for raising species in the 
often chilly, and sometimes rough waters off the coast of New 
Hampshire. Randy Cates is President of Cates International. He 
founded Cates International 5 years ago and has harvested over 
a million pounds of native Hawaiian moi--I believe--is that how 
we pronounce that--in waters just south of Oahu. Mark Vinsel is 
Executive Director of the United Fishermen of Alaska. Dr. 
Rebecca Goldburg is a Senior Scientist with Environmental 
Defense. She helped to write the Pew Oceans Commission's 2001 
report on marine aquaculture. As everyone knows, the Pew Oceans 
Commission's work has been part of the body of work that our 
Subcommittee has drawn on for some guidance in areas where we 
need to conduct hearings and craft legislation to do a better 
job in formulating a comprehensive approach--not just to 
aquaculture, but to fisheries and our oceans management, 
generally speaking. And Sebastian Belle serves as Executive 
Director of the Maine Aquaculture Association. He began his 
career as a commercial fisherman and has served as a technical 
consultant and project manager on over 20 major commercial 
aquaculture ventures in 14 different countries. Welcome to all 
of you, and let us begin today with Dr. Hogarth.

         STATEMENT OF DR. WILLIAM T. HOGARTH, ASSISTANT

          ADMINISTRATOR FOR FISHERIES, NATIONAL MARINE

            FISHERIES SERVICE, NATIONAL OCEANIC AND

                ATMOSPHERIC ADMINISTRATION (DOC)

    Dr. Hogarth. Chairman Sununu, good morning, and thank you 
for inviting me here today to testify on behalf of the 
Administration. I am Bill Hogarth, the Assistant Administrator 
for Fisheries, National Oceanic and Atmospheric Administration 
within the Department of Commerce. My testimony today will 
address the opportunities and challenges posed by the offshore 
aquaculture and present some compelling reasons for prompt 
Congressional action on S. 1195, the National Offshore 
Aquaculture Act of 2005. To begin, I would like to note that 
the Secretary of Commerce, Carlos Gutierrez, was very 
interested in testifying today and regrets that he could not be 
here this morning. However, he expresses his full support for 
the bill and asked that I share his statement with the 
Subcommittee. His statement is: I am convinced that the United 
States must explore the potential of offshore aquaculture to 
help meet the growing demand for seafood in this country and to 
create jobs and economic opportunity for coastal communities. 
To support that, we are making the National Offshore 
Aquaculture Act of 2005 a priority of the Department and this 
country. We need to create this opportunity now. As the 
Secretary states, we believe there is a compelling case for the 
development of the domestic marine aquaculture industry in the 
United States to meet the growing demand for seafood. Seafood 
is a very healthy food, and nutritionists are encouraging 
Americans to increase their consumption of seafood. We already 
import over 70 percent of our seafood, and half of these 
imports are products of aquaculture. With an annual seafood 
trade deficit on the order of $8 billion dollars, the United 
States clearly could benefit from increasing its domestic 
aquaculture production. Aquaculture operations in Federal 
waters can increase domestic seafood supply, provide jobs for 
economically-depressed coastal communities, reduce our Nation's 
growing dependence on seafood imports, and increase regional 
food supply and security. However, at the same time, these 
operations must be carefully sited, regulated, and monitored. 
S. 1195 maps out a strong framework for safe, sustainable 
marine aquaculture operations in the U.S. One of the driving 
forces behind this bill is the need for regulatory certainty, 
which is vital for potential investors in offshore operations. 
Business needs regulatory certainty in order to make sound 
investment and financing decisions. Those concerned about the 
impacts of offshore aquaculture need to recognize that the 
industry will be held to strict environmental standards. 
Enactment of S. 1195 would provide the Department of Commerce 
authority to directly regulate aquaculture in Federal waters 
and to establish a coordinated process among the Federal 
agencies that have responsibilities over certain aspects of 
offshore aquaculture operations under other statutes. We 
envision a one-stop permitting system coordinated by NOAA and 
integrated with NOAA's environmental stewardship 
responsibilities. Action on S. 1195 will allow us to begin a 
public rulemaking process to produce a comprehensive 
environmentally-sound permitting and regulatory program for 
aquaculture in Federal waters, as we indicated we would do as 
part of the President's U.S. Ocean Action Plan. Since last 
June, we have heard from many stakeholders who are eager to 
discuss the pros and cons of the bill. I have included an 
attachment to my written testimony that will clarify specific 
questions that have been posed by the stakeholders during the 
discussions we have had. We are also aware of the additional 
statements which have been submitted by other groups for this 
hearing. I would like to use the rest of my time to focus on 
what this bill means for our coastal communities and especially 
for the fishing industry. First, aquaculture is an important 
opportunity for coastal communities. More and more communities 
are recognizing that aquaculture presents a sustainable 
alternative for areas hard hit by job loss, natural disasters, 
or other challenges. As interest grows, these communities are 
beginning to take the initiative to integrate aquaculture into 
their economy. For example, in New Hampshire, the Isle of 
Shoals blue mussels, and in Brownsville, Texas, red drum and 
shrimp. And now, they're looking at scallops and offshore 
aquaculture. Second, offshore aquaculture properly managed, 
will complement our Nation's commercial fisheries--I said 
complement our Nation's commercial fisheries. Some critics of 
S. 1195 expressed concern that offshore aquaculture will hurt 
wild harvest in the United States. Properly managed 
aquaculture, we do not believe will affect annual harvests from 
our Nation's wild harvest. We recognize that aquaculture, 
whether imported or domestic, does in fact compete with wild 
fisheries products in the marketplace. That competition will 
not go away in the absence of domestic aquaculture. We live in 
a global market. The challenge is to integrate aquaculture into 
domestic seafood production so that our fishermen, processors, 
and marketing companies can benefit directly from aquaculture. 
Recreational and commercial fishing will also benefit from 
hatcheries and stock enhancement techniques developed for 
offshore aquaculture. Currently, U.S. hatcheries are used to 
grow finfish and shellfish for stock enhancement to support 
recreational and commercial fisheries--red drum enhancement in 
the Gulf based at the Gulf Coast Research Lab, and the white 
seabass enhancement program in California. In summary, the 
United States needs a strong commercial fishing industry and a 
robust aquaculture industry. Demand for seafood products in 
this country is growing, and we do not have the ability to meet 
domestic demand through wild-caught fishing alone. We estimate 
that one million tons of domestic aquaculture production from 
all forms of aquaculture will create 25,000 direct and 50,000 
indirect jobs in the United States. This bill is the first step 
in a process to establish a regulatory structure. We want to 
work with the Committee to develop language to address the opt-
out and environmental standards and amendments. Mr. Chairman 
and Members of this Subcommittee, the Department is looking 
forward to working with you, the public, the fishing and 
aquaculture industries, and the environmental community to 
craft a regulatory framework for offshore aquaculture. The 
United States must take the initiative to become self-
sufficient in the production of healthy seafood, provide jobs, 
and reduce the seafood trade deficit. We must develop 
aquaculture as a tool to complement commercial fishing because 
we will need both to produce from wild and aquaculture to meet 
our growing demand for healthy seafood. Thank you.
    [The prepared statement of Dr. Hogarth follows:]

 Prepared Statement of Dr. William T. Hogarth, Assistant Administrator 
for Fisheries, National Marine Fisheries Service, National Oceanic and 
                    Atmospheric Administration (DOC)

    Chairman Sununu, and members of the Subcommittee, good morning and 
thank you for inviting me here today to testify on behalf of the 
Administration. I would also like to thank Senator Stevens and Senator 
Inouye for introducing S. 1195, the National Offshore Aquaculture Act 
of 2005. I am William Hogarth, Assistant Administrator of the National 
Marine Fisheries Service, National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce.
    Secretary of Commerce Carlos Gutierrez was interested in testifying 
today and regrets that he could not be here this morning. He expresses 
his full support for the bill and asked that I share this statement 
with the Subcommittee.

        ``I am convinced that the United States must explore the 
        potential of offshore aquaculture to help meet the growing 
        demand for seafood in this country and to create jobs and 
        economic opportunity for coastal communities. To support that, 
        we are making the National Offshore Aquaculture Act of 2005 a 
        priority for this department and this country. We need to 
        create this opportunity now.''

    We believe that there is a compelling case for the development of 
the domestic marine aquaculture industry in the United States to meet 
the growing demand for seafood. Nutritionists are encouraging Americans 
to increase our consumption of seafood. We already import over 70 
percent of our seafood and half of those imports are products of 
aquaculture. The United States could benefit from increasing its 
domestic aquaculture production, which includes the propagation and 
rearing of aquatic organisms in controlled or selected environments for 
any commercial, recreational, or public purpose.
    We want to work with you and our stakeholders to create an 
opportunity for aquaculture in Federal waters so that we can ensure 
that the industry develops in a predictable, environmentally-
compatible, and sustainable manner, in cooperation with our wild 
harvest. We also want to ensure that the protection of the marine 
environment, the rights of other users of marine resources, and human 
health and safety are a top priority. At NOAA, we have already taken 
steps to prepare for our role as the regulator for offshore 
aquaculture.
    My testimony today will address the opportunities and challenges 
posed by offshore aquaculture. I am also including an attachment that 
will clarify specific questions commonly posed by stakeholders with 
regard to S. 1195, NOAA's Aquaculture Program, and broader issues 
related to aquaculture.

The National Offshore Aquaculture Act Is a Starting Point
    Offshore aquaculture requires careful consideration on many levels, 
and S. 1195 maps out a strong framework for safe, sustainable marine 
aquaculture operations in Federal waters. Regulatory uncertainty is 
widely acknowledged as the major barrier to the development of offshore 
aquaculture in the United States. The bill will provide regulatory 
certainty, which is important to the offshore aquaculture industry as 
well as to those who are concerned about the potential impacts of 
offshore aquaculture. Business needs regulatory certainty in order to 
make sound investment decisions and obtain financing. Those concerned 
about the impacts of offshore aquaculture need to know that the 
industry will be held to strict environmental standards.
    Enactment of S. 1195 provides the Department of Commerce the 
authority to directly regulate aquaculture in Federal waters, and to 
establish a coordinated process among the Federal agencies. We envision 
a one-stop regulatory shop, coordinated by NOAA, and integrated into 
NOAA's environmental stewardship responsibilities. Action on the 
Administration's bill will allow us to begin a public rulemaking 
process to produce a comprehensive, environmentally-sound permitting 
and regulatory program for aquaculture in Federal waters, as we 
indicated we would do as part of the U.S. Ocean Action Plan.
    At the same time, NOAA views S. 1195 as a starting point. Since 
last June, there have been a number of suggestions from a variety of 
stakeholders to improve the bill. One example is environmental 
standards. NOAA acknowledges the concerns expressed by stakeholders and 
would like to work with Congress to take a closer look at their 
suggestions.

Aquaculture Is an Important Opportunity for Coastal Communities
    More and more communities are recognizing that aquaculture presents 
a sustainable alternative for areas hit hard by job loss, natural 
disasters, or other challenges. As interest grows, these communities 
are beginning to take the initiative to integrate aquaculture into 
their economy. For instance, in Brownsville, Texas, a diverse set of 
interests, including local fishermen, seafood processors, distributors, 
entrepreneurs, university representatives, and others met recently to 
discuss opportunities for aquaculture operations in their city. Like 
other maritime communities, Brownsville has boats, fishermen, 
processing plants, hatcheries, distribution centers, and a whole 
seafood infrastructure that could be put to work year round with a 
steady, reliable source of product from aquaculture.
    Aquaculture, like agriculture, requires inputs of goods and 
services from many sources, while its outputs are processed into value-
added offerings. Beneficiaries include owners and employees of 
aquaculture businesses, equipment suppliers, boat owners and operators, 
feed ingredient suppliers such as soybean farmers and fishermen who 
supply fishmeal, feed manufacturers, seafood processors, and 
transportation and distribution companies. Other opportunities include 
sales, marketing, and accounting services. In turn, these activities 
benefit the coastal communities in which these businesses operate, as 
well as the increasing portion of the general public who eat seafood 
and benefit from its health attributes.
    Overall, NOAA estimates that one million tons of domestic 
aquaculture production--from all forms of aquaculture, including 
freshwater and marine--will create 25,000 direct and 50,000 indirect 
jobs in the United States. Aquaculture in Federal waters could make a 
significant contribution to this level of job creation.
Offshore Aquaculture and Commercial Fisheries
    While we are certain that there could be direct economic benefits 
from our bill, we must consider its potential impacts, including the 
impact on our Nation's commercial fisheries. Some have expressed 
concern that offshore aquaculture will hurt wild harvest in the United 
States. If aquaculture is managed correctly, we do not believe wild 
harvest will be impacted.
    Aquaculture, whether imported or domestic, competes with wild 
caught fisheries. We acknowledge that concern, but that competition 
will not go away in the absence of domestic aquaculture. We live in a 
global market. Demand for seafood products in this country is growing 
and we simply do not have the ability to meet that demand through wild-
caught fishing activities alone. Significant competition is already 
coming from imports and from other forms of protein such as beef and 
chicken. Over 70 percent of the seafood Americans' consume annually is 
imported. Half of those imports come from foreign aquaculture 
operations. The challenge is to integrate aquaculture into domestic 
seafood production so that our boat owners, fishermen, processors, and 
marketing companies can benefit directly from aquaculture.
    In some cases, U.S. fishermen have already integrated with or 
linked to aquaculture. Examples include:

  <bullet> Fishermen in New England who are interested in adding 
        aquaculture as part of their business and researchers at the 
        University of New Hampshire are working in tandem to design 
        equipment, site operations, share knowledge, and service and 
        operate cod and mussel farms in open ocean locations.

  <bullet> Fishermen in Florida and New England, displaced by closures 
        of wild fisheries or declining catches, have turned to 
        shellfish aquaculture.

  <bullet> States along the Gulf of Mexico are looking to aquaculture 
        to help rebuild seafood infrastructure and retain seafood jobs. 
        Fishing communities damaged by the hurricanes are seeking to 
        rebuild docks, processing, and distribution facilities. 
        Aquaculture could provide additional fish and shellfish to 
        local processing plants, and fishermen may be able to use 
        existing vessels to support aquaculture operations.

    Recreational and commercial fishing will also benefit from 
hatcheries and stock enhancement techniques developed for offshore 
aquaculture. Currently, U.S. hatcheries are used to grow finfish and 
shellfish for stock enhancement for recreational and commercial fishing 
with great success. For example, recreational fishermen in Southern 
California work closely with the Hubbs-SeaWorld Research Institute on a 
white seabass restocking program. It is an excellent program and one 
that helped rebuild and sustain the valuable recreational fishery for 
seabass in California.
    The United States needs a strong commercial fishing industry and a 
robust aquaculture industry in order to meet projected seafood demand 
and supply the Nation's stock enhancement needs. While we look for 
aquaculture to help meet demand, NOAA will continue to assist wild 
capture fisheries with management programs, stock enhancement, and 
marketing to channel wild capture products to high-valued premium 
markets outlets--such as the shrimp and salmon marketing programs. But 
we also need to supply that vast middle market that demands a year-
round supply of affordable, healthy, safe seafood--and we can do that 
through domestic aquaculture.

Aquaculture Research and Technology Development Provide Economic 
        Benefits
    As the world moves toward aquaculture in offshore waters, another 
key factor is technological innovation--an area where the United States 
is a world leader. As a concept, offshore aquaculture has been around 
for years. However, the technological advances and other research 
applications that now make offshore aquaculture possible have only come 
online within the last 10 years. For example, equipment innovations for 
the offshore include submersible cages and remote-controlled feeding 
apparatuses--all designed to withstand the challenges of the ocean 
environment.
    To date, with leadership and foresight provided by NOAA through the 
National Marine Aquaculture Initiative, the United States has invested 
just over $10 million in offshore aquaculture research, and the 
technology is now being used in commercial applications. Examples 
include:

  <bullet> Two finfish operations in Hawaii and one in Puerto Rico 
        using submersible cages designed and produced in the United 
        States have become commercially viable. The owner/operators of 
        these facilities include a local commercial fisherman, a family 
        company in the seafood business, and U.S. investors.

  <bullet> Two commercial mussel farms owned and operated by fishermen 
        have started production off New Hampshire.

  <bullet> Additional projects are in design in the Gulf of Mexico, the 
        Virgin Islands, and California. All involve some combination of 
        U.S. investors, coastal fishermen, university scientists, and 
        local processing, hatchery, feed, and equipment supply 
        companies.

    U.S. research and technology development will continue to provide 
key contributions to aquaculture development made possible by S. 1195.

S. 1195 Will Provide for the Sustainable Development of Offshore 
        Aquaculture
    The National Offshore Aquaculture Act will enable offshore 
aquaculture, provide safeguards for the marine environment, and balance 
multiple uses of the oceans and coasts by providing for the 
establishment of siting, operating, and environmental criteria; the 
monitoring of environmental impacts; and the enforcement of regulations 
and permit conditions.
    The bill will:

  <bullet> Authorize the Secretary of Commerce to issue offshore 
        aquaculture permits and to establish environmental requirements 
        where existing requirements under current law are inadequate;

  <bullet> Stipulate that aquaculture products will not be subject to 
        fishing regulations that restrict size, season, and harvest 
        methods;

  <bullet> Require the Secretary of Commerce to work with other Federal 
        agencies to develop and implement a coordinated permitting 
        process for aquaculture in Federal waters. This includes the 
        authority to set additional environmental requirements to 
        ensure that such development proceeds in an environmentally-
        responsible manner that is consistent with stated policy to 
        protect wild stocks and the quality of marine ecosystems and is 
        compatible with other uses;

  <bullet> Authorize the establishment of a research and development 
        program in support of offshore aquaculture; and

  <bullet> Provide for enforcement of the Act.

    The bill will not supersede existing laws such as those concerning 
navigation, offshore structures, management of fisheries, environmental 
quality, protected resources, and coastal zone management.
    If the legislation is enacted, NOAA estimates that development of 
detailed implementing regulations should take two to 3 years, including 
the development and publication of draft rules, a review period, and 
publication of final rules. Environmental standards and other permit 
requirements will be designed with public input, and the process will 
allow for public review and comment through Federal Register notices as 
well as meetings with states, fishery management councils, and other 
forums. We already have good models of regulations from coastal states 
and other industrialized countries as well as industry best management 
practices.
    Other Federal activities, led by NOAA and supported by other 
Federal agencies, that will support implementation of the bill--and 
ensure rational and sustainable development of aquaculture--will 
include:

  <bullet> Mapping and data gathering to identify areas best suited for 
        offshore aquaculture;

  <bullet> Additional economic and social analysis of regulatory 
        options, species, and production methods;

  <bullet> Continued research on environmental issues and best 
        management practices; and

  <bullet> Pilot and demonstration projects with public and private 
        sector partners and coastal communities.

    This bill is a first step in what will be a careful and inclusive 
process to establish a regulatory structure for offshore aquaculture. 
This will be done step-by-step. NOAA believes that carefully sited, 
regulated, and monitored finfish and shellfish operations in U.S. 
Federal waters can be an effective way to reduce our Nation's growing 
dependence on seafood imports, provide jobs for economically-depressed 
coastal communities, and increase regional food supply and security. We 
also believe that this is an opportunity for the United States to lead 
by example and encourage aquaculture operators in other countries to 
adopt best management practices developed here.
NOAA Prepares for Offshore Aquaculture in the United States
    NOAA has been working on this issue for the last 10 years, 
preparing for it on many fronts. Specific steps the agency is currently 
taking to prepare include:

  <bullet> Designing environmental risk management guidelines for 
        aquaculture, as highlighted in a recently published NOAA 
        technical memo;

  <bullet> Developing an economic analysis of offshore aquaculture for 
        delivery later this year;

  <bullet> Outlining environmental impact statement (EIS) and 
        regulatory design steps to be taken if legislation is passed;

  <bullet> Conducting ongoing consultations with communities and 
        businesses; and

  <bullet> Examining aquaculture's role in ecosystem management with an 
        international group of experts.

Conclusion
    Mr. Chairman and members of this Subcommittee, the Department is 
looking forward to working with you, the public, the fishing and 
aquaculture industries, and the environmental community to craft a 
regulatory framework for offshore aquaculture. A strong, comprehensive 
framework will offer the regulatory certainty industry needs while 
safeguarding the marine environment, and creating economic 
opportunities for those Americans who depend on an abundance of marine 
resources for their livelihood. The United States must take the 
initiative to become more self sufficient in the production of healthy 
seafood, provide jobs for coastal communities, and reduce the seafood 
trade deficit. We must develop aquaculture as a tool to complement 
commercial fishing because we will need both to produce seafood to meet 
the growing demand.
    I appreciate the opportunity to present the National Offshore 
Aquaculture Act of 2005 to you today, and I would be happy to answer 
any questions.

                               Attachment

    The information in this attachment is intended to clarify specific 
issues or questions posed by stakeholders with regard to S. 1195, as 
well as broader issues related to aquaculture.
    Definition of Aquaculture--NOAA's definition of aquaculture is, 
``The propagation and rearing of aquatic organisms in controlled or 
selected environments for any commercial, recreational or public 
purpose.'' This definition was established in the 1998 NOAA Aquaculture 
Policy.
    Role of Coastal States--S. 1195 requires coordination with states 
during the regulatory design process and establishment of environmental 
and other requirements that would follow enactment of a bill, and also 
as part of the review of each individual permit application. S. 1195 
specifically includes a provision on the need to consult with state 
agencies as part of the coordinated and streamlined permit process for 
offshore aquaculture, so states will have a say in decisions on 
offshore aquaculture permits as well. S. 1195 does not supersede any 
other laws, such as the Coastal Zone Management Act, that include a 
role for states with respect to activities in Federal offshore waters. 
In addition, the offshore aquaculture facilities will require support 
facilities on land and the landing of seafood product on land--both of 
which will be subject to state and local approvals.
    Role of Fishery Management Councils--NOAA has an ongoing working 
relationship with the Regional Fishery Management Councils, established 
under the Magnuson-Stevens Fishery Conservation and Management Act. S. 
1195 requires NOAA to consult with these Councils in developing and 
implementing the regulatory regime for offshore aquaculture 
development. Since the Administration's bill was introduced, NOAA has 
briefed the councils on the legislation, and begun to engage them in 
our planning for how the bill would be implemented. NOAA would consult 
with the Councils in the regulatory design process, in the 
establishment of environmental and other requirements--especially as 
they relate to interactions with wild stocks managed by the Councils--
and in the review of individual permit applications.
    Environmental Standards--The question of environmental standards 
for offshore aquaculture is an important one and the establishment of 
rigorous environmental standards for offshore aquaculture is central to 
the National Offshore Aquaculture Act. S. 1195 provides the necessary 
authority to require, through regulations or permit conditions, 
appropriate measures to avoid, minimize, or mitigate unacceptable 
impacts. The bill also provides authority to take emergency actions to 
address unanticipated impacts in a timely manner. S. 1195 does not 
override or preempt existing laws to protect the marine environment, 
wild stocks, endangered species, marine mammals, and habitat.
    Space Requirements and Siting--We believe that space requirements 
and siting issues for offshore aquaculture operations can be addressed 
by careful mapping of existing uses of the open ocean and in 
consultation with coastal communities and users of ocean space. The 
U.S. Exclusive Economic Zone (EEZ) is the largest in the world. It 
spans over 13,000 miles of and contains 3.4 million square nautical 
miles of ocean. It is larger than the combined land area of all 50 
states. Based on our pilot and demonstration projects, the total 
spatial demands for the different components of an offshore operation 
are relatively small compared to the EEZ. According to estimates from 
experts at NOAA, it would require less than 1 percent of the area 
currently set aside for the National Marine Sanctuaries to produce 
about one million tons of seafood in the United States. To get a sense 
of spatial requirements, it is estimated that 100 farms producing 1,000 
tons of seafood each would, in total, occupy an area about the size of 
the Pentagon complex [1 square mile]. Another example of the projected 
spatial impact of offshore aquaculture is the area needed to produce 
80,000 metric tons of mussels. According to NOAA experts, that level of 
production would require an area less than 10 square miles, or less 
than the size of the Kennedy Space Center at Cape Canaveral.
    Fish Meal--In the wild, fish such as salmon will consume roughly 10 
pounds of fish to gain one pound of body weight. Cultured marine 
finfish also consume wild fish--albeit as an ingredient in formulated 
feed made from fishmeal and oil, and vegetable-based fats, proteins, 
and carbohydrates. As a result, cultured fish consume only about three 
pounds of processed, wild fish for every pound they gain. Because feed 
is a major component of an aquaculture operation's cost of production, 
there are strong economic incentives for the aquaculture industry to 
substitute less costly ingredients for fish meal and fish oil in feed 
formulas, and to become more efficient in converting feed into product. 
Research into plant-based alternatives to fish meal, such as soybeans, 
is expanding. However, research on plant-based alternatives in fish 
meal has found that maintaining some fish oil or suitable alternatives 
in fish feed is important in order to maintain the health benefits of 
marine fish, including the Omega-3 fatty acids. In addition to 
industry, NOAA and other Federal agencies are working on research to 
develop protein substitutes to reduce reliance on fish meal and oils, 
such as marine algae. These agencies will continue to work with grain 
and feed companies and feed researchers to find suitable alternatives.
    The source for most of the world's fish meal in feed is the anchovy 
fishery off the coast of South America. U.S. fishermen also land 
sardines and menhaden used in fish meal. The annual capture of these 
fish has remained stable since the 1960s, despite the steady rise in 
aquaculture and the continued consumption of fish meal in the pork, 
poultry and pet food industries. However, wild caught fishmeal sources 
are not likely to continue to be able to satisfy the demand for fish 
meal from aquaculture and terrestrial agriculture.
    Escapes--The issue of escapes is being addressed with technological 
innovation, best management practices, and careful species selection. 
For example, the use of submersible cages for offshore aquaculture 
reduces the vulnerability to storm damage that can lead to escapes. In 
addition, the knowledge NOAA and other agencies have gained from stock 
enhancement programs for commercial and recreational fishing--
deliberate releases of finfish, oysters, and crabs--allows managers to 
design safeguards for conserving wild stock.
    Aquatic Animal Health--Disease transmission is becoming less of a 
concern for aquaculture, since the marine aquaculture industry has 
replaced antibiotics with vaccinations administered before fish are 
stocked into cages. NOAA, working with the U.S. Department of 
Agriculture and other Federal agencies, is also at the forefront in 
developing a National Aquatic Animal Health Plan which will provide for 
safe national and international commerce of aquatic animals and the 
protection of cultured and wild aquatic animals from foreign pests and 
diseases.

    Senator Sununu. Thank you very much, Dr. Hogarth. We are 
joined by my Co-Chairman on this Subcommittee, Senator Boxer, 
and Senator Stevens and Senator Inouye as well, and I would 
like to turn to them now before proceeding with Dr. Langan for 
their opening statements. So, we'll begin with Senator Stevens.
    Senator Stevens. Well, I'm just happy to be here with Mark 
Vinsel.
    Senator Sununu. Thank you. Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much. Mr. Chairman, it's great 
to join you again. We did some good work last year with the 
help of our Co-Chairs. We legislated on ballast water invasive 
species prevention and coral reef protection, and I'm hoping we 
can make some headway on this issue. I'd ask unanimous consent 
that my full statement be placed in the record, if I might----
    Senator Sununu. Without objection.
    Senator Boxer.--but I would like to share with the 
Subcommittee and the witnesses some of my thoughts here because 
perhaps they can answer some of my questions. Last June, I 
introduced the National Oceans Protection Act, which is a 
comprehensive bill based on the recommendations of the United 
States Commission on Ocean Policy. And today, we address one of 
those very important matters covered in the bill--offshore 
aquaculture. And I think it's important because I think it 
raises a number of concerns as well as some wonderful 
possibilities. Let me begin by saying I am not opposed to 
offshore aquaculture, but it has to be clear that when you 
raise these fish in crowded cages on the open seas, there are a 
number of health, safety, economic, and regulatory concerns 
that I think are raised. And I think we need to make sure that 
strong safeguards are in place before we proceed with any 
offshore aquaculture permitting. In other words, let's try to 
do this wisely so that we are not facing issues later that come 
back to haunt us or trouble us. Let me quickly state those 
concerns. Offshore fish farms can create clouds of ammonia, 
phosphorus, and other wastes, and they could contribute to 
problems such as poor water quality that not only harm the 
farmed fish, but also the marine ecosystem. Escaped farmed fish 
can adversely harm wild fish. They can threaten the genetic 
stock of wild fish and introduce diseases and parasites. 
Escaped farmed fish will also compete with wild fish for food 
and habitat. The biggest concerns I have about offshore 
aquaculture deal with potential threats to human health from 
large-scale farmed fish operations. In 2004, a study published 
in Science found that farm-raised salmon contain higher levels 
of chemical pollutants than wild fish, including PCBs, which 
are known carcinogens. And I just wanted to say to my 
colleagues, when you go to a restaurant in my state, in 
California, the patrons just always ask are you serving wild 
fish, or is it farmed fish. And I will tell you, many people 
will not eat the farmed fish because of these concerns. 
Increased PCBs are due to the fishmeal that's often used to 
sustain mass-scale aquaculture. In May 2005, a study found that 
chemical levels in farm-raised salmon were so high that in 
order to lower the cancer risk to the middle of the EPA's 
acceptable range, people should effectively stop eating them. 
Another major health concern is the excessive use of 
antibiotics to prevent and treat diseases in farmed fish. These 
are very legitimate concerns, and this is why we must move in a 
deliberate, careful way before any regulatory program is 
authorized. I am concerned that if we go into a fast-track mode 
here and we allow this to go forward without the standards in 
place, that it--again, it could be a bad situation. And 
rather--I would rather see us establish uniform and strong 
standards nationwide as called for by the U.S. Ocean 
Commission. And so, I am concerned that the way the 
Administration is moving on this and some of our colleagues, 
the bill would allow for permitting each potential fish farm on 
an ad hoc basis before we have, you know, really taken a look 
at this in a global fashion. My Oceans bill requires a full 
regulatory process be in place to address the concerns I have 
discussed before any aquaculture is permitted. In closing, I 
think there are still many open questions. I hope that the 
witnesses today will answer some of my concerns. I am really 
looking forward to that so we can learn more about how we can 
address some of these problems and make sure that they don't 
occur. So, I do look forward to the testimony, and I thank you, 
Mr. Chairman, for your leadership on this.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California

    Mr. Chairman, it is great to join you again--Last year, this 
subcommittee held hearings on two very important oceans issues: ballast 
water invasive species prevention and coral reef protection.
    This year, the Subcommittee has a tremendous opportunity to hold 
hearings on very important matters of ocean policy.
    Last June, I introduced the National Oceans Protection Act--a 
comprehensive bill based on the recommendations of the U.S. Commission 
on Ocean Policy.
    Today, we address one of those very important matters covered by my 
bill--offshore aquaculture--and it is important because I believe there 
are a number of concerns that we need to carefully consider.
    Let me begin by saying that I am not opposed to offshore 
aquaculture--however, it should be clear to everyone here that raising 
carnivorous fish in crowded cages on the open seas raises a number of 
health, safety, economic, and regulatory concerns--because of these 
concerns, I think we need to make sure that strong safeguards are in 
place before we proceed with any offshore aquaculture permitting.
    I would like to take a few minutes and discuss some of those 
concerns now.
    Offshore fish farms can create clouds of ammonia, phosphorus and 
other wastes--wastes that can contribute to problems such as algal 
blooms and poor water quality, harming not only the farmed fish, but 
also the marine ecosystem.
    Escaped farmed fish can adversely harm wild fish too--they can 
threaten the genetic stock of wild fish and introduce diseases and 
parasites. Escaped farmed fish will also compete with wild fish for 
food and habitat.
    The biggest concerns I have about offshore aquaculture deal with 
potential threats to human health from large-scale farmed fish 
operations.
    In 2004, a study published in Science found that farm-raised salmon 
contain higher levels of chemical pollutants than wild fish, including 
PCBs, which are known carcinogens--the increased PCBs are due to the 
fish meal that is often used to sustain mass-scale aquaculture.
    Another major health concern is the excessive use of antibiotics to 
prevent and treat diseases in farmed fish. Such use of antibiotics 
could strengthen bacterial resistance to antibiotics in fish, and, 
potentially, increase drug resistance in humans.
    These are very legitimate concerns and this is why we must move in 
a deliberate, careful way before any regulatory program is authorized.
    Unfortunately, the Administration's proposal jumps full sail into 
fast-track permitting for large commercial fish farms, with few 
criteria for protecting the environment, consumers, or fishing 
businesses and communities.
    Rather than establishing uniform--and strong--standards nationwide, 
as called for by the U.S. Ocean Commission, the bill instead allows for 
permitting each potential fish farm on an ad hoc basis.
    This is not the kind of policy we should be promoting, especially 
when there are so many potential environmental and health concerns 
associated with large-scale aquaculture.
    My Oceans bill requires that a full regulatory process be in place 
to address the concerns I have discussed, before any aquaculture is 
permitted in offshore waters.
    It also sets up a governance structure for offshore uses, requiring 
that environmental concerns be addressed before any potential offshore 
use is officially sited, and it prohibits siting in special protected 
areas, such as National Marine Sanctuaries.
    Clearly, there are still many open questions and it is my hope that 
over the course of this hearing and the coming months, we can learn 
more about how we can address some of the problems that aquaculture has 
had in the past.
    I look forward to hearing the testimony of the witnesses and to 
working with my Chairman and my colleagues on this important issue.

    Senator Sununu. Thank you, Senator Boxer. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I thank you for scheduling 
this hearing. Obviously, the State of Hawaii is very much 
concerned about aquaculture in its surrounding waters. We are 
constantly alert to invasive species and alien species and the 
impact it would have upon the wild stocks, but I am also aware 
that one-fourth of all the fish consumed in this world are the 
results of aquaculture. It is big business. It is necessary to 
feed our population. And so, I will be listening to the remarks 
and testimony very carefully, Mr. Chairman. Thank you very 
much.
    Senator Sununu. Thank you, Senator. Dr. Langan, welcome.

           STATEMENT OF DR. RICHARD LANGAN, DIRECTOR,

             UNIVERSITY OF NEW HAMPSHIRE OPEN OCEAN

                      AQUACULTURE PROJECT

    Dr. Langan. Mr. Chairman, members of the Subcommittee, 
thank you very much for giving me the opportunity to share my 
thoughts with you about this topic. I think this is a very 
important topic for the U.S. economy and also for the health of 
the American people. My testimony today reflects my involvement 
in offshore aquaculture research in New England. However, it's 
also influenced by my past experience as a commercial 
fisherman, an oyster farmer, and a seafood business owner. 
Twenty-five years ago, I was working on a dragger, fishing for 
cod, haddock, and flounder in the Gulf of Maine. One night when 
I was at the wheel, I looked out the pilothouse window, and I 
saw the lights from what must have been 50 other boats, all 
doing the same thing we were--catching as many fish as we could 
as fast as we could. It was a life-changing moment for me. I 
knew that at that level of exploitation, commercial fishing 
would never last and that there had to be an alternative to 
hunting down the last fish in the sea. From what we heard from 
Dr. Hogarth's testimony plus some of the other comments from 
the panel, it's clear that if we expect to eat seafood, we must 
agree that aquaculture is here to stay. It's a question of 
whether the United States wants to be a producer, that we are 
addressing today. We have done a pretty good job of being 
consumers of aquaculture products. Now, it's time to decide 
whether we want to be producers. At UNH, I am part of a team of 
scientists, fishermen, and aquaculturists, exploring the 
technical feasibility, the environmental soundness, and 
economic viability of farming fish and shellfish in offshore 
environments. Our laboratory is a 30-acre field site, six miles 
off the coast of New Hampshire where we are putting these 
questions through the most rigorous of tests in a very 
difficult open ocean environment. The findings from our 
research indicate to us that we can build systems that can 
withstand the worst the north Atlantic has to offer. Native 
fish species, halibut, cod, and haddock do very well in these 
environments, and look very promising for commercial 
production. The offshore mussel culture technology that was 
developed through our project is a clean, sustainable practice, 
and it's a tremendous economic opportunity for local and 
regional fishermen. Our findings are consistent with the 
results of some of the commercial operations going on in 
Hawaii, in Puerto Rico, and abroad. However, we do recognize 
that for this industry to get to the scale where it's going to 
really solve our seafood trade deficit problems, there are a 
number of challenges that remain to be addressed. Where are the 
feed ingredients going to come from? There is a limited supply 
of fish meal and fish oil. We need to develop integrated 
farming systems that consider all aspects of culture, including 
operations such as harvesting, feeding, and issues like worker 
safety and environmental effects. We need to develop hatchery 
capacity to produce the juveniles and to develop new species. A 
number of other challenges exist, however, I don't have time 
today to mention all of them. These challenges underscore the 
need for a strategic and comprehensive research and development 
program, that includes basic and applied research, and 
demonstration of technologies and environmentally sound 
operational methods. This is a model that has served the 
agriculture industries very well, and a model that I believe is 
appropriate for offshore aquaculture. The Offshore Aquaculture 
Act provides an excellent framework from which to move forward. 
I believe, however, that the Act should be further developed to 
authorize a research and development (R&D) program to support 
and guide this fledgling industry. Independent, scientifically-
verified R&D will make the difference between a successful 
industry and a struggling one, between one that harms the 
environment and one that is engaged in systematic environmental 
protection. It has been nearly a year since the Offshore 
Aquaculture Act was introduced. Since that time I have heard 
offshore aquaculture described as the silver bullet to solve 
all our seafood problems. I have also heard it called an 
environmental disaster waiting to happen. As a scientist and a 
citizen, I don't subscribe to either of those opinions. I 
believe that offshore aquaculture represents a tremendous 
opportunity for the U.S. I think we also need to recognize that 
there are and will continue to be a number of research, 
technology, economic and environmental issues that need to be 
resolved. It is clear the world will not wait for us in this 
matter. Offshore aquaculture is already being developed in the 
Caribbean, Europe, and Asia. And in some instances, this has 
been with the benefit of U.S. research and development. I do 
not believe we should relinquish the fruits of our investments 
to other nations without first exploring the potential for 
offshore aquaculture in this country. Nor do I believe that we 
should rely solely on other nations to develop and regulate an 
offshore aquaculture industry that will impact the 
environmental quality of our oceans and the health of U.S. 
consumers. Thank you.
    [The prepared statement of Dr. Langan follows:]

          Prepared Statement of Dr. Richard Langan, Director, 
       University of New Hampshire Open Ocean Aquaculture Project

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify on the future of offshore aquaculture in the 
United States. My name is Richard Langan, and I am the Director of the 
University of New Hampshire (UNH) Open Ocean Aquaculture Project. I am 
honored to have this opportunity to inform you not only about the work 
of our Project, but also to convey my thoughts on a subject to which I 
have devoted a good part of my life.
    Twenty-five years ago, I was a commercial fisherman in the Gulf of 
Maine. I worked on a dragger, harvesting groundfish like cod, haddock, 
and flounder. We fished round the clock for several days at a time, 
dragging our trawl gear over the seafloor, briefly interrupting our 
``bottom time'' every few hours to bring the catch on deck. One night 
when I was at the wheel, I looked out the pilothouse window and saw the 
lights from what must have been at least 50 boats, all doing the same 
thing as ours--catching as many fish, as fast as they could. It was a 
life-changing moment. It was clear to me that New England's commercial 
fisheries could not sustain that level of exploitation, and that there 
had to be a better way to provide seafood and make a living.
    At that time, what we now think of as aquaculture was only as blip 
on the radar screen of global seafood production. Most of the seafood 
we consumed came from the commercial fishing of wild stocks. That 
situation has changed dramatically. Many of New England's marine fish 
populations crashed in the 1990s, and despite severe restrictions on 
commercial fishing, they have yet to recover. Commercial fishing and 
all of its related industries--seafood processing, restaurants 
hospitality, tourism--have felt the pressure. Fishing fleets are 
underutilized, fishermen are under-employed, and prospects for the 
future are bleak.
    Globally, the catch from wild fisheries essentially has remained 
unchanged since 1984, despite the proliferation of larger, more 
efficient boats fishing every corner of the world's oceans. At the same 
time, demand for seafood has been on the rise. As a result, many 
countries have turned to aquaculture, which now accounts for roughly 40 
percent of global seafood production. Here in the U.S., we consume 
nearly 17 pounds of seafood per person each year, and more than 70 
percent of that is imported. The U.S. trade deficit for seafood now 
exceeds $8 billion a year, second only to oil as a deficit commodity.
    The practice of farming marine fish and shellfish has become part 
of an international approach to seafood production. Today, U.S. 
aquaculture takes place almost exclusively in land-based operations or 
in sheltered, nearshore waters. There is a limit to what these 
approaches can produce, particularly in coastal waters that are already 
crowded by other activities. There is also evidence that some nearshore 
venues may not be environmentally suitable for large-scale finfish 
production.

The Need for Offshore Aquaculture
    There is growing consensus among many scientists, Federal and State 
marine resource managers, and industry representatives that moving 
aquaculture offshore could greatly expand our capacity for seafood 
production and reduce the environmental impacts associated with 
nearshore aquaculture. It seems shortsighted for the U.S.--in need of a 
solution to the problem of growing seafood demand and limited supply--
not to pursue a sustainable approach to offshore aquaculture. Developed 
and regulated responsibly, an offshore aquaculture industry could boost 
the national economy, reduce pressure on commercial fisheries, and 
provide a secure and healthy food source for the American people.
    It has been my privilege to work with a highly talented and 
environmentally-minded team of engineers, fisheries biologists, 
ecologists, and social scientists at UNH on this very issue. More than 
a decade ago, this interdisciplinary team recognized that the U.S. was 
headed for a seafood supply crisis. Understanding the limits of wild 
fisheries as a resource, and the constraints on the expansion of 
nearshore aquaculture, we became one of the first groups in the country 
to develop research programs that explored the feasibility of offshore 
fish farming.
    A few, small-scale pilot projects in the mid 1990s yielded 
encouraging results. This led to the concept of an offshore facility, 
where researchers could work in cooperation with fishermen and industry 
partners to develop, test, and demonstrate offshore mooring and cage 
designs, feeding and communication systems, and cultivate native 
species from wild broodstock.
University of New Hampshire Open Ocean Aquaculture Project
    In 1997, fortunate to have the support of Senator Judd Gregg (R-
NH), the UNH team received funding from NOAA to establish the Open 
Ocean Aquaculture Project. At the Project's inception, our goal was to 
explore the environmental soundness, technological feasibility, and 
economic viability of farming finfish and shellfish in exposed ocean 
environments. To this end, we have combined stringent engineering 
design, progressive fish husbandry with native broodstock, advanced 
communications technology, rigorous environmental assessment, and 
community outreach--all in support of the development of an 
environmentally-sustainable, offshore aquaculture industry in New 
England and nationwide.
    The heart of this Project is a 30-acre field site, six miles off 
the coast in New Hampshire State waters. The site is fully permitted by 
State and Federal agencies, just as any commercial venture would have 
to be. There we raise native finfish species in submersible cages and 
native shellfish on submerged longlines. All of this takes place in 180 
feet of water and is fully exposed to the high-energy environment of 
the Gulf of Maine. This is where the questions about offshore 
aquaculture that the Project was created to answer are put to the most 
rugged of tests. With consistent funding, a dedicated and talented 
team, and a substantial infrastructure, we have made tremendous strides 
toward bringing offshore aquaculture closer to commercial reality.
Lessons Learned
    After 8 years of offshore aquaculture research and development, 
environmental monitoring, and economic assessment, our research team 
has reached some conclusions about the viability of offshore 
aquaculture.

  <bullet> Finfish and shellfish culture systems (farms) can be 
        installed, maintained, and operated in the harshest oceanic 
        conditions.

  <bullet> Farm-raised finfish and shellfish can thrive in these 
        conditions. Halibut, haddock, and cod--all of which we have 
        raised in and harvested from offshore cages--demonstrate 
        excellent commercial potential. With further research to 
        improve growth performance, offshore cod and halibut farming 
        could become commercially viable in the near future.

  <bullet> Remotely-controlled feeding and observation systems, which 
        have been greatly advanced by our Project's engineering team, 
        are essential to the success of offshore aquaculture.

  <bullet> With properly sited farms, appropriate system design, and 
        sound management and husbandry practices, the environmental 
        impacts of offshore finfish culture would be negligible. After 
        6 years of farming fish and shellfish at our research site, we 
        did not detect any changes to the water quality, sediment 
        conditions, or biological communities in the vicinity of our 
        field site.

  <bullet> The offshore mussel culture technology developed by our 
        Project is a clean, sustainable practice and an economic 
        opportunity for fishermen. The first commercial enterprise 
        using this technology (with assistance from our Project) is a 
        small-scale farm licensed to a N.H. fisherman. This farm is 
        projected to generate $250,000 annually, and we estimate that a 
        modest expansion of this technology in N.H. waters could yield 
        local fishermen $2 million per year. The area from Cape Ann, 
        Massachusetts, to Cape Elizabeth, Maine, could yield as much 
        $40 million per year.

  <bullet> Based on conservative estimates of the production value per 
        unit area, applying a very small percentage of the U.S. 
        Exclusive Economic Zone (EEZ) toward aquaculture production 
        would go a long way in closing the gap between domestic seafood 
        supply and demand.

Challenges Ahead
    Our research indicates that there is tremendous potential for a 
commercially viable and environmentally sound offshore aquaculture 
industry in the U.S. This optimism is supported by the success of 
commercial operations in Hawaii, Puerto Rico, and abroad. However, we 
also recognize that for this industry to succeed at a scale that will 
meet current and future demand, significant technical and operational 
challenges must be addressed. These include the following.

  <bullet> Improve efficiency and safety of operations: Working on the 
        open ocean is challenging and costly. Offshore farming systems, 
        the vessels that attend them, and related equipment all must be 
        designed with efficiency and worker safety in mind. Currently, 
        routine operations, such as cage maintenance and harvesting, 
        require SCUBA diver support. This is expensive and dangerous, 
        even in the best of circumstances. Alternative approaches for 
        routine operations and a greater level of automation and 
        mechanization must be developed and implemented in the U.S.

  <bullet> Minimize fish escapes: The unintentional release of farmed 
        fish is an economic risk for the farmer and--depending on the 
        genetic makeup of the cultured species--a potential risk to 
        wild fish. The U.S. must continue to develop and refine secure, 
        predator-proof containment systems and management practices 
        that minimize the possibility of fish escape.

  <bullet> Mitigate potential resource and user conflicts: Properly 
        locating an offshore aquaculture farm is the critical first 
        step in insuring its economic success, protecting natural 
        resources, and preventing conflict with other activities. The 
        U.S. must develop and apply a systematic, ecosystems-based 
        approach to identifying optimal aquaculture sites in the EEZ. 
        This approach should employ geospatial technology, ocean 
        observing data, and physical and biological modeling and 
        simulation. This should be coupled with environmental 
        guidelines that minimize potential impact on the ecosystems 
        surrounding these farms.

  <bullet> Develop hatchery production capacity: Where will the 
        juvenile fish that stock offshore farms come from? The answer 
        to this question is a classic ``chicken and egg'' scenario. The 
        U.S. currently lacks hatchery capacity to supply even a modest 
        expansion of offshore farms. At the same time, existing marine 
        finfish hatcheries struggle from lack of customers for their 
        fish. A strategy to maintain and enhance hatchery capacity is 
        vital to offshore aquaculture's commercial development.

  <bullet> Secure sustainable feed sources: Aquaculture relies on a 
        steady supply of raw material to formulate fish feed. Marine 
        fish, in particular, require diets high in protein and lipid 
        content. Currently, these nutritional requirements primarily 
        come from fishmeal and fish oil. Aquaculture accounts for only 
        30 percent of the fishmeal consumed; the rest is fed to poultry 
        and swine. However it is attributed, fishmeal is a finite 
        resource. The U.S. must identify alternative and renewable 
        sources of nutritionally-appropriate proteins and lipids in 
        support of a large-scale expansion of marine fish culture.

  <bullet> Improve production efficiency: Successful and profitable 
        offshore aquaculture can only be achieved in conditions that 
        are optimal for the fish. Just as with humans, lower stress 
        equals better health. To develop cages, feeds, and feeding 
        schedules conducive to healthy fish, the U.S. needs a more 
        nuanced understanding of the physiological and behavioral 
        responses of fish to their environment.

  <bullet> Identify alternative energy sources: Everyone is feeling the 
        pressure of rising fuel prices, and potential offshore fish 
        farmers are not an exception. The cost of powering offshore 
        farms will have a tremendous impact on the industry's economic 
        viability. This could be offset by harnessing the tremendous 
        power of ocean wind, waves, and currents.

Need for Public Support of Research and Development
    The challenges that face an emerging offshore aquaculture industry 
underscore the need for a strategic, comprehensive program of basic and 
applied research, and technology development, demonstration, evaluation 
and transfer. This, in turn, raises the question of whether such a 
program should be the responsibility of the private sector or the U.S. 
Government.
    Publicly-supported research and development has been essential to 
the creation and continued success of many U.S. industries. This is 
particularly true for agriculture. Even in industries that generate the 
most profitable of commodities, private investment only occurs when 
adequate scientific evidence warrants economic risk. That the U.S. is a 
world leader in many agricultural sectors is due in large part to 
public support--for research conducted at universities and government 
laboratories, and for the network of agriculture experiment stations 
and farms that apply new technologies and demonstrate their usefulness 
to farmers.
    Research and demonstration, coupled with a well-developed system 
for technology transfer through the agricultural extension service, is 
a formula that has served U.S. agriculture remarkably well. 
Aquaculture, in particular offshore, must adopt a similar approach to 
guide industry development and insure environmental stewardship.

National Offshore Aquaculture Act of 2005
    As it has been proposed, the National Offshore Aquaculture Act 
offers an excellent regulatory and procedural framework from which the 
U.S. can build a sustainable, offshore aquaculture industry. What the 
Act now requires is the input of informed stakeholders.
    As a scientist immersed in developing solutions to the technical, 
social, environmental, and economic hurdles that face offshore 
aquaculture, I believe that Act should be further developed to 
authorize a research and development (R&D) program to support and guide 
this fledgling industry. Independent, scientifically-verified R&D will 
make the difference between a successful industry and a struggling one, 
between one that harms the environment and one that is engaged in 
systematic environmental protection.
    Such a program would have two components: commercially independent 
and broadly credible demonstration projects to test the effectiveness 
of available technology; and competitive, peer-reviewed research 
funding opportunities to address evolving challenges. This is, 
effectively, the approach that has made U.S. agriculture the envy of 
the world--competitive research combined with learning platforms that 
transfer the fruits of this work directly to those who can apply it to 
the benefit of the American consumer.
    To determine the appropriate levels of Federal, State, and industry 
investment in this program will require careful planning and 
discussion. However, it is clear that for such an investment to be 
effective, it must be commensurate with the challenge at hand. What is 
it worth to the United States to replace an $8 billion trade deficit 
with a strong, successful offshore aquaculture industry, one that 
bolsters the economy and provides a secure source of healthy food? U.S. 
investments in agricultural technology development and transfer should 
help us answer that question.
    Fortunately, we do not have to start from scratch. The future U.S. 
offshore aquaculture industry is already supported by NOAA's Sea Grant 
program, research projects underway at laboratories and universities 
like UNH, and private sector initiatives. Indeed, last year Congress 
took a strategic step in leveraging these efforts by appropriating the 
funds for the UNH Open Ocean Aquaculture Project to become the Atlantic 
Marine Aquaculture Center. Implicit in this decision is the 
acknowledgement that while offshore aquaculture is a national issue, it 
manifests differently at the regional level.
    This new center for New England mirrors similar initiatives in the 
Gulf States and Hawaii. The motivation for these regional centers is a 
product of local opportunity and need. As such, each plans to work 
closely with local fishing interests and coastal communities to develop 
approaches to offshore aquaculture that complement local economies, 
geography, and culture. At the same time, each will benefit from 
participating in a national consortium that collaborates to identify 
bottlenecks to industry advancement, prioritizes research topics, and 
freely exchanges information and technology.

Closing Statement
    It has been nearly 1 year since National Offshore Aquaculture Act 
was introduced. In that time, an offshore aquaculture industry in the 
U.S. EEZ has been described as both a panacea for an impending economic 
crisis and a serious environmental hazard. As a scientist and a 
citizen, I do not subscribe to either opinion. The research data from 
our Project at UNH strongly suggests that there is a bright and 
sustainable future for offshore aquaculture in this country and that it 
may help relieve pressure on our fisheries. It also suggests that for 
that to occur, the U.S. must allocate appropriate investments in 
related R&D and develop sound regulatory oversight with the input of a 
range of marine resource stakeholders.
    It is clear the world will not wait for us in this matter. Offshore 
aquaculture is already being developed in the Caribbean, Europe, and 
Asia. And in some instances, this has been with the benefit of U.S. 
research and development. I do not believe we should relinquish the 
fruits of our investments to other nations without first exploring the 
potential for offshore aquaculture in this country. Nor do I believe 
that we should rely solely on other nations to develop and regulate an 
offshore aquaculture industry that will impact the environmental 
quality of our oceans and the health of U.S. consumers.

    Senator Sununu. Thank you very much, doctor. Mr. Cates, 
welcome.

            STATEMENT OF JOHN R. CATES, PRESIDENT, 
                    CATES INTERNATIONAL INC.

    Mr. Cates. Thank you, Chairman, members of the 
Subcommittee. Thank you for having me here. It's a great honor 
for me to come here a long ways from Hawaii. I am owner and 
President of Cates International. I am the hundred percent 
owner of the company. I have an operational commercial fish 
farm in Hawaii, as many of you know. It's quite interesting to 
note in your opening remarks about submerged cages, our company 
has developed that and was the first one in the U.S. to do such 
and to have an open ocean lease. We currently have raised over 
a million pounds. My former job as a commercial fisherman--it 
is a monumental task what it would have done for me to have 
taken that from the wild, and I cannot explain or express the 
feeling that I get from not taking from the wild any longer. 
It's a feeling of--that I can see longevity in my career now 
whereas a commercial fisherman, I was constantly looking at 
getting out of the industry because it was going to be short-
lived. All of us here today in this room are concerned about 
the health and well being of our oceans. And as we talk about 
these issues, I look forward to answering some of the questions 
from an operational side. But I also would like to note that we 
need to think about the health and well-being of our 
communities and our society. An example that I use in many of 
my talks is about my father-in-law who is native Hawaiian from 
the island of Hawaii. He was raised in a very rural area, 
raised mainly on vegetables and fish. And on his 18th birthday, 
is when he had his first steak. And in a single generation, his 
diet and my wife's diet completely changed, and that has 
significant health implications for many of the people in 
Hawaii. As Senator Inouye will know, we have a health issue. 
Their bodies have been engineered to eat in a certain manner, 
and it's completely changed. Our fishery has changed. Hawaii is 
a window to the future of the rest of the country. Our 
nearshore fisheries have been depleted. Yet, we have strong 
offshore fisheries that are relatively healthy. We need to 
recognize, as the Hawaiians did thousands of years ago, we have 
to farm our fish. So, I implore this subcommittee to take that 
into consideration as we also discuss the health and well-being 
of our oceans. Prior to me coming here, I asked my community 
and some very important members who I trust what they thought 
about this bill, including the Governor of our state. She has 
authorized me to state--that her intention is full support of 
this bill, and I have not heard any opposition, although I 
would have two simple recommendations. The first, as an 
investor in this business, I am concerned about the 10-year 
lease being too short. I--even though I invested my own money 
into offshore fish farming, I would not invest in an EEZ if I 
only had a 10-year lease. It's just too short for that level of 
investment. And the second is a state's opt-out, and the reason 
I am concerned about that is--it's for the same issue, whether 
you invest in this and--you invest in the industry, whether a 
state can just pull the plug and leave without--because of 
political and not environmental reasons. I hope this 
subcommittee will consider the importance of all these issues. 
As I look at my newborn son, I hope that he can be raised on a 
diet of fish and vegetables and a healthy diet that closely 
resembles his ancestors and all Americans. This is a bill that 
is for all of Americans, not just certain coastal communities. 
Clearly, farmed fish is of major importance, and we need to 
look at the success of farmed salmon. A lot of people look at 
it as a negative thing, but I look at it as a success. Salmon 
is available year-round to many Americans at a reasonable cost. 
Seafood should not be just for the wealthy. We need to find 
ways to get it down to the people that really need it the most 
and who are going to benefit the most. And I look forward to 
any questions, and I thank you very much.
    [The prepared statement of Mr. Cates follows:]

 Prepared Statement of John R. Cates, President, Cates International, 
                                  Inc.
    Aloha Ladies and Gentlemen,
    I am greatly honored to have been asked to provide testimony and 
share my personal experience regarding offshore aquaculture. The 
responsibility of this subcommittee is an important one, as is the 
legislation regarding our oceans. As you navigate through the input 
regarding this issue, I have faith that the Nation's best interest will 
prevail.
    I was born and raised in Hawaii, on the Island of Oahu. My first 
employment opportunity concerning marine life and the ocean began at 
the age of 15 when I started training dolphins for the United States 
Navy out of the Kane'ohe Marine Corp Base. Training mammals for the 
Navy allowed me to travel to many parts of the country and I was 
exposed to vast and diverse ocean conditions. In 1991, I became a 
contractor for the United States Defense Intelligence Agency, and 
although I did travel a good amount, this opportunity allowed me to do 
commercial fishing whenever at home. Throughout the 1990s, I became 
interested in research projects regarding marine environments and 
fisheries, and as a result, created a business to support research by 
providing ocean vessels, equipment, and manpower. This led to my 
involvement with the Hawaii Offshore Aquaculture Research Project 
(HOARP), which conducted research into the feasibility of open ocean 
aquaculture. My experience with, and the success of, this research 
project opened up my eyes to the realization that we can farm our 
seafood and do it in an environmentally sustainable manner while 
protecting our wild fish stocks. It was apparent then, just as it is 
today that the longevity of commercial fishing in my area will be 
short-lived.
    With the success of the HOARP project, it became apparent that 
commercial success of open ocean aquaculture in Hawaii would require 
changes to State laws and legislation. John Corbin with the Aquaculture 
Development Program (ADP) in Hawaii, along with a coalition of players 
and pioneers in the industry, were instrumental with the implementation 
of Chapter 190D, Hawaii Revised Statutes, addressing ocean and 
submerged land leasing that ultimately allowed utilization of Hawaii's 
ocean resources for research and sustainable development of open ocean 
aquaculture. In essence, this Hawaii statute is very similar to the 
Administration's bill regarding offshore aquaculture in Federal waters. 
Many of the concerns being raised now are similar to concerns that were 
raised back in 1999 in Hawaii. Amendments made to Chapter 190D allowed 
our company, Cates International Inc., to become the first business in 
the United States to be issued an open ocean lease for mariculture. 
Being the first was not easy, nor should it have been, and I continue 
to feel a personal responsibility for how this new industry develops 
both in Hawaii and in the U.S. We have much to offer, and I personally 
share experiences and learning lessons with the public as often as the 
opportunity presents itself.
    There are many lessons to be learned from processes developed for 
the aquaculture industry in Hawaii. A fundamental lesson is that open 
ocean fish farming does work, and that it can be done without causing 
significant effects upon the environment. In fact, environmental 
changes associated with habitat creation have been seen as an 
environmental benefit. The Environmental Assessment (EA) process in 
place has proven to be adequate and successfully addresses concerns 
posed by the community. Our strict EA process forces potential 
companies to engage and meet with their communities and make themselves 
available to be questioned and challenged. While there are currently 
two successful companies operating in Hawaiian waters, there have been 
multiple attempts by potential companies to obtain leases, however, 
they were not able to satisfy regulatory standards due to inadequate 
planning and knowledge and their applications were therefore denied. 
This is testament that our community's expectations are high and that 
their concerns are being legitimately addressed. Another important 
aspect of the EA process is having a lead agency, such as the 
Aquaculture Development Program, which is essential in helping to 
create a straight-forward system to assist companies and investors. In 
addition, a Federal agency such as NOAA is vital in having the 
authority to issue such leases. A compilation of State, Federal, and 
community resources is a fundamental and important marriage in the 
creation of an EA process that works.
    During our EA process, many concerns were raised. Some were valid 
and some were not, many were scare tactics fueled by misinformation, 
however, all were addressed. In Hawaii, we have made great strides in 
educating our communities and public about our industry, and continue 
to do so. This commitment will be ongoing on our part.
    Environmental issues are a huge concern in our industry and there 
are safeguards in place. Hawaii legislation mandates that only 
indigenous fish be stocked in any offshore cage. It is my opinion that 
this is an important and sensible safeguard, but if a particular 
species could be grown without the possibility of causing harm to the 
wild sector, I think this should be looked at on a case-by-case basis. 
For example, if a certain species was proven to be sterile prior to 
being grown in an open ocean fish farm, thus eliminating the 
possibility for reproduction, this could be a consideration. Currently 
however, farming species native to the area is the safest approach to 
this issue.
    Regarding the issue of disease, open ocean fish farming must face 
these issues just as traditional land-based farms. Like all farming, we 
are always on the lookout for disease; we check for disease prior to 
putting the fingerlings into the offshore cages and diseases endemic to 
the environment will have to be managed at the farm level through 
careful monitoring of the fish stock and perhaps through crop rotation, 
limitation of crop density, or by pre-approved vaccinated stock just as 
is done in any farm where animal husbandry is practiced. My experience 
with disease however is limited. We have been in business for 7 years 
and harvest upwards of 8,000 pounds of fish per week, and we have not 
had issues with disease.
    As this subcommittee and the Federal Government try to create a 
regulatory body for permitting, it is my belief that if the Federal 
Government needs to follow a path similar to that of Hawaii, the 
permitting process will likewise eliminate the potential for ``bad 
actors.'' I am confident in the process and oversight of offshore fish 
farming in Hawaii; there is currently an adequate system of checks and 
balances. We are a self-regulated as well as a state and federally-
regulated industry, and I am concerned that any further regulation will 
deter investment into offshore fish farming by making the permitting 
process too cumbersome and slow. Presently, the permit process has 
proven to weed out weak companies and the EPA and other agencies that 
currently regulate our industry are sufficient. I am 100 percent owner 
of Cates International Inc., and purposely put my family name in the 
company's title because I believe in and endorse all that we do 
completely. My community can be assured that I will not allow my 
operations in any way to harm the environment. I am also confident that 
as other new companies are permitted that they will have to follow the 
same regulations that I do. We as an industry do not want this to be an 
easy process; we want to ensure that adequate standards and regulations 
are in place to protect all we have invested and I am fully confident 
that the current regulations in place are sufficient.
    Today, offshore leasing for reasons other than aquaculture, such as 
alternative energy and ports, is foreseeable and there are concerns 
that these leases may unfairly disadvantage or damage aquaculture 
operations. However, aquaculture as an industry has the right to expect 
that permits issued to other operations will not jeopardize its own 
operation or cause environmental damage. In fact, aquaculture would 
presume that permits would not be given to any operation that would 
impact the environment in such a way as to cause harm to aquaculture 
stock. Issues, therefore, could be directed to use of space. However, 
the Exclusive Economic Zone, or EEZ, is almost the same square miles as 
is the land area in the continental U.S. so a conflict with other 
structures over use of space seems improbable. According to 
calculations done recently by Dr. John Forester for NOAA, ``Looking 
much further ahead, an industry producing two mmt [million metric tons] 
per year (NOAA's projected additional deficit by 2025) would require 
about 10,000 acres of surface space for cages and 350,000 acres for 
placement of multiple anchors. These areas represent about 0.003 
percent and 0.01 percent of the U.S. EEZ respectively and only 0.2 
percent and 6.8 percent of the 11.9 million acres that are already 
allocated to marine sanctuaries. As noted earlier, two mmt of seafood 
per year produced by aquaculture represents about $5 billion of imports 
and 150,000 direct and indirect jobs based on today's metrics.''
    Issues with mobile users of leased space, such as ships and 
fishermen, seem at first glance to be more of an issue. However, if 
such aquaculture operations are not permitted in or near shipping lanes 
or commercial fishing grounds this concern is alleviated. Also, 
operations should have to meet all of the lighting and safety standards 
and have proper navigation aids for standard ocean safety practices. We 
must keep in mind that these aquaculture operations, though they may 
seem large in scale, are actually miniscule when put in an ocean 
environment. For example, in Norway their fish farming industry exceeds 
over $1 billion a year, but the footprint of all of the sea cages 
combined for this industry is smaller than most runways at our large 
airports. The open ocean is immense and fishing vessels will have ample 
room to go around such areas. Likewise, we have many marine protected 
areas and large bodies of water that fishermen are prohibited from 
entering, such as sanctuaries, and there is no problem there.
    As this subcommittee considers legislation regarding open ocean 
fish farming, it is important to note what current research needs are, 
and what they will be. It will not make sense to pass such legislation 
unless we are willing to invest in this new industry, thus relieving 
pressure both on our wild stocks and on the trade deficit. The current 
level of funding available for research in offshore fish farming, to my 
knowledge, is less than $5 million per year, and I strongly believe 
that we will need a level of around $50 million per year to adequately 
satisfy needs on a national level. There is a sufficient level of 
funding for commercial venues to build new fishing vessels, but 
inadequate levels available for aquaculture ventures. This shortcoming 
needs to be addressed and fairly balanced.
    At the same time, I strongly believe that the aquaculture industry 
should also be investing in research as well as other areas that we 
will directly benefit from. I feel some of the areas that industry 
should be responsible for are:

  <bullet> Harvesting techniques which will be species and site 
        specific
  <bullet> Vessels used for daily operations
  <bullet> Operational gear
  <bullet> Marketing

    However, there is a long list of areas that I feel our government 
could and should play a role in assisting the offshore industry in 
research and development. I have often been told that the three rules 
to a good business are location, location, and location. This is also 
applies toward offshore fish farming; however, in reference to open 
ocean fish farming, I would argue hatchery, hatchery, hatchery. 
Nationally, we are not leaders when it comes to hatchery technology or 
species development and this area is vital! A successful fish farm is 
dependant upon a successful hatchery. I have found that other areas in 
need are development and testing of feedstock alternatives, deep water 
mooring systems, disease prevention, and research into new fish 
species.
    I have been asked what the realistic expectations are that 
aquaculture can do for the U.S. regarding economic returns, food 
supply, and balance of trade. My response to this question is that I 
personally feel that if this legislation is implemented, we won't see 
an investment into salmon farming in the EEZ, but we will see an 
investment into new species, and most likely in the warmer water 
climates of the U.S. While a lot of opposition for this bill comes from 
Alaska fishermen, I seriously doubt that anyone would invest in the EEZ 
in Alaska. The environment there is very tough, and although it can be 
argued that it is tough anywhere in the U.S., it is doubly tough in 
Alaska. If it were to occur at all in Alaska, it will happen in State 
waters because of favorable working conditions. If the legislation 
encourages investment from the private sector, I predict a slow start, 
approximately 2-4 years and we will possibly see several farms. But as 
we as an industry prove to ourselves and to others what our 
capabilities are and what the benefits that come along with it are, 
there will be significant growth. In Hawaii, we currently have invested 
nearly $11 million between two farms, Cates International Inc. and Kona 
Blue Water, exclusively from the private sector, and I believe that we 
have the potential to be a $100 million a year industry within the next 
7 to 10 years. For the rest of the country, it really depends on two 
significant factors--first, whether or not upcoming legislation 
encourages investments without overburdening constraints, and second, 
whether or not the Federal Government seriously invests in research 
(e.g., hatchery development). To put this in perspective, in Hawaii, it 
is doubtful that we will venture into the EEZ in significant numbers 
due to the depth of water, but for the rest of the country, it will 
most likely have to occur in the EEZ due to the shallow water 
conditions near shore.
    In 1999, many in Hawaii predicted open ocean fish farming would be 
an ecological disaster. These concerns led both State and Federal 
Government agencies to research and investigate the negative impacts of 
fish farming on our site, and nearly 6 years later, no negative impact 
has been found. On the contrary, although no funding has been provided 
to research positive impacts, it is readily apparent that there has 
been much. Positive impact is evident in our production numbers; we 
have been able to raise over 1 million pounds of fish that would have 
otherwise been taken from the wild by commercial fisheries. This has 
been done in an area of approximately two acres which consisted of only 
a sandy bottom habitat (no fish were observed during site surveys prior 
to farm development). This area is now home to a vast and diversified 
ecosystem. In fact, some of the very individuals that raised 
environmental concerns now benefit directly from our site and routinely 
fish the area. Our community also benefit with fresh, local, farm 
raised fish available year round that is not affected by limited 
fishing seasons. We raise Hawaiian moi, a fish once reserved for 
Hawaiian Ali'i or Royalty and a fish that was nearly extinct in the 
wild. It is now available to everyone at an affordable price. I have 
often been thanked by members of our elderly community, many of whom 
were raised eating this particular fish and can now enjoy eating it 
again.
    Our local chefs and restaurants also benefit by having a fresh, 
locally grown product available year round. In Hawaii, the term 
``farmed raised'' is positively used in advertising and marketing, and 
many of the top chefs and restaurants overwhelmingly endorse our 
company and product. As an employer and fish farmer, I have financially 
been able to increase the income of my employees nearly 70 percent, and 
we go home to our families every night. All of these reasons, in my 
opinion, are positive impact and have never been measured by opponents 
of aquaculture.
    In conclusion, as this subcommittee evaluates whether to allow 
offshore aquaculture facilities to operate within the U.S. Exclusive 
Economic Zone, I am reminded of a lesson I learned very early in life. 
My father, who was also born in Hawaii, was very involved with Hawaiian 
canoe paddling and when I was a young child at the age of seven, he 
would take me out on the ocean with his canoe team. A well respected, 
strong Hawaiian man by the name of ``Cappy'' was teaching me how to 
steer a canoe, and I once asked him how do you know where you are going 
once it gets dark. He said ``If you don't change course, you will end 
up were you are heading.'' Simple words spoken by a true Hawaiian man. 
We as a Nation know where we are heading with respect to our fisheries; 
we are all aware of the enormous demand for seafood, and the pressure 
that places upon our wild stocks. NOAA and the National Marine 
Fisheries Service have done a good job in identifying what course we 
are on and have made good recommendations on what needs to be changed. 
It is now time to change direction and that responsibility lies with 
this Committee. Change is not easy--it never is, but I am confident 
that when presented with all of the information, this Committee will 
make the right decision and support this legislation for the benefit of 
all Americans and our oceans. The ocean and the EEZ is a public 
resource, and the American public deserves to have fresh fish that is 
affordable, both wild and farmed.
    I sincerely thank all of you for taking the time to listen to my 
testimony and for inviting me to take part in this historic step in the 
world of aquaculture. I truly believe that this will put us all in a 
better place during a time that we as a society are consciously trying 
to live healthier, and I am thankful that I could play a small part in 
a monumental Act that will benefit the generation of my young son, as 
well as those to come.
    Mahalo.

    Senator Sununu. Thank you very much, Mr. Cates. Mr. Vinsel, 
welcome.

STATEMENT OF MARK VINSEL, EXECUTIVE DIRECTOR, UNITED FISHERMEN 
                           OF ALASKA

    Mr. Vinsel. Thank you, Mr. Chairman and members of the 
Subcommittee. The United Fishermen of Alaska represents 31 
Alaska commercial fishing organizations from throughout Alaska, 
the Bering Sea, and the Gulf of Alaska. We represent roughly 
half of the United States domestic seafood production. We don't 
have any depleted stocks. I think our experience in our 
science-based management is very different from the two former 
commercial fishermen that you heard speak. There is a lot of 
misunderstanding about Alaska's well-known ban on finfish 
farms. It is not in opposition to all aquaculture. Even among 
UFA's 31 member groups, seven of them are nonprofit aquaculture 
associations that raise salmon fry and smolts and release them 
into the wild. And they are then a common property resource 
available for not only commercial, but sport and subsistence 
harvests. And those are done with science with the guidance of 
the Alaska Department of Fish and Game in harmony with the 
natural stocks and result in a sustainable salmon stocks with 
the last 2 years--having been in the top 4 years of all 
history. Our fisheries with science-based management, we 
consider it like mowing the lawn. You do have to mow the lawn 
or else it'll kind of go to weeds, but cutting the grass every 
year doesn't cause a problem to your lawn. It is common to hear 
of the talk of fishermen as the last of a vanishing hunter 
gatherer tradition that is on its way to extinction, to be 
replaced by agrarian food producers. But to us, there is a big 
difference between land- and water-based agriculture. Husbandry 
of terrestrial ecosystems has clearly provided increased food 
production. But in healthy ocean systems, we don't think that 
man's best efforts can make any net gain. Feeding fish to other 
fish as done in finfish-based net pen agriculture or 
aquaculture is not a net food production increase. Wild salmon 
depend on the pasturage of the open oceans, and putting netpen 
fish farms in the open ocean will interfere with the wild fish 
food chain. Where healthy oceans exist, they are worth saving. 
Where waters have been impaired, priority should be given to 
restoration of healthy natural systems that can sustain the 
progression of life for productive fisheries as consideration 
is given to fencing them off for fish farms. If the goal is to 
increase production and consumption of domestic seafood, a 
sizable gain could be made with an investment in basic 
infrastructure in Alaska communities and attention to the 
rebuilding of the Gulf of Mexico coastal communities in a 
planned way to retain the most value in wild seafood harvests. 
Arguments that the United States needs to promote finfish 
agriculture technology to help our balance of trade are belied 
by history in fish markets and current trends in all industries 
that require labor. Finfish aquaculture technology was 
developed by U.S. universities, then adopted by other countries 
where lower costs of labor and lesser environmental 
restrictions allow producers a lower cost of production than 
possible in the U.S., and imports have swamped U.S. domestic 
producers whether they are salmon, shrimp, or catfish farmers. 
Those three U.S. domestic producers were the three initial 
product categories that qualified for USDA Trade Adjustment 
assistance. There were really no major agricultural commodities 
in the first 2 years of that program. Other than Maine wild 
blueberries and Florida lychee fruit, it was salmon, catfish, 
and shrimp when the USDA decided that we needed to have a 
temporary adjustment program to help with the spike in imported 
production.
    The North Pacific Fishery Management Council has a good 
track record of looking into the science and economics of 
fisheries and taking a precautionary approach. We insist that 
the Council have authority, not merely consultation because the 
Council is--effectively governs our ocean systems and our 
fisheries, and we need them to have the authority on that. We 
also look for a serious study of the social and economic 
effects, as included in Senator Murkowski's amendment 1727 
before this moves forward. The ability of a state to modify 
aquaculture practices to fit the unique circumstances is--needs 
to be effectively coded in this legislation. The Senate can 
delegate authority of aquaculture permitting to the states, and 
this needs to be clear and incontrovertible language in the 
bill. Species that do not occur naturally in an area should not 
be considered and neither should genetically-modified fish. 
They will escape with unpredictable consequences to the local 
ocean. Farmed fish can and must be marked, every one, by 
scientifically valid methods that are very economical, such as 
thermal otolith marking to ensure that any escaped fish can be 
attributed to their producer. In the future, there may be a 
place for aquaculture in maintaining healthy oceans, but 
current technology does not adequately protect existing ocean 
resources from harm from fish farms seeking to grow fish to 
market size in coastal or ocean waters. It may be worthwhile to 
look at the model of Alaska's salmon aquaculture programs to 
raise and release fingerlings with the emphasis on enhancing 
rather than replacing natural stocks for a common property 
resource available to all and to help restore diminished fish 
stocks with long life cycles and extended predicted rebuilding 
times for the benefit of all Americans. These operations must 
be consistent with ecosystem-based management based on sound 
science and a precautionary approach. Please be very cautious 
in your drafting of regulations and heed the old saying, 
please, first, do no harm. Thank you.
    [The prepared statement of Mr. Vinsel follows:]

        Prepared Statement of Mark Vinsel, Executive Director, 
                       United Fishermen of Alaska

    United Fishermen of Alaska (UFA) represents 31 Alaska commercial 
fishing organizations from fisheries throughout Alaska, the Bering Sea, 
and Gulf of Alaska, with fishermen from 46 states, accounting for 
almost half the domestic seafood production of the United States. I am 
Mark Vinsel, Executive Director of UFA. I also serve as Chairman of the 
Alaska Fishing Industry Relief Mission, a volunteer effort to provide 
assistance to the Gulf of Mexico fishing industry in the wake of last 
summer's hurricanes.
    We thank you for the invitation to share our point of view 
regarding offshore aquaculture and hope that our concerns will guide 
you in establishing a framework for offshore aquaculture management 
that will be a benefit to the Nation's food production, while 
sustaining healthy oceans and recovering depleted or diminished stocks 
for the benefit of all.
    There is much misunderstanding of Alaska's well-known ban on 
finfish farms. It is generally viewed as opposition to all aquaculture. 
However, Alaska has viable aquaculture operations that produce a 
variety of shellfish and enhance our natural salmon runs.
    The connotations around the term aquaculture have largely come to 
mean ``farm,'' as it is in S. 1195. There is much more to the term than 
that. Alaska's nonprofit regional aquaculture associations release 
immature salmon as fry or smolt, from coastal bays where there are few 
or no resident salmon and no identifiable interference with returning 
natural wild stocks. From the point of their release on, the immature 
salmon are a common property resource, ranging freely, subject to 
natural environmental conditions and available for commercial, sport, 
subsistence and personal use harvests. The intention of Alaska's 
aquaculture program is to augment, not replace natural stocks, 
especially during years of lower than average returns. The success of 
this program is illustrated by the abundance and health of Alaska's 
salmon populations with recent yearly returns at all time high levels.
    It is common to hear talk of fishermen as the last of a vanishing 
hunter gatherer tradition that is on the way to extinction, to be 
replaced by agrarian food producers. We feel there is an unarguable 
difference between land- and water-based agriculture. Man's husbandry 
and manipulation of terrestrial ecosystems clearly has provided 
increased food production, but in healthy ocean systems it is 
questionable if a real gain of production could be obtained through 
man's best efforts. In healthy oceans there are no fences and all biota 
feeds and is fed upon, creating an integrated food web. This food web 
produces fish that are a high-quality protein with great flavor and 
nutrition. Free-range wild and enhanced salmon harvests depend on the 
flux of this fluid web of life. Introducing large scale net pen 
operations would inevitably draw from the natural pasturage available 
to wild fish.
    Wild salmon depend on this pasturage. Large scale fish farms will 
interfere with their physical presences as well as interdicting the 
food web which is the sustaining pasturage of viable wild stocks. 
Precedence has to be given to healthy wild stocks where they exist. 
Fishermen that have learned to shepard their fisheries to harvest 
responsibly and sustainably deserve the opportunity to continue.
    Where healthy oceans exist, they are worth saving. Where waters 
have been impaired, priority should be given to restoration of healthy 
natural systems that can sustain the progression of life for productive 
fisheries, as consideration is given to fencing them off for fish 
farms.
    We see a big difference between free-ranging fish and sedentary 
mussels growing on ropes, and so far the economic results affirm the 
viability of the mussel production as a form of aquaculture that can 
benefit local fishermen and their communities and coexist with existing 
fisheries. Large scale finfish operations in net pens bring much 
greater risk and would provide less economic benefit to coastal 
communities, especially in coastal Alaska where infrastructure is the 
impediment to getting our fish to market, not a lack of fish.
    Arguments that the United States needs to promote finfish 
agriculture technology to help our balance of trade are belied by 
history in fish markets, and current trends in all industries that 
require labor. Finfish aquaculture technology was developed by U.S. 
universities then adopted by other countries where lower costs of labor 
and lesser environmental restrictions allow producers a lower cost of 
production than possible in the United States, and their imports 
swamped U.S. domestic producers be they salmon fishermen or catfish 
farmers. It bears noting that in the USDA Trade Adjustment assistance 
program, U.S. catfish farms and shrimp farms, along with salmon 
producers from AK, Washington and Oregon were qualified for benefits to 
compensate from the market effects of increased imports while Maine 
blueberries were the only non-seafood crop that qualified in the first 
year. The differences in labor and environmental costs will continue to 
favor low-cost foreign producers, with little likelihood of erasing the 
seafood balance of trade.
    If the goal is to increase production and consumption of domestic 
seafood, a sizable gain could be made with an investment in basic 
infrastructure in Alaska communities, and attention to rebuilding Gulf 
of Mexico coastal communities in a planned way to retain the most value 
in wild seafood harvests.
    There is no fish farm technology that can more cheaply produce the 
``superfood'' that is Alaska's pink salmon--for which last year's 
average dock price of 12-14 cents per pound was a strong uptick--and 
which is proving to be an important source of non-perishable quality 
protein in government aid programs as we speak.
    We recommend that with whatever direction domestic high seas 
aquaculture development takes, equal attention be paid to protecting 
existing seafood production. Market impacts should be studied for 
individual projects. In many coastal communities, there are no other 
job opportunities available to displaced workers so operations that 
have the potential of interfering with existing fisheries need to be 
carefully assessed before damage is done.
    Local scientific input is needed in permitting and location. A fish 
farm operator might desire to utilize areas of natural upwelling to 
benefit from the availability of a natural free food source. The ocean 
environment is fluid and dynamic, and every component of the food chain 
is a necessary component in this complex web of life. We are concerned 
that placement of large scale fish farms in areas of open ocean would 
rob the existing web of life in unpredictable ways.
    The North Pacific Fishery Management Council (NPFMC) has a good 
track record of looking into the science and economics of fisheries, 
and taking a precautionary approach to opening new fisheries and 
management concepts. They have made difficult decisions and set harvest 
levels in favor of maintaining stock viability over short-term economic 
gains, and the NPFMC has been party to setting aside large tracts of 
ocean to be protected from direct fishing activities. The sensitivity 
of oceans are considered and the very fact of human activity has been 
deemed a significant impact to the ocean's sensitivity. The NPFMC has a 
proven track record of good judgment and is the only forum in place for 
prudent management of the Gulf of Alaska and Bering Sea. Fishermen will 
be affected by location and operation of fish farms in areas where they 
fish or travel. The regional councils should hold management authority 
over fish farm operations, with consideration for the social, 
environmental and economic effects upon ocean resources and existing 
users, not merely consultation as included in S. 1195.
    Should offshore aquaculture be allowed in U.S. marine waters, 
fishing businesses and coastal communities need to be considered, and 
must be allowed to compete on a level playing field in the marketplace. 
Salmon, halibut, sablefish, and other species that compete with farm 
raised product need to enjoy access to the same types of research, 
marketing and support programs provided by the Department of Commerce 
and Department of Agriculture for fish farm operations.
    The ability of a coastal state to modify marine aquaculture 
practices to fit unique circumstances or to opt out if the state deems 
the aquaculture activity to be unjustified must be effectively codified 
within the legislation. The U.S. Senate can delegate authority of 
aquaculture permitting to states, and this needs to be clear and 
incontrovertible.
    UFA supports S.B. 2859, which has been re-introduced by Senator 
Murkowski as Senate amendment 1727 to S. 1195, calling for serious 
study of the social and economic effects before offshore aquaculture is 
considered.
    The precautionary principle is the concept of proving no 
identifiable harm before implementing substantial changes, and is a 
fundamental tenant behind Alaska's fisheries resource management. The 
cost of altering a project or not moving forward with a proposed 
change, to prevent damage, is far less than trying to restore damage 
that is already done.
    The U.S. Commission on Ocean Policy, and Pew Oceans Commission, 
both pointed to the need for ecosystem-based management, and called for 
increased funding for ocean science to better understand these highly 
dynamic systems. Meanwhile, climate and regime changes are occurring 
that compound the difficulties in obtaining this baseline science. To 
introduce large-scale aquaculture to these ocean systems without 
thorough scientific understanding in place to gauge the effects as they 
occur is irresponsible. It is very troubling that S. 1195 contains so 
much consideration for existing offshore oil platforms and so little 
language on the environment into which the farms are to be introduced.
    Progress has been made in some areas of large scale fish farming 
that were troublesome. Antibiotics are not as widely used in 
technologically-advanced aquaculture operations, having been replaced 
by vaccines that are cheaper and more effective. And it may seem that 
the concentration of wastes may be less of a problem in the open ocean 
than they are in nearshore environments. But the oceans are not 
limitless and in large scale operations the effects may not be as 
noticeable but are there nonetheless. The Pew Oceans report noted that 
the cumulative effects of many sources of non-point source pollution 
are a huge problem to ocean health, and introduction of large scale 
fish farms would further this problem. A further problem with 
cumulative non-point source pollution is that it precludes any 
meaningful concept of responsibility. Waiting until the fish are gone, 
then trying to figure out who to blame does not protect the fish. At a 
minimum, fish farms need to have proven standards which substantially 
reduce risks before permitting.
    Near shore fish farms continue to suffer from increased parasites 
such as sea lice with harm to naturally-occurring fish stocks that pass 
through the area. With a tremendous increase in investment in science 
required for ecosystem-based management, we may someday be able to pick 
a site for a fish farm where we can safely assure that no natural fish 
will be affected, but we are a long way from that level of knowledge 
now. We feel that the potential environmental impacts justify a 
thorough legislative environmental impact statement.
    There should be no exemption from existing labor laws and 
applicable regulations concerning transportation such as the Jones Act, 
and no bypassing of regulatory framework in place for our coasts and 
oceans.
    The term ``Exclusive Economic Zone'' clearly should preclude 
foreign ownership.
    Species that do not occur naturally in an area should not be 
considered, as they will escape with unpredictable consequences. Farmed 
fish can and must be marked by economical but scientifically-valid 
methods such as thermal otolith marking to ensure that any escaped fish 
that cause harm can be attributed to their producer.
    In the future, there may be a place for aquaculture in maintaining 
healthy oceans, but current technology does not adequately protect 
existing ocean resources from harm from fish farms seeking to grow fish 
to market size in coastal or ocean waters. It may be worthwhile to look 
to the model of Alaska's salmon aquaculture programs to raise and 
release fingerlings with the emphasis on enhancing rather than 
replacing natural stocks, for a common property resource available to 
all, and to help restore diminished fish stocks with long life cycles 
and extended predicted rebuilding times, for the benefit of all 
Americans. These operations must be consistent with ecosystem-based 
management based on sound science and a precautionary approach. Please 
be very cautious in your drafting of regulations for the permitting of 
offshore aquaculture, and heed the old saying--first, do no harm. 

    Senator Sununu. Thank you very much, Mr. Vinsel. We are 
also joined by Senator Snowe of Maine. And before continuing 
with Dr. Goldburg, I want to give Senator Snowe a chance to 
make any opening remarks she might have.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Well, thank you, Mr. Chairman, and I 
certainly thank you for convening this hearing today on 
offshore aquaculture. It's certainly a critical issue for my 
state, and I'll ask unanimous consent to include my entire 
statement in the record----
    Senator Sununu. Without objection.
    Senator Snowe.--but I do want to recognize Mr. Sebastian 
Belle, who is here today from the State of Maine and head of 
the Maine Aquaculture Association. We have certainly had long-
standing experience with aquaculture in the State of Maine, and 
I think it is important to look at specific legislative 
proposals for regulating fish farming. We have certainly been 
able to draw on our experiences in the state and we know how 
important it is going to be for the future of our industry--and 
important for the seafood industry as well. So, I appreciate 
the fact that you are holding this hearing here today because I 
do hope that we can determine what would be the best 
legislative initiatives to develop. We must respond to the 
issues concerning the problems that have stemmed from fish 
farming and identify what we can do to ensure that we preserve 
this vital industry for the state. We have more than 150 
operations in the State of Maine that yield more than $80 
million annually. So, it is a critical industry, and we want to 
be sure that we do everything we can to maintain and preserve 
the future of this vital industry for my state and this 
country. Thank you.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Mr. Chairman, I thank you for convening today's hearing on offshore 
aquaculture. The State of Maine has decades of experience in fish 
farming, especially in near-shore state waters, and we recognize that 
this industry could soon have new opportunities to pursue aquaculture 
in offshore, Federal waters. Therefore, this timely hearing will help 
ensure that Congress understands the issues and challenges facing this 
emerging industry, so we can authorize an appropriate Federal framework 
for developing and promoting offshore aquaculture.
    Before we discuss the specific issues of the legislative proposals 
for regulating fish farming, we should take a step back and look at the 
global dimensions of seafood production and demand. The United Nations 
tells us that 60 percent of the world's fisheries are either depleted 
or fully exploited, yet global demand for seafood--a healthy source of 
protein--continues to grow, perhaps up to 70 percent in the coming 
decades. Not surprisingly, the world is looking to aquaculture to meet 
this ever-increasing demand.
    While many countries, especially in Asia, have developed aggressive 
policies promoting fish farming, the United States has not kept pace. 
Less than 40 percent of our seafood is produced domestically, making 
the U.S. very reliant on imported seafood--a majority of which comes 
from foreign aquaculture. This makes it possible for us to enjoy easy 
and affordable access to our favorite seafood dinners, but this 
convenience and nutrition does not come without costs.
    For example, after several decades of industrial aquaculture around 
the world, we have seen that large-scale fish farming may lead to 
marine pollution and habitat loss if it is not done correctly. Fish 
raised at high densities can also transmit disease more easily, which 
may necessitate the use of antibiotics and other medicines. And 
considering that many farm-raised species have limited genetic 
diversity, they can expose wild stocks to a host of risks--from 
interbreeding or co-mingling of wild stocks with potentially unhealthy 
fish.
    The experience of aquaculture in Maine has cast a spotlight on many 
of these issues, but at the same time it provides examples of how the 
industry can address and overcome problems like disease and escapement. 
Today, nearly 150 aquaculture operations in Maine grow Atlantic salmon, 
oysters, mussels, and other commercially valuable seafood, growing 
products worth more than $80 million annually. As a pioneer in this 
field, Maine is finding ways to create jobs in coastal communities and 
sustain a vital component of the seafood economy, and ongoing research 
is pointing to new ways to support this industry's expansion.
    Despite these potential challenges, the economic and public health 
benefits that could accompany aquaculture and the value of it in Maine 
make it worthwhile for us to consider the future of this industry in 
the United States. Currently, there is no Federal framework 
specifically designed to address the unique regulatory issues 
surrounding offshore aquaculture, so in building one we must seek to 
prevent the mistakes and shortcomings of the past from being repeated. 
The Administration's proposed bill for offshore aquaculture moves us in 
this direction, as it proposes a number of criteria aimed at ensuring 
environmental protection and sustainable fish farming development.
    It is now our responsibility to critically examine this proposed 
bill, listen to the expert testimony provided to us today, and chart a 
way forward through these complex--and potentially controversial--
issues. I am impressed with the caliber of the panel assembled here 
today, and I thank all the witnesses for appearing--Dr. Bill Hogarth of 
the National Marine Fisheries Service; Dr. Richard Langan of the 
University of New Hampshire; Mr. Randy Cates, President of Cates 
International, all the way from Hawaii; Mr. Mark Vinsel of the United 
Fishermen of Alaska; and Dr. Rebecca Goldburg of Environmental Defense. 
And of course, I am very grateful that our Chairman has invited 
Sebastian Belle, Executive Director of the Maine Aquaculture 
Association, to testify before us today. Sebastian, I am confident that 
your testimony will shed light on many of the key issues in the already 
complicated state-Federal regulatory environment of this industry.
    Thank you again, Mr. Chairman. I look forward to hearing the 
testimony and working with you on this critical legislation.

    Senator Sununu. Thank you very much, Senator Snowe. Dr. 
Goldburg, welcome.

             STATEMENT OF REBECCA GOLDBURG, Ph.D., 
            SENIOR SCIENTIST, ENVIRONMENTAL DEFENSE

    Dr. Goldburg. Thank you very much. I am honored to have the 
opportunity to testify today. And as you noted Mr. Chairman, I 
am a biologist and Senior Scientist with Environmental Defense, 
a national nonprofit organization. My testimony will focus on 
environmental concerns with offshore aquaculture and 
aquaculture legislation. Environmental Defense supports 
aquaculture as a means to increase seafood supplies. 
Nevertheless, pursuing aquaculture development without adequate 
safeguards may be worse than not pursuing aquaculture at all. 
Although aquaculture and capture fishing are sometimes viewed 
as separate endeavors, the future of some aquaculture sectors 
is intertwined with fisheries and the health of marine 
ecosystems. Offshore aquaculture is patterned after salmon 
aquaculture and could be expected to have somewhat similar 
impacts. Like farmed salmon, finfish raised offshore will be 
housed in net-cages, which sit directly in marine waters and 
are vulnerable to at least four types of environmental 
problems. One of these is escaped farmed fish. Ecological 
damage caused by escaped farmed fish include the introduction 
of non-native fish species and reduced so-called fitness of 
wild fish as a result of interbreeding with escapees of the 
same species. The likelihood of large-scale escapes from 
offshore farms is high, for example, from storms or from shark 
attacks on cages. Moreover, some of the fish targeted for 
offshore production breed in ocean enclosures. And ocean fish 
cages, no matter how sturdy, are incapable of containing fish 
eggs. Another concern stems from the spread of pathogens and 
use of antibiotics and other drugs. Experience in both 
terrestrial and aquatic animal production demonstrates that 
concentration of large numbers of animals in a small area 
facilitates outbreaks of disease and parasites. Such pathogen 
outbreaks can jeopardize wild fish. They also lead producers to 
administer antibiotics and other drugs, usually via feed, to 
entire cages of fish so that the drugs inevitably end up in the 
marine environment. It is possible to significantly reduce drug 
use through vaccine development, as salmon farmers have 
accomplished to their credit, but these vaccines have not 
eliminated problems with pathogens and drug use. A third 
concern is water pollution. Raising large numbers of animals in 
small areas can result in pollution from fish wastes. In the 
case of fish pens or cages, these wastes flow directly into 
surrounding waters. In a scientific paper, I calculated that a 
$5 billion per year offshore aquaculture industry, a target 
figure used by NOAA, would discharge annually an amount of 
nitrogen equivalent to that in untreated sewage from 17 million 
people or the entire North Carolina hog industry of about 10 
million hogs. In other words, although moving fish farms 
offshore should help dilute fish wastes, we cannot ignore the 
potential for water pollution. A fourth concern is farming of 
carnivores. Most of the species targeted for offshore 
production, such as halibut, cobia, and moi, like farmed 
salmon, are raised on feeds with high levels of fish meal and 
fish oil made from wild-caught fish. Unless new feed 
technologies are commercialized, farming fish offshore will 
likely require two to four times more wild fish to be caught 
for their feed than is ultimately harvested. Moreover, as noted 
by Senator Boxer, fish meal and oil can contain significant 
levels of chemicals such as PCBs. Without careful attention to 
the composition of fish feeds, offshore fish farming could 
produce relatively contaminated food products. Well, especially 
given the serious concerns about the impacts of offshore 
aquaculture development, it is critical that mandates to 
protect the marine environment and the public interest be 
incorporated in any offshore aquaculture legislation. One of 
the necessary mandates is environmental standards. To provide 
adequate protections for marine fisheries and ecosystems, no 
permit for offshore aquaculture should be issued unless the 
permit will not result in significant adverse impacts to marine 
fisheries and ecosystems. Unfortunately, S. 1195 lacks such 
mandates for environmental protection and instead gives NOAA 
enormous discretion to implement environmental standards. The 
bill thus appears to conflict with NOAA's own Code of Conduct 
for Responsible Aquaculture Development, which emphasizes such 
protections. Another key is public participation and access to 
information. A transparent public process helps to ensure that 
offshore aquaculture will not harm ocean resources important to 
stakeholders outside the aquaculture industry. Yet again, S. 
1195 lacks any such provisions concerning transparency, public 
notice, and public comment periods for permit applications, and 
thus again is in conflict with NOAA's own aquaculture code. A 
third element of legislation is managing ocean resources to 
minimize conflicts and maximize public benefits. Offshore 
aquaculture is one among many oceans uses that can affect the 
health and sustainability of ocean resources. Ideally, an 
offshore aquaculture system would operate within a broader 
regime that minimized conflicts and meet environmental and 
economic objectives for our oceans. Unfortunately, S. 1195 does 
not provide for such planning and governance, but rather 
establishes a national policy for aquaculture development 
without adequate balance of other interests. Well, in closing, 
NOAA's pursuit of offshore aquaculture development raises a 
number of concerns based on experience with other types of 
marine aquaculture. Offshore aquaculture should only go forward 
following implementation of strong environmental safeguards, 
and one of those which I didn't discuss would be the assessment 
of potential cumulative impacts of aquaculture development. 
Appropriate legal requirements must be established to ensure 
that projects meet strong environmental standards, are subject 
to public process, and are consistent with a larger framework 
for ocean governance. Thank you very much.
    [The prepared statement of Dr. Goldburg follows:]

   Prepared Statement of Rebecca Goldburg, Ph.D., Senior Scientist, 
                         Environmental Defense

Introduction
    I am honored to have the opportunity to testify today about the 
important issues surrounding offshore aquaculture. My name is Rebecca 
Goldburg. I am a biologist and Senior Scientist with Environmental 
Defense, a national nonprofit organization. Environmental Defense not 
only employs traditional advocacy tools, but also works with corporate 
partners such as FedEx, McDonald's, and CitiGroup. In a current 
partnership, Environmental Defense is working with Wegmans, a leading 
supermarket chain, to support producers of both wild and farmed seafood 
who are achieving high environmental standards.
    I have co-authored a number of scientific articles concerning 
environmental impacts of aquaculture and was co-author of the Pew 
Oceans Commission's report on marine aquaculture. Among my current 
responsibilities, I serve as a member of the Marine Aquaculture Task 
Force, sponsored by the Woods Hole Oceanographic Institution and Pew 
Charitable Trusts, and the U.S. Department of Agriculture's Working 
Group to develop organic certification standards for aquaculture. I 
have an M.S. in Statistics, Ph.D. in Ecology, and honorary Doctorate of 
Laws, all from the University of Minnesota.
    My testimony will focus on environmental concerns with offshore 
aquaculture development and the National Oceanic and Atmospheric 
Agency's (NOAA's) offshore aquaculture legislation, S. 1195. My 
testimony reflects my views and those of Environmental Defense, but not 
necessarily the task forces of which I am a member.

Aquaculture Is Essential to Expanding Future Seafood Supplies, but Can 
        Also Diminish Them
    Aquaculture is frequently cited as means to increase seafood supply 
in a world where greater quantities of fish cannot be obtained from the 
oceans. Without a doubt, our oceans are finite, and many fisheries are 
now overfished or heading toward depletion. At the same time, 
aquaculture is becoming an increasingly important source of seafood. 
Roughly 40 percent of all fish directly consumed by humans worldwide 
now originate from fish farms.
    Environmental Defense supports aquaculture development as a means 
to increase seafood supplies; nevertheless, pursuing aquaculture 
development without adequate safeguards may be worse than not pursuing 
aquaculture at all. Although aquaculture and capture fishing are 
sometimes viewed as separate endeavors, the future of some aquaculture 
sectors is inextricably intertwined with fisheries and the health of 
marine ecosystems. While the production of channel catfish in 
freshwater ponds, tilapia in tanks, or crawfish in rice fields has 
little or no impact on marine fisheries, some coastal forms of 
aquaculture, such as salmon farming in netpens or cages, or shrimp 
farming in saltwater ponds, typically degrade marine ecosystems and can 
result in a net loss of fish.\1\
---------------------------------------------------------------------------
    \1\ Naylor, R., R.J. Goldburg, J. Primavera, N. Kautsky, M. 
Beveridge, J. Clay, C. Folke, H. Mooney, J. Lubchenco, and M. Troell. 
2000. Effect of Aquaculture on World Fish Supplies. Nature 405: 1017-
1024.
---------------------------------------------------------------------------
Offshore Aquaculture Could Cause Significant Harm to Marine Ecosystems 
        and Fisheries
    Offshore aquaculture is patterned after salmon aquaculture, and can 
be expected to have similar (although not identical) impacts. Like 
farmed salmon, finfish raised offshore will be housed in net-cages. 
These are essentially animal feedlots which sit directly in marine 
waters, and are vulnerable to at least four distinct types of 
environmental problems.
    1. Escaped farmed fish: Numerous studies \2\ document the 
ecological damage caused by escaped farmed fish. Depending on the 
location, these include the introduction of nonnative fish species and 
reduced ``fitness'' of wild fish as a result of interbreeding with 
escapees of the same species. The offspring of crosses between escaped 
farmed with wild fish are a bit like pups from matings between domestic 
dogs and wolves--they are not as capable as surviving and reproducing 
in nature as their wild ancestors.
---------------------------------------------------------------------------
    \2\ Reviewed in Naylor, R., K. Hindar, I. Fleming, R. Goldburg, M. 
Mangel, S. Williams, J. Volpe, F. Whoriskey, J. Eagle, D. Kelso. 2005. 
Fugitive Salmon: Assessing Risks of Escaped Fish from Aquaculture. 
BioScience 55:427-437.
---------------------------------------------------------------------------
    The likelihood of large-scale escapes from offshore farms is high 
if cages are sited in storm-prone areas such as the Gulf of Mexico. 
Even without storms, escapes frequently occur. In the Caribbean and 
Hawaii, sharks have torn open fish cages, letting fish escape. 
Moreover, unlike salmon which breed in freshwater, the marine species 
targeted for offshore production breed in marine waters. Atlantic cod, 
for example, breed in ocean enclosures, and although ocean fish cages 
are relatively sturdy, their very design renders them incapable of 
containing fish eggs.
    The impacts of such fish escapes on the health of wild fisheries 
could be large if farmed fish are genetically less well-adapted to the 
ocean environment than local populations of wild fish. Farmed fish may 
be weaker genetically as a result of selective breeding, genetic 
engineering, or simply because fish being farmed were taken from a 
geographic area with different ecological conditions.
    2. Spread of pathogens and use of antibiotics and other drugs: 
Experience in both terrestrial and aquatic animal production 
demonstrates that concentration of large numbers of animals in a small 
area almost inevitably facilitates outbreaks of disease and parasites. 
Such pathogen outbreaks can jeopardize wild fish. One recent study,\3\ 
for example, shows that salmon farms in British Columbia spread 
parasitic sea lice from salmon farms to wild pink and chum salmon. It 
is reasonable to anticipate that similar situations will occur on 
offshore fish farms, especially if farms become large.
---------------------------------------------------------------------------
    \3\ Krosek, M., M.A. Lewis and J. Volpe. 2005. Transmission 
dynamics of parasitic sea lice from farm to wild salmon. Proc. Royal 
Society B. 272: 689-696.
---------------------------------------------------------------------------
    Disease and parasite outbreaks also lead producers to administer 
antibiotics and other drugs, usually via feed to entire cages of fish. 
These drugs inevitably end up in marine ecosystems, where they select 
for resistant bacteria, sometimes in types of wild fish consumed by 
humans.\4\ In addition, their use results in foods from drug-treated 
animals--which many consumers prefer to avoid. It is possible to 
significantly reduce drug use through vaccine development, as salmon 
farmers have accomplished, to their credit. But, these vaccines have 
not eliminated problems with pathogens and drug use.
---------------------------------------------------------------------------
    \4\ Ervik A., Thorsen B., Eriksen V., Lunestad B, Samuelsen O.B. 
1994. Impact of administering antibacterial agents on wild fish and 
blue mussels Mytilus edulis in the vicinity of fish farms. Diseases of 
Aquatic Organisms. 18:45-51.
---------------------------------------------------------------------------
    3. Water pollution: Modern ``industrial'' farms or feedlots--
whether hog farms or fish farms--raise large numbers of animals in 
small areas, often using feeds imported from distant places. One common 
consequence is water pollution, as a significant fraction of the 
nutrients in feeds end up in the animals' wastes. In the case of fish 
pens or cages, there is no attempt to capture these wastes, which flow 
directly into surrounding waters.
    In a scientific paper I published last year with Rosamund Naylor at 
Stanford University (copy included),\5\ we estimated the potential 
impacts of waste discharges from a $5 billion U.S. aquaculture 
industry--a target figure used by NOAA. Using figures from salmon 
farming, we calculated that a $5 billion per year offshore aquaculture 
industry would discharge annually an amount of nitrogen equivalent to 
that in untreated sewage from 17.1 million people or the entire North 
Carolina hog industry of about 10 million hogs. Nitrogen is the 
nutrient primarily responsible for ``eutrophication,'' including algal 
blooms and dead zones, in marine waters.
---------------------------------------------------------------------------
    \5\ Goldburg, R. and R. Naylor. 2005. Future seascapes, fishing, 
and fish farming. Frontiers in Ecology and the Environment. 3:21-28.
---------------------------------------------------------------------------
    Of course, widely spaced marine fish farms sited in areas with 
strong currents would likely have little impact--an argument for moving 
marine fish farms out of the coastal zone and into marine waters. 
Nevertheless, fish farms may cluster geographically near infrastructure 
such as processing plants and transportation, just as terrestrial hog 
farms tend to do. If farms become large and clustered, or are sited in 
areas especially vulnerable to nutrient pollution, their water 
pollution impacts could be marked--just as water pollution has been a 
major impact of North Carolina's large, clustered hog farming industry.
    4. Farming carnivores: Most of the species targeted for offshore 
production, such as halibut, cobia, and Pacific threadfin (moi), are--
like farmed salmon--highly carnivorous. These fish are now raised on 
feeds with high levels of fish meal and fish oil made from wild caught 
fish. Until and unless new feed technologies are developed and 
commercialized, farming fish offshore will likely require two to four 
times more wild fish to be caught for their feed than is ultimately 
harvested.\6\ The resulting net loss of fish protein means that 
offshore fish farming is not an alternative to capture fishing, and may 
actually increase fishing pressure on wild fish populations as demand 
and prices rise for fish meal and fish oil. Moreover, the current 
practice of capturing massive quantities of small fish such as 
sardines, anchovies, and mackerel to manufacture feed, may deprive 
marine predators, including many commercially important fish, of the 
food they need to flourish.
---------------------------------------------------------------------------
    \6\ Naylor, R. and M. Burke. 2005. Aquaculture and ocean resources: 
Raising tigers of the sea. Ann. Rev. Environ. Resour. 30:1.1-1.34
---------------------------------------------------------------------------
    Farming carnivorous fish can also increase the amounts of 
environmental contaminants that consumers are exposed to in their food. 
Fish meal and oil can contain significant levels of chemicals such as 
PCBs. Several studies show that farmed salmon have higher 
concentrations of these contaminants in their flesh than most wild 
salmon. Without careful attention to the composition of fish feeds, 
offshore fish farming could not only increase pressure on wild 
fisheries but also produce relatively contaminated food products for 
U.S. consumers.

An Analysis of the Potential Cumulative Impacts of Offshore Aquaculture 
        Development Is Essential
    The environmental impacts of offshore aquaculture will depend, 
somewhat ironically, on the success of NOAA's push to develop offshore 
farms. Experimental or small-scale commercial fish farms, such as those 
now funded or subsidized by NOAA, are unlikely to have major 
environmental effects--as evidence to date confirms. But, what if 
offshore farming booms, and becomes a major means of food production, 
akin to the poultry or swine industries? What are the potential impacts 
on marine ecosystems and America's wild fisheries if NOAA policy 
``succeeds?''
    A number of environmental, fishing, and consumer organizations, 
including Environmental Defense, have repeatedly asked NOAA over the 
last 18 months or so to draft a legislative environmental impact 
statement for S. 1195. However, the agency has not done so.
    Nevertheless, an analysis of the potential cumulative impacts of 
offshore aquaculture is clearly essential if NOAA is to pursue offshore 
aquaculture in a careful and informed manner. Environmental Defense 
recommends that Congress require NOAA to complete such an assessment 
before legislation on offshore aquaculture is enacted.

NOAA's Offshore Aquaculture Legislation Lacks Provisions Essential To 
        Safeguard Marine Fisheries and Ecosystems
    Especially given the serious concerns about the impacts of offshore 
aquaculture development, it is critical that any pertinent legislation 
contain strong environmental safeguards. This case is argued 
persuasively by Stanford University scholar Rosamund Naylor in a Spring 
2006 paper published in the National Academy of Sciences' journal 
``Issues in Science and Technology'' (copy included).\7\ Unfortunately, 
S. 1195 lacks key mandates essential to protecting the marine 
environment and the public interest, three of which are detailed below.
---------------------------------------------------------------------------
    \7\ Naylor, R.L. 2006. Environmental safeguards for open-ocean 
aquaculture. Issues in Science and Technology. Spring issue: 53-58.
---------------------------------------------------------------------------
    Mandatory environmental standards: To provide adequate protections 
for marine fisheries and ecosystems, no permit for offshore aquaculture 
should be issued unless the permit will not result in any significant 
adverse impacts to marine fisheries and ecosystems. Permits should be 
consistent with environmental standards that include provisions to 
minimize the ecological and genetic impacts of escaped farmed fish (for 
example by prohibiting farming of non-native fish); prevent the spread 
of disease and parasites by farmed fish; require monitoring for water 
pollution; strictly limit alteration of marine habitat; encourage the 
use of feeds with reduced levels of fisheries products; and bar harm to 
marine wildlife.
    S. 1195 lacks such mandates for environmental protection, and 
instead gives NOAA enormous discretion to implement environmental 
standards the agency chooses to develop. S. 1195 thus appears to 
conflict with NOAA's own ``Code of Conduct for Responsible Aquaculture 
Development in the U.S. Exclusive Economic Zone,'' published in 2002, 
to provide guidance on marine aquaculture development. NOAA's Code 
stipulates that, ``aquaculture development in the EEZ will adopt the 
guiding principle of a precautionary approach combined with adaptive 
management to achieve sustainable development in offshore waters.'' 
Moreover, the Code includes provisions intended to minimize disease, 
parasites, chemical inputs, and impacts on wild stocks, and to protect 
local communities.
    Congress can also look to states for guidance. The State of 
California, which already bans the cultivation of salmon, non-native 
species and genetically-engineered organisms in marine fish farms, 
appears poised to enact legislation (S.B. 201) to mandate comprehensive 
environmental standards for farming of native fish species in the 
State's coastal waters. The California standards would address crucial 
issues, including selecting appropriate fish farm sites, preventing 
fish escapes, and minimizing use of fish-based feeds, drugs, and 
chemicals.
    Public participation and access to information: A transparent 
public process helps to ensure that offshore aquaculture will not harm 
ocean resources important to stakeholders outside the aquaculture 
industry. Yet, S. 1195 lacks any provisions concerning transparency, 
public notice, and public comment periods for permit applications, nor 
do existing Department of Commerce regulations speak to these matters. 
Although S. 1195 mandates that NOAA ``consult'' with regional Fisheries 
Management Councils before issuing a permit, it is unclear what such 
consultation would entail. As a result, it is conceivable that NOAA's 
permit process could largely escape public scrutiny if an applicant 
declared the information in a permit application ``confidential 
business information,'' or NOAA provided no public notice and comment 
period concerning the application.
    This lack of transparency and public process is contrary to NOAA's 
2002 ``Code,'' which urges both transparency and public participation. 
The public should have access to information in permit applications 
needed to evaluate the environmental impacts of proposed facilities, 
and public notice and comment should be required.
    Managing ocean resources to minimize conflicts and maximize public 
benefits: Offshore aquaculture is one among many oceans uses--such as 
energy production, conservation areas, and fishing--that affect the 
health and sustainability of ocean resources. A key conclusion of the 
U.S. Commission on Ocean Policy \8\ is that while the Federal 
Government should manage ocean resources for the maximum long-term 
benefit of the Nation, current uncoordinated and incoherent offshore 
management undermines such management. A shift toward ecosystem-based 
management of offshore resources coupled with a strengthened governance 
system is necessary to better conserve and manage ocean resources. 
Decisions regarding the establishment of standards and approval 
processes for offshore aquaculture should take into account the need to 
establish an offshore management regime for all ocean resources and 
activities.
---------------------------------------------------------------------------
    \8\ U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for 
the 21st Century.
---------------------------------------------------------------------------
    Ideally an offshore aquaculture system would operate within a 
broader offshore regime that minimized conflicts and meet environmental 
and economic objectives, including those of conservationists and 
fishermen. NOAA's 2002 Code of Conduct for Responsible Aquaculture 
urges that aquaculture zones be established to prevent conflicts and 
provide for efficient siting of facilities. Other areas might be off-
limits because they are fishing grounds, shipping lanes, military 
sites, National Marine Sanctuaries, recreational areas, and so on. 
Unfortunately, S. 1195 does not provide for such planning and 
governance, but rather establishes a national policy for offshore 
aquaculture development without adequate balance of other economic and 
conservation interests.
    S. 1195 also fails to require offshore aquaculture companies to pay 
back to the public a fair return for use of public trust resources. A 
key part of the government's commitment to maximizing the benefits to 
the Nation of public trust resources is compensation--called resource 
rents--for their use by the private sector. The principle of returning 
a fair portion of funds to the public is applied on land to ranchers, 
timber and mining companies, and in the ocean to oil and gas companies. 
Environmental Defense recommends that resource rents from offshore 
aquaculture be required and that they are applied to activities that 
protect and restore the ocean environment.

Conclusion
    NOAA's pursuit of offshore aquaculture development raises a number 
of concerns, based on experience with other types of marine 
aquaculture. These concerns are not purely environmental; degradation 
of marine ecosystems can harm fishermen's economic livelihoods, as well 
marine resources more broadly. Offshore aquaculture should only go 
forward following implementation of strong environmental safeguards, 
including assessment of potential cumulative impacts of aquaculture 
development. Appropriate legal requirements must be established to 
ensure that projects meet strong environmental standards, are subject 
to public process, and are consistent with a larger framework for ocean 
governance.
    These requirements may seem stiff, but it is now widely recognized 
that our oceans are finite and vulnerable to abuse. Offshore 
aquaculture should only proceed under a framework that recognizes what 
we now know is necessary to protect and restore the health of our 
oceans and all of us who depend on them.
    Thank you for your consideration.
                                 ______
                                 

                   The Ecological Society of America

              Future Seascapes, Fishing, and Fish Farming

                by Rebecca Goldburg and Rosamond Naylor

        The depletion of many marine fisheries has created a new 
        impetus to expand seafood production through fish farming, or 
        aquaculture. Marine aquaculture, especially of salmon and 
        shrimp, has grown considerably in the past two decades, and 
        aquaculturists are also beginning to farm other marine species. 
        Production data for salmon and shrimp indicate that farming 
        supplements, rather than substitutes for fishing. Since most 
        farmed marine fish are carnivores, farming them relies on the 
        capture of finite supplies of wild fish for use in fish feeds. 
        As aquaculture is not substituting for wild fisheries, heavy 
        dependence on wild fish inputs is a concern as marine 
        aquaculture grows. Other likely impacts include escapes of 
        farmed fish and large-scale waste discharges from fish farms. A 
        viable future for marine ecosystems will require incorporation 
        of ecological perspectives into polices that integrate fishing, 
        aquaculture, and conservation. Front Ecol Environ 2005; 3(1): 
        21-28.

    In a nutshell:

  <bullet> Fish farming appears to be supplementing, not substituting 
        for, capture fishing.

  <bullet> The growth in marine fish farming may lead to increased 
        competition for small fish, which serve as feed inputs for 
        farmed fish and as prey for commercially valuable predatory 
        wild fish.

  <bullet> Farming of new marine species may lead to increased impacts 
        from marine fish farming, including greater numbers of escaped 
        farmed fish that interact with wild fish, and significant 
        cumulative impacts from farm wastes.

  <bullet> Policies governing marine ecosystems must incorporate 
        ecological perspectives and integrate fishing, aquaculture, and 
        conservation objectives.

    People have long regarded the oceans as vast, inexhaustible sources 
of fish--a view reinforced by the copious catches of the past. Even 
when fish became scarcer or harder to catch, many people continued to 
assume that more fish were available (Kurlansky 1997). In the past 
decade or two, this view of fisheries has been transformed. Fisheries 
statistics suggest that annual global fish catches have plateaued at 
roughly 90 million metric tons (mt) per year (FAO 2002), or may even be 
declining (Watson and Pauly 2001). Global catch statistics present only 
part of the picture, however. Many fisheries are overfished or heading 
toward depletion (Hilborn et al. 2003). The mean trophic level of fish 
caught worldwide has declined substantially, in part because humans 
tend to consume larger, predaceous fish (Pauly et al. 2002; Hilborn et 
al. 2003). According to one estimate, commercial fishing has wiped out 
90 percent of large fish, including swordfish, cod, marlin, and sharks 
(Myers and Worm 2003).
    The oceans may now be poised for another transformation. Fisheries 
depletion has created new impetus to expand seafood production through 
fish farming, often known as aquaculture. Aquaculture is frequently 
cited as a way to increase seafood supply in a world where greater 
quantities of fish cannot be obtained from the oceans. It has become an 
increasingly important source of food; between 1992 and 2002, global 
production of farmed finfish and shellfish (``fish'') almost tripled in 
weight and nearly doubled in value (FAO 2003). Currently, roughly 40 
percent of all fish directly consumed by humans worldwide originate 
from commercial farms.
    To date, most aquaculture production has been of freshwater fish, 
such as carp and tilapia, in Asia (Naylor et al. 2000; FAO 2003). 
However, marine aquaculture, particularly production of salmon and 
shrimp, has been growing rapidly. Salmon aquaculture originated in 
Norway in the 1970s, and has since boomed worldwide. Global production 
of farmed salmon roughly quadrupled in weight from 1992 to 2002, and 
farmed salmon now constitute 60 percent of fresh and frozen salmon sold 
in international markets (FAO 2003). This spectacular increase and the 
resulting decline in salmon prices (Naylor et al. 2003) have encouraged 
aquaculturists to begin farming numerous other marine finfish species, 
many of them now depleted by overfishing. New species being farmed 
include Atlantic cod (Gadus morhua), Atlantic halibut (Hippoglossus 
hippoglossus), Pacific threadfin (Polydactylus sexfilis), mutton 
snapper (Lutjanus analis), and bluefin tuna (Thunnus spp).
    As with salmon, these new species are typically farmed in netpens 
or cages, anchored to the ocean bottom, often in coastal waters. In the 
U.S., where expansion of salmon farms in coastal waters has been met 
with local opposition and state-level restrictions, the U.S. National 
Oceanic and Atmospheric Administration (NOAA) is pursuing the 
development of large offshore aquaculture operations, primarily in the 
Exclusive Economic Zone (EEZ), away from coastal activities and beyond 
the reach of state laws (DOC 2004). In some areas, such as the Gulf of 
Mexico, there are plans to use offshore oil and gas rigs, some of which 
would otherwise have to be decommissioned, as platforms for new 
aquaculture facilities.
    Taken together, these developments signal a new trend in marine 
fisheries production, away from capture of wild fish to human-
controlled production. Supplementation of wild fish populations with 
hatchery-produced fish is also part of this trend, particularly since 
hatchery production of salmon set the stage for salmon farming.
    Does this mean that production of farmed fish will supplant wild 
fisheries in the future? Aquaculture development is sometimes promoted 
as a means to relieve the pressure on wild fisheries. Some authors 
argue that capturing fish is akin to hunting terrestrial animals for 
food, an activity that has almost entirely been replaced by farming 
livestock (e.g., Avery 1996). This comparison is imperfect, however, in 
part because fish tend to have much higher reproduction rates than 
warm-blooded land animals and therefore can generally sustain higher 
capture rates. Nevertheless, expanding production of farmed fish could 
lower prices and create economic conditions that, over time, will 
decrease investments in fishing.

Will fish farming supplant fishing?
    Recent experiences in the salmon and shrimp sectors provide 
insights into the dynamics of farmed and wild production. The late 
1980s marked a transition in global salmon markets. Quantities of both 
farmed stock and wild-caught fish jumped, causing total salmon output 
to increase from 776 thousand mt in 1988 to two million mt in 2001 
(Figure 2). Farmed salmon production reached 1,217 thousand mt in 2002, 
68 percent higher than the 722 thousand mt of wild-caught fish.
    Over 90 percent of the farmed product is composed of Atlantic 
salmon (Salmo salar), a species that is nearly extinct in the wild. 
With a high degree of consumer substitution among salmon species, 
prices for all species have fallen as a result of increased market 
supplies. Between 1988 and 2002, the price of farmed Atlantic salmon 
fell by 61 percent and the price declines for North American Pacific 
salmon ranged from 54 percent for chinook (Oncorhynchus tshawytscha) to 
92 percent for pink salmon (Oncorhynchus gorbuscha) (Naylor et al. 
2003).
    While global salmon catch has fluctuated between 720 thousand and 1 
million mt since 1989--during a time when aquaculture was expanding--
capture levels remain higher today than in the period leading up to 
1990, when salmon farming was insignificant in global markets. It would 
therefore be premature to conclude that salmon farming is supplanting 
wild capture worldwide.
    Moreover, ``wild'' salmon stocks are not entirely wild. Salmon 
capture has increased and salmon prices have fallen, in part because 
wild salmon populations have been supplemented by hatcheries. An 
estimated 4.4 billion salmon fry were released by hatcheries in Japan, 
the U.S., Russia, and Canada in 2001 (NPAFC 2004). Despite extremely 
low survival rates, hatchery fish currently account for one-third of 
the total salmon catch in Alaska (averaged across all species; ADFG 
2004) and virtually the entire chum catch of 211 thousand mt in Japan 
(FAO 2003; G. Knapp pers. comm.).
    Farming of marine shrimp in coastal ponds boomed during the same 
period as salmon farming, but the dynamics between farmed shrimp and 
wild-caught shrimp differ from those seen in salmon. There is no 
hatchery supplementation of wild shrimp, and market demand for shrimp 
from the US, Europe, and Japan is seemingly limitless. Commercial 
farmed shrimp production began in the late 1970s, grew substantially in 
the 1980s, and reached 42 percent of total shrimp production by 2001 
(Figure 3). At the same time, the quantities of wild-caught shrimp 
increased from 1.3 million mt in 1980 to about 1.8 million mt in 2001, 
and the total quantity of farmed and wild shrimp roughly doubled. 
Shrimp prices have generally fallen over this period; for example, 
prices for ``26/30 count'' frozen white shrimp (Litopenaeus vannamei) 
fell approximately 13 percent between 1990 and 2002 (H.M. Johnson pers. 
comm.). However, shrimp prices have been much more volatile than salmon 
prices (FAO 2003), in large part because outbreaks of various shrimp 
diseases have caused large country-specific fluctuations in shrimp 
numbers. Prices aside, the upward trend in shrimp capture indicates 
that aquaculture has not supplanted shrimp fishing globally.
    There are signs that at least some types of marine aquaculture may 
be decreasing fishing activity in some regions, despite the lack of 
clear evidence that salmon and shrimp aquaculture are replacing 
fishing. Many Alaskan salmon fishermen have seen their incomes decline 
and some have quit fishing altogether (Naylor et al. 2003, in press). 
Declining incomes for shrimp fishermen in the southern U.S. have led 
the fishermen to press for anti-dumping tariffs against a number of 
major shrimp farming countries (Hedlund 2004). Over time, aquaculture 
may reduce the volume of wild-caught fish. However, economic inertia in 
the fishing industry, due to capital investments in fishing vessels, an 
inelastic labor force, and government subsidies, may mean that the 
fishing industry is slow to reduce capture rates in response to price 
declines (Naylor et al. 2000; Eagle et al. 2004).

Ecological Impacts of Fish Farming
    The growth in marine aquaculture, and possibly also in hatchery 
production, will alter not just sources of marine fish and the 
economics of fishing, but may also transform the character of the 
oceans from relatively wild, or at least managed for fishing, to 
something more akin to agriculture. It is tempting to compare the 
future of the oceans to that of the North American prairie 150 years 
ago, which was mostly plowed under to grow crops. However, there are 
important differences. First, most marine fish farms will essentially 
be feedlots for carnivores, particularly if the salmon farming model is 
copied. Second, although fish farms are unlikely to occupy a large 
area, the ecological impact on marine resources could be much greater 
than the geographical extent of fish farms implies. This is because 
fish farming depends heavily on, and interacts with, wild fisheries.

Farming Carnivores
    One obvious consequence of the proliferation of aquaculture is that 
more marine resources are required as inputs. Over the past two 
decades, roughly 30 million mt per year--close to one third of the 
current annual global fish catch--has been used for the production of 
fishmeal and fish oil for animal feeds. An increasing proportion of 
this catch is used in fish farming, as aquaculture production grows and 
the livestock and poultry sectors replace fishmeal with less expensive 
ingredients. In 2001, 17.7 million mt of marine and freshwater farmed 
fish were fed fishmeal containing ingredients derived from 17-20 
million mt of wildcaught fish, such as anchovies, sardines, and capelin 
(Tacon 2003). Other farmed species, such as filter-feeding carp and 
mollusks, require no feeding.
    Most farmed marine finfish are carnivores and are much more 
dependent on wild fisheries for the fishmeal and fish oil used in fish 
feeds than are farmed freshwater fish, which tend to be herbivores or 
omnivores (Naylor et al. 2000; Delgado et al. 2003). Fishmeal (at 38 
percent) and oil (at 18 percent) are dominant components of salmon 
feeds (AGJ Tacon pers. comm.).
    Continued growth in marine aquaculture production could outstrip 
the current supply of fish used for fishmeal and oil production, 
potentially jeopardizing the industry's economic sustainability (Naylor 
et al. 2000; Delgado et al. 2003). In early 2004, fishmeal prices rose 
to $650 per ton, the highest price since the 1997-1998 El Nino event 
and close to the record high (CRB 1998; FAO 2004). Moreover, this price 
seems to reflect a longer-term trend rather than the result of a sudden 
climatic event. Because feeds account for a large share of variable 
costs, aquaculturists raising carnivorous species are increasingly 
replacing fish-based products with plant-based ingredients in fish 
feeds (Powell 2003), but not fast enough to reverse the trend in 
fishmeal use caused by rising aggregate production (Aldhous 2004).
    Farming salmon and other carnivorous marine fish represents a net 
loss of fish protein, as about two to five times more wild-caught fish 
are used in feeds than are harvested from aquaculture (Naylor et al., 
2000; Weber 2003). Some aquaculturists argue that catching small, low 
trophic level fish to feed large, high trophic level farm fish is 
desirable, because this is more efficient than leaving small fish in 
the ocean to be consumed by wild predatory fish caught by fishermen 
(Hardy 2001). The relative efficiency of fish farming versus fishing is 
difficult to quantify, in part because energy transfer between trophic 
levels in marine systems is not well documented, and some farmed 
species, such as marine shrimp, feed at a higher trophic level than 
they would in the wild. Nevertheless, fish farming is probably more 
efficient than catching wild fish, because farmed fish are protected 
from some causes of mortality, especially predators.
    Even if fish farming is comparatively efficient, its heavy 
dependence on wild fish inputs is both economically and ecologically 
problematic if aquaculture is supplementing, rather than substituting 
for, capture fisheries. Not only is the supply of these low trophic 
level fish finite, but the small fish used to make fishmeal and oil are 
critical food for wild marine predators, including many commercially 
valuable fish (Naylor et al. 2000).
    Growth in aquaculture may shift fishing pressure from output fish 
such as salmon to the input species used in feeds (Delgado et al. 
2003). Fisheries management has kept the total global catch of small 
fish for fishmeal and oil relatively constant in recent years. However, 
as demand for these commodities increases, rising prices could increase 
the incentives and therefore the political pressure to allow capture of 
a larger fraction of fish to produce meal and oil.
    On the other hand, if marine aquaculture does begin to supplant 
capture fisheries, the impetus will shift from managing the oceans for 
fisheries production to managing them for aquaculture production. In 
this scenario, capturing low trophic level wild fish for aquaculture 
feeds, with little concern for the effect on higher trophic level wild 
fish, could form the basis for economically rational--although not 
ecologically sound--ocean management.

Stocking the Oceans
    Another impact of the growth in marine aquaculture and 
supplementation of wild stocks stems from interactions between escaped 
farmed fish, hatchery fish, and wild fish. Escapes of farmed salmon 
from pens, both in episodic events and through chronic leakage, are 
well documented (Naylor et al. in review). The expansion of marine 
aquaculture and hatchery supplementation could substantially increase 
the numbers of introduced fish in marine waters.
    Numerous studies have documented the ecological damage caused by 
escaped farm fish, especially among wild salmon, although some authors 
have found otherwise (Waknitz et al. 2003). Depending on the location, 
these may include the introduction of non-native fish species and 
reduced fitness of wild fish as a result of interbreeding with escapees 
of the same species (McGinnity et al. 2003; Naylor et al. 2004). Ocean 
``ranching'' of hatchery fish, which are often genetically distinct 
from their wild counterparts, can cause similar problems (NRC 1996; 
Levin et al. 2001; Kolmes 2004). The impacts of fish escapes may not be 
recognized until they are irreversible (Naylor et al. 2004).
    Most of the literature on the harmful effects of interbreeding 
between introduced and wild fish concerns salmon. These anadromous fish 
spawn in freshwater and will not reproduce in ocean pens. Other truly 
marine finfish, such as cod, do produce fertilized eggs in ocean 
enclosures (Bekkevold et al. 2002). Although cages used for offshore 
farming are more secure than salmon netpens, neither pens nor cages 
will prevent fish eggs from escaping. Farming at least some fish 
species might lead to ``escapes'' on a much larger scale than is seen 
in salmon.
    One potentially mitigating factor is that populations of marine 
fish species may be less genetically differentiated than salmon, which 
have subpopulations adapted genetically to local conditions in river 
drainages. Salmon are therefore particularly prone to reduced fitness 
as a result of interbreeding with escaped, genetically distinct farmed 
and hatchery fish. Interbreeding may therefore have less genetic impact 
in truly marine fish species. All the same, some marine fish also have 
distinct subpopulations. Atlantic cod form aggregations that are 
genetically differentiated and there appears to be little gene flow 
between them (Ruzzante et al. 2001).
    Both hatchery supplementation and escapes have the potential to 
supplant wild fisheries by reducing their fitness as well as their 
market share. Ironically, salmon aquaculture has provided the fishing 
industry with incentives to restructure and become more efficient 
(Eagle et al. 2004), yet part of the response to date has been to 
release more hatchery fish, making up in volume what is lost in value. 
If aquaculture begins truly to replace capture fishing, however, the 
impetus for hatchery supplementation will be reduced. Meanwhile, 
escaped farmed fish and wild-farmed crosses are likely to become 
increasingly prevalent, unless new technology is developed that 
prevents the escape not only of adult fish but also of their gametes 
and embryos.

Nutrient Loading
    Most marine aquaculture is modeled after terrestrial feedlots or 
``industrial'' farms used to raise most hogs and poultry in the U.S. 
and elsewhere. Large numbers of animals are confined in a small area, 
and their feed imported, often from distant sources. Industrial animal 
facilities typically cluster geographically to benefit from economies 
of scale and favorable politics (L. Cahoon pers. comm.). One 
consequence is water pollution, since a substantial fraction of 
nutrients in animal feeds ends up in animal wastes, which often cannot 
all be assimilated by local croplands (Aneja et al. 2001; Gollehon et 
al. 2001; Mallin and Cahoon 2003). Water pollution from animal wastes 
is a major environmental issue in coastal North Carolina and other 
areas where animal production has concentrated.
    Waste from finfish netpens and cages flows directly into marine 
waters and, in contrast to terrestrial farms, there is usually no 
attempt to capture it. Nutrients and suspended solids discharged by 
salmon farms can have considerable effects on a local scale (Goldburg 
et al. 2001), although salmon farms sited in well flushed areas often 
have minimal impact on the quality of surrounding waters (Brooks and 
Mahnken 2003). Dilution of nutrients means that widely spaced marine 
fish farms sited in areas with strong currents will probably have 
little impact, an argument for moving marine aquaculture out of coastal 
waters and into the open ocean (Marine Research Specialists 2003).
    It is instructive to examine the potential cumulative impact of 
expanded marine aquaculture. NOAA's stated goal is the development of a 
$5 billion U.S. aquaculture industry by 2025. Using figures from salmon 
farming in British Columbia, we estimate how much nitrogen (N), the 
nutrient primarily responsible for eutrophication in marine waters, a 
$5 billion marine finfish aquaculture industry might discharge.
    Producing a kilogram of salmon releases approximately 0.02 to 0.03 
kg of N, excluding losses from uneaten feed (Brooks and Mahnken 2003). 
About 70,000 mt of salmon were produced in British Columbia in 2003 (C 
Matthews pers comm) with a gross domestic product value of C$91 
million, or approximately US$66 million (Marshall 2003). Thus the BC 
salmon farming industry discharged about 1,435 mt to 2,100 mt of 
nitrogen. Extrapolating from these figures, a $5 billion would 
therefore discharge approximately 108,000 mt to 158,000 mt of nitrogen 
per year.
    Americans excrete approximately 0.016 kg of N per day (Stipanuk 
2000). Assuming conservatively that a $5 billion aquaculture sector 
discharges 100,000 mt of N per year, this discharge is equivalent to 
the amount of N in untreated sewage from approximately 17.1 million 
people for 1 year.
    Every ton of hog waste contains about 12.3 lbs of N and a hog 
produces about 1.9 tons of waste per year (Shaffer 2004). Converting 
these numbers to metric figures, the North Carolina hog industry of 10 
million hogs (USDA 2004) produces about 106,000 mt of N per year--
roughly equivalent to the output from a $5 billion aquaculture 
industry.
    Thus a $5 billion marine finfish aquaculture industry would 
discharge annually an amount of N equivalent to that in untreated 
sewage from 17.1 million people or the entire North Carolina hog 
industry of about 10 million hogs. On the other hand, a $5 billion 
offshore aquaculture industry would produce only about one tenth of 1 
percent as much N as the 121 million mt annual biological nitrogen 
fixation in the world's oceans (Galloway 2003). On balance, therefore, 
the potential impacts of wastewater from marine aquaculture facilities 
are not cause for alarm, but should not be ignored, either, especially 
if such facilities are to be clustered geographically or sited in only 
moderately flushed areas.

Envisioning the Future
    A viable future for marine ecosystems will almost certainly require 
integrating management for fisheries, fish farming, and conservation. 
Even if aquaculture begins to supplant wild fisheries, this process 
will probably be gradual, and fisheries will continue to be a major 
component of seafood production for some time.
    Greatly improved fisheries management is essential (Pauly et al. 
2002). Current management is based largely on single species models for 
which there is often inadequate data and which do not reflect 
interactions in marine ecosystems. Many scientists have called for a 
more risk-averse, ecosystem-based approach to fisheries management (NRC 
1999; Dayton et al. 2002). As aquaculture grows, a more ecosystem-based 
approach will be critical in helping to balance the competing demands 
for low trophic level fish used either as feed or left in the oceans to 
support capture fisheries and conservation objectives. We are only just 
beginning to work out what an ecosystem-based approach to fisheries 
management should entail, so this is a topic that still requires 
extensive research (Pikitch et al. 2004).
    Improving fisheries management is not solely a matter of better 
management science. Economic (and therefore political) factors also 
play a major role. Fisheries are generally a ``commons'' and fishermen 
lack a financial incentive to leave fish in the water for the future 
(NRC 1999). Steps that would alter this economic distortion include the 
removal of fishing subsidies (Milazzo 1998), the use of tools such as 
individual fishing quotas that create long-term fishing rights and 
incentives for fisheries conservation (Fujita et al. 1996), and the 
establishment of consumer and corporate purchase preferences for more 
sustainably produced seafood (Duchene 2004). Although economic, policy, 
and business research on these and related subjects is largely outside 
this paper's ecological focus, the success of new approaches will need 
to be validated by biologists as well as other experts.
    Policy measures will also play a major role in marine aquaculture 
development. The Pew Oceans Commission (2003) called for a halt to the 
expansion of marine finfish farms until national standards and a 
comprehensive permitting authority are established for the siting, 
design, and operation of ecologically sustainable marine aquaculture 
facilities. Standards for environmentally sound marine finfish farming 
need to be defined, especially to implement NOAA's policies concerning 
offshore aquaculture development. Further research on the population 
genetics of marine fish species, related to the potential impacts of 
farmed fish escapes, is particularly important for setting standards. 
Innovative approaches to fish farming, as well as a better 
understanding of the potential cumulative impacts of large-scale ocean 
farming, could help marine aquaculture to become more environmentally 
sustainable.
    The industry is already addressing some important issues, driven at 
least partly by financial considerations. Feed is a major cost, and 
potential future increases in the price of fishmeal and fish oil could 
make it a larger one. There has already been a substantial reduction in 
the fishmeal and oil content of aquaculture feeds, and increased 
efficiency of feed use, particularly for salmonids (A.G.J. Tacon per. 
comm.).
    Identifying lower trophic level marine finfish suitable for farming 
may be another step toward more sustainable aquaculture. Integrated 
systems, in which mussels, seaweeds, and other species are grown in 
close proximity with finfish to recycle wastes, shows great promise 
(Neori et al. 2004), but a greater understanding of the interactions 
and processes that take place among jointly cultured species, as well 
as larger scale experimentation, are necessary to help make integrated 
marine aquaculture commercially viable (Troell et al. 2003). Market 
research on products from integrated systems is also needed, 
particularly if chemicals or pharmaceuticals are used in the finfish 
netpens.
    One recent, comprehensive analysis (Delgado et al. 2003) identifies 
fish, fishmeal, and fish oil as commodities almost certain to increase 
in price by the year 2020, while prices for commodities such as beef, 
eggs, and vegetable meals are likely to come down. Rising prices for 
fish will probably cause further exploitation of the oceans for fishing 
and aquaculture, and make competition for marine resources more 
intense. Protecting ocean resources may require deliberative processes 
to partition them--for example, designating certain areas of the ocean 
for certain uses or for non-use. The development of marine protected 
areas where fishing and other activities are not permitted is under 
active testing as a tool for both conservation and fisheries management 
(Lubchenco et al. 2003), but there has been little systematic 
investigation of possibilities for demarcating the ocean in other ways 
(e.g., temporally) or for other purposes (e.g., aquaculture).
    The future prospects for ocean fisheries appear grim, given current 
trends in fish production. Many capture fisheries are declining, and 
marine aquaculture--the alleged escape valve for fisheries--offers its 
own challenges, including a heavy dependence on robust fisheries 
resources. Establishing viable, long-term solutions to problems in 
fisheries and marine aquaculture will require the incorporation of 
ecological perspectives into the policies governing fisheries 
management, aquaculture systems, and the rationalization of ocean 
resources.

Acknowledgements
    We thank M. Burke, S. Lamster, L. Jantzen, and B. Goodman for 
comments and assistance, and the David and Lucile Packard Foundation 
for funding.
References
ADFG (Alaska Department of Fish and Game). 2004. Alaska Salmon 
            Enhancement Program--2003 Annual Report. Juneau: Alaska 
            Department of Fish and Game.
Aldhous P. 2004. Fish farms still ravage the sea: sustainable 
            aquaculture takes one step forward, two steps back. 
            www.nature.com/nsu/040216/040216-10.html. Viewed 25 June 
            2004.
Aneja V.P., Roelle P.A., Murray G.C., et al. 2001. Atmospheric nitrogen 
            compounds II: emissions, transport, transformation, 
            deposition and assessment. Atmos Environ 35: 1903-11.
Avery D. 1996. Farming: a fish story. Journal of Commerce September 27, 
            1996.
Bekkevold D., Hansen M.M., and Loeschcke V. 2002. Male reproductive 
            competition in spawning aggregations of cod (Gadus morhua 
            L). Mol Ecol 11: 91-102.
Brooks K.M. and Mahnken C.V.W. 2003. Interactions of Atlantic salmon in 
            the Pacific Northwest environment II: organic wastes. Fish 
            Res 62: 255-93.
CRB (Knight-Ridder Commodity Financial Research Bureau). 1998. 
            Commodity Yearbook. New York: John Wiley & Sons.
Dayton P.K., Thrush R., and Coleman F.C. 2002. Ecological effects of 
            fishing in marine ecosystems in the United States. 
            Arlington, VA: Pew Oceans Commission.
Delgado C.L., Wada N., Rosegrant M.W., et al. 2003. Fish to 2020: 
            supply and demand in changing global markets. Washington, 
            D.C.: International Food Policy Research Institute and 
            Penang, Malaysia: WorldFish Center.
DOC (Department of Commerce). 2004. U.S. Department of Commerce 
            Aquaculture Policy. www.lib.noaa.gov/docaqua/
            docaquapolicy.htm. Viewed 25 June 2004.
Duchene, L. 2004. Eco-buying ups the ante. Seafood Business 20: 1, 22-
            40.
Eagle J., Naylor R., Smith W.L., et al. 2004. Why farm salmon 
            outcompete fishery salmon. Mar Policy 28: 259-70.
FAO (Food and Agriculture Organization of the United Nations). 2002. 
            The state of world fisheries and aquaculture 2002. Rome, 
            Italy.
FAO (Food and Agriculture Organization of the United Nations). 2003. 
            FishStat--Fishery Information, Data and Statistics Unit, 
            Rome, Italy.
FAO (Food and Agriculture Organization of the United Nations). 2004. 
            International Commodity Prices website. www.fao.org/es/esc/
            prices/PricesServlet.jsp?lang=en&ccode. Viewed 25 June 
            2004.
Fujita R., Hopkins D.D., and Willey W.R. 1996. Creating incentives to 
            curb overfishing. Forum for Applied Research and Public 
            Policy 11: 29-34.
Galloway J.N., Dentener F.J., Capone D.G., et al. 2004. Nitrogen 
            cycles: past, present, and future. Biogeochemistry 70: 153-
            226.
Goldburg R.J., Elliott M.S., and Naylor R.L. 2001. Marine aquaculture 
            in the United States. Arlington, VA: Pew Oceans Commission.
Gollehon N., Caswell M., Ribaudo M., et al. 2001. Confined animal 
            production and manure nutrients. USDA ERS Agriculture 
            Information Bulletin No. 771. 40 pp, June 2001
Hardy R.W. 2001. Urban legends and fish nutrition, part 2. Aquaculture 
            27: 57-60.
Hedlund S. 2004. Antidumping cases cloud shrimp market. Seafood 
            Business 23: 1, 12.
Hilborn R., Branch T.A., Ernst B., et al. 2003. State of the world's 
            fisheries. Ann Rev Env Resour 28: 359-99.
Kolmes S.A.. 2004. Salmon farms and hatcheries. Environment 46: 40-43.
Kurlansky M. 1997. Cod: biography of the fish that changed the world. 
            New York: Penguin Books.
Levin P.S., Zabel R.W., Williams J.G., et al. 2001. The road to 
            extinction is paved with good intentions: negative 
            association of fish hatcheries with threatened salmon. P 
            Roy Soc Lond B 268: 1153-58.
Lubchenco J., Palumbi S.R., Gaines S.D., et al. 2003. Plugging a hole 
            in the ocean: The emerging science of marine reserves. Ecol 
            Appl 13 Supplement 2003, S3-S7.
Mallin M.A. and Cahoon L.B.. 2003. Industrialized animal production--a 
            major source of nutrient and microbial pollution to aquatic 
            ecosystems. Popul Environ 24: 369-85.
Marine Research Specialists. 2003. Hubbs-Sea World Research Institute 
            Platform Grace Mariculture Project final report.
Marshall D. 2003. Fishy business--the economics of salmon farming in 
            BC. British Columbia, Canada: Canadian Center for Policy 
            Alternatives.
McGinnity P., Prodohl P., Ferguson A., et al. 2003. Fitness reduction 
            and potential extinction of wild populations of Atlantic 
            salmon, Salmo salar, as a result of interactions with 
            escaped farm salmon. P Roy Soc Lond B 270: 2443-50.
Milazzo M. 1998. Subsidies in world fisheries: a re-examination. World 
            Bank Technical Paper No. 406.
Myers R.A. and Worm B. 2003. Rapid worldwide depletion of predatory 
            fish communities. Nature 423: 280-83.
Naylor R.L., Goldburg R.J., Primavera J.H., et al. 2000. Effect of 
            aquaculture on world fish supplies. Nature 45: 1017-29.
Naylor R., Eagle J., and Smith W. 2003. Salmon aquaculture in the 
            Pacific Northwest: a global industry with local impacts. 
            Environment 45: 18-39.
Naylor R., Hindar K., Fleming I., et al. Fugitive salmon: assessing 
            risks of escaped fish from aquaculture. In review.
Naylor R., Eagle J., and Smith W. Response of Alaska fishermen to 
            aquaculture and the salmon crisis. Proceedings of the 
            American Fisheries Society. In press.
Neori A., Chopin T., Troell M., et al. 2004. Integrated aquaculture: 
            rationale, evolution and state-of-the-art emphasizing 
            seaweed biofiltration in modern mariculture. Aquaculture 
            231: 361-91.
NPAFC (North Pacific Anadromous Fish Commission). 2004. 2001 Statistics 
            Tables. www.npafc.org. Viewed 25 June 2004.
NRC (National Research Council). 1996. Upstream: salmon and society in 
            the Pacific Northwest. Washington, D.C.: National Academy 
            Press.
NRC (National Research Council). 1999. Sustaining marine fisheries. 
            Washington, D.C.: National Academy Press.
Pauly D., Christensen V., Guenette S., et al. 2002. Toward 
            sustainability in world fisheries. Nature 418: 689-95.
Pew Oceans Commission. 2003. America's living oceans: charting a course 
            for sea change. Arlington, VA: Pew Oceans Commission.
Pikitch E.K., Santora C., Babcock E.A., et al. 2004. Ecosystem-based 
            fishery management. Science 305: 346-47.
Powell K. 2003. Fish farming: eat your veg. Nature 426: 378-79.
Ruzzante D.E., Taggart C.T., Doyle R.W., et al. 2001. Stability in the 
            historical pattern of genetic structure of Newfoundland cod 
            (Gadus morhua) despite the catastrophic decline in 
            population size from 1964 to 1994. Conserv Genet 2: 257-69.
Shaffer K.A. 2004. Livestock manure production rates and nutrient 
            content. North Carolina Agricultural Chemicals Manual. 
            College of Agriculture and Life Sciences, North Carolina 
            State University.
Stipanuk, M.H. 2000. Biochemical and physiological aspects of human 
            nutrition. Philadelphia, PA: WB Saunders.
Tacon A.G.J. 2003. Sustainable aquaculture feeds: an overview and 
            global perspective. Abstract, SEAfeeds Workshop, April 
            2003, Stirling, Scotland, UK.
Troell M., Hallig C., Neori A., et al. 2003. Integrated mariculture: 
            asking the right questions. Aquaculture 226: 69-90.
USDA (United State Department of Agriculture). 2004. National 
            Agricultural Statistics Service. 2002 Census of 
            Agriculture--State Data, Table 12. www.nass.usda.gov/
            census/census02/volume1/us/index1.htm. Viewed 23 June 2004.
Waknitz F.W., Iwamoto R.N., Strom M.S. 2003. Interactions of Atlantic 
            salmon in the Pacific Northwest IV. Impacts on the local 
            ecosystems. Fish Res 62: 307-28.
Watson R. and Pauly D. 2001. Systematic distortions in world fisheries 
            catch trends. Nature 414: 534-36.
Weber M.L. 2003. What price farmed fish: a review of the environmental 
            and social costs of farming carnivorous fish. Providence, 
            RI: SeaWeb Aquaculture Clearinghouse.

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
                                 ______
                                 

             Issues in Science and Technology, Spring 2006

          Environmental Safeguards for Open-Ocean Aquaculture

   Expanding aquaculture into federal waters should not be promoted 
 without enforceable national guidelines for the protection of marine 
                        ecosystems and fisheries

                         by Rosamond L. Naylor

    Because of continued human pressure on ocean fisheries and 
ecosystems, aquaculture has become one of the most promising avenues 
for increasing marine fish production. During the past decade, 
worldwide aquaculture production of salmon, shrimp, tuna, cod, and 
other marine species has grown by 10 percent annually; its value, by 7 
percent annually. These rates will likely persist and even rise in the 
coming decades because of advances in aquaculture technology and an 
increasing demand for fish and shellfish. Although aquaculture has the 
potential to relieve pressure on ocean fisheries, it can also threaten 
marine ecosystems and wild fish populations through the introduction of 
exotic species and pathogens, effluent discharge, the use of wild fish 
to feed farmed fish, and habitat destruction. If the aquaculture 
industry does not shift to a sustainable path soon, the environmental 
damage produced by intensive crop and livestock production on land 
could be repeated in fish farming at sea.
    In the United States, aquaculture growth for marine fish and 
shellfish has been below the world average, rising annually by 4 
percent in volume and 1 percent in value. The main species farmed in 
the marine environment are Atlantic salmon, shrimp, oysters, and hard 
clams; together they account for about one-quarter of total U.S. 
aquaculture production. Freshwater species, such as catfish, account 
for the majority of U.S. aquaculture output.
    The technology is in place for marine aquaculture development in 
the United States, but growth remains curtailed by the lack of 
unpolluted sites for shellfish production, competing uses of coastal 
waters, environmental concerns, and low market prices for some major 
commodities such as Atlantic salmon. Meanwhile, the demand for marine 
fish and shellfish continues to rise more rapidly than domestic 
production, adding to an increasing U.S. seafood deficit (now about $8 
billion annually).
    The U.S. Department of Commerce has articulated the need to reverse 
the seafood deficit, and under the leadership of its subagency, the 
National Oceanic and Atmospheric Administration (NOAA), has a stated 
goal of increasing the value of the U.S. aquaculture industry from 
about $1 billion per year currently to $5 billion by 2025. In order to 
achieve this goal, the Department of Commerce has set its sights on the 
Federal waters of the Exclusive Economic Zone (EEZ), located between 
the 3-mile state zone and 200 miles offshore, where the potential for 
aquaculture development appears almost limitless. The United States has 
the largest EEZ in the world, amounting to 4.5 million square miles, or 
roughly 1.5 times the landmass of the lower 48 states. Opening Federal 
waters to aquaculture development could result in substantial 
commercial benefits, but it also poses significant ecological risks to 
the ocean--a place many U.S. citizens consider to be the Nation's last 
frontier.
    On June 8, 2005, Commerce Committee Co-Chairmen Sens. Ted Stevens 
(R-AK) and Daniel Inouye (D-HI) introduced the National Offshore 
Aquaculture Act of 2005 (S. 1195). The bill, crafted by NOAA, seeks to 
support offshore aquaculture development within the Federal waters of 
the EEZ; to establish a permitting process that encourages private 
investment in aquaculture operations, demonstrations, and research; and 
to promote R&D in marine aquaculture science and technology and related 
social, economic, legal, and environmental management disciplines. It 
provides the secretary of Commerce with the authority and broad 
discretion to open Federal waters to aquaculture development, in 
consultation with other relevant Federal agencies but without firm 
environmental mandates apart from existing laws. The bill's proponents 
argue that fish farming in the open ocean will relieve environmental 
stress near shore and protect wild fisheries by offering an alternative 
means of meeting the rising demand for seafood. However, because it 
lacks a clear legal standard for environmental and resource protection, 
the bill's enactment would likely lead to a further decline in marine 
fisheries and ecosystems.
    The introduction of S. 1195 came as no surprise to the community of 
environmental scientists and policy analysts who have followed the 
development of aquaculture in the United States. In 1980, Congress 
passed the National Aquaculture Act to promote aquaculture growth, and 
in the process established the Joint Subcommittee on Aquaculture, an 
interagency body whose task was to provide coordination and seek ways 
to reduce regulatory constraints on aquaculture development. Despite 
these actions, local concerns and associated regulatory burdens have 
limited the expansion of marine aquaculture within the 3-mile 
jurisdiction of many states, and regulatory uncertainty has discouraged 
investment in offshore production between the 3-mile state zone and the 
200-mile EEZ. The Bush administration is now prepared to support 
efforts to streamline regulatory authority within the Federal waters of 
the EEZ, promote open-ocean aquaculture, and make the United States a 
more competitive producer of marine-farmed fish.
    Implementing S. 1195 would involve a two-tiered process: first, the 
creation of a law authorizing the leasing and permitting of open-ocean 
aquaculture facilities by the secretary of Commerce; and second, the 
start of rulemaking procedures within and among Federal agencies. If 
passed, the bill would allow NOAA to issue site and operating permits 
within Federal waters with 10-year leases, renewable for 5-year 
periods. Decisions on permit applications would be granted within 120 
days and would not require a lengthy inventory process to assess the 
state of marine resources at each site. The proposed legislation 
requires NOAA to ``consider'' environmental, resource, and other 
impacts of proposed offshore facilities before issuing permits; 
however, there is no requirement that NOAA actually identify and 
address those impacts before the permits and leases are granted. 
Similarly, the bill does not require that, during the permitting 
process, NOAA weigh the risks to the marine environment against the 
commercial benefits of aquaculture development.
    The pro-fish-farming language of S. 1195, without commensurate 
language on the conservation of ocean resources and ecosystems, is 
extremely worrisome. It is unlikely that ocean resources will be 
protected in the face of aquaculture development unless the statute 
requires specific language on environmental mandates--not just 
``considerations''--for the rulemaking and permitting processes.
    Open-ocean aquaculture encompasses a variety of species and 
infrastructure designs; in the United States, submersible cages are the 
model used for offshore finfish production. These cages are anchored to 
the ocean floor but can be moved within the water column; they are 
tethered to buoys that contain an equipment room and feeding mechanism; 
and they can be large enough to hold hundreds of thousands of fish in a 
single cage. Robotics are often used for cage maintenance, inspection, 
cleaning, and monitoring. Submersible cages have the advantage of 
avoiding rough water at the surface and reducing interference with 
navigation. A major disadvantage of offshore operations is that they 
tend to be expensive to install and operate. They require sturdier 
infrastructure than near-shore systems, they are more difficult to 
access, and the labor costs are typically higher than for coastal 
systems.
    The economic requirements of open-ocean aquaculture suggest that 
firms are likely to target lucrative species for large-scale 
development or niche markets. In the United States, moi is produced 
commercially far from shore in Hawaii state waters, and experiments are 
being conducted with halibut, haddock, cod, flounder, amberjack, red 
drum, snapper, pompano, and cobia in other parts of the country. Tuna 
is another likely candidate for offshore development. Altogether, about 
500 tons of fish are currently produced each year in submersible cages 
in the United States, primarily within a few miles of shore. The 
technology appears to have real promise, even though it is not yet 
economically viable for commercial use in most locations, and it is not 
yet deployed widely in Federal waters far from shore.
    Some of the species now farmed in open-ocean cages, such as bluefin 
tuna, Atlantic cod, and Atlantic halibut, are becoming increasingly 
depleted in the wild. Proponents of offshore aquaculture often claim 
that the expansion of farming into Federal waters far from shore will 
help protect or even revive wild populations. However, there are 
serious ecological risks associated with farming fish in marine waters 
that could make this claim untenable. The ecological effects of marine 
aquaculture have been well documented, particularly for near-shore 
systems, and are summarized in the 2005 volumes of the Annual Review of 
Environment and Resources, Frontiers in Ecology (February), and 
BioScience (May). They include the escape of farmed fish from ocean 
cages, which can have detrimental effects on wild fish populations 
through competition and interbreeding; the spread of parasites and 
diseases between wild and farmed fish; nutrient and chemical effluent 
discharge from farms, which pollutes the marine environment; and the 
use of wild pelagic fish for feeds, which can diminish or deplete the 
low end of the marine food web in certain locations.
    Because offshore aquaculture is still largely in the experimental 
phase, its ecological effects have not been widely documented, yet the 
potential risks are clear. The most obvious ecological risk of offshore 
aquaculture results from its use of wild fish in feeds, because most of 
the species being raised in open-ocean systems are carnivorous. If 
offshore aquaculture continues to focus on the production of species 
that require substantial quantities of wild fish for feed--a likely 
scenario because many carnivorous fish command high market prices--the 
food web effects on ecosystems that are vastly separated in space could 
be significant.
    In addition, although producers have an incentive to use escape-
proof cages, escapes are nonetheless likely to occur as the offshore 
industry develops commercially. The risks of large-scale escapes are 
high if cages are located in areas, such as the Gulf of Mexico, that 
are prone to severe storms capable of destroying oil rigs and other 
sizable marine structures. Even without storms, escapes frequently 
occur. In offshore fish cages in the Bahamas and Hawaii, sharks have 
torn open cages, letting many fish escape. In addition, farming certain 
species can lead to large-scale ``escapes'' from fertilization. For 
example, cod produce fertilized eggs in ocean enclosures, and although 
ocean cages are more secure than near-shore net pens, neither pens nor 
cages will contain fish eggs. The effects of such events on native 
species could be large, regardless of whether the farmed fish are 
within or outside of their native range. At least two of the candidate 
species in the Gulf of Mexico (red drum and red snapper), as well as 
cod in the North Atlantic, have distinct subpopulations. Escapes of 
these farmed fish could therefore lead to genetic dilution of wild 
populations, as wild and farmed fish interbreed.
    Offshore aquaculture also poses a risk of pathogen and parasite 
transmission, although there is currently little evidence for disease 
problems in offshore cages. In general, however, large-scale intensive 
aquaculture provides opportunities for the emergence of an expanding 
array of diseases. It removes fish from their natural environment, 
exposes them to pathogens that they may not naturally encounter, 
imposes stresses that compromise their ability to resist infection, and 
provides ideal conditions for the rapid transmission of infectious 
agents. In addition, the production of high-valued fish often involves 
trade in live aquatic animals for bait, brood stock, milt, and other 
breeding and production purposes, which inevitably results in 
transboundary spread of disease. The implications of open-ocean farming 
for pathogen transmission between farmed and wild organisms thus 
remains a large and unanswered question. Moreover, pathogen 
transmission in the oceans is likely to shift in unpredictable ways in 
response to other human influences, particularly climate change.
    Even the claim that open-ocean aquaculture provides ``a dilution 
solution'' to effluent discharge may be disputed as the scale of 
aquaculture operations expands to meet economic profitability criteria. 
The ability of offshore aquaculture to reduce nutrient pollution and 
benthic effects will depend on flushing rates and patterns, the depth 
of cage submersion, the scale and intensity of the farming operations, 
and the feed efficiency for species under cultivation. Scientific 
results from an experimental offshore system in New Hampshire indicate 
no sedimentation or other benthic effects, even when the cages are 
stocked with more than 30,000 fish. However, commercial farms will 
likely have 10 or more times this density in order to be economically 
viable; commercial salmon farms commonly stock 500,000 to a million 
fish at a site. It is not a stretch to imagine a pattern similar to 
that of the U.S. industrial livestock sector, with large animal 
operations concentrated near processing facilities and transportation 
infrastructure, and in states with more lenient environmental 
standards.
    An essential question in the debate thus remains: What is the 
vision of the Department of Commerce in developing offshore 
aquaculture? If the vision is to expand offshore production to a scale 
sufficient to eliminate the $8 billion seafood deficit, the ecological 
risks will be extremely high.
    In 2003 and 2004, the U.S. Commission on Ocean Policy and the Pew 
Oceans Commission completed their reports on the state of the oceans 
and suggested various policy reforms. Both reports acknowledged the 
rising role of aquaculture in world markets, described its effects on 
ocean ecosystems, and recommended NOAA as the lead Federal agency to 
oversee marine aquaculture in the United States. The main difference 
between the reports is captured in the recommendations. Whereas the 
U.S. Commission recommended that the United States pursue offshore 
aquaculture, acknowledging the need for environmentally sustainable 
development, the Pew Commission recommended a moratorium on the 
establishment of new marine farms until comprehensive national 
environmental standards and policy are established. The drafting of S. 
1195 clearly follows the U.S. Commission approach but uses even weaker 
environmental language, which allows for multiple interpretations and 
no clear mandate on marine resource and ecosystem protection.
    The main problem with the proposed legislation is the broad 
discretion given to the secretary of Commerce to promote offshore 
aquaculture without clear legal standards for environmental protection. 
The authority is intended to facilitate a streamlining of regulations, 
yet it provides minimal checks and balances within the system. The bill 
states that the secretary ``shall consult as appropriate with other 
Federal agencies, the coastal states, and regional fishery councils . . 
. to identify the environmental requirements applicable to offshore 
aquaculture under existing laws and regulations.''An implicit 
assumption of the bill is that most of the needed environmental 
safeguards are already in place. Additional environmental regulations 
targeted specifically for offshore aquaculture are to be established in 
the future ``as deemed necessary or prudent by the secretary'' in 
consultation with other groups. Yet timing is everything. If the law is 
passed without the establishment of comprehensive national guidelines 
for the protection of marine species and the environment--and the 
requirement that these guidelines be implemented--such protection may 
never happen, or it may happen after irreversible damages have 
occurred.
    Are current Federal laws sufficient to protect the environment in 
the EEZ? The answer is no. As a framework, they leave major gaps in 
environmental protection. The Rivers and Harbors Act gives the Army 
Corps of Engineers the authority to issue permits for any obstruction 
in Federal waters (including fish cages) but does not provide clear 
environmental mandates. The Corps has the broad discretion to ensure 
environmental quality but is not required to do so. The Outer 
Continental Shelf Lands Act extends this authority farther offshore 
beyond the territorial waters of the EEZ and applies to any offshore 
facilities that are anchored on or up to 1 mile from offshore oil rigs; 
in this case, further permit approval is required from the Department 
of Interior. The Clean Water Act gives the Environmental Protection 
Agency (EPA) the authority to regulate waste discharges from 
aquaculture facilities, but the agency's recent effluent guidelines for 
aquaculture net pens, which presumably would be applied to offshore 
cages, focus simply on the use of best management practices. 
Aquaculture discharge is not currently regulated through the National 
Pollution Discharge Elimination System (NPDES), the permitting system 
used for municipal and industrial point-source discharge to U.S. 
waters. The Endangered Species Act and the Marine Mammal Protection Act 
both are applicable in the EEZ and can be used to limit offshore 
aquaculture operations if they are proven to threaten any listed 
threatened or endangered species, or if they unlawfully kill marine 
mammals. In addition, the Lacey Act gives the U.S. Fish and Wildlife 
Service the authority to regulate the introduction of exotic species in 
Federal waters if they have been listed specifically as ``injurious'' 
to other species. The Lacey Act applies to any species that are 
transported or traded across borders, but not to species that already 
exist within borders. Finally, all international treaties and protocols 
would apply to offshore aquaculture in the EEZ.
    The only Federal law that the proposed bill would explicitly 
supersede is the Magnuson-Stevens Act (MSA) of 1976, which stipulates a 
balance between fishing and conservation. S. 1195 does not include any 
specific balancing requirements between ecosystems and industry. 
Regional fishery management councils established under the MSA as well 
as the public would be consulted in the process of environmental 
rulemaking but would not have a determining effect on the outcome.
    Although S. 1195 supersedes only one Federal law, existing 
legislation does not adequately address the major risks of farmed fish 
escapes and genetic dilution of wild stocks, pathogen transmission from 
farms to wild organisms, and cumulative effluent discharge. Most 
existing laws and regulations for marine aquaculture are found at the 
state level, where current near-shore systems operate. Few states have 
comprehensive regulatory plans for marine aquaculture, and there are no 
regional plans that address the risks of biological, chemical, or 
nutrient pollution that spreads from one coastal state to the next.
    The proposed bill gives coastal states an important role in 
influencing the future development of offshore aquaculture. Indeed, 
coastal states would be permitted to opt out of offshore aquaculture 
activities. The bill states that offshore aquaculture permits will not 
be granted or will be terminated within 30 days if the secretary of 
Commerce receives written notice from the Governor of a coastal state 
that the state does not wish to have the provisions of the act apply to 
its seaward portion of the EEZ. The Governor can revoke the opt-out 
provision at any time, thus reinstating NOAA's authority to issue 
permits and oversee aquaculture operations in that portion of the EEZ. 
Although the bill does not grant coastal states any jurisdiction over 
that part of the EEZ, it does provide them with potential exclusion 
from offshore aquaculture activities.
    This amendment ensures a role for coastal states that is stronger 
than that which would apply through the Consistency Provision (section 
307) of the Coastal Zone Management Act (CZMA). Section 307 of the CZMA 
requires that federally permitted projects be consistent with select 
state laws that safeguard coastal ecosystems, fisheries, and people 
dependent on those fisheries (collectively called the state's ``coastal 
zone management program''). To complete the permitting process for an 
offshore aquaculture project, the project applicant must certify the 
project's consistency with the state's coastal zone management program 
to NOAA. Even if the state objects to the applicant's consistency 
certification, the secretary of Commerce can override the state's 
objection and issue the permit simply by determining that the project 
is consistent with the objectives or purposes of the Federal Coastal 
Management Act or that the project is necessary in the interest of 
national security. Thus, the Department of Commerce retains ultimate 
authority over whether state laws apply to the EEZ.
    Although the decision by different coastal states to opt out of the 
proposed offshore aquaculture bill is yet to be determined, some states 
have already adopted policies related to aquaculture development within 
state waters. In Alaska, state law prohibits finfish farming within the 
3-mile state zone. In Washington, House Bill 1499 allows the Washington 
Department of Fish and Wildlife to have more control over environmental 
damages caused by near-shore salmon farming. In California, salmon 
farming and the use of genetically modified fish are prohibited by law 
in marine waters, and a new bill currently being reviewed in the state 
assembly (SB. 210) requires strict environmental standards for all 
other forms of marine aquaculture introduced into state waters. The 
California legislation, in particular, provides an excellent model for 
a redrafting of the National Offshore Aquaculture Act.

The Need for National Environmental Standards
    Whether environmentalists like it or not, marine aquaculture is 
here to stay and will inevitably expand into new environments as global 
population and incomes grow. Although the United States is in a 
position to make itself a global model for sustainable fish production 
in the open ocean, the proposed bill unfortunately falls far short of 
this vision. Pursuant to the recommendations of the Pew Commission, an 
aggressive marine aquaculture policy is needed at the national level to 
protect ocean resources and ecosystems. Within this policy framework, 
several specific features are needed:

  <bullet> The establishment of national environmental standards for 
        siting and operation that minimize adverse effects on marine 
        resources and ecosystems and that set clear limits on allowable 
        ecological damage.

  <bullet> The establishment of national effluent guidelines through 
        the EPA for biological, nutrient, and chemical pollution from 
        coastal and offshore fish farms, using NPDES permits to 
        minimize cumulative effluent impacts.

  <bullet> The establishment of substantive liability criteria for 
        firms violating environmental standards, including liability 
        for escaped fish and poorly controlled pathogen outbreaks.

  <bullet> The establishment of rules for identifying escaped farm fish 
        by their source and prohibiting the use of genetically modified 
        fish in ocean cages.

  <bullet> The establishment of a transparent process that provides 
        meaningful public participation in decisions on leasing and 
        permitting of offshore aquaculture facilities and by which 
        marine aquaculture operations can be monitored and potentially 
        closed if violations occur.

  <bullet> The establishment of royalty payments process for offshore 
        aquaculture leases that would compensate society for the use of 
        public Federal waters.

    At the same time, firms exceeding the minimum standards should be 
rewarded, for example, through tax breaks or reductions in royalty 
fees, in order to encourage environmental entrepreneurship and 
international leadership. By articulating a comprehensive set of 
environmental standards and incentives within the draft of the law, the 
bill would gain acceptance by a broad constituency interested in the 
sustainable use of ocean resources.
    Proponents of offshore aquaculture might argue that these 
recommendations hold the industry to exceedingly high standards. Yes, 
the standards are high, but also essential. There is now a widespread 
realization that the ability of the oceans to supply fish, assimilate 
pollution, and maintain ecosystem integrity is constrained by the 
proliferation of human activities on land and at sea. Offshore 
aquaculture could help to alleviate these constraints, but only if it 
develops under clear and enforceable environmental mandates.

    Senator Sununu. Thank you, Doctor. Mr. Belle, welcome.

    STATEMENT OF SEBASTIAN BELLE, EXECUTIVE DIRECTOR, MAINE 
                    AQUACULTURE ASSOCIATION

    Mr. Belle. Thank you very much, Mr. Chairman, members of 
the Subcommittee, and a particular thanks to Senator Snowe for 
all her hard work. Her constituents appreciate it, and we know 
you have worked hard down here. My name is Sebastian Belle. I 
am the Executive Director of the Maine Aquaculture Association. 
The Maine Aquaculture Association is the oldest state 
aquaculture association in the country. We represent finfish 
and shellfish growers that grow fish and shellfish in both 
fresh and saltwater. Based on farm gate value sales, we have 
about an $80 million industry on an average year in the State 
of Maine. We have been operating for over 20 years. The first 
farm went in 30 years ago in Maine, and I would like to say a 
couple things before I start. The challenges that have been 
identified by the previous witnesses are fair and real. The 
concerns are fair and real. Solutions are possible, and I would 
encourage you to look to Maine and our experience there in 
terms of how we have balanced these concerns and the ability to 
have a sustainable development over the last 20 years. I think 
we have learned a lot. We have made some mistakes. But the 
solutions are out there, and the problems are not 
insurmountable. I'm going to make two general comments, and 
then I would like to focus on a couple of the specifics of the 
bill. If we don't do it, somebody else will, and I think the 
case of Alaska is a great example. Although Alaska moved early 
to prohibit salmon farming, farmed salmon supplies now exceed 
wild catches worldwide. Salmon farming has developed rapidly in 
other countries irrespective of Alaska's prohibition on salmon 
farming. This has happened because aquaculture development 
worldwide is being driven by strong fundamental economic 
trends. If somebody else does it, environmental risks will be 
larger, not smaller, and I have firsthand experience in that. I 
have worked in many other countries around the world where 
aquaculture is growing much more rapidly than in the United 
States. Many of those countries have little or no environmental 
restrictions, and we are eating the seafood coming from those 
countries in this country. If we do not allow a competitive 
domestic aquaculture industry to develop in this country, we 
will in part be contributing to environmental impacts in other 
places in the world, and I think we need to understand that and 
be prepared to accept responsibility for that. Finally, I'd 
like to say that balanced development between commercial 
fisheries and aquaculture is achievable. We have done it for 20 
years in Maine. If we can do it in nearshore locations in Maine 
with significant commercial fisheries, diverse and healthy 
marine ecosystems, extensive recreational use and commercial 
shipping, it can be done in the EEZ. It takes time, patience, 
hard work, and agency resources, but it can and has been done 
successfully. Whether aquaculture products are produced in the 
U.S. or overseas has little to do with whether these products 
will compete with wild products. As highlighted in my previous 
points, the United States has a choice. We can either allow the 
development of domestic aquaculture, help it compete with 
overseas producers, and ensure a balance between commercial 
fishing and aquaculture interests. Conversely, we can prohibit 
domestic aquaculture and force our domestic commercial 
fisheries to compete directly with low-cost, unregulated 
overseas aquaculture producers. A couple of specific points on 
the bill--the site permits, and I think Mr. Cates alluded to 
this, the site permits are initially issued for 10 years and 
then renewed for 5 years. From the private sector's point of 
view, the investment and time involved in developing an 
offshore operation is extensive. There is a lot of money 
involved. A 10-year time horizon is too short. Very few 
investors are going to invest if their leasehold is only for 10 
years. It's particularly concerning that the 5-year renewal 
period is shorter than the initial period. You would assume 
that if somebody was out there and had been operating for a 
period of 10 years, that they would have a track record, and 
that, in fact, the renewal would be for a longer period, not a 
shorter period. During the permit review process, S. 1195 
requires the Secretary to consult with other Federal agencies. 
S. 1195 further requires that the Secretary renders a permit 
decision within 120 days of the application being deemed 
complete. S. 1195 contains no requirement for the timely reply 
by other Federal agencies to the Secretary's request for 
consultation and review. S. 1195 should establish a time 
shorter than 120 days within which other Federal agencies must 
reply to the Secretary. This requirement should include a 
provision that clarifies that a lack of reply within that time 
period constitutes agreement by other Federal agencies to the 
permit's issuance. If regional fisheries management councils 
are consulted, this provision should apply to them as well. My 
final comment is on the State opt-out. I have worked for a 
period of my career for a state agency, and I have a great deal 
of respect for state's rights and the ability for states to 
determine their own future. Having said that, the amendment 
769, as it's written now, my interpretation is that it would 
significantly reduce investor confidence and decrease the 
likelihood of investment due to its impact on the security of 
their investment. Any aquaculture operation that has gone 
through all the permitting processes and is being operated 
responsibly and in good faith could have its license to do 
business revoked without cause with 30 days notice. No investor 
is likely to move forward with a project with that level of 
uncertainty and risk. If a State wants to opt-out as a matter 
of policy prior to the initiation of any permit applications, 
it should have the right to do that as that opt-out will have 
direct impacts on the economic potential of Federal waters that 
all U.S. citizens have an interest in. That State should be 
required to justify the grounds for the opt-out and document 
the economic impacts of the opt-out on the national economy. 
Thank you very much for your time.
    [The prepared statement of Mr. Belle follows:]

      Prepared Statement of Sebastian Belle, Executive Director, 
                     Maine Aquaculture Association

    Senator Stevens, Senator Sununu, Honorable Members of the U.S. 
Senate Committee on Commerce, Science, and Transportation, Subcommittee 
on National Ocean Policy Study:
    Thank you for providing me the opportunity to speak with you today. 
My name is Sebastian Belle and I am the Executive Director of the Maine 
Aquaculture Association (MAA). The MAA is the oldest state aquaculture 
association in the country. We represent aquatic farmers who grow both 
shellfish and finfish in salt and freshwater farms. We also represent 
the many infrastructure companies that provide goods and services to 
our producers. Based on farm gate sales, Maine has been the number one 
marine aquaculture state for 10 of the last 15 years. On an average 
year, our members grow products worth over $80 million at the farm 
gate.
    I stand before you today to testify in support of S. 1195, ``The 
National Offshore Aquaculture Act of 2005''. S. 1195 establishes a 
framework through which the Department of Commerce can oversee the 
development of aquaculture in Federal waters referred to hereafter as 
the EEZ.
    I would like to begin my testimony with some general comments and 
then respectfully suggest a few specific modifications that would be 
constructive from the private sector's perspective. I will start with a 
disclaimer. MAA has a diverse membership that ranges from mom-and-pop 
owner operated farms to larger corporately-owned farms. My comments 
today are my own and are based on my experience of 30 years in 
commercial fishing and aquaculture. Given our diverse membership, any 
number of my members may submit comments directly. I would encourage 
the Committee to carefully review those comments as well.
General Comments

1. If We Don't Do it Someone Else Will
    Perhaps the best example of this is in Alaska. Although Alaska 
moved early to prohibit salmon farming, farmed salmon supplies now 
exceed wild catches worldwide. Salmon farming has developed rapidly in 
other countries irrespective of Alaska's prohibition. This has happened 
because aquaculture development worldwide is being driven by strong 
fundamental economic trends. According the Food and Agricultural 
Organization, wild fisheries landings for direct human consumption have 
been flat since the late 1980s. Seafood demand is increasing, per 
capita consumption of seafood in the United States alone has risen 1.8 
pounds since 2001. World aquaculture production has increased steadily 
from 20.8 million metric tons (MMT) in 1994 to over 40 mmt in 2003. 
Whether the U.S. allows offshore aquaculture development or not, 
experts expect these trends to continue.
    Countries like China, Japan, Norway, Canada, and Ireland have 
embraced aquaculture development as a way to supply domestic markets, 
diversify coastal economies, preserve working waterfronts, employ 
fishermen displaced by conservation measures, secure national food 
supplies and address trade imbalances through increased exports. The 
choice we have is not will aquaculture expand but whether we as a 
Nation want to be producers or consumers. For all of the reasons cited 
above I would argue we need to be producers to protect our countries 
interests and give working waterfront families another way to continue 
their maritime heritage.

2. If Someone Else Does It, Environmental Risk Will Be Larger
    Like any human activity, aquaculture involves risk and can have 
environmental impacts. With good science, political will and technical 
expertise impacts can be prevented and/or mitigated. Achieving a 
balance between conservation and economic development is possible. In 
Maine, we currently have some of the strictest aquaculture 
environmental regulations and monitoring requirements in the world. We 
also have the most extensive and diverse marine aquaculture sector of 
any State in the Nation. I have worked in 14 different countries 
growing over 15 species using a number of different production methods. 
I have seen firsthand both the potential and the risks aquaculture 
development poses. If aquaculture is only allowed to develop overseas 
it will develop in jurisdictions that often have no environmental 
standards or enforcement. The environmental risk and potential damage 
of those operations will be much larger than operations allowed to 
develop in the U.S. under the framework proposed in S. 1195. If the 
environmental community is sincere about its environmental concerns it 
should support S. 1195 and work to ensure that any environmental 
regulations promulgated as a result achieve a reasonable balance 
between environmental protection and sustainable development. If S. 
1195 fails or environmental restrictions are so severe that no 
investment occurs, we will all bear the responsibility of increased 
environmental impacts in jurisdictions with lesser environmental 
oversight.

3. Build it and They Will Come Is Not Enough
    S. 1195 authorizes the Secretary of Commerce to establish a policy 
framework and rules designed to facilitate aquaculture development in 
the EEZ. It is an important first step. It will not in and of itself 
ensure investment and aquaculture development. Investment and 
development will only occur if the business community has confidence 
that its investments will be safe and will yield a reasonable return.
    Investor confidence is impacted by many factors. One of these is 
the level of commitment demonstrated and resources allocated by 
government to business development. Our competitors in other producing 
regions have aggressive regional and national aquaculture development 
programs that support and promote aquaculture development. Last year, 
for example, the Canadian province of Nova Scotia spent $45 million to 
support and promote the development of marine aquaculture. In Ireland, 
where aquaculture is viewed as a rural development tool, an 
entrepreneur starting an aquaculture business can get 30 percent of 
their initial capital investment as an outright grant. Not a loan, not 
a loan guarantee, but a grant. In Japan, whose coastlines are already 
highly developed, local prefectures (similar to our states) spend 
millions of dollars each year to support and assist local aquaculture 
cooperatives.
    NOAA Fisheries is a professional, hard working group of natural 
resource managers. With limited resources and multiple challenges they 
do a difficult job under very difficult circumstances. Currently, the 
Division has over 50 percent of its staff persons working on protected 
resources and endangered species. The remaining staff is principally 
involved in research and management of commercial fisheries The focus 
of most of this work is related to stock assessments, reductions in 
fishing capacity and allocation of resources between various 
constituencies. NOAA fisheries predecessor NMFS did play an important 
development role for the decade after the passage of the original 
Magnuson-Stevens Act. If the potential of S. 1195 is to be realized, 
the U.S. must invest significant funds in a targeted National 
Aquaculture Development Program. This program should not focus on 
research or demonstration projects but on commercial aquaculture 
development and support. This program should include funds and 
personnel who are responsible for assisting potential aquaculture 
entrepreneurs in project development and permitting. The program should 
have a financing component to assist with start-up funds and the 
development of investment incentive programs. We did it for land-based 
agriculture and commercial fisheries. These sectors are now vital to 
our rural economies and national security. We need to do the same for 
domestic aquaculture development so that it too can contribute to our 
Nation's future.

4. Balanced Development Between Commercial Fisheries and Aquaculture Is 

        Achievable
    A number of groups have regularly asserted that commercial fishing 
and aquaculture constituencies are inherently in conflict. These 
assertions generally focus on conflicts over space, market share or 
potential environmental impacts. Conflicts over space and potential 
environmental impacts can be addressed through appropriate permitting 
and monitoring procedures. We have done it for twenty years in Maine. 
If we can do it in near shore locations in Maine with significant 
commercial fisheries, diverse and healthy marine ecosystems, extensive 
recreational use and commercial shipping, it can be done in the EEZ. It 
takes time, patience, hard work and agency resources, but it can and 
has been done successfully.
    Conflicts over markets are more complicated. Aquaculture and wild 
fisheries products have at times competed in the market. Seafood 
markets have changed dramatically in the last twenty years. 
International and domestic distribution channels are more efficient. 
Consumers demand a diverse array of product forms that must be high 
quality, consistently available at a reasonable price. The most 
effective way to address market conflicts is through product 
differentiation, market segmentation and market expansion. This is 
happening very fast in seafood markets and aquaculture companies are 
leading the way in these trends.
    Whether aquaculture products are produced in the U.S. or overseas 
have little to do with whether these products compete with wild 
products. As highlighted in Point 1 above, the United States has a 
choice. We can either allow the development of domestic aquaculture, 
help it compete with overseas producers and ensure a balance between 
commercial fishing and aquaculture interests. Conversely, we can 
prohibit domestic aquaculture and force our domestic commercial 
fisheries to compete directly with low cost unregulated overseas 
aquaculture production.

Specific Comments
1. Page 5, Line 19
    Strike ``belonging to sedentary species''. There are a number of 
invertebrate species such as scallops, some gastropods, urchins, etc. 
that would not be classified as strictly sedentary nor would they be 
cultured in a structure. If only sedentary species are allowed on the 
seabed or in the subsoil, these species would be precluded for coverage 
under the statute. A number of these species have significant economic 
potential and should not be inadvertently excluded.

2. Page 10, Lines 15, 16, and 17
    Site permits are initially issued for 10 years and then upon 
renewal drop to 5 year periods. Both the initial and the renewal 
periods are too short. Investment levels required for aquaculture 
operations in the EEZ will be relatively high and the time required to 
apply for permits relatively long. Initial investments will likely be 
over $1 million with permitting time-frames in years, not months. 
Investors who choose to pursue operations in the EEZ will need permit 
lengths significantly longer to provide regulatory stability, 
investment security and adequate payback periods. Permits should be for 
at least 25 years. Renewals should be automatic unless significant 
objections are raised and those objections are based on substantive 
technical grounds. Permits being renewed should be for the same or 
longer time periods than originally granted because the operator has a 
track record to examine. If permit holders have been bad operators, the 
agency has a powerful way to deal with permit violations through a 
strongly worded revocation for cause clause.

3. Pages 10 and 11
    The current draft establishes the need for two permits; a site 
permit and an operating permit. These are in addition to a number of 
already existing Federal permits from other agencies. In instances 
where the site permit holder and the operating entity are the same, two 
permits are unnecessary. In those instances, one site permit that 
addresses agency concerns should be enough. Two permits will 
significantly increase the amount of time and expense required of the 
aquaculture entrepreneur. As long as the site permit addresses agency 
concerns and includes language that protects the public trust and the 
environment, an additional operating permit would be unnecessary.

4. Page 12
    During the permit review process, S. 1195 requires the Secretary to 
consult with other Federal agencies. S. 1195 further requires (Page 9, 
Line 1) that the Secretary renders a permit decision within 120 days of 
the application being deemed complete. S. 1195 contains no requirement 
for a timely reply by other Federal agencies to the Secretary's request 
for consultation and review. S. 1195 should establish a time shorter 
than 120 days within which other Federal agencies must reply to the 
Secretary. This requirement should include a provision which clarifies 
that a lack of reply within that time period constitutes agreement by 
the other Federal agency to the permits issuance. If regional fisheries 
management councils are consulted, this provision should apply to them 
as well.

Specific Comments on Amendments
Amendment SA 769
    State Opt-out. As written, SA 769 would significantly reduce 
investor confidence and decrease the likelihood of investment due to 
its impact on investment security. Any aquaculture operation that has 
gone through all the permitting processes and is being operated 
responsibly and in good faith could have its license to do business 
revoked without cause on 30 days notice. No investor is likely to move 
forward with a project with that level of uncertainty and risk.
    If a state wants to opt-out as a matter of policy prior to the 
initiation of any permit applications, it should have the right to do 
that. As that opt-out will have direct impacts on the economic 
potential of Federal waters that all U.S. citizens have an interest in 
said state should be required to justify the grounds for the opt-out 
and document the economic impacts of the opt-out on the national 
economy.

Amendment SA 1727
    The purpose of this amendment appears to be to delay or preclude 
the implementation of S. 1195. This amendment does not propose any 
requirement that is substantively more protective than S. 1195. This 
amendment, if included, will result in years of delays and investment 
will occur overseas. The amendment will not in any way defend its 
assumed constituents (domestic commercial fishing interests) because 
they will continue to have to compete with overseas production.
    I thank you for your attention and patience.

    Senator Sununu. Thank you very much. I would like to begin 
with any questions or comments from Chairman Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, I said I didn't have an 
opening statement. I do have a summary, really, of comments I 
made. Plus, I'd like to put into the record a summary of the 
bill itself, S. 1195, that Senator Inouye and I introduced at 
the request of the Administration and the amendments that we 
filed at the time we introduced it, including the opt-out 
amendment that Mr. Belle has just commented on. My only comment 
would be that while it may be that amendment needs some 
clarification, clearly it should be the right of a state that 
has wild fish to protect its fish without an economic analysis 
just on the basis of the sheer right to protect it. I do 
believe that we have half the coastline of the United States. 
We harvest 60 percent of all the commercial fish harvested in 
the Untied States on the waters off of the Untied States, and 
that amendment would allow a portion of the coastline off of 
Alaska to be excluded from the concept of aquaculture while at 
the same time permitting other areas to be used if it was 
consistent with the problems of our wild fish. I, myself, doubt 
seriously that we would ever be able to protect wild fish if we 
had aquaculture off of our shores. I have told the Chairman 
that I just learned last week that I should refer to 
mariculture when I refer to the shellfish. Is that right, Bill?
    Dr. Hogarth. Yes, sir.
    Senator Stevens. So, all of you have only been talking 
about fish, not about shellfish.
    Dr. Hogarth. We have talked about both. Most of the 
shellfish fisheries are directed by the state because they are 
in state waters.
    Senator Stevens. Well, I only want to state the amendments 
we filed will not impact mariculture. They only impact 
aquaculture, as I understand it. We do not seek to prohibit 
shellfish-types of mariculture off of our shores, as I 
understand it. Is that right, Mr. Vinsel?
    Mr. Vinsel. Yes, that is the term we use in Alaska. 
Mariculture for shellfish, and we do have thriving shellfish 
mariculture, as many other states do, with very minimal 
problems, both to the environment or the existing fisheries. 
The finfish are our big concern.
    Senator Stevens. I have never been told of any conflict 
between the shellfish mariculture and our wild fish production.
    Mr. Vinsel. We do not see any within the United Fishermen 
of Alaska, and we generally get along with the shellfish 
farmers and support their activities, and they're well-guided 
with the Department of Fish and Game.
    Senator Stevens. Dr. Hogarth, do you agree with the 
statement that I just made?
    Dr. Hogarth. Senator Stevens, basically yes. This bill is 
only for offshore. It has no effect on what the states are 
doing in state waters. This is only in the Federal waters.
    Senator Stevens. Well, our amendment goes beyond that, 
Bill.
    Dr. Hogarth. Right.
    Senator Stevens. Yes, and I am saying in that area, which 
is--you describe as Federal waters, in that area, mariculture 
is not inconsistent with the production of wild fish, as I 
understand it.
    Dr. Hogarth. No.
    Senator Stevens. Thank you.
    Senator Sununu. Thank you, Mr. Chairman. Senator Boxer.
    Senator Boxer. I mean, I--we don't have any problem with 
the shellfish. We think it's actually helpful, Dr. Goldburg, 
could you talk a little more about the levels of PCBs and other 
contaminants in farmed fish? What dangers could they pose to 
human health, if any? What could we do to prevent them? What 
are some of the problems and risks of using excess antibiotics 
to treat farmed fish? So, I mean I'm just looking to you to 
talk about the antibiotics, the PCB issue, and how these relate 
to public health.
    Dr. Goldburg. Absolutely. I'll first talk about 
environmental contaminants in farmed fish. There have been a 
number of environmental contaminants documented in farmed fish 
that are carcinogenic. These include PCBs, dioxins, and a 
number of pesticides. And there are now several studies in the 
scientific literature concerning these contaminants, which show 
that at least in some farmed fish that have diets high in fish 
meal and oil, the contaminants can be at levels at which the 
EPA would advise very little consumption of those fish.
    Senator Boxer. So, does this come from the food that is fed 
to these fish?
    Dr. Goldburg. It absolutely appears to come from the food 
that's fed to the fish. And it is possible to grow a farmed 
fish without high levels of contaminants by reducing fish meal 
and oil levels, by very careful sourcing of feed ingredients, 
by using some emerging technology to clean fish oil before it's 
put in fish feeds, but NOAA's proposal does not consider any of 
those technologies and the need to produce really safe food----
    Senator Boxer. OK.
    Dr. Goldburg.--for American consumers. People want to eat 
seafood because of health benefits.
    Senator Boxer. So, you don't think that the bill that was 
requested by the Administration addresses this issue at all.
    Dr. Goldburg. I don't see any mention of it.
    Senator Boxer. OK, and the antibiotic issue?
    Dr. Goldburg. Well, antibiotics are used in aquaculture 
around the world when fish get sick. Use of antibiotics in 
animals, be they fish or terrestrial animals, can result in the 
proliferation of antibiotic-resistant bacteria. This was a big 
concern in Norway a decade or two ago when salmon farming 
started and was using very large amounts of antibiotics. And it 
was well-documented that antibiotic-resistant bacteria were 
turning up in blue mussels near fish farms, were turning up in 
wild fish near the fish farms that people were catching, and 
the Norwegians, to their credit, developed some vaccines for 
farmed salmon to reduce antibiotic use. But we have enough 
problems with antibiotic resistance now that--clearly critical 
medicines that we have to protect the efficacy of. And if we're 
going to go forward with large-scale fish farming that's 
essentially patterned on the poultry industry and the salmon 
farming industry, we need to do it in a way that absolutely 
minimizes or eliminates drug use.
    Senator Boxer. Well, doctor, I would love to work with you 
further on this as we--if we move forward with this bill, Mr. 
Chairman, because I think, you know, the irony of it is that 
Mr. Cates talks about his children, yes. I mean, that's what 
it's about, and we need to protect our children and make sure 
that what we are doing here at the end of the day is healthful, 
isn't harmful to them and to the wild fish. The irony is we 
could have a system if we're not careful, Mr. Chairman, that 
winds up reducing, you know, the wild fish and getting our 
people sick. This is not an alternative. As I said already in 
California, we have got people going to the restaurants and 
saying if it isn't wild fish, don't put it on my plate. I 
mean--and I know California is usually first with these things, 
but this will spread, and I just don't want to see that happen. 
I don't want to see your investments go down the tubes. I mean, 
that's--so we need to do something that's good for everybody. 
Dr. Hogarth, I have concerns about NOAA's budget. Perhaps you 
can explain this to me. The Senior Scientist for NOAA's 
National Centers for Coastal Ocean Science, Dr. Paul Sandifer, 
first said it would cost $3 million a year to get an 
aquaculture program off the ground, and continuing costs would 
be $7 million. How will NOAA have the ability to effectively 
enforce its program when just this year NOAA's requested a 65 
percent decrease in funding for its current marine aquaculture 
program, a decrease from the $4.5 million it received in 
appropriations in 2006. It's going to go down to $1.6 million. 
So, I don't see how we embark on this expansion, this whole 
program even with all--and I hope that we would get it to a 
place where we could all be proud of it--if NOAA's budget is 
slashed like this. So, can you explain to me how you're going 
to do this. You going to cut other programs and put more money 
in this? What's your plan?
    Dr. Hogarth. Well, Senator Boxer, this is a priority of the 
Administration. And if we get the bill passed so that we can 
begin to work--I think one thing I really need to clarify very 
quickly is that this bill was to put into place the 
comprehensive framework to enable the U.S. to go into offshore 
aquaculture. It was not intended to have all the detailed 
criteria. This will be done through preparing a programmatic 
environmental impact statement and developing regulations in 
conjunction with the public, with the fishery management 
councils, with the states, with the NGO's.
    Senator Boxer. That's a lot of work, sir.
    Dr. Hogarth. It's a lot of work. It'll probably take about 
2 years to do at a cost of about $2.2 to $2.3 million a year.
    Senator Boxer. So, you're saying that if this bill passes 
the Administration will reprogram and ask us for more money to 
do it.
    Dr. Hogarth. Well, If this bill passes, we will work with 
the Administration to get the money that's necessary. We have 
some funds within our budget, and we'll work through the budget 
process to ensure that it is done accurately.
    Senator Boxer. Well, good luck doing that. I certainly 
would want to help on that, but we have got a hard time at the 
moment, and you only have $1.6 million, you have cut this 
program down. So, if this is a priority of the Administration, 
they don't seem to have much faith in their own bill because 
they're certainly not prepared for it, but we'll talk more 
about that. Can I have a second round after----
    Senator Sununu. Well, yes.
    Senator Boxer. I mean after everybody.
    Senator Sununu. A vote has begun----
    Senator Boxer. OK.
    Senator Sununu.--but we have----
    Senator Boxer. I'll wait.
    Senator Sununu.--probably 15 minutes.
    Senator Boxer. I'll wait.
    Senator Sununu. I will, if time permits, have a second 
round, but I would like to turn to Senator Inouye.
    Senator Inouye. Thank you very much. I have been listening 
to the testimony very carefully, and terms such as invasive 
species, genetic contamination, environmental contamination are 
used quite often. Do we have technology at this time that can 
ensure that the wild stocks are protected from this type of 
contamination, Dr. Hogarth or anyone here?
    Dr. Hogarth. I'll take the first stab. I think definitely 
we do, yes, and I think the U.S. would be much more concerned 
about what is used in aquaculture. Now, we import fish from 
abroad which we know have chemicals that we do not allow in 
this country to be utilized. So, all those would be taken into 
account in the permits that we issue. The siting will be looked 
at very carefully and then we do another permit for operations. 
We think the technology that's being developed for our industry 
now would definitely be an improvement over the technology for 
cages that has been used in the past. We are also working very 
hard with the soybean industry and others to develop feed that 
would not have to be so dependent on using fish. And we also, 
in the permitting, will approve whatever species are utilized. 
And so, we will not allow species that we feel would be harmful 
to the environment if there were some escapes, which we think 
we could control. So, all of that is part of the permitting 
process--what's utilized, where they're sited. You know, we 
have about 3.4 million square miles of waters in the EEZ. So, 
we're talking about less than 1 percent that would be utilized 
to produce a million tons of aquaculture species, which is less 
than probably all of the national marine sanctuaries put 
together. So, I mean it's a small area is what I'm trying to 
get across, that would be utilized. And we will handle all this 
through the permitting process, through the regulations and 
through a programmatic EIS, but we feel like the issues that 
have been raised can definitely be taken into account as we 
move forward with offshore aquaculture. The technology is 
developing. That's one reason we think that some of this should 
not be legislated, but should be part of the regulations 
because the permit can be changed to take into account any 
issues you see plus the technology as it develops. So, the 
permit and the regulations we feel are better. Thank you.
    Senator Inouye. Mr. Cates, you have been involved in this 
business for some time. What are your thoughts?
    Mr. Cates. Thank you for letting me respond to that. It's 
quite difficult sitting here listening to this dialogue when I 
lived and breathed this industry for nearly 7 years. The real 
world experience for me in Hawaii is we have not used any 
antibiotics, any vaccines. And prior to me being able to even 
use that, I would have to get approval from the State of 
Hawaii. We have not had any disease, any of those issues. We 
use only fish native to Hawaii, which I'm a firm believer in. 
That's one way to mitigate invasive species and that issue. So, 
I think as I'm hearing all this, my sense is there are 
solutions to all of these concerns, and we need to take the 
first step. And I think back when our country decided to enter 
into space, we didn't have all the answers. But our country 
made it a conscious decision to try, and that's kind of where 
we are right now. Some will argue don't proceed until you have 
all the answers. Well, we're a new industry. We're going to 
make mistakes, but we can overcome those challenges. We can 
give our best effort. And I think the regulations and rules 
that are in place ensure that we're entering into this 
cautiously, and we're taking a first step. Also, we're saying 
let us provide some funding to answer a lot of these concerns, 
but we're not going to be able to answer them until we take the 
step. We have a lot of learning to do. Thank you.
    Senator Inouye. Dr. Goldburg?
    Dr. Goldburg. There are technologies available to address 
some of the problems, but certainly not all of them. If we're 
going to proceed in this direction, we need a lot more 
technology development. And to my mind, we need environmental 
requirements that ensure that facilities do not go forward 
unless they meet some strong environmental standards for 
protecting the environment and fisheries. I think that one of 
the things NOAA could do that would be very helpful would be to 
ask the question what will happen if we're successful and we 
really get a large offshore aquaculture industry that meets our 
goals, what are the potential impacts of that industry, and how 
do we frame a regulatory program to deal with those potential 
impacts. Unfortunately, the potential cumulative impacts of the 
industry have not been addressed to this point, and I think 
that that's really important to do before we go forward--to 
look at where we have technological answers, where we don't, 
and how we frame a system that will result in healthy oceans as 
well as more farmed fish.
    Mr. Vinsel. Specifically, some problems that haven't been 
solved--the escapes. Even in Norway, which is really the 
world's leader in salmon fish farming, there was an escape of 
500,000 this September. That was millions and millions of 
dollars, and an escape like that anywhere near Alaska would 
have serious impact. Another one is sea lice. It's well-
documented that there are concentrations of sea lice around the 
fish farms of British Columbia, and these do affect Alaska 
salmon already that pass through that area. And another is our 
concern with the wastes, these non-point-source cumulative 
effects added, you know, together, whether it's, you know, lawn 
chemicals, oil and gas washing off our roadbeds--all of these 
things add up to cause harm to our oceans, and these are 
pointed out by the Pew Oceans Commission and the U.S. 
Commission on Ocean Policy. And the trouble with increasing 
those in a major way with large-scale net pen fish farms is 
that is not able to be attributed back, you know, to hold 
responsible the different sources. And so, you keep adding them 
together. And any single entity may not be the cause of decline 
in fisheries, but added together, if they are--Alaska's coastal 
communities don't have other options. And if harm is done and 
it's not able to be compensated for in some way--which brings 
us to a whole another question I'm not going to go to. I 
personally don't think it's possible to compensate for damage 
done to our fisheries, but these are grave concerns for 
Alaska's fishermen.
    Senator Inouye. Thank you.
    Senator Sununu. Mr. Belle, why don't we pick up there, talk 
about the Maine experience on some of these very specific 
concerns. Disease, what's been the experience with----
    Mr. Belle. Well, I----
    Senator Sununu.--the 30 years working in Maine, and any 
impact on any domestic wild fish species?
    Mr. Belle. True, thank you very much. As Randy alluded to 
earlier, it's difficult to sit here when you live and breathe 
this industry and listen to all this stuff. A lot of what we 
have talked about from the concerned point-of-view is based on 
the early history in the salmon farming industry and 
principally overseas. In Maine, we have had disease issues on 
salmon farms, and we have dealt with them, I think, very 
effectively. There has not been a single documented case in 
Maine of a wild fish being infected by any disease organism 
that was detected on a farm. It has not happened, and we have 
looked extensively. The Federal and State governments have both 
looked extensively. With respect to antibiotic use, we are more 
strictly regulated with antibiotic use than your family 
physician, OK? We have to have prescriptions. We have to have 
resistance tests done on the pathogens that are detected. We 
can only use an antibiotic under very limited circumstances, 
and we have many farms in Maine that have never used 
antibiotics.
    Senator Sununu. Are farmed fish tested for contamination 
levels, or PCBs as was mentioned specifically. Are they tested 
for contamination levels of PCB? What has been the history?
    Mr. Belle. The fish grown in Maine and in other parts of 
the country are tested by FDA as part of their market basket 
study. And we, like many farmers in the world, always look at 
feed ingredients and have learned some hard lessons in the last 
few years. We have certainly changed the way we formulate feed 
based on what some of the data coming out of the study says, 
and we now have very proscriptive feed contracts that require 
testing of feed ingredients and testing of the finished fish. 
It's kind of--there's--I think--to put things in perspective, 
think about this--if you have an animal that you husband for 
its entire life span, that you can control what it feeds and 
what it doesn't feed versus an animal that you have no control 
over what it's exposed to, where it goes, or what it eats--
ultimately, which animal are you going to be able to control 
the toxins and contaminant levels in? It's a pretty intuitive 
thing. And I think both wild and aquaculture folks in the 
seafood industry are very concerned about toxins and 
contaminants, and I think both groups are working very hard to 
try to minimize any exposure to the consumer.
    Senator Sununu. Dr. Langan, do you measure water quality at 
the 30-acre site off the coast?
    Dr. Langan. Yes, we do. We have a very rigorous monitoring 
program capable of detecting even small changes in water 
quality conditions. We also look at the sediments to see if 
we're changing the organic content of the sediments, the oxygen 
levels in the sediments, and we also look for changes in the 
biological communities.
    Senator Sununu. What do you see, and to what degree are you 
able to minimize the impact or control that water quality?
    Dr. Langan. Well, we don't see any difference whatsoever 
between our reference stations, our stations directly under the 
cage or in the near field zone. And we have defined these zones 
by doing some modeling studies and projecting where particulate 
materials may be dispersed and settle. There was mention from 
one of the other panelists of cumulative impacts. There are 
modeling tools that allow us to predict where particles are 
going to go, and then we can verify this with our sampling 
program. But we don't see any difference whatsoever. We can't 
detect any changes as a result of our operations.
    Senator Sununu. I don't want to say really, but you can't 
detect any significant difference in water quality, and do you 
think that that type of performance can be replicated even in 
expanded operations?
    Dr. Langan. Well, we don't know that for sure yet. I think 
we do need to look at gradually increasing production at these 
demonstration farms so that we're approaching commercial size. 
But I think that based on what effects we see relative to what 
we are putting in the water in terms of fish feed and what 
we're generating in terms of fish wastes, we could use modeling 
capabilities to predict what type of changes you might expect 
to see as a result of expanded farming operations.
    Senator Sununu. Mr. Cates, do you measure water quality, 
and what do you see? You know, how many fish do you harvest a 
year? I know you gave a tonnage or a pound level.
    Mr. Cates. Yes, we have had over a million pounds. My farm 
is----
    Senator Sununu. How many fish a year is this?
    Mr. Cates. About 1.8 million.
    Senator Sununu. A million fish a year?
    Mr. Cates. Yes, but we raise them until they are about 
three-quarters of a pound.
    Senator Sununu. OK. Go ahead and----
    Mr. Cates. So, our water is----
    Senator Sununu.--talk about water quality and measuring 
water quality and measuring contamination levels.
    Mr. Cates. Correct. First of all, our farm is undoubtedly 
the largest-scale open ocean farm in the U.S. We have raised 
the most fish to date. When we started our business, the 
Federal Government provided some funding to look at this issue. 
And ironically, their budget was double of my start-up budget. 
So, they spent an incredible amount of time and energy looking 
for water quality. After several years, the bottom line of what 
they found is at about 50 feet from my operation, it was almost 
unmeasurable, and it frustrated the scientists greatly. And in 
fact, above current were higher levels of nitrogen and other 
things, that was very confusing to them. And the reason that 
they came up with this is because of the algae that grows on 
our cages is a filter. And so, we have, you know, looked at 
this issue, and it really comes down to a scale. What we are 
talking about is at what scale, and a lot of the problems that 
you're referring to have been in coastal waters and closed 
areas. When you go in the EEZ, it's a different area. And to 
end that point is in Norway, their large $1.8 billion-a-year 
industry--the total square footage of all their cages combined 
is about the size of a large airport runway. And when you put 
that in the EEZ, it's different. When I hear references about 
if this industry reaches to the scale, we're talking about its 
equivalent to a city of 17 million people. But that's not in 
one location, that's spread out throughout the whole EEZ, which 
is enormous. And so, it's a little misleading.
    Senator Sununu. I think your point is a very fair one. To 
my understanding, the EEZ and its aggregate is roughly the size 
of the continental United States. I have one final question 
before giving the last comment to Senator Boxer. There was a 
point raised by Senator Snowe, and I think it's an important 
one. Dr. Hogarth, you talked about one--I think you used the 
phrase one-stop shopping, at least with the permitting, but 
it's a two-stage permitting process. There is one for siting 
and one for operations. What's the rationale there, and does it 
make sense? Whatever standards we set, you know, we want the 
standards to be reasonable. That's important. A lot of 
questions have been raised here. But once we set those 
requirements, is there any reason not to integrate the 
permitting process?
    Dr. Hogarth. Well, I think the--basically, that's what we--
we think it is important to site these facilities properly. And 
we think once you site these properly, you need some certainty 
in a siting permit. From the operation standpoint, if a person 
decides he wants to change species, you know, if he wanted to 
go from summer flounder to king mackerel or something, then we 
don't think he should have to go through the whole permitting 
process again. You would utilize the operations permit. The 
operations permit would set the conditions for monitoring and 
for the type of species you can utilize, things like that. The 
day-to-day operations are covered in that permit, and that can 
be changed quicker, we think, than going back to the entire 
siting permit. Because if you go into the bank, the business 
people need certainty that they have a site to utilize for at 
least 10 years, and that's what we are trying to do. Yes, sir.
    Senator Sununu. Mr. Belle, does that dual-siting cause 
problems, or do you see, at least from a business perspective, 
economic risk to having that two-stage process?
    Mr. Belle. Well, in my written testimony, I expressed some 
concern about the two permit approach. And basically, the 
reason is that in my experience, any time you add another 
permit, you at least double permitting time and maybe quadruple 
it, depending on what the permit is. Now, if, as Dr. Hogarth 
has related, the intent of the Department is to allow the 
operating permit to be amended in a shorter time frame, then 
that may not be an issue. And it makes some sense to allow some 
flexibility in terms of how operations change over time, but I 
would for sure need to see the specifics around that before I 
signed on.
    Senator Sununu. Thank you. I appreciate all of your time. 
I'm going to submit Senator Snowe's additional questions for 
you to respond on the record. And Senator Boxer, any closing 
comments?
    Senator Boxer. Yes, very briefly because we do have a vote. 
First of all, thank you, everyone. You have been terrific. I 
just--all of you. I would like to place in the record a number 
of things. First is this report called Marine Aquaculture in 
the U.S. prepared for the Pew Oceans Commission, the pages nine 
and ten that deal with disease and parasites. If I might do 
that, Mr. Chairman?
    Senator Sununu. That will be included in the record.
    [The information referred to follows:]

                Marine Aquaculture in The United States

Disease and Parasites
    Many diseases and parasites are capable of spreading between farmed 
fish and wild stocks. Historically, a number of diseases and parasites 
were introduced through aquaculture operations, and aquaculture can 
magnify the level of those diseases already present (NMFS/FWS, 2000). 
In the early 1900s, for example, the Japanese oyster drill and a 
predatory flatworm were introduced to the West Coast with the Pacific 
oyster, and at that time they contributed to the decline of native 
oyster stocks (Clugston, 1990). Accidental disease and parasite 
introductions are now much better controlled, but recent experiences in 
salmon and shrimp farming indicate that problems remain.
    Some disease outbreaks on salmon farms appear to impact wild 
populations today. Sea lice--parasites that eat salmon flesh--are a 
serious problem on salmon farms and can even kill fish (McVicar, 1997; 
Finstad et al., 2000). Norwegian field studies observe that wild salmon 
often become heavily infected with sea lice while migrating through 
coastal waters (Finstad et al., 2000), with the highest infection 
levels occurring in salmon-farming areas (McVicar, 1997; Hindar, 
2001).While these parasites are relatively common, sea lice epidemics 
have occurred in wild salmon and trout in every major salmon-farming 
country (Finstad et al., 2000). Sea lice may also serve as a host for 
other lethal diseases, such as Infectious Salmon Anemia (ISA) (Johnson 
et al., 1997).
    In January 2001, ISA was detected for the first time in the United 
States at a Maine salmon farm, and has since shown up in two more farms 
(Journal, 2001). ISA appears to be moving south from New Brunswick, 
where it made its first North American appearance in 1996. Since then, 
the disease has been detected in both escaped farmed fish and wild fish 
(FWS/NOAA, 2000; NMFS/FWS 2000). To protect Maine's Atlantic salmon 
from ISA and other introduced diseases, the National Marine Fisheries 
Service (NMFS) is considering mandatory escape-prevention and sea-lice 
control measures (NMFS/FWS, 2000).
    Farmed shrimp also experience elevated disease incidence because 
the animals are often raised in high densities and are physiologically 
stressed. During the 1990s, the shrimp-farming industry in the United 
States and abroad was rocked by viral diseases that spread throughout 
the world, costing the industry an average of one billion dollars 
yearly since 1994 (Lightner, 1998). The presence of at least two of 
these shrimp viruses has now been documented in wild shrimp in the Gulf 
of Mexico (JSA, 1997; Ray, pers. comm.). However, marine viruses are 
little studied and there is only one known example--the ``IHHN'' virus 
in Mexico--where shrimp farm outbreaks might have depressed wild shrimp 
populations (JSA, 1997).
    To reduce the effects of biological pollution, aquaculture 
facilities can grow fish that are unlikely to harm wild fish 
populations. Raising native fish species is generally preferable to 
raising non-natives unless escaped non-natives are unable to survive 
and reproduce outside of the farm (e.g., due to cold winters). 
Problematic genetic interactions can be reduced by farming fish away 
from endangered or threatened populations of the same species, and by 
escape-proofing facilities (FWS/NOAA, 2000). Options for minimizing 
escapes include using improved cage and pond designs, and moving fish 
out of netpens and into land-based facilities.
    Stocking certified pathogen-free fish, reducing fish stress, and 
filtering or ozonating effluent from pond and recirculating tank 
systems can minimize disease transmission. The state of Texas requires 
shrimp facilities with virus problems to retain their wastewater until 
viral particles become inactive (Ray, pers. comm.).

    Senator Boxer. Just to quote briefly, a Norwegian field 
study has observed that wild salmon often become heavily 
infected with sea lice while migrating through coastal waters, 
with the highest infection levels occurring in salmon farming 
areas. While these parasites are relatively common, sea lice 
epidemics have occurred in wild salmon and trout in every major 
salmon farming country. Sea lice can serve as a host for other 
lethal diseases such as infectious salmon anemia. Because I 
don't think we should understate what we are facing here, and I 
think--to say to Mr. Cates, you know, you may do best 
practices. A lot of this is not aimed at the people who do best 
practices. We want to emulate you. I certainly do. I want to 
work with my co-chair here to make sure that we have a bill 
that emulates best practices. OK, a letter of concern from the 
California Coastal Commission. I would ask that we put that in 
the record.
    Senator Sununu. Without objection.
    [The information referred to follows:]

                              California Coastal Commission
                                   San Francisco, CA, April 5, 2006
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Co-Chairman,

Senate Committee on Commerce, Science, and Transportation
Washington, DC.
        Re: National Ocean Aquaculture Act of 2005, S. 1195

    Dear Senators Stevens and Inouye,

    The Coastal Commission staff appreciates the opportunity to comment 
on S. 1195. We are concerned about a lack of governance at the Federal 
level over open ocean aquaculture, and we applaud your willingness to 
address this absence with the currently proposed legislation. We feel, 
however, that the bill should be much stronger in certain essential 
aspects, as described below.
    The staff of the Coastal Commission has a number of concerns about 
S. 1195. The first is the legislation results in weakened environmental 
protection standards that will adversely affect marine and coastal 
resources. The second concern is that the legislation contains Federal 
preemption provisions that will eliminate the right of coastal states 
to enforce stricter environmental protection relative to aquaculture 
development. If ocean aquaculture is not conducted with extensive 
environmental safeguards, it can cause serious environmental 
degradation. The primary environmental effects of finfish aquaculture 
include:

  <bullet> Biological Pollution. Fish that escape from fish pens may 
        harm wild fish populations through competition and 
        interbreeding, or by spreading diseases and parasites. Farming 
        non-native species, transgenic or genetically modified fish 
        should be prohibited.

  <bullet> Fish Feed. Some types of aquaculture use large quantities of 
        wild-caught fish as feed ingredients, thus potentially causing 
        overfishing of low-trophic ``forage'' fish such as anchovies 
        and sardines. Alternatives to use of fishmeal and fish oil 
        should be required.

  <bullet> Organic Pollution and Eutrophication. Aquaculture can lead 
        to nutrient loading through discharges of fish wastes and 
        uneaten food. An aquaculture operator should be required to 
        provide baseline benthic habitat assessments before 
        installation, regular monitoring, and site remediation after 
        the project has ceased operations.

  <bullet> Chemical Pollution. The variety of chemicals used in 
        aquaculture, such as antibiotics and pesticides, should be 
        monitored frequently, and minimized.

  <bullet> Use Conflicts. The physical structures can conflict with 
        commercial and recreational fishing activities.

    We respectfully urge you to include in S. 1 195 standards that 
result in avoidance or reduction of these significant adverse marine 
and coastal effects.
    In addition, we strongly oppose the preemption of states' rights 
resulting from S. 1195. Pursuant to the Coastal Zone Management Act of 
1972, states have the ability to adopt coastal zone management 
programs, and regulate ocean development such as aquaculture. State 
standards may indeed be stronger than the provisions contained in S. 
1195, and that important concept must not be lost here. The Coastal 
Commission respectfully requests that our concerns be addressed in the 
legislation.
        Sincerely,
                                          Peter M. Douglas,
                                                Executive Director.

    Senator Boxer. A letter from all over the country signed by 
53 different organizations expressing concern, a letter from 
Oceana expressing concern, a letter from the Pacific Coast 
Federation of Fishermen expressing concern, a letter from 
everyone from Alaska--Longline Fishermen to Reef Relief and 
United Anglers. Many organizations here expressing concern, and 
a letter from The Ocean Conservancy. If I could put those in 
the record * and say to you, Mr. Chairman, I know that you are 
fair, and you're a good legislator, and I think we have enough 
information to guide us in writing a bill that will be a win 
for everybody.
---------------------------------------------------------------------------
    * The information referred to is printed in the Appendix.
---------------------------------------------------------------------------
    Senator Sununu. Thank you very much. Again, thank you to 
the panelists. I apologize that we have this responsibility to 
vote, but it is what it is. So, we appreciate your testimony 
and your expertise and look forward to following up with you in 
the record. The hearing is adjourned.
    [Whereupon, at 11:19 a.m., the hearing was adjourned.]

                            A P P E N D I X

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey

    Mr. Chairman, thank you for holding this hearing on an important 
issue. I look forward to hearing from our diverse panel of witnesses.
    One of the best things about a visit to the Jersey Shore is the 
seafood. You can enjoy clams, shrimp, scallops and fish, fresh from the 
ocean. Many people agree that aquaculture can play a role in putting 
seafood on the table for American families. Perhaps it can even help us 
reduce our trade deficit with other nations.
    However, offshore aquaculture raises serious environmental concerns 
and poses risks that need to be addressed up front, not after the fact. 
Fixing a problem is always more expensive than doing it right the first 
time. I understand that Senators Stevens and Inouye have introduced 
this bill at the request of the Bush Administration. I am concerned 
that the Administration's bill does not do enough to address concerns 
about offshore aquaculture raised by the U.S. Oceans Commission, the 
Pew Oceans Commission, and others.
    I am also concerned that we do not yet have sufficient 
understanding of how offshore aquaculture might affect our commercial 
and recreational fishing industries, which are important to New Jersey 
and other states. I hope our Committee can work in a bipartisan fashion 
to ensure that any aquaculture bill contains strong safeguards for fish 
species and marine habitats, and that its potential impacts on 
recreational and commercial fishing are fully considered.
    Thank you Mr. Chairman, and thank you to our witnesses for joining 
us today.
                                 ______
                                 
    International Game Fish Association, Marine Fisheries Advisory 
                              Committee, 
    National Oceanic and Atmospheric Administration (DOC)--Offshore 
              Aquaculture Act--Resolution (March 3, 2006)

    The Marine Fisheries Advisory Committee (the Committee), in light 
of:

        1. The growing scientific recognition of the health benefits of 
        seafood;

        2. The growing dependence of the U.S. on imports and the 
        resulting trade deficit to meet growing demand;

        3. The increasing recognition of the importance of food 
        security in today's world;

        4. The opportunity to conduct commercial aquaculture in the 
        Exclusive Economic Zone (EEZ) consistent with environmental, 
        conservation and protected species goals;

        5. The opportunity to provide direct economic benefits to 
        coastal communities through development or expansion of shore-
        based support services and complementary economic strategies 
        and incentives.

        6. The opportunity to establish mechanisms for cultured and 
        wild market development and education (e.g. marketing 
        councils); and

        7. The opportunity for U.S. leadership to develop, test and 
        implement best practices for offshore aquaculture; therefore

    The Committee strongly supports the need for legislation to 
authorize establishment of a regulatory framework to permit commercial 
aquaculture in the EEZ.
                                 ______
                                 
      Prepared Statement of Bruce S. Anderson, Ph.D., President, 
                           Oceanic Institute
    Mr. Chairman,
    We greatly appreciate the opportunity to provide testimony to you 
and the Subcommittee on the pending open ocean aquaculture legislation, 
lessons learned from our research and experiences in Hawaii, areas of 
need, and the potential benefits of this technology to the Nation.
    The Oceanic Institute (OI) is a nonprofit, private research 
organization dedicated to marine aquaculture, biotechnology, and 
coastal resource management. Our mission is to provide biologically, 
economically, and environmentally sustainable technologies, products, 
and services that are required to increase aquatic food production to 
meet growing national and world needs. With over 100 employees located 
at our main facility on the island of Oahu, OI is recognized worldwide 
for its significant contributions to research and development of shrimp 
and marine fish aquaculture, aquatic feeds and nutrition, and marine 
stock enhancement and environmental management.
    For the past 7 years, OI, in partnership with the University of 
Hawaii, the State of Hawaii, and commercial collaborators has been 
conducting offshore aquaculture research under the NOAA-funded Hawaii 
Offshore Aquaculture Research Project (HOARP). These efforts led to the 
first successful demonstration of offshore aquaculture in the U.S., and 
the establishment of the country's first commercial offshore farm. 
Hawaii is in the national spotlight of offshore aquaculture 
development, with two commercial farms operational, and at least one 
other farm in early stages of permit approval. The lessons learned and 
experiences gained provide a basis for comment and vested interest in 
the development of responsible approaches toward this important 
technology.
    The science and technology to support offshore aquaculture is still 
in the early developmental stages. The fledgling offshore industry in 
Hawaii is faced with a number of challenges and issues that need to be 
effectively addressed. To date, I believe the companies that are 
pursing open ocean aquaculture in Hawaii have done so responsibly. 
Nevertheless, reasonable safeguards need to be established in 
legislation and through rulemaking if we expect it to grow in a 
sustainable manner in the United States, but they should not be unduly 
constraining to the industry.
    The lessons learned in Hawaii should be carefully considered in 
developing Federal legislation that will allow leasing of public lands 
for aquaculture. Indeed, the most important policy decision made by 
states that support aquaculture, including Hawaii and Florida, is that 
aquaculture is ``in the public interest.'' This enabled those states to 
lease public lands for this purpose. In doing so, these states used 
existing authorities and developed new regulations, when necessary, to 
ensure that public health and safety and concerns about environmental 
impacts were addressed. An extensive public participation process helps 
to assure that siting and user conflicts were identified and addressed 
by the permittee. The concept of ``shared use'' helped mitigate 
concerns that the leased lands would be used exclusively for 
aquaculture.
    In Hawaii, the Department of Land and Natural Resources, has the 
authority to issue leases of state land. In that respect, it served 
much the way that NOAA would serve in the proposed legislation. A key 
to Hawaii's success in permitting these facilities was that no attempt 
was made to transfer authorities from one agency to another. For 
example, the State Department of Health has delegated responsibility 
from the Federal EPA to issue NPDES permits. An NPDES permit was issued 
by the DOH to control water pollution from open ocean facilities. Other 
permitting and regulatory authorities remained with the responsible 
agencies.
    When the subject of aquaculture arises, conversation invariably 
ends with a discussion about the sustainability of the industry and 
availability of feeds to support the industry. The use of fishmeal has 
become a key topic of debate. Although many animal production systems 
rely on fishmeal and fish oil as components of diets, the aquaculture 
sector is particularly vulnerable since supplies are limited and very 
few alternative ingredients have been identified for this sector. 
Projections for use for aquaculture alone worldwide in 2015 are roughly 
75 percent and 145 percent, respectively, of the existing fishmeal and 
fish oil supplies. Hawaii currently imports all of its aquaculture 
feeds, and with shipping costs expected to rise substantially with 
rising fuel costs, feedstocks will be one of the most critical items 
limiting the long-term sustainability of offshore aquaculture in our 
state.
    Further research on aquatic feeds is needed to ensure that the 
offshore aquaculture is sustainable. This should include research on 
alternative feeds, development of guidance and best management 
practices to maximize the substitution in aquaculture feeds of 
alternatives to fish meal and oil derived from directed reduction 
fisheries, including:

  <bullet> Seafood processing wastes and unavoidable fisheries bycatch;

  <bullet> Cultured marine algae and other microbial sources of omega-3 
        fatty-acids;

  <bullet> Crop plants and other terrestrial protein sources; and

  <bullet> Other products produced in an environmentally sustainable 
        manner.

    Prior to feedstocks becoming an issue, however, is the need to 
consolidate existing hatchery and production technologies of the farmed 
species. Although Hawaii leads the Nation in the number of offshore 
farms, the methods used to establish broodstock, raise seedstock, and 
guard against disease are still in their early stages of development. 
Farms are beginning to experience hatchery production and disease 
bottlenecks that require solid, scientific investigation. These 
problems need to be resolved before the industry can significantly 
expand. Sustainability requires constant vigilance and improvement and 
has been the basic tenet of all other successful animal agriculture 
systems in the U.S. today. The more we know about a species, the better 
its production can be managed, and the more efficient production will 
be.
    Key environmental issues that face the industry include concerns 
about water pollution and other effluent impacts, potential genetic and 
biological interactions with escaped farmed fish, diseases and 
parasites that may be present in the wild that could affect farmed fish 
and vice versa, and marine wildlife interactions.
    Environmental monitoring of facilities in Hawaii has shown that 
water pollution impacts are negligible down-current of existing cages. 
Nevertheless, cumulative impacts of multiple cages and expansive growth 
of the industry needs to be carefully monitored. New methods need to be 
developed to assess those impacts based on sound science.
    Genetic interactions between wild fish and those that escape from 
cages has been a very controversial issue, particularly as it applies 
to the salmon fisheries. It is strongly recommended that offshore 
aquaculture be limited to species of the genotype native to the 
geographic region. However, programs need not be based on wild 
broodstock exclusively. This would severely limit the potential for 
reducing the costs and improving the efficiency of offshore aquaculture 
production in the long-term. Animals can be bred for faster growth, 
improved feed utilization and survival, disease resistance, etc., that 
have the biggest impact on break-even costs of offshore operations. 
Moreover, selective breeding can be done responsibly to ensure that the 
genetic make-up of wild stocks is not adversely affected if (and when) 
an accidental release happens.
    Selective breeding has been the major reason for improved growth 
and production of all other animal agriculture systems and is being 
applied in other aquaculture sectors. A case in point is the growing $9 
billion worldwide shrimp farming industry. Disease is so rampant among 
wild broodstock that the world is now rapidly moving to domesticated 
animals bred for disease resistance and other economic characteristics. 
Development of disease- (or specific pathogen-free broodstock for 
selective breeding, and biosecurity protocols to assist that 
development will be key to the long-term future of offshore aquaculture 
as well.
    It is also recommended for the long-term that a national program of 
research be established with centers across the country that are tied 
together and focused working on key regional issues that parallel 
national needs. The work needs to be well-funded, focused, and 
responsive to industry needs. The key areas of research addressed above 
include:

  <bullet> Culture (new species; hatchery scale-up; selective breeding 
        and broodstock management; nutritional requirements, 
        alternative feeds and ingredients, grow-out densities, etc.);

  <bullet> Disease--of hatchery and offshore growout (pathology, 
        diagnostics, epidemiology, treatment, biosecurity);

  <bullet> Environmental--addressing genetic as well as organic 
        pollution issues (explained above).

    These areas of research critical to the development of this nascent 
industry are not well funded by the government and the private sector 
is not in a position to devote the resources necessary to adequately 
address these issues.
    It is well recognized worldwide that capture harvest of wild 
fisheries has reached critical levels and will not be sustainable into 
the next decade. With a seafood deficit currently at $8 billion, the 
U.S. faces critical issues in being able to meet growing domestic 
seafood demands. Great strides have been made in marine aquaculture 
technologies in the past decade, and it is now possible to produce many 
species of fish in land-based intensive culture systems at costs that 
are substantially below those of harvesting wild stocks. Yet, 
substantial expansion of land-based aquaculture is limited due to 
competing interests for suitable land and because of environmental 
concerns. Offshore aquaculture production has been viewed as a means 
toward meeting future seafood demands in an environmentally-acceptable 
way. It will be the ability to develop capacity (culture research), 
avoid disease (disease research), and minimize risk to wild stocks 
(genetics research), and the environment (organic pollution research) 
that will determine the size of this industry in the future and what it 
can do on economic returns, the Nation's food supply, and balance of 
trade.
    We deeply appreciate the opportunity to provide our perspective on 
this important issue and hope these viewpoints are looked upon 
favorably as the legislation moves forward.
                                 ______
                                 
     Prepared Statement of Neil Anthony Sims, President, Kona Blue

    Dear Senators,
    Kona Blue would like to offer the following testimony in relation 
to the ``National Offshore Aquaculture Act of 2005'' and amendments.
    Kona Blue is the first integrated offshore fish farm and marine 
hatchery in the U.S. Our operation is based a half-mile off the Kona 
Coast, in waters over 200 ft. deep. We are culturing sashimi-grade Kona 
Kampachi<SUP>TM</SUP>. This species is considered a trash fish in the 
wild, and so we do not compete with commercial fisheries. As we control 
the fish's diet from hatch-to-harvest, we are able to produce a superb 
product, rich in heart-healthy Omega-3 fatty-acids, and with no 
detectable mercury and no detectable PCBs (at detection levels more 
than 20 times the sensitivity of FDA's ``unlimited consumption'' 
levels).
    We are growing a product that is incredibly appealing; it is tasty, 
it is the epitome of healthy eating, and it is produced in an 
environmentally-sound manner. Monthly tests have found no discernible 
difference between the up-current and the down-current water quality 
around our offshore pens. We have stocked over 140,000 fish into our 
cages over the last year. Presently, we are harvesting around 8,000 lbs 
per week, and we have fish in the water to produce over 25,000 lbs per 
week by the end of this year.
    Our operation in State waters is, we believe, an excellent example 
of what could eventually happen in Federal waters if this bill is 
passed. We would like to lend our support for the bill.
    This nascent industry represents both an opportunity, and an 
imperative. It is an opportunity to grow healthful, tasty products in 
pristine offshore waters, without impinging on other user group 
interests in nearshore areas. It is an opportunity for the U.S. to show 
innovation and leadership in an area that offers huge growth potential. 
It is an opportunity for the U.S. to develop codes of practice and 
environmental standards that could be more broadly applied, to the 
betterment of all the world's oceans, and all the world's consumers.
    Open ocean aquaculture is also an imperative. Our oceans have been 
plundered for too long. As a former fisheries biologist, once charged 
with the discouraging task of managing commercial fisheries on 
depauperate coral atolls in the South Pacific, I have a keen insight 
into the limitations of fishing wild stocks. Aquaculture is clearly the 
only viable solution to increasing demand for high-value fish and other 
marine products. And the open ocean is the ideal realm for supporting 
this needed growth. Rather than simply taking from Nature, we must 
ourselves start to nurture.
    The fundamental message is that open ocean fish farming does work. 
Our Kona Kampachi <SUP>TM</SUP> are testament to this fact.
    There are certainly challenges, both now, and in the future. New 
engineering technologies are needed for efficient and safe operation in 
the offshore realm, and major research efforts need to be focused onto 
hatchery production and grow-out technologies for new fish species that 
could diversify the industry. Perhaps most importantly, the projected 
growth in aquaculture worldwide means that alternative sustainable feed 
sources need to be developed.
    Private companies such as Kona Blue and Cates International are 
already pioneering the development of this industry by essentially 
investing in prototypes that will be scaleable in Federal waters. By 
year's end, Kona Blue will have invested $8M in venture-capital to 
bring our operation from plan to profitability.
    However, venture-capital-funded start-up companies alone will not 
solve the challenges we face. There is a clear and pressing need for 
Federal research funds to support the development of this industry. 
Federal support for offshore aquaculture research is abysmally low. 
Previous sources of research funding that might have assisted (Advanced 
Technology Program under NIST, Saltonstall-Kennedy Grant Program under 
NMFS) have been zeroed out in the last few years. NOAA had a total of 
only $4M available this year, and received over 220 applications for 
research support for open ocean aquaculture development. There needs to 
be recognition of the potential for U.S. leadership in this industry. 
Federal research funding should be concomitant with that recognition, 
and with the size of the U.S. seafood market (around $55 billion).
    I would like to provide our perspective, as a functioning offshore 
fish farm, on two specific areas of opposition to aquaculture in the 
U.S. EEZ: the potential environmental impacts of fish farms, and the 
issue of the sustainability of culturing carnivorous fish.
    First, our project has demonstrated that the potential 
environmental impacts of offshore fish farms are negligible, provided 
that projects are sited properly and operated correctly. How are we to 
ensure that such a condition is adhered to? There is already an 
extensively-tested process for review of projects through NEPA, and 
this should become part of the review process for open ocean 
aquaculture projects proposed in the EEZ waters. As Hawaii's experience 
shows, the public review process works well. The pathway provides ample 
opportunity for public input. The public review and consultation that 
is part of the EA/EIS process has been shown capable of identifying 
project proponents who have selected a less-favorable site, or not 
fully thought through the community's concerns, or who have not 
invested sufficient time with the various stakeholders to assess what 
these concerns might be. The experience here in Hawaii should assure 
the public that similar processes in Federal waters will provide 
adequate opportunity to address the salient public health and safety, 
siting and use conflicts, and environmental and biodiversity concerns 
for each project, as it is proposed. These processes should be 
transparent to the public, and there should be a single, central 
coordinating Federal agency that oversees the review and approval 
process.
    While the culture of carnivorous fish is much-maligned, the 
feedstocks issue should not constrain industry development--or cloud 
your decisionmaking--now. As a company committed to sustainability in 
all our endeavors, we recognize that feedstock supplies are indeed a 
concern in the long-term. Current sources of supply of fish meal and 
fish oil are stable, yes, but they are certainly not scaleable. To be 
truly sustainable, we must be able to assure future generations that 
the practices we adopt can continue.
    Recognizing this, our company--in partnership with several feed 
companies--is expending considerable funds and effort into developing 
replacement diets for our Kona Kampachi <SUP>TM</SUP>. We are striving 
to incorporate more agricultural grains into our fish diets, as well as 
by-products from other seafood processing. Achieving this goal will not 
only render our operations more sustainable and profitable in the long-
term, but will also have economic and environmental benefits to the 
broader America, beyond the ocean's shores. Wider use of agricultural 
grains will bring real economic opportunity to the breadbasket of 
America (the sources of soy, wheat, canola and other protein or oil 
crops). In addition, waste streams from processing of wild-caught 
seafood is presently underutilized, with much of it being diverted to 
cat food or chicken food, or sent to fish farms in Japan or China. 
Offshore aquaculture is the best possible use of these by-product 
proteins and lipids from both an environmental and an economic 
perspective.
    Considerable, concerted research is needed to address the 
challenges of feeding a growing industry, and a Nation hungry for great 
seafood. We believe--and we are sure that you will agree--that a 
vibrant, innovative offshore fish farming industry is the best engine 
to drive the necessary research for resolving these future bottlenecks 
in global feedstock supplies. The U.S. offshore aquaculture industry 
should not be hamstrung because of these concerns, but should rather be 
encouraged to partner with other U.S. industries to address these 
issues proactively. Significant Federal support for this critical long-
term research need is also both appropriate, and necessary.
    Thank you for your consideration, aloha.
                                 ______
                                 
  Alaska Longline Fishermen's Association; Center for Food 
 Safety; Cook Inlet Keeper; Environment Maine; Environment 
     Matters; Environmental Defense; Environmental Defense 
  Center; Florida Fishermen's Federation; Friends of Casco 
Bay; Go Wild Campaign; GRACE Public Fund; Greenpeace; Gulf 
Restoration Network; Hawaii Audubon Society; Institute for 
      Agriculture and Trade Policy; KAHEA; Mangrove Action 
          Project; Maryland Conservation Council; National 
Environmental Trust; Natural Resources Defense Council; The 
    Ocean Conservancy; Oceana; Pacific Coast Federation of 
       Fishermen's Associations; PCC Natural Markets/Sound 
       Consumer; Public Citizen; Sierra Club; Reef Relief; 
     Southeastern Fisheries Association; Southern Offshore 
   Fishing Association; United Anglers of California; U.S. 
      Salmon Network; United Southeast Alaska Gillnetters; 
   Versaggi Shrimp Corporation; Whale Center of New England
                                                       May 24, 2005
Hon. Ted Stevens,
Hon. Daniel Inouye,
Hon. Olympia Snowe,
Hon. Maria Cantwell,

U.S. Senate,
Washington, DC.

Hon. Richard Pombo,
Hon. Nick Rahall,
Hon. Wayne Gilchrest,
Hon. Frank Pallone, Jr.,

House of Representatives,
Washington, DC.
Re: Protect Ocean Health and Ensure Responsible Governance, 
            Do Not Support NOAA's Offshore Aquaculture Bill

Dear Chairs and Ranking Members,

    To protect our oceans, native fish populations, and human health 
and livelihoods, the above groups urge your leadership to ensure 
legislation to promote aquaculture in offshore ocean waters is governed 
by a strict regime of scientifically sound regulations. The National 
Oceanic and Atmospheric Administration (NOAA) has drafted legislation 
that it intends to soon transmit to Capitol Hill to promote offshore 
aquaculture in the U.S. Exclusive Economic Zone. We are concerned that 
this legislation is not adequately protective of our oceans, including 
fisheries and other ocean uses. We hope you will work with us to ensure 
that any offshore aquaculture legislation introduced protects all ocean 
interests.
    Fish farming and other forms of aquaculture have received 
widespread attention, including as posited as a solution to dwindling 
wild stocks and the growing U.S. seafood trade deficit. The Department 
of Commerce has called for a five-fold increase in domestic aquaculture 
production by 2025. We recognize that some types of aquaculture offer 
potential benefits. However, without comprehensive Federal permitting 
requirements, offshore aquaculture poses numerous serious risks to 
marine ecosystems, native fish stocks, and public health. Offshore 
finfish farms are vulnerable to the escape of farmed fish, which may 
interbreed with and alter the genetic makeup of local fish populations. 
Fish farms concentrate parasites and diseases, which can spread to 
other fish. Antibiotics and other chemicals used to treat or prevent 
these diseases can bring unintended consequences. Large quantities of 
uneaten fish feed and wastes are discharged from farms directly into 
ocean waters and may pollute the surrounding ecosystems.
    Moreover, we question claims that offshore aquaculture supplements 
dwindling fish stocks and will reduce the Nation's ``seafood deficit.'' 
Most marine finfish are carnivores and currently require large 
quantities of fisheries products, made largely from wild-caught fish, 
in their diets. Farming these marine finfish actually reduces the net 
supply of fish. In this way, aquaculture diminishes rather than adds to 
fish supplies, and although it might reduce the U.S. seafood deficit in 
monetary terms, it does not reduce it in ecological terms. Moreover, 
NOAA has not justified its economic claims for reducing the U.S. 
seafood trade deficit.
    Significantly, NOAA's proposal does not provide adequate safeguards 
to ensure our oceans, fisheries, ecosystems and public health are 
protected. NOAA has rejected Congressional and stakeholder comments to 
include specific precautions and provide further necessary study in 
conjunction with its legislation, including requests that the Agency 
comply with the National Environmental Policy Act (NEPA) by completing 
a Legislative Environmental Impact Statement before submitting its 
legislation to Congress. Rather than comply with NEPA, NOAA has ignored 
these requests dating from late 2003.
    Based on our understanding of NOAA's proposed legislation, specific 
concerns shared by our groups include:

  <bullet> Almost total discretion given to NOAA regarding permits and 
        conditions;

  <bullet> No coordination with other offshore uses such as navigation, 
        recreation, defense, or fishing except ``to the extent 
        practicable;''

  <bullet> Lack of baseline environmental protections for incorporation 
        within permits;

  <bullet> Allowance of genetically modified and non-native fish 
        species that may compete with and cause harm to native 
        populations;

  <bullet> No clear process for public or state government 
        participation in the consideration of permits;

  <bullet> Lack of detailed provisions as required of other offshore 
        industries making the permittee responsible for the life of the 
        offshore structures, and providing for general financial and 
        environmental risks, including bankruptcy;

  <bullet> Lack of critical implementation language regarding 
        enforcement and no provisions for citizen suits;

  <bullet> Absence of rapid response provisions for known risks, such 
        as disease outbreaks.

    Two recent national commissions, the U.S. Commission on Ocean 
Policy and the Pew Oceans Commission, recommended that ocean uses be 
better managed and coordinated. NOAA's bill does not accomplish such 
coordination, nor does it adequately protect our oceans. For these 
reasons, we urge you to forgo sponsorship of NOAA's proposal at this 
time, and to only support legislation which provides sufficient 
parameters to ensure our oceans and fisheries are protected, and to 
ensure that any aquaculture facilities in public waters enhance, not 
diminish, our food supply.
        Sincerely,
           Catherine Hazlewood, The Ocean Conservancy, Washington, DC.
           Tracie Letterman, Center for Food Safety, Washington, DC.
           Becky Goldburg, Ph.D., Environmental Defense, Boston, MA.
           Zeke Grader, Pacific Coast Federation of Fishermen's 
        Associations, San Francisco, CA.
           Marianne Cufone, Environment Matters, Tampa, FL.
           Andrianna Natsoulas, Public Citizen, Washington, DC.
           Bob Jones, Southeastern Fisheries Association, Tallahassee, 
        FL.
           Robert Spaeth, Southern Offshore Fishing Association, 
        Madeira Beach, FL.
           Cyn Sarthou, Gulf Restoration Network, New Orleans, LA.
           Mark Ritchie, Institute for Agriculture & Trade Policy, U.S. 
        Salmon Network, Minneapolis, MN.
           Sal Versaggi, Versaggi Shrimp Corporation, Tampa, FL.
           Kate Wing, Natural Resources Defense Council, San Francisco, 
        CA.
           Mike Hirshfield Ph.D., Oceana, Washington, DC.
           Anne Mosness, Go Wild Campaign, Bellingham, WA.
           Linda Behnken, Alaska Longline Fishermen's Association, 
        Sitka, AK.
           Linda Paul, Hawaii Audubon Society, Honolulu, HI.
           Eric Wickham, Canadian Sablefish Association, Vancouver, BC 
        Canada.
           Caroline Karp, Sierra Club, Exeter, RI.
           Kenneth Duckett, United Southeast Alaska Gillnetters, 
        Ketchikan, AK.
           Matthew Davis, Environment Maine, Portland, ME.
           Bob Shavelson, Cook Inlet Keeper, Homer, AK.
           Tracy Wolpert, Randy Lee, Trudy Bialic, PCC Natural Markets/
        Sound Consumer, Seattle, WA.
           Andrea Kavanagh, National Environmental Trust, Washington, 
        DC.
           Ray Pringle, Florida Fishermen's Federation, Panacea, FL.
           Cha Smith, KAHEA, The Hawaiian Environmental Alliance, 
        Honolulu, HI.
           Joseph E. Payne, Casco Baykeeper, Friends of Casco Bay, 
        South Portland, ME.
           Alfredo Quarto, Mangrove Action Project, Port Angeles, WA.
           Alice Slater, GRACE Public Fund, New York, NY.
           Paul G. Johnson, Reef Relief, Crawfordville, FL.
           Mason Weinrich, Whale Center of New England, Gloucester, MA.
           Bob Strickland, United Anglers of California, San Jose, CA.
           Mary P. Marsh, Maryland Conservation Council, Annapolis, MD.
           Brian Trautwein, Environmental Defense Center, Santa 
        Barbara, CA.
           John Hocevar, Greenpeace, Washington, DC.
                                 ______
                                 
              Prepared Statement of The Ocean Conservancy

    We are writing to register The Ocean Conservancy's (TOC) concerns 
regarding the National Offshore Aquaculture Act of 2005 (S. 1195) as 
introduced, and to offer recommendations for improving the bill. While 
the development of offshore aquaculture may have significant potential, 
it also has significant risks. To protect human health, native fish and 
wildlife populations, and ocean ecosystems, TOC believes that 
aquaculture in ocean waters must be accompanied by a stringent 
statutory and regulatory framework.
    We appreciate your efforts, as well as those of many of your 
colleagues, to ensure environmental standards are developed to 
accompany any legislative authorization of this new ocean use. As it 
stands, S. 1195 is strongly weighted toward the promotion of commerce. 
It fails to provide adequate criteria and standards to guide NOAA in 
accounting for other interests, such as the protection of wild stocks, 
protection of the environment, and coordination of other uses. In fact, 
without your amendment upon introduction, even the duty to develop 
standards would have been left solely to the discretion of the agency.
    In this context, we would appreciate your consideration of our 
comments on the bill as introduced. We look forward to working with you 
to develop a more effective and efficient management regime that will 
safeguard the environment and the public trust.

Background
    The potential of open ocean aquaculture is promoted as a solution 
to the ocean's diminishing resources. However, it also poses 
significant risks, including escapement of fish, damage to the 
surrounding environment, harmful effects on native fish populations, 
and pollution. These risks, and their consequences, are largely 
dependent upon the location of the operation, its size or scope, the 
stringency and comprehensiveness of the management practices, the 
capacity of the receiving water body, and the choice of species to be 
raised in a particular area.
    Both the Pew Oceans Commission and the U.S. Commission on Ocean 
Policy recommended that Congress improve the governance framework to 
address the many challenges and risks associated with the development 
of offshore aquaculture.

Risk of Escapement of Potentially Invasive Species
    In our view, the single greatest ecological and economic threat 
associated with a rise in offshore aquaculture is the potential to 
introduce potentially invasive species to the surrounding ecosystem and 
nearby coastal communities. According to the National Marine Fisheries 
Service (NMFS) and the Fish and U.S. Wildlife Service (FWS), escapes 
are resulting in harmful interactions with native fish. These 
interactions include competition with wild stock for food, habitat and 
mates, genetic modification of wild stocks through inter-breeding, and 
transfer of potentially deadly diseases and parasites to wild stocks.
    The potential for escapement of farmed fish is greater in 
facilities sited further offshore, where containment structures face 
increased exposure to wind and wave power as well as to predators. 
Offshore structures pose unique challenges for monitoring as well as 
rapid response in the event of escapement. Additionally, many of the 
species favored for offshore aquaculture use are highly pelagic, and 
consequently, once they escape, are capable of traveling thousands of 
miles.
    Moreover, we currently have no way of determining in advance which 
species that escape into the wild are likely to cause harm. No common 
statutory definition of invasive species exists; nor has the Federal 
Government implemented comprehensive screening protocols to discern 
which non-native or genetically modified species have the potential to 
become invasive upon introduction into a given environment. Therefore, 
the utilization of non-native species in offshore aquaculture 
facilities is dangerously premature.

Additional Biological Threats
    Offshore aquaculture presents numerous additional biological 
threats to ocean ecosystems. The excreta from an average floating cage 
farm can produce nutrients equal to a city of 7,500.\1\ Depending upon 
pollutant composition and the cumulative effects of similar cages in a 
particular area, discharges may present harmful effects on the 
surrounding environment. Additionally, outbreaks of diseases and 
parasites are a constant risk because the density of fish in 
aquaculture operations is so much higher than in nature. Diseases in 
farmed salmon have been found to significantly threaten the health and 
vitality of nearby migrating wild stocks. Farmed species, depending 
upon species and diet, can even present increased public health risks 
to the people who consume them.\2\
---------------------------------------------------------------------------
    \1\ See What's Behind That Farmed Salmon Steak? Salmon Nation 
(2002) at http://www.salmonnation.com/farmed.html, citing David Suzuki 
Foundation, (2002) Ocean Pollution from Salmon Farming, http://
www.davidsuzuki.org/Oceans/Fish_Farming/Salmon/Pollution.asp.
    \2\ See Hites, et. al, Global Assessment of Organic Contaminants in 
Farmed Salmon, 203 Science at 226 (concentrations of PCBs, toxaphene, 
and dieldrine have been found to be significantly greater in farmed 
salmon species than in wild species, and applications of risk indicates 
risks may detract from beneficial effects of consumption).
---------------------------------------------------------------------------
    Aquaculture operations also may require dredging, drilling, the use 
of large heavy anchors, and other disturbances to sediment and bottom 
habitats, which can displace ocean wildlife, smother bottom-dwelling 
animals, destroy hiding places for young fish, and cause other 
ecological changes to the sea floor. Finally, aquaculture may create an 
incentive to overexploit targeted wild fish populations to provide 
inexpensive feed for farmed fish.\3\ Farming carnivorous marine fish 
such as salmon currently represents a net loss of fish protein.\4\
---------------------------------------------------------------------------
    \3\ ``An annual production of 1 million mt of farm fish may require 
1-5 million mt of compounded feed, depending upon its formula and 
conversion rates . . . For carnivorous fish, like most marine species, 
feeds contain proteins mostly of animal origin, particularly high 
quality fish meal and fish oil.'' Achieving policy objectives to 
increase the value of the seafood industry in the United States: the 
technical feasibility and associated constraints, C.E. Nash, 29 Food 
Policy 621-641 (2004).
    \4\ ``[A]bout two to five times more wild-caught fish are used in 
feeds than are harvested from aquaculture,'' Future seascapes, fishing, 
and fish farming, R. Goldburg and R. Naylor, 3(1) Front. Ecol Environ, 
21-28, p. 23 (2005).
---------------------------------------------------------------------------
Lack of Capacity of Regulatory Regime to Address Risks
    Unfortunately, current regulations and mitigation strategies are 
simply inadequate to guide the aquaculture industry or manage its 
risks. Regulatory agencies with overlapping and conflicting authority 
have thus far demonstrated significant confusion regarding 
environmental requirements, siting considerations, leasing procedures 
and jurisdictional responsibility. Without careful legislative 
coordination of NOAA's jurisdiction and responsibilities with those of 
other agencies, we believe problems will persist, with potentially 
serious environmental consequences.
    For these reasons, clear, coordinated and comprehensive standards 
must accompany the development of this new ocean use. This is 
especially critical given the projected growth of the industry: the 
U.S. Department of Commerce has called for aquaculture production in 
the United States to increase fivefold by 2025.\5\ In this context, the 
remainder of our comments will address our specific concerns with the 
bill as introduced, organized section-by-section.
---------------------------------------------------------------------------
    \5\ See, Biliana Cicin-Sain and Robert W. Knecht, Development of a 
Policy Framework for Offshore Marine Aquaculture in the 3-200 Mile U.S. 
Ocean Zone (2001).
---------------------------------------------------------------------------
Section 2. Findings
    As currently drafted, the findings of Congressional policy in this 
section generally promote the development of aquaculture while 
incorporating too little acknowledgement of either its risks or its 
effects on other ocean uses. We encourage the Committee to ensure this 
policy reflects a more balanced perspective on the development of a new 
ocean use and its relationship to other ocean uses and the marine 
environment.

Section 3. Definitions
    Section 3(1) defines ``demonstration'' to include both pilot scale-
testing of aquaculture science and technologies, or farm-scale 
research. We believe generally this definition is too vague to give 
sufficient guidance. ``[P]ilot scale,'' ``science,'' ``technologies,'' 
and ``farm-scale research'' are potentially subjective terms not 
defined further in the bill. We would encourage you to clarify these 
terms to ensure even demonstration projects are conducted in an 
ecologically protective manner.

Section 4. Offshore Aquaculture Permits
    Generally speaking, we would like to see section 4 amended to 
provide a framework to ensure offshore aquaculture is well coordinated 
with other ocean uses and protects the public trust. This section 
directs the Secretary of Commerce to establish a site and operating 
permit process to make areas of the U.S. Exclusive Economic Zone (EEZ) 
available to persons to develop and operate offshore aquaculture 
facilities. However, it leaves to agency discretion particular 
procedures to be followed, including timing of regulatory processes, 
and scope and criteria for decisions.

Legislation Should Include a Method for Initially Determining Suitable 
        Areas for Aquaculture
    We recommend that the Committee include a more comprehensive siting 
process than the proposed lease-by-lease, operation-by-operation 
approach. Although subsection (b) requires the Secretary to specify in 
a site permit the size and location of an offshore aquaculture facility 
and, under subsection (d), to consult with other Federal agencies to 
ensure that an offshore aquaculture facility is compatible with other 
uses of the EEZ, the bill lacks a mechanism to determine, in advance of 
individual operation-by-operation siting decisions, where offshore 
aquaculture is, and is not, appropriate. The process we envision would 
clearly articulate criteria and a process for NOAA to follow in 
establishing zones appropriate for development of aquaculture leases 
and operations that also would not interfere with other ocean uses, 
such as shipping channels and commercial fisheries.

Legislation Should Prohibit the Permitting of Commercial Operations 
        Until NOAA has Promulgated Necessary Regulations
    We also urge you to include language prohibiting the issuance of 
any aquaculture permits under this section until the agency has 
promulgated comprehensive regulations to guide its decision-making. The 
timely establishment of clear, consistent, and enforceable regulations 
is critical for both the public and industry.

Legislation Should Ban the Use of Non-native or Genetically Modified 
        Species in 
        Offshore Aquaculture
    For the reasons articulated in the background section to these 
comments, we oppose the use of non-native or transgenic species in 
offshore aquaculture. Some states, including Maine, California, 
Washington and Oregon have already implemented such prohibitions in 
legislation to protect state waters, while other states such as Alaska 
more broadly prohibit the development of offshore aquaculture in state 
waters. We urge you to amend section 4 to prohibit the use of non-
native species and transgenic species in section 4 of S. 1195.
Section 5. Environmental Requirements

Legislation Must Include Strong, Clear Operational and Site Permitting 
        Requirements
    We are concerned that S. 1195 establishes few parameters to guide 
agency consideration of the ecological impacts of aquaculture 
facilities. Although subsection (4)(c) authorizes the Secretary to 
issue operating permits under ``such terms and conditions as the 
Secretary shall prescribe'' and subsection (4)(d) directs the Secretary 
to ``consult as appropriate'' with other Federal agencies to ensure 
that offshore aquaculture facilities meet the environmental 
requirements established under section 5(a) of the bill, section 5(a) 
does not establish any new requirements. Instead, it simply directs the 
Secretary to consult with other Federal agencies to identify the 
environmental requirements applicable to offshore aquaculture under 
existing laws and regulations. Although the bill authorizes the 
Secretary to establish additional environmental requirements, the 
process for consultation with other stakeholders as well as the content 
of any such additional requirements is left to the discretion of the 
Secretary. Furthermore, subparagraph (d)(6) requires only that the 
Secretary ``periodically review'' the criteria for issuance of site and 
operating permits.
    We recommend that the Committee include standards in the bill for 
siting and operating permits that are precautionary, comprehensive, 
clear, and legally binding. Specifically, we recommend that such 
standards address the following general issues:
Siting

  <bullet> Description of site characteristics, and proximity to other 
        ocean uses;

  <bullet> Consideration of cumulative effects of similar facilities in 
        an ecosystem;

  <bullet> Prioritization of ocean uses such that aquaculture does not 
        unreasonably interfere with other ocean uses, such as the 
        protection of a sensitive marine environment, popular 
        recreational fishery, or vessel lane used in commercial 
        fishing;

  <bullet> Requirements that facilities be designed and operated to 
        prevent escapes and interactions with wild species.

Cultured Species

  <bullet> Proposed sources for organisms to be grown at the site;

  <bullet> Procedures for the introduction of fish stocks to stock 
        facilities, including brood stock quarantine, limited 
        introduction of first-generation progeny to assess interactions 
        with native species in open waters, and continued study of the 
        introduced organisms in their new environment;

  <bullet> Maximum allowed density, numbers and biomass of fish allowed 
        in a particular type of structure;

  <bullet> Minimization of the use of fishmeal and fish oils in feeds.

Pollution Standards

  <bullet> An analysis of the quality of the receiving waters (with 
        bioassays, as appropriate). Analysis of the potential for 
        pollutant transport by biological, physical or chemical 
        processes, and availability of alternatives to pollutant 
        discharge from the facility;

  <bullet> Development and application of water quality criteria and 
        pollutant effluent limits established by the Environmental 
        Protection Agency under the Clean Water Act;

  <bullet> Requirements that the use of drugs and chemicals be 
        minimized and that detailed records be kept on all drugs and 
        chemicals used in an aquaculture facility, including the 
        amounts used and frequency applied. Drugs, pesticides, and 
        other chemicals not authorized and registered by the Food and 
        Drug Administration and the Environmental Protection Agency for 
        the particular use should be specifically prohibited. In 
        addition, drug and chemical records should be available to the 
        public at all times;

  <bullet> A detailed plan in the event of escapement to rapidly 
        respond, including tagging and notification procedures.

Monitoring and Permitting

  <bullet> Minimum standards for record keeping, including records of 
        the total number of each species grown and harvested, and 
        specific maintenance and inspection procedures carried out;

  <bullet> Ongoing monitoring of benthic habitat and water quality both 
        in and immediately surrounding the containment structure;

  <bullet> Limitations on the duration of permits and a specific 
        timeframe for review of criteria for the issuance of site and 
        operating permits. Specifically, the legislation should provide 
        for an initial period for an operating period that is 
        economically and environmentally reasonable, not to exceed 8 
        years. Once that initial period has elapsed, operating permits 
        should be reviewed and renewed at least every 5 years. 
        Similarly, criteria for the issuance of site and operating 
        permits should be reviewed not less than once every 4 years;

  <bullet> Bonding procedures to ensure restoration of the site and 
        financial liability of the owner/operator of the facility.

    In sum, given the risks associated with offshore aquaculture, we 
believe it should be carefully regulated from its inception to ensure 
its economic and environmental success.

Section 6. Research and Development
    S. 1195 allows the Secretary to conduct research and development to 
advance technologies that are compatible with the protection of marine 
ecosystems. We believe this work should be carried out in close 
coordination with other relevant agencies. We also note that while many 
international, national and state governments have implemented 
recommended management measures drawing upon existing science, NMFS has 
not yet promulgated best management practices under existing law. We 
urge the Committee to direct NMFS to develop and publish such research 
in time to help guide development and promulgation of regulations under 
section 4 of the bill.

Section 7. Administration
    We believe S. 1195 should establish reasonable timelines and 
deadlines for the promulgation of regulations necessary to administer 
this program. As outlined earlier, we believe that the bill should make 
clear that permitting for commercial aquaculture facilities may not 
proceed until NMFS has promulgated those regulations.
    Additionally, we request that the Committee amend subsection (c) to 
detail processes for resolving disputes that may that arise in 
decisionmaking. Other than requirements that the Secretary consult with 
other relevant agencies ``as appropriate'' (section 4(d)(1)) and the 
requirement to obtain ``concurrence'' (section 4(a)(2)) from the 
Department of Interior on some decisions, the bill currently does not 
articulate a process for resolving interagency disputes.
    Despite the language of subsection (f), subsection (g) takes the 
highly unusual step of authorizing the Secretary to apply the 
provisions of any other Federal statute to offshore aquaculture 
facilities if the Secretary determines that it is in the public 
interest. In our view, Congress, and not the Secretary, should 
determine in the first instance whether those laws apply to offshore 
aquaculture facilities.
    Similarly, subsection (h) would Federalize the law of the nearest 
adjacent coastal states even for state laws that have not yet been 
adopted. Although we appreciate that state resources may be adversely 
affected by aquaculture operations in Federal waters, and support 
states' ability to adopt more stringent laws governing such facilities, 
subsection (h) is not an adequate substitute for a sufficiently 
comprehensive and stringent Federal program.

Section 8. Authorization of Appropriations
    Section 8 authorizes to be appropriated to the Secretary such sums 
as are necessary to carry out the Act. Although this section gives the 
appropriators wide latitude, an authorization for a specific dollar 
amount in each of the Fiscal Years authorized by the Act would give the 
members of the appropriations committee and the public some indication 
of the resources needed to fully and effectively implement this 
program. We suggest that this section also include specific 
authorizations for research and the promulgation of regulations.

Section 10. Enforcement Provisions
    We urge the Committee to clarify the circumstances and use of 
available enforcement authority. We urge the Committee to incorporate a 
citizen suit provision, similar to those utilized in other Federal 
statutes regulating biological pollution.

Section 11. Civil Enforcement and Permit Sanctions
    We urge the Committee to consider including a liability in rem 
provision.

Section 13. Forfeitures
    We urge the Committee to include language ensuring that forfeited 
resources made available for sale do not endanger public health.

Conclusion
    Thank you for your efforts to ensure that offshore aquaculture is 
guided by strong environmental standards. We look forward to working 
with you to advance legislation that would ensure prudent, consistent, 
and responsible controls on the siting and operations of open ocean 
aquaculture facilities.
                                 ______
                                 
                                                      April 4, 2006
Hon. Barbara Boxer,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Boxer:

    In light of the upcoming Senate National Ocean Policy Study (NOPS) 
subcommittee hearing on offshore aquaculture, the undersigned 
organizations, representing consumer and conservation organizations, 
recreational and commercial fishing groups and business interests, 
would like to share our concerns about legislation to allow permitting 
of commercial offshore aquaculture in Federal waters without adequate 
safeguards for protecting marine ecosystems, wild-fish populations, 
consumer health and the economic livelihood of fishing businesses and 
communities. We therefore ask that you oppose the National Offshore 
Aquaculture Act (S. 1195)--introduced on June 8, 2005 at the request of 
the National Oceanic and Atmospheric Administration (NOAA)--and any 
similar future proposal until pertinent questions are answered.
    We recognize that some types of aquaculture offer potential 
benefits; however, independent reports from two recent blue ribbon 
commissions, the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission, highlight the threats that farming carnivorous finfish, 
such as cod, halibut and red snapper, can pose to the environment and 
native fish populations. The U.S. Commission on Ocean Policy's report 
cites numerous concerns, including the spread of disease and parasites; 
genetic ``contamination'' and competition between wild- and farmed-fish 
populations; degradation of water quality; harm to marine mammals; 
increased pressure on already-exploited fisheries from an increased 
demand for fishmeal and oil; and the possible introduction of non-
native or genetically-modified species. The Pew Oceans Commission 
recommended a moratorium on offshore fish farming until such concerns 
are addressed.
    The issues raised by offshore aquaculture development are not just 
environmental, but also include the impacts on fishermen and women. In 
the 1990s, increased imports of low-cost farmed salmon substantially 
depressed commercial salmon prices, contributing to financial 
instability for many fishing families and fisheries-dependent 
businesses. Yet NOAA appears to be promoting offshore aquaculture 
without consideration of such impacts. To our knowledge, NOAA has not 
analyzed the potential socioeconomic impacts of offshore aquaculture 
development, nor has the agency articulated a strategy to minimize or 
balance the impacts offshore aquaculture will have on the livelihoods 
of U.S. commercial fishermen and women.
    S. 1195 gives NOAA the authority to issue permits for the 
construction of private fish farms, or marine aquaculture operations, 
in federal waters from three to 200 miles from shore. Unfortunately, 
this bill does not address the problems with offshore aquaculture and 
instead allows the Secretary of Commerce, in consultation with other 
Federal agencies, to fast-track the permitting of large commercial fish 
farms with little protection for the marine environment, consumers or 
fishing businesses and communities. For example, the bill fails to 
require the Secretary to conduct appropriate mapping, planning or 
zoning to minimize conflicting uses or protect sensitive areas and 
ecosystems. The bill gives the Secretary nearly unlimited discretion to 
determine the siting- and operating-permit conditions, including the 
environmental criteria, if any, that apply to facilities. It provides 
no requirements for tagging, tracking or monitoring of fish farms to 
assess their impacts on wild fisheries or on consumer health. Contrary 
to the laws of several states, the bill fails to prohibit the raising 
of genetically modified and non-native fish species, and it provides 
for little or no oversight from the public, states or fishery 
management councils.
    Moreover, NOAA has refused repeated requests from a number of the 
organizations below to conduct a Legislative Environmental Impact 
Statement on the bill, as required by the National Environmental Policy 
Act, so that Congress can begin to assess the effects of offshore fish 
farming before voting on this major change to the management of our 
ocean resources.
    In short, S. 1195 is an example of a bill that lacks safeguards 
necessary to protect marine ecosystems, including marine fisheries. We 
therefore urge you to oppose S. 1195. We would be happy to discuss our 
concerns further and to work with you to protect our oceans and 
America's fisheries.
        Sincerely,
        Organizations/Associations
           George A. Kimbrell, Center for Food Safety.
           Beth Fitzgerald, Greenpeace USA.
           Wenonah Hauter, Food and Water Watch.
           Gerry Leape, National Environmental Trust.
           Kate Wing, National Resource Defense Council.
           Tim Eichenberg, The Ocean Conservancy.
           Caroline Gibson, Pacific Marine Conservation Council.
           Linda Behnken, Alaska Longline Fishermen's Association, AK.
           Dorothy Childers, Alaska Marine Conservation Council, AK.
           Sharry Miller, Prince William Soundkeeper, AK.
           Chris Zimmer, Transboundary Watershed Alliance, AK.
           Kenneth Duckett, United Southeast Alaska Gillnetters, AK.
           Becca Robbins, Yukon River Drainage Fisheries Association, 
        AK.
           Kathy Hansen, Southeast Alaska Fishermen's Alliance, AK.
           John L. Wathen, Hurricane Creekkeeper, Inc., AL.
           Erich Pfuehler, Clean Water Action, CA.
           Dan Jacobson, Environment California, CA.
           Nadananda, Friends of the Eel River, CA.
           Marianne Cufone, Environment Matters, FL.
           Frank Carl, Executive Director, Savannah Riverkeeper, GA.
           Cha Smith, KAHEA: The Hawaiian-Environmental Alliance, HI.
           Tracy Kuhns, Association of Family Fishermen, LA.
           Cyn Sarthou, Gulf Restoration Network, LA.
           Michael Roberts, Louisiana Bayoukeeper, LA.
           Peter Baker, Cape Cod Commercial Hook Fishermen's 
        Association, MA.
           Marine and Fish Conservation Program, Institute for 
        Agriculture and Trade Policy, MN.
           Bill Schultz, Raritan Riverkeeper, NJ.
           Ken Hinman, National Coalition for Marine Conservation, VA.
           Alaska Independent Fishermen's Marketing, Association, WA.
           Anne Mosness, Go Wild Campaign, WA.
           Stephen Taufen, Groundswell Fisheries Movement, WA.
           Alfredo Quarto, Mangrove Action Project, WA.
           Chuck Owens, Peninsula Citizens for the Protection of 
        Whales, WA.

          Businesses

           William T. Black, F/V Carol M, AK.
           Gulkana Seafoods-Direct, AK.
           Tom Waterer, Nautilus Marine, Inc., AK.
           Norman Van Vactor, Bristol Bay Manager, Peter Pan Seafoods, 
        AK.
           William (Bill) Webber, Webber Marine & Mfg., Inc., AK.
           Robert A. Bonanno, F/V Night Train II, CA.
           Chris White, F/V Vulcan, ID.
           Peter Girvan, F/V Karma, UT.
           Paul Gilliland, Managing Director, Bering Select Seafoods 
        Company, WA.
           Nadine LaPira-Wolos, Bristol Bay Wild 'N Red Salmon, WA.
           Clipper Seafoods, Ltd, WA.
           Jay Follman, F/V Erika Lynn, WA.
           Fisher's Choice Wild Salmon, WA.
           Buck Meloy, Flopping Fresh Fish Company, WA.
           John Jovanovich, Jovanovich Supply Company, WA.
           Justin Marx, Marx Imports, WA.
           Ron Richards, F/V Ocean Dancer, WA.
           Tracy Wolpert, Chief Executive Officer, PCC Natural Markets, 
        WA.
           John R. Adams, President, Seattle General Agency Inc., WA.
           Warren ``Buck'' Gibbons, President, Wildcatch, Inc., WA.
                                 ______
                                 
          Prepared Statement of The Pacific Coast Federation 
                      of Fishermen's Associations

    At the urging of the National Oceanic & Atmospheric Administration 
(NOAA), Senate Bill 1195, the National Ocean Aquaculture Act of 2005 
(NOAA Bill) was introduced last June. The Pacific Coast Federation of 
Fishermen's Associations and the Institute for Fisheries Resources 
write to oppose NOAA's NOAA Bill as currently drafted. \1\
---------------------------------------------------------------------------
    \1\ The Pacific Coast Federation of Fishermen's Associations 
represents working fishing men and women in the West Coast commercial 
fishing fleet. The Institute for Fisheries Resources is a non-profit 
organization dedicated to the protection and restoration of fish 
resources and the human economies that depend on them and is engaged in 
research, public outreach and education regarding marine and anadromous 
fish resources.
---------------------------------------------------------------------------
Historic Overview
    Aquaculture, or fish farming, has existed for some 3,000 years or 
more. In marine settings it is sometimes referred to as mariculture. It 
has been used for the rearing of fish, shellfish and aquatic plants for 
a portion of a species' life (e.g., public mitigation hatcheries) or 
for the entire life of the species (e.g., commercial salmon netpen 
operations). The Chinese, for example, often raised carp in ponds as an 
integral part of their other farming operations. Along France's 
Atlantic Coast, Bretons have cultured oysters for centuries. Trout 
farms (mostly private) have existed for more than a century in North 
America, used to stock lakes and rivers for sport fishing and produce 
food fish.
    Since the 1870s, hatcheries (mostly public) have been built to 
supplement salmon runs, rearing fish for release into the wild. Salmon 
hatcheries have been widely used in the west to mitigate for fish 
losses attributable to the construction and operation of the large 
Federal dam projects. These hatcheries spawn adult fish returning from 
the wild, and hatch and raise the progeny anywhere from a few months to 
a year before releasing them into the wild. In some of the more 
``highly developed'' (i.e., dammed) watersheds, over half of the fish 
released in the wild may have come from hatchery production.
    Although aquaculture in various forms has been around for thousands 
of years, a major push has come about in the past thirty years to 
greatly expand its scope and forms. Governments have begun looking for 
ways to supplement wild fish production, which in some cases has been 
stagnant or falling. Governments have promoted fish farms to create new 
jobs in high unemployment rural areas, much as Norway did when it began 
pushing salmon farms in coastal villages. Still others began calling 
for a ``blue revolution,'' following agriculture's ``green revolution'' 
(or not so green), claiming it was needed to increase world food 
production.
    Some large food corporations and grocery chains have been attracted 
to the controlled nature of aquaculture operations as a means of 
profiting from the public's appetite for such things as shrimp and 
salmon by providing these products without being limited to natural 
seasons. Mariculture has attracted fishery biologists as a tool to lure 
government or private research grants. Moreover, it has even caught the 
attention of oil companies looking for a use for their offshore 
platforms once the wells went dry. These companies, obligated under 
their leases to remove the old structures and clean up the seafloor, 
have looked for ways to use the structures for other purposes (e.g., 
``rigs-to-reefs''), in order to evade their obligations under the 
leases and save the millions of dollars required for removal and clean-
up.
    If, in fact, aquaculture is a food production technology that has 
been around for centuries, with new operations utilizing cutting edge 
technology, and all this in furtherance of increasing food production 
and even taking pressure off wild fisheries which could help the U.S. 
reduce or eliminate its ``seafood deficit,'' then what is the problem? 
Let's have a closer look.

The Nature of the Problems
    Although aquaculture is currently the fastest-growing type of food 
production in the world, and holds the illusion of vastly increasing 
the world supply of fish, shellfish and aquatic plant life, it has a 
number of hazards that cannot be ignored. While the promise remains, 
the problems identified below call for a more careful approach to its 
development, where the pre-cautionary principle should be the guiding 
force.
    1. Pollution. The use of net pens and other ``open'' systems (e.g., 
cages) in the marine environment means waste from aquaculture 
operations ends up being disposed of, often in high concentrations, in 
open waters. Since the fish in such operations are highly concentrated, 
waste is a significant problem compared to that of fish in the wild. 
The situation is somewhat analogous to a comparison of the waste 
problem between a cattle feedlot and cattle grazing on open rangeland. 
Pollution from salmon netpen operations, for example, has created 
anaerobic conditions under the pens with nothing living on the seabed 
below. Pollution will also emanate from closed systems when the 
wastewater from aquaculture is not properly treated before being 
discharged. The pollution is generally attributed to three sources:

  <bullet> Fecal Material. Fecal matter from highly concentrated 
        numbers of fish in pens, or other forms of containment, builds 
        up and cannot be readily absorbed by the environment (as it is 
        when fish are swimmingly freely in the wild). A leading 
        scientist that supports the aquaculture industry wrote a paper 
        indicating that a fish farm of 200,000 fish produces as much of 
        some types of sewage as almost 65,000 people. Many farms now 
        have over 1,000,000 fish and British Columbia has over 100 
        farms.

  <bullet> Feed and Medicines. Uneaten fish feed collects on the ocean 
        floor. This uneaten feed in high concentrations, like fecal 
        matter (which can also carry disease or parasites), can result 
        in anaerobic conditions. Moreover, the feed may contain 
        medicines intended for the farmed fish, such as antibiotics 
        needed to combat disease when fish are held in concentrated 
        situations over a period of time.

  <bullet> Pesticides/Fungicides. Pesticides and fungicides are 
        occasionally used in aquaculture operations to control 
        parasites (such as sea lice that may attach to the fish), as an 
        anti-fungal agent or to control algae and other growth on the 
        meshes of net pens or other containment facilities. Even in 
        oyster culture operations, usually considered sustainable and 
        environmentally benign, there have been problems when growers 
        (e.g., Willapa Bay and Grays Harbor, Washington) sprayed beds 
        with the pesticide carbaryl, aimed at killing burrowing shrimp 
        populations.

    2. Spread of Disease, Parasites. Aquaculture operations in contact 
with the ocean environment can infect wild fish populations, putting 
native stocks at risk. There have been numerous instances where disease 
from trout farms has infected wild salmon in rivers. In California, 
wild populations of abalone were infected with and nearly destroyed by 
a disease called ``withering foot syndrome'' as a result of out 
planting of aquacultured abalone from South Africa. An infestation of 
sea lice from salmon netpen operations in British Columbia infected 
juvenile wild pink salmon, having a devastating impact on that 
population of native fish. These scenarios appear all over the world 
including in Norway and Scotland as the same open net pen technology is 
being employed throughout.
    3. Habitat Loss. Some aquaculture operations have resulted in 
significant habitat losses. The types of losses vary with each 
operation. Salmon netpen facilities, as mentioned above, have damaged 
or destroyed seafloor ecosystems as a result of pollution. The clearing 
of mangroves to establish farmed shrimp operations has acted to destroy 
these natural habitats for fish and other marine life, as well as 
eliminate important coastal barriers that provide low lying lands with 
protection from ocean storms and tsunamis.
    4. Escape. The escape of farmed fish from finfish mariculture 
facilities is a frequent occurrence. Since their establishment along 
the eastern shore of Vancouver Island and the southern mainland waters, 
millions of Atlantic salmon have escaped from British Columbia 
mariculture farms. Netpens, anchored in coastal waters are the 
predominant type of facility used for farming salmon and are vulnerable 
to storms and accidents. In Scotland, over a million farmed salmon 
escaped in January 2004, following the storm damage done to the netpens 
and over a million farmed salmon escaped in July 2004 from farms in 
Chile, also due to severe storms. Programs to recover escaped farmed 
fish exist, but are only marginally successful. Moreover, as is the 
case in Canada, the costs for such programs are usually borne by 
taxpayers, not the aquaculturists.
    At first blush, the escape of farmed fish into the wild may not 
seem to be a problem. Aren't hatchery fish, after all, released into 
the wild for purposes of mitigation or enhancement? The problem is the 
types of fish or shellfish being raised are not always the same as 
native stocks, and become non-native invasive species when they enter 
the wild. Atlantic salmon, for example, are neither native to the 
Pacific, nor the southern hemisphere, yet they are being raised in 
netpens in the Pacific in both the northern and southern hemispheres, 
where they can, and do, escape into the wild to compete with wild 
stocks or spread disease.
    Even utilizing native broodstock in mariculture operations, as has 
been ordered in the State of Maine for salmon farms, does not 
completely address the escape problem. Farmed fish, after generations 
of being raised in aquaculture facilities, begin to differ genetically 
from their wild cousins through a process of directional selection. The 
end product, most notably, is the loss of genetic diversity and the 
traits needed for fish to survive in the wild. The four principle 
problems presented by escaped farmed fish are:

  <bullet> Predation. Predation by farmed fish on native fish stocks, 
        particularly juvenile wild fish, can be deleterious to wild 
        populations. The introduction of farmed fish into the wild 
        upsets existing marine ecosystem predator-prey relationships.

  <bullet> Competition. Escaped farmed fish are potential competitors 
        with wild fish for forage or habitat.

  <bullet> Interbreeding. Where farmed fish are the same species as 
        natives in the wild, there is a danger of their interbreeding. 
        The problem here is that farmed fish, which may be lacking the 
        traits for survival in the wild, could weaken wild populations 
        through interbreeding. The interbreeding of hatchery and 
        natural-spawning fish, for example, has led to changes in 
        salmon hatchery practices. The problem is magnified, however, 
        with farmed fish that, unlike hatchery fish, are intended to 
        live their complete life in captivity and display fewer natural 
        survival traits than fish released into the wild from 
        hatcheries.

  <bullet> Colonization. There is a danger, too, that escaped non-
        native fish can establish self-sustaining populations in the 
        wild. In British Columbia, for example, despite denials by the 
        government, Atlantic salmon have been found spawning in several 
        B.C. streams, producing a second generation. It is not simply a 
        matter of one type of salmon replacing another; the non-native 
        invasive Atlantic salmon spawn at different times and in 
        different numbers than Pacific salmon, causing further adverse 
        effects on the natural balance.

    Another issue related to escapes are plans for the use of 
genetically-engineered (``transgenic'' or ``genetically-modified'') 
fish/shellfish in aquaculture operations. One U.S. Company, Aqua 
Bounty, is currently awaiting Food & Drug Administration approval for 
use of its genetically modified Atlantic salmon in fish farm 
operations. These fish are modified to grow up to seven times faster 
than a normal salmon through the introduction of a growth regulating 
gene from an Atlantic pout and a Pacific Chinook salmon.
    The faster growth would allow fish farmers to bring fish to market 
much quicker and, in theory, reduce their costs. Aqua Bounty, which is 
working as well on genetically modified shrimp, has also submitted an 
application to the Canadian Government for approval of the use of its 
fish in that nation's salmon farms. Genetically modified zebra fish 
(``Glo Fish'') have already been approved in most states for use in 
home aquariums (aquariums are a major source of aquatic invasive 
species). It is seen as just a matter of time before GE fish begin 
finding their way into aquaculture operations, whether in the U.S. or 
other nations.
    It is nothing but foolhardy to allow genetically modified fish into 
the wild. The impact of GE fish getting loose into the wild from 
aquaculture operations is yet unknown, but the fact that it has been 
impossible to contain genetically modified corn or soy from spreading 
into the wild, does not bode well for attempts to prevent the spread of 
GE fish from aquaculture facilities into the wild, particularly from 
operations in coastal or open ocean waters.
    5. Displacement of Fishing Communities. Aquaculture operations vie 
for space in coastal zones with traditional fishing operations. This 
competition for space has caused the displacement of fishing 
communities along the southern coast of Chile, where salmon farms have 
removed access to or destroyed fishing areas of Chile's artisanal 
fishermen. In much of Central America and South Asia, shrimp farms have 
also displaced fishermen. In California, proposed abalone farms in the 
middle of Pillar Point, just south of San Francisco, threaten to remove 
an anchorage needed by fishing vessels and pleasure craft seeking 
refuge from storms. Even in the open ocean, depending on placement, 
structures created for aquaculture operations could displace fishermen 
from critical fishing grounds.
    6. Impairment/Endangerment of Traditional Maritime Activities. 
Depending on where and how they are located and the sheer number, 
aquaculture structures in the ocean could impede navigation and, as 
noted above, interfere with or impair fishing activities. Although not 
normally considered impairment, the location of visible aquaculture 
structures could also affect land values. The proposed wind farm 
offshore Cape Cod, for example, has drawn criticism for impairing 
views; the same could be said for certain types of aquaculture 
structures. Coastal and open ocean aquaculture structures, particularly 
those that are floating, could endanger fishing operations and maritime 
activities when the structures, on the surface or submerged, break 
loose and become navigational hazards.
    7. Net Loss of Protein. Aquaculture is being promoted as a means of 
increasing the production of fish, thereby expanding the world's food 
supply. The problem is that much of the aquaculture taking place today, 
and most of that proposed for open ocean waters, will actually decrease 
the amount of edible, usable protein available. The types of 
mariculture being considered, from the tuna ranching ``feed lots'' 
(capturing tuna in the wild and holding and feeding them in pens, until 
suitably ``fattened'' for market), to coastal net pens and open ocean 
cages, involve finfish and most of those are carnivorous. This means 
these fish have to be fed other fish, usually a meal made into pellets 
from species such as menhaden, anchovy, herring, pilchards and other 
smaller fish. Yet even under the best feed-to-meat ratio, between 3:1 
and 5:1 for salmon and 17:1 for tuna, for example, more of these small 
fish have to be harvested and processed to produce a lesser amount of 
the final product. As a result, fishing pressure actually intensifies 
on wild stocks instead of being reduced, causing an effect opposite to 
what the aquaculture proponents often claim.
    Much of the fish being taken for meal, such as anchovy, herring and 
pilchards, are perfectly good fish in themselves for the dinner plate 
and are, in fact, the staple of the diet of many coastal communities. 
Industrial fishmeal fleets, in nations such as Peru, threaten the 
smaller artisanal fisheries that supply the local communities their 
food. This raises the question: Is aquaculture about impoverishing, or 
subjecting to malnutrition, communities in developing nations to feed 
gluttonous consumers in first world countries? Why grind up five pounds 
of good sardines or anchovy to get one pound of farmed salmon?
    Aquaculture proponents point to the fact that salmon are one of the 
most efficient animals at converting feed to protein. The problem is 
they are converting usable protein to usable protein with a loss of 
about 70 percent in the conversion. Compare that to ``less efficient'' 
cattle that convert grass to protein, admittedly at much higher ratios, 
but are converting a feed (grass) to protein in ways that most other 
animals are incapable of doing, and the argument for salmon efficiency 
begins to break down. One of the solutions offered up to address the 
fishmeal issue has been to feed carnivorous fish more plant protein, 
such as soy, or convert the fish to herbivores. This is not really a 
solution, since soy, too, is a protein easily used by humans. Some 
alternatives such as creating meal from fish offal (instead of whole 
fish) and utilizing invasive fish and plants for meal may hold some 
promise, but whether it would meet the demand for vastly expanded 
aquaculture operations is highly speculative.

Aquaculturists' Arguments
    The proponents of NOAA's NOAA Bill will make several erroneous 
arguments in support of their position. They include:
    1. The ``seafood deficit'' threatens our ``food security.'' Right 
out of Orwell, the Bush Administration is playing the terrorist card by 
raising fears that we might go hungry if we do not build fish farms in 
the ocean. NOAA has traveled the globe from Ireland to Seattle to the 
Philippines presenting their top level analysts' and department heads' 
view that mariculture is both inevitable and safe. Besides the 
disingenuousness of those positions, their statements that mariculture 
is needed because of a supposed ``seafood deficit'' that threatens our 
food security is especially manipulative.
    Seafood is second to oil in the ``natural resources'' subcategory 
of all of the items that we ship in and out of the U.S. at a deficit, 
but hardly second in all categories. In addition, since the ocean fish 
farms have a significant potential of diminishing or destroying wild 
fish, ocean fish farming could, in fact, increase the seafood deficit. 
NOAA would like to talk about the seafood that we import while ignoring 
the seafood that we export. NOAA simply ignores the option of 
increasing U.S. seafood exports as a way of decreasing the ``seafood 
deficit'' because that option would require greater protection of our 
lands, waters and oceans. Finally, the U.S. produces far more food than 
it needs or imports, thus operating as a net world food exporter. Any 
contention that we need mariculture to have national ``food security'' 
is therefore pure myth at best and exaggeration at its worst.
    Many would argue that NOAA is a large part of why there is a 
seafood deficit. It was that agency that pushed for and assisted in 
expanding the commercial fishing fleet in the 1970s well beyond its 
known sustainable level for many species. In fact, some of the same 
bureaucrats that over-sold expanding the commercial fleet to take 
advantage of the then newly recognized EEZ are now salespeople for 
growing mariculture. It seems many of those who began their careers in 
NOAA, and are now in senior positions, have learned little from 
history.
    2. ``Escapes are way down.'' The vast majority of mariculture 
facilities in North America are in British Columbia, at least 130 at 
last count. Those farms are required to report escapes and it is true 
that the escapes reported by the farming industry have decreased over 
the last few years. However, a statistical reduction of escapes is an 
inexcusable rationalization because these invasive species are still 
invading otherwise natural areas. As indicated above, in Scotland, over 
a million farmed salmon escaped in January 2004, following the storm 
damage done to netpens there and over a million farmed salmon escaped 
in July 2004 from farms in Chile due to severe storms. During the 2004 
hurricanes in the Gulf of Mexico, six oil platforms collapsed and 
several more suffered severe damage, while many more than that were 
destroyed as a result of the 2005 hurricanes. These are the same 
platforms that are being proposed for staging areas for mariculture 
facilities. Since the purported reduction, in addition, is via numbers 
reported by the industry, its accuracy is also suspect.
    3. ``Better monitoring of feed and better feed systems have greatly 
reduced pollution from sewage (uneaten feed).'' There may be better 
monitoring of feed and better feed systems, but feed is only a 
percentage of the total pollutant entering the ocean. Reducing the 
amount of a pollutant, moreover, is still no excuse for dumping the 
pollutant in the first place.
    4. ``Sewage from experimental projects is barely measurable.'' It 
is not easy to obtain all necessary information about how these 
experimental projects are operated; however, the stocking densities are 
very important to the sewage generated. (Those densities are also very 
important to the spread and eradication of disease.) Sewage 
measurements without all of the information about how the measurements 
were done and what the stocking densities were are useless. One recent 
study found that NOAA's goal of a $5 billion ocean fish farming 
industry would add sewage to the ocean equivalent to that of 17 million 
people.
    5. ``It is too expensive to build a closed containment system on 
land.'' The startup costs associated with land based production are 
higher, but the production costs are lower, and eventually the startup 
costs are amortized. It is true that larger capital requirements make 
it difficult to compete on price with lower cost operations. The money 
NOAA is investing in ocean fish farming, however, would be better spent 
supporting land based operations and differentiation of the land-based 
product as ``eco-friendly'' or ``sustainable'' would encourage more 
closed land-based systems.
    6. ``Wild fish will eat fish anyway.'' This argument is the most 
insidious in that it presumes that it's OK to interfere with a natural 
system just because we can. The ocean ecosystem is complex and varied. 
Removing a majority of its small fish will deprive the fish that depend 
on them their food source. Removing those small fish will also cause 
the even smaller creatures to lose their natural predators, causing 
them to multiply beyond their healthy numbers. The consequences are 
largely unknown but potentially disastrous. Our attempts to modify the 
ocean ecosystem should be minimized, not maximized.

NOAA's NOAA Bill Lacks Provisions Essential To Safeguard Marine 
        Fisheries And Ecosystems Along With Protections For The Use Of 
        A Public Resource
    The Administration claims that this bill is ``to provide the 
regulatory framework for the development of aquaculture in the United 
States Exclusive Economic Zone (EEZ),'' the area three to 200 miles 
offshore. Unfortunately, the bill contains no environmental protections 
or standards specific to fish farms, gives away the right to use the 
public's land (use of the seabed and the waters above) to private 
entities and allows all of this to be done in secrecy. Without these 
protections, massive offshore aquaculture development would threaten 
ocean fisheries in a number of ways and we must oppose the bill as now 
drafted.\2\
---------------------------------------------------------------------------
    \2\ Along with introduction of the bill, NOAA issued a document 
titled Section-By-Section Analysis, National Offshore Aquaculture Act 
of 2005 (``NOAA's Analysis''), available at: www.nmfs.noaa.gov/
mediacenter/aquaculture along with other Administration documents on 
the bill.
---------------------------------------------------------------------------
    The Administration is touting this legislation as the centerpiece 
of the President's ``Ocean Action Plan'' developed last year in 
response to the U.S. Commission on Ocean Policy recommendations. Three 
amendments were immediately made to it by the bills own authors, and a 
fourth was introduced by the authors and Senator Olympia Snowe (R-ME). 
Among the amendments introduced by Senators Stevens and Inouye is one 
to allow coastal states to decide whether or not they even want 
offshore aquaculture in the EEZ off that state's coastline.
    The bill contains serious problems apparent to anyone concerned 
about wild fish stocks and the ocean environment. Even the title is 
problematic, since it has the same acronym as the implementing agency, 
the National Oceanic and Atmospheric Administration (NOAA), indicative 
either of a lack of thought or someone's attempt at being cute. Imagine 
NOAA implementing ``NOAA.'' \3\
---------------------------------------------------------------------------
    \3\ Please note that the Secretary of Commerce, the Secretary and 
NOAA may be used interchangeably throughout this letter.
---------------------------------------------------------------------------
Findings
    The first major section called ``findings'' contains statements 
that highlight just how biased toward fish farming the bill really is. 
It states that it is the policy of the U.S., for example, to support 
``an offshore aquaculture industry that will produce food and other 
valuable products, protect wild stocks and the quality of marine 
ecosystems, and be compatible with other uses of the Exclusive Economic 
Zone.'' Yet the pollution generated by these ocean-based feed lots 
along with the damage caused by escaping non-native fish in conjunction 
with the net loss of protein due to feeding requirements means that the 
farms would actually threaten wild stocks and the ocean ecosystem. The 
bias of the bill is shown by the fact that it ignores the damage done 
by the activity that it is itself encouraging.
    The bias of the bill is also evident in a finding that expresses a 
desire for a permitting system ``to encourage private investment,'' but 
with no mention of the permitting system's potentially positive 
environmental protection aspects. Most Federal environmental statutes 
contain a policy statement that encourages the industrial conduct while 
reciting the need for protecting the environment from the effects of 
that industrial conduct. The findings in this bill do not even give lip 
service to using the permitting system to protect the marine 
environment.
    This is especially troublesome because the lack of any policy to 
protect the ecosystem could be interpreted as a decision by Congress to 
give preference to fish farms over ecosystem protection in all cases of 
conflict. It could be argued that by not including a ``balancing 
approach'' in the bill, but by including balancing approaches in other 
statutes, Congress was making a clear choice to open up the EEZ to fish 
farming without regard to the ecological consequences.\4\
---------------------------------------------------------------------------
    \4\ By a comparison, the Magnuson-Stevens Act requires a balancing 
of several interests and leaves the outcome of that balancing to the 
individual fisheries councils, while the Marine Mammal Protection Act 
(MMPA) explicitly prohibits the intentional taking of marine mammals 
without any balancing. Lack of any balancing language makes this 
finding section potentially a very dangerous portion of the bill.
---------------------------------------------------------------------------
Site Permitting Ocean Fish Farms
    Section 4 is the heart of the bill in that it sets up the 
procedures for the two permits that a farmer will need to obtain: a 
site permit and an operating permit. Section 4 is divided into the 
following subsections: (a) general provisions (with eight 
subdivisions); (b) site permits (with four subdivisions); (c) operating 
permits (with two subdivisions); (d) criteria for issuing permits (with 
six subdivisions); (e) exclusion from provisions of Magnuson-Stevens 
(with four subdivisions); (f) fees and other payments (with three 
subdivisions); (g) authority to modify or suspend permits (with two 
subdivisions); (h) actions affecting the outer continental shelf (with 
four subdivisions); and, (i) transferability of permits.
    The general provisions authorize the Secretary of Commerce ``to 
establish . . . a process to make areas of the [EEZ] available . . . 
for the development'' of ocean fish farming by setting up the 
permitting procedures. That permitting process must include: (A) 
``development of procedures necessary to implement'' the process; and 
(B) ``coordination of the offshore aquaculture permitting process . . . 
with similar activities administered by other Federal agencies and 
States.''
    Authorizing the Secretary to ``establish a process to make areas of 
the [EEZ] available . . . for the development'' of ocean fish farming 
is, like some of the statements in the ``findings'' section, another 
sign of the explicit bias built into the bill. There is no attempt to 
make it look like a balancing approach with any reference to 
environmental protection. There is no standard by which to judge the 
point at which open ocean aquaculture should not be developed; only 
that it is to be developed.
    The second part of this subdivision is especially confusing and 
subject to two differing interpretations. It could be interpreted as 
allowing NOAA to set up a coordination procedure that is required to be 
followed by all Federal and state agencies with permitting authority. 
It could also be interpreted as allowing NOAA to set up a coordination 
procedure that might be followed by those same agencies. NOAA's 
Analysis describes this by stating that ``[c]oordination with other 
Federal agencies and States is an important element of the regulatory 
system established in this Act.'' This provision is worthy of note for 
three reasons:

  <bullet> It vests sole authority in the Secretary of Commerce to 
        develop the rules governing this coordination, as opposed to 
        other possibilities such a committee from the relevant agencies 
        setting the rules or Congress laying out the rules. By granting 
        that authority solely to one department, the bill allows 
        Commerce (under the first interpretation) to make rules that 
        govern other departments, such as the EPA, Army Corps of 
        Engineers and Department of the Interior.

  <bullet> It also leaves the permitting authority with the original 
        agency, as opposed to allowing NOAA to issue permits on those 
        other agencies behalf.

  <bullet> This coordination provision, finally, brings in States' 
        efforts to address ocean fish farming facilities by bringing 
        them into the coordination rules.

    The bill also adds an additional permit where the permit 
application is for a farm on or within one mile of a permit issued 
under the Outer Continental Shelf Lands Act (OCSLA). In those 
situations, the additional permit requires the ``concurrence of the 
Secretary of the Interior.'' This formally acknowledges that ocean fish 
farming immediately off of or near a drilling platform could be 
allowed.
    Subdivision (a)(4) of Section 4 requires that a permit holder must 
be an U.S. resident or other U.S. organized business entity. This 
requirement can be waived (under certain conditions not relevant here), 
thus allowing non-citizens and foreign corporations to hold ocean fish 
farming permits. On the same day that Senators Stevens and Inouye 
introduced the bill they also introduced an amendment that removed the 
waiver provisions. It may be that this is a distinction without 
difference since a foreign corporation could simply set up a U.S.-based 
shell corporation to qualify.
    The bill provides that site and operating permits may be submitted 
and reviewed at the same time. While it may be hard to argue with this 
``good government'' provision, it does have the effect of speeding up 
the process and of lumping the site considerations together with the 
operating aspects of any particular project. This is in contrast to the 
proposed California system that requires appropriate sites be 
inventoried before specific operations are considered.
    The Secretary must also rule on a permit application within 120 
days of completion of all applicable statutory and regulatory 
requirements. Extra time is allowed at NOAA's request (but not at the 
public's), under certain circumstances. Requiring a ruling on permit 
applications within 120 days is solely for the protection of the fish 
farmers by protecting them from regulation by delay. NOAA's Analysis 
indicates that this 120-day requirement is ``needed to ensure an 
efficient permitting process in which applicants receive decisions on 
proposed operations within a reasonable timeframe.'' This, of course, 
only highlights the bias of the bill by the failure to acknowledge the 
time needed to prepare a response to any application.
    Several provisions of the bill confirm that the bill does not 
supersede other Federal laws and regulations (except the Magnuson-
Stevens Act, as discussed below). Under the preemption doctrine, 
however, state law applies unless it is in conflict with Federal law. 
Thus, for example, a state ban on salmon farming would still apply in 
state waters, but since the Federal fish farming bill allows salmon 
farming in Federal waters the state ban would have no effect on Federal 
actions in Federal waters. State laws protecting their offshore 
resources thus become irrelevant outside state territorial waters.
    The subsections that address site and operating permits give the 
Secretary total discretion regarding the permits terms, conditions and 
restrictions. The only requirement for a site permit is that it must 
specify ``the duration, size and location of the [fish farming 
facility].'' The operating permit must additionally indicate the 
species to be raised. Thus, the Secretary is given the legislative 
equivalent of carte blanche regarding the site and operation permit 
conditions, except for the few obvious and non-controversial details 
listed just above. This is one place in the bill where standards might 
be placed, but the only standards are incorporated by reference. Those 
references to environmental protection are: (1) in the incorporation of 
pre-existing environmental law; (2) in the ``Criteria'' section 
(Section 4(d), discussed just below), and; (3) in the Environmental 
Requirements section (Section 5, discussed below).
    The site permit subsection also compels the permits to have a 
duration of 10 years and be renewable in 5-year increments. The 
duration of permits for facilities that are also covered by a lease 
issued under the OCSLA (e.g., offshore drilling platforms) is 
determined by the Secretary of Commerce in consultation with the 
Secretary of the Interior. Leases for ``demonstration projects'' are 
also not included in the 10-year/5-year requirements and could go on 
indefinitely.
    Elsewhere in the bill, the Secretary of the Interior is given 
authority to enforce lease, permit and OCSLA requirements and to issue 
emergency orders over fish farming that occurs on or within one mile of 
drilling platforms. This again confirms the possibility that fish farms 
will be authorized at or near a producing oil or gas drilling platform. 
It also repeats earlier provisions that grant Interior some concurrent 
authority over fish farms on and near these platforms.
    The site permit subsection also compels holders of a site permit to 
``remove all structures, gear, and other property from the site as may 
be prescribed by the Secretary'' when the permit term is complete. As a 
part of those removal provisions, should a fish farmer not be able to 
remove the farming facilities from a drilling platform, the owner of 
the platform could be responsible for those costs. This subsection also 
provides further confirmation that fish farms are contemplated on and 
near drilling platforms.

Issuing Ocean Farming Operational Permits
    Section 4(d) is entitled Criteria for Issuing Permits. This 
subsection requires the Secretary to ``consult as appropriate with 
other Federal agencies to ensure that'' a permitted ocean fish farm 
``meets the environmental requirements established under section 5(a) 
and is compatible with the use of the Exclusive Economic Zone for 
navigation, fishing, resource protection, recreation, national defense 
(including military readiness), mineral exploration and development, 
and other activities.'' Unfortunately, this provision borders on 
meaningless for ensuring any protection of the marine environment.
    The first requirement, that ocean fish farming only meet the very 
minimal environmental requirements of Section 5 of the bill will be 
discussed below. This ``criteria'' subsection, moreover, only requires 
that NOAA ``consult as appropriate'' with other agencies to insure 
compatibility with the other listed uses, not that it actually protect 
other listed uses. As a part of that consultation, fishing and resource 
protections are accorded the same weight, if any, as navigation, 
recreation, national defense, mineral exploration and development, and 
``other activities.''
    A second part of this ``criteria'' subdivision compels the 
Secretary to ``consider risks to and impacts on natural fish stocks, 
the coastal environment, water quality and habitat, marine mammals and 
endangered species, and the environment, as identified by the Secretary 
and other Federal agencies.'' Again, risk and impact consideration is 
the only thing required here. Once those risks and impacts are 
considered, the Secretary is still free to ignore them. This 
consideration requirement adds no protections that are not already 
required by the National Environmental Policy Act (NEPA). There is no 
requirement that those risks be minimized or balanced against other 
aspects of an ocean fish farm. There is also no requirement that the 
process of that consideration be public. These ``criteria for issuing 
permits,'' therefore, do nothing to assure any ecosystem protections.
    The final subdivision under 4(d) requires NOAA to ``periodically'' 
review the criteria for permits and to modify them ``based on the best 
available science.'' This is also such a vague standard as to make it 
unenforceable and meaningless. ``Periodically'' and ``best available 
science'' are so vague that the subdivision essentially gives complete 
discretion to NOAA. The language, moreover, does not compel NOAA to 
change the criteria based on that review.
    Subsection 4(e) excludes the permitting system set up under this 
bill from the Magnuson-Stevens Act. Whether permits under this bill 
should be governed by the Magnuson-Stevens Act and its regional 
councils may be subject to debate and full discussion of that issue is 
beyond the scope of this article. Some of the points to consider, 
however, are that Magnuson-Stevens, at least, require some balancing of 
competing interests and transparency of the process. This bill does 
neither.
    The bill also requires that the Secretary consult with the local 
Regional Fishery Management Council prior to issuing a permit. 
Requiring consultation may be a positive step, but without requiring 
that action be taken based on that consultation or, better yet, 
requiring that the regional council also permit farming facilities, the 
consultation requirement is hollow.
    Finally, this portion of the bill authorizes, but does not require, 
the Secretary to require ocean fish farmers to ``track, mark, or 
otherwise identify'' the farms' product. Tagging farmed fish should be 
required.

Not Paying Their Way
    A ``Fees and Other Payments'' subsection authorizes the Secretary 
to set application and permit fees and to waive those fees for research 
or hatchery facilities. The Secretary is also required to demand a bond 
to insure payment of unpaid fees, the cost of removing the farming 
facilities at the end of the permit period, ``and other financial risks 
as identified by the Secretary.'' The worst part of this section is 
that there is no requirement for royalty payments for use of a common 
public resource.
    Most statutory schemes that allow extraction of a public resource 
also require some sort of a lease or royalty payment to the government. 
Oil, gas and coal extraction, for example, requires a royalty, while 
grazing requires a lease payment. These are paid to the Federal 
Government to help compensate for the value lost to the public and/or 
for the damage that the activity does to the environment.
    This bill, on the other hand, gives away large plots of ocean to 
private corporations, without requiring either royalty payments or a 
compensating high level of employment/economic benefit to coastal 
communities. Adding a lease or royalty payment requirement would be the 
fair thing to do because: (1) it would be consistent with most other 
Federal laws; (2) it would more fully internalize the true 
environmental costs of the operation; and (3) it would compensate the 
public for the loss of a public resource.
    This fee subsection, moreover, also has no requirement that fees 
even cover the costs of reviewing permit applications or enforcement 
duties, and is totally discretionary. The bond (as opposed to the fee) 
requirement is limited to insuring payment of unpaid fees, the cost of 
removing the facility at the end of the permit period, ``and other 
financial risks as identified by the Secretary.'' Lacking is a 
requirement for the bond to cover clean-up costs, damage done by 
escapes, and damage done by the spread of farm-based disease. Finally, 
the provision that allows for waiver of fees for research or hatchery 
facilities should be limited to facilities that are not showing any 
monetary profit.
    The Secretary is also given broad discretion in the bill to modify 
or suspend the permits. This power is subject to ``consultation with 
Federal agencies as appropriate and after affording the permit holder 
notice and opportunity to be heard'' unless an emergency situation. 
This subdivision lists some of the factors that can be considered, but 
compels nothing other than reasonable notice to and right to be heard 
by the fish farmer. In another sign of the bill's bias, these 
provisions omit notice to the public when considering modification of a 
permit and contain no attempt to conform modification requirements to 
requirements of original permits.
    The final subsection addresses the transferability of permits by 
making them fully transferable subject to procedures established by 
NOAA. There is nothing that prevents NOAA from allowing transfer to a 
less solvent corporation or a foreign corporation, nor to prevent 
consolidation of fish farms under the ownership of a few or single 
corporations.

Section 5: Few Environmental Requirements
    Section 5, in spite of its promising title, contains little actual 
environmental protection. The single requirement of Section 5 is to 
``consult with other Federal agencies and identify the environmental 
requirements applicable to [ocean fish farming] under existing laws and 
regulations.'' In other words, they are compelled merely to follow the 
laws they were already compelled to follow before.
    The Secretary is allowed under Section 5 to ``establish additional 
environmental requirements'' for ocean fish farming ``if deemed 
necessary.'' These additional requirements, if any, are to be made in 
consultation with other Federal agencies, coastal states and the 
public. The environmental requirements under this section shall 
consider risks and impacts on ``natural fish stock'', ``marine 
ecosystems,'' various features of ``water quality and habitat,'' 
``marine wildlife and endangered species,'' and ``other features of the 
environment.''
    The second part of Section 5 allows, but does not compel, 
``regulations regarding monitoring and evaluation of compliance with'' 
permit requirements. Also authorized, but not compelled, is monitoring 
of the effects of ocean fish farming and of compliance with the 
``environmental requirements.''
    In other words, though this section contains a number of phrases 
that sound like environmental protection, being only advisory they have 
no force. As in other parts of this bill, this ``consideration'' 
requirement adds no protections that are not already generally required 
by NEPA and other laws.
    In general, the bill completely ignores the fact that ocean fish 
farming presents a set of known risks to the environment and to fish 
stocks that should be addressed. While not perfect, the current version 
of the pending California fish farming bill, for example, requires, 
among other things, that: the use of fish meal and fish oil be 
minimized; fees be sufficient to pay for the costs of administering the 
permitting program, and for monitoring and enforcing the terms of the 
leases; a baseline assessment be done along with regular monitoring of 
fish stocks and facilities; drugs and antibiotics usage should be 
minimized and reported; and all farmed fish be tagged. The Federal bill 
contains none of these protections.
    The Environmental Requirements of Section 5 and the total 
discretion it, along with Section 4, gives to the Secretary also 
completely ignore NOAA's own past policy statements. The National 
Marine Fisheries Service (NMFS) (now pompously calling itself ``NOAA 
Fisheries'') has previously developed A Code of Conduct for Responsible 
Aquaculture Development in the U.S. Exclusive Economic Zone (www.nmfs
.noaa.gov/trade/AQ/AQCode.pdf). That Code calls for use of best 
management practices and site evaluation consideration of effects on 
local communities, adoption of the precautionary approach, escape 
prevention, inventory tracking systems, and predator protection.
    While these statements do not go nearly far enough, it is 
outrageous that NOAA is ignoring even its own weak standards in the 
legislation that it designed and is now aggressively promoting.
Administration
    Administration of offshore aquaculture is found in Section 7 of the 
bill, which has eight subsections. The first authorizes the Secretary 
to promulgate rules to carry out the bill and to amend those rules as 
need be. The next authorizes the Secretary to promulgate rules to 
``protect marine aquaculture facilities,'' and to request the Coast 
Guard to ``establish navigational safety zones around such 
facilities.'' The ``Secretary of the department in which the Coast 
Guard is operating'' may also designate a navigational safety zone that 
excludes other uses.
    Subsections 7(c) and 7(d) require the Secretary to ``consult'' with 
other Federal agencies with permitting authority in the EEZ to develop 
a coordinated and streamlined permitting process for ocean fish 
farming. Problems with the permit coordination provisions are discussed 
above. Neither the Section 4 permits nor the Section 7 coordination 
provisions supersede or substitute for any of the other permits 
currently required by law for a fish farming facility; e.g., section 10 
permits from the Corps, CWA permits from EPA, and incidental take 
permits under the MMPA and ESA. In other words, they do not shift other 
permit reviews from EPA, for example, to NOAA.
    There does appear to be a conflict between the Section 4 and the 
Section 7 coordination provisions. The Section 7 coordination 
provisions are not mandatory while the Section 4 coordination 
provisions, while vague, seem to allow NOAA to set-up a required 
coordination process. Section 7 only requires that the Secretary 
``consult'' with the other agencies ``to develop'' the streamlined 
process. The Section 4 provision, however, authorizes NOAA to establish 
a process for development of fish farming in the EEZ that includes the 
coordination of the permitting process ``with similar activities 
administered by other Federal agencies and States.''

What's Not in the Bill
    Transparency: This bill does not address any issues of transparency 
and the extent that other statutes like the Administrative Procedures 
Act may require public notice of things like permit applications or 
disclosure of documentation. Moreover, because ocean fish farming under 
this legislation would be exempt from the Magnuson-Stevens Act, the 
public process provided under that Act for the conservation and 
management of capture fisheries would not be available for ocean fish 
farming. The NMFS Code of Conduct, however, does encourage public 
participation.
    Private Attorney General Actions: Almost all Federal environmental 
statutes contain provisions for private suits against those in 
violation of the statute, including alleged permit violators. The 
purpose of those provisions is to allow individual groups to help 
police the statute, especially when the government does not act or does 
not act fast enough. Since this bill contains no such provisions, only 
the Federal Government would be left to enforce the Act. Thus fishing 
and conservation groups or the public would be precluded from suing the 
Secretary for any violation under this Act.
    Liability: This bill contains no provisions regarding who is liable 
for escaped fish. As a general rule, the negligent owner of escaped 
private livestock is responsible for the damage done by that escaped 
livestock. If sheep escape through a negligently maintained fence and 
eat a neighbor's lettuce crop, for example, the owner of the fence is 
liable for the value of the lost lettuce crop. However, proof that 
escaped farmed stock did any alleged damage could be difficult, if not 
impossible, depending on the type of farmed fish, the location and the 
damage. Section 4(e)(4) authorizes, but does not require, the Secretary 
to require farmers to ``track, mark, or otherwise identify'' the farms' 
product. This should be a requirement.

Conclusion: A Seriously Flawed Bill
    NOAA's ocean fish farming bill does not exempt those farms from 
NEPA, CWA, CZMA or any other Federal environmental statutes other than 
the Magnuson-Stevens Act. Other than that, however, it ensures no 
environmental protection from the effects of ocean fish farming because 
it gives the Secretary of Commerce nearly complete discretion to manage 
them as s/he sees fit, regardless of the environmental consequences.
    What few environmental standards exist in the bill are either 
optional or have to do only with ``consultation'' on and 
``consideration'' of environmental issues, but with no objective or 
mandatory targets to meet, and no attempt to balance one interest 
against damage to the others. In short, the bill as it now exists is 
seriously flawed and would open the road to further disaster for the 
ocean.
                                 ______
                                 
Prepared Statement of Dr. Daniel Benetti, Chairman, Division of Marine 
   Affairs and Policy, Assoc. Professor and Director of Aquaculture, 
University of Miami Rosenstiel School of Marine and Atmospheric Science 
                               (UM-RSMAS)

    Besides my research and academic responsibilities at UM, I am in 
charge of R&D and technology transfer projects for the development of 
sustainable aquaculture worldwide. I have over 25 years experience in 
this field and have published close to a hundred articles in 
aquaculture science and technology. I have extensive experience with 
the industry and outreach, and have been a consultant for the 
government and private sectors in the U.S., Latin America, Europe, 
Asia, Caribbean, Middle East, Africa, and Australia.
    As a team leader working ``on the ground'' of a major 
interdisciplinary, multiinstitutional effort to demonstrate the 
technological feasibility of offshore aquaculture in the SE U.S. and 
Caribbean regions, I would like to provide a few comments in rebuttal 
of criticisms and in support of the National Offshore Aquaculture Act 
of 2005. The following are my direct, no-nonsense views on some of the 
issues at stake. These comments represent my opinions, and do not 
necessarily represent the opinions of the University of Miami or any of 
its schools.
    User conflicts and pollution concerns suggest that major 
environmental benefits are to be gained by moving cage aquaculture 
operations further offshore. The U.S. is paving the technological road 
to sustainable development of offshore aquaculture through university-
industry-government partnerships. Emerging technology, in collaboration 
with the private sector, is being used to demonstrate the environmental 
sustainability and economic viability of raising hatchery-reared fish 
in submerged cages in exposed sites in the U.S., notably in Hawaii, 
Puerto Rico and New Hampshire.
    Critics say that there are no environmental safeguards in place for 
obtaining permits for open ocean aquaculture in the U.S. because they 
never applied for one. During our permit application for the 
development of one such project in Puerto Rico in 2001, we had to 
fulfill the requirements of 13 agencies (including EPA, ACE, NOAA, FWS, 
among others)--each one competently justifying its existence. When 
applying for the permits for the expansion of the project in 2005, the 
list of agencies involved increased to over twenty. (A list of agencies 
involved in the permitting process is available upon request). The 
permitting process is complex, lengthy and expensive, requiring a great 
deal of scientific and legal expertise. Prospect applicants are advised 
not to even try applying for a permit if they don't have the expertise 
and cannot afford waiting several years and spending hundreds of 
thousands of dollars. The Offshore Aquaculture Act proposes to organize 
the permitting process with NOAA as the leading agency centralizing the 
application. This is clearly the right and sensible path to follow.
    The offshore aquaculture demonstration projects currently being 
conducted in Puerto Rico, Hawaii, New Hampshire and the Bahamas are 
completely submerged, thereby preserving the aesthetic appearance of 
the areas. Systems clear at least 12m from the surface in order to 
avoid impediments with navigation. The depth of the sites (25-30m) and 
steady currents (0.5-1.5 knots) maintain water movement in a downstream 
direction, dispersing organic and inorganic materials that could 
potentially be associated with the operations. Considering the cages' 
volume and the current velocity, approximately 2 billion liters of 
clean oceanic water flow through each cage daily. The cages are stocked 
with hatchery-reared fingerlings of endemic, native species such as 
cobia, snapper, amberjack, moi and cod--species whose fisheries are 
mostly depleted. We have enough data to show that the nutrients and 
suspended solids generated by the cage systems would not dramatically 
affect the oligotrophic offshore environment due to its carrying 
capacity. This premise is important because of previous indications 
that inshore cage culture of marine finfish may be detrimental to 
coastal waters due to excessive nutrient loading, hypernutriphication 
and euthrophication with subsequent harmful algal blooms. Please note 
that we have data, reports and publications to support these 
assertions.
    Environmental monitoring studies are being conducted in all 
demonstration projects in the U.S. (Puerto Rico, Hawaii and New 
Hampshire) and the Bahamas to determine whether there is or will be an 
impact of such activities in the areas surrounding the cages. I have 
been coordinating the assessments conducted by the University of Miami 
and the University of Puerto Rico in the areas surrounding the cages in 
both Puerto Rico and the Bahamas. In summary, over the last 4 years, 
sampling stations were set up at different distances and directions 
from the fish cages. Possible eutrophication of the local environment 
was evaluated monthly by measuring dissolved nitrogen and phosphorus, 
phytoplankton biomass, epiphyte growth potential, sinking flux of 
organic matter into sediment traps, organic content of the sediments, 
and benthic microalgal biomass. In all cases, no significant 
differences were found as a function of distance from the cages or 
relative to upstream-downstream direction. Environmental data from 
Puerto Rico and the Bahamas indicate that the current regime and 
resulting dilution of nutrients from the submerged cages do not lead to 
a significant change in the ecosystem near the cages. There were no 
significant differences in any of the water quality parameters measured 
in the area surrounding and beneath the cages, indicating that 
fluctuations appeared to be seasonal, affecting the cage and control 
site more or less equally. These findings are relevant because elevated 
nutrient concentrations are usually only found once the assimilation 
capacity of the autotrophic community has been exceeded or when large 
nutrient imbalances exist. The final reports of the first 2 years of 
studies on the environmental impact of the offshore cages in Puerto 
Rico and the Bahamas are available upon request. Similar findings 
resulted from the environmental assessments conducted in Hawaii and New 
Hampshire.
    Also importantly, taking into account that energy loss between 
trophic levels in nature results in an ecological efficiency of only 
around 10 percent, our data show that practicing aquaculture as a means 
to produce high-value fish for human consumption is more efficient than 
this transformation in nature. Nevertheless, the need to reduce and 
perhaps eliminate the use of fishmeal in aquaculture feeds is widely 
recognized. Research in this area progresses fast, and we aquaculture 
scientists are making a strong effort toward this goal. Our research 
indicates that, when relying on fishmeal from sustainable fishery 
resources and properly sited and managed facilities, aquaculture of 
carnivorous fish can be conducted responsibly. However, the efficiency 
of fishmeal use in the culture of carnivorous fish as it relates to 
long-term sustainability is a complex issue. It is dependent on the 
management of small pelagic fisheries, which in turn depends on fishing 
pressure, oceanographic and meteorological parameters, as well as long-
term climate changes and anthropogenic factors.
    There are still many hurdles to overcome before open ocean 
aquafarms can become economically viable. Indeed, high risks associated 
with offshore operations may conspire against their economic viability. 
When we began developing these projects, our primary concern was with 
the environmental impact that the cages could potentially cause in the 
surrounding areas. Our focus and attention have shifted to the economic 
viability of the operations, since the first 4 years of studies did not 
show any harmful effects on the environment. Regarding this matter, 
there have been fish escapements and production losses, compromising 
the economic viability of the operations. Even though these fish are 
native to the region, and healthy, disease-free, some scientists and 
environmentalists believe that such escapements could compromise the 
genetic makeup of the local population of the species. This nonsensical 
claim--the equivalent of denying human immigration on ethnic grounds--
does not fly with an immigrant who has made a productive life in this 
country, like many of you or your ancestors did before me. After all, 
diversity is one of the main reasons for the greatness of this country.
    Some environmentalists are quick to criticize what they hear and 
read about what a handful of U.S. entrepreneurs are doing to develop a 
new, environmentally sustainable and economically-viable industry that 
will help alleviate our dependency on seafood imports and reduce an 
escalating trade deficit currently at almost $10 billion/year. The 
world is not waiting for us. Taking into consideration current global 
trends, it is certain that we need to develop aquaculture.
    The offshore areas of the U.S., its Islands and Territories have 
extraordinary potential for the development of an environmentally 
sustainable offshore aquaculture industry. We at the U.S. are ahead of 
the world in technology for open ocean aquaculture and cannot afford 
losing the edge as we are already doing in other fields. American 
entrepreneurs and venture capitalists are interested in investing in 
the industry but--in light of the negative perception that the 
environmentalists are selling to the public--are already beginning to 
look abroad. We must simplify the process and move ahead with this 
legislation so as to keep the industry within our control--and the 
National Offshore Aquaculture Act is the first step toward U.S. 
autonomy in seafood supply.
    We have created the opportunity in the U.S. and must capitalize on 
it. Moving the industry offshore is the right path to the development 
of a low impact, high yield industry that will produce most needed 
seafood while creating jobs and other socio-economic benefits. Beyond 
economics, the importance of developing the offshore aquaculture 
industry in the U.S. EEZ may become a matter of national food security 
soon. We cannot afford not to do it. Indeed, not allowing offshore 
aquaculture to develop in the U.S. would be the equivalent of having 
used the precautionary approach for not having allowed the wine and the 
computer industries to develop in California because of potential, 
unsubstantiated environmental risks. Plain nonsense.
                                 ______
                                 
           Prepared Statement of Donald B. Kent, President, 
               Hubbs-SeaWorld Research Institute (HSWRI)

    The Hubbs-SeaWorld Research Institute (HSWRI) has conducted marine 
aquaculture and fisheries research for the past 30 years. We offer the 
following comments on the proposed Offshore Aquaculture bill that has 
been introduced by Senator Stevens and Senator Inouye.
    Your Subcommittee is already aware of the significant trade deficit 
caused by our Nation's dependence on imported seafood needed to feed 
its citizens. Many of our fisheries are already fully exploited and 
cannot meet the anticipated doubling of demand that our Nation will 
require over the next several decades. This increased demand can only 
be met with the development of aquaculture. As Jacques Cousteau said in 
1973, ``we must farm the sea as we farm the land, by sowing as well as 
reaping.''
    HSWRI, working in collaboration with the California Department of 
Fish and Game, commercial fishermen, recreational anglers and the 
National Marine Fisheries Service, conducts the Nation's largest marine 
finfish replenishment program. This program has afforded us the 
opportunity to test already established, commercial-scale, open-ocean 
technologies on species of regional importance to the Southwest. This 
technology can be applied to any region of our Nation to culture native 
species of economic importance to that region, and is already being 
applied around the world. I believe it is critical for our Nation to 
incorporate this technology into the development of a consistent, 
domestic supply of seafood from aquaculture.
    The proposed legislation would establish a standardized process by 
which aquaculture could be developed in an ecologically appropriate and 
sustainable manner. Our Institute has consistently demonstrated how 
this can be done by working in concert with fishermen, anglers and 
regulatory agencies and in a manner that decreases the pressure placed 
on our already heavily exploited wild fish stocks. We would welcome the 
opportunity to share with you the results of our research and to answer 
your questions regarding the development of aquaculture in our Nation's 
Exclusive Economic Zone.
                                 ______
                                 
Prepared Statement of Marianne Cufone, Esq., Environmental Attorney and 
                     Advocate, Environment Matters

    My name is Marianne Cufone, I am an environmental attorney and 
advocate in Tampa, Florida. I work with a number of groups and 
individuals on offshore aquaculture issues throughout the United States 
and I am very involved in the Gulf of Mexico region with fishermen, 
consumer and conservation organizations, academics, government agencies 
and others. I am the Vice Chair of the Gulf of Mexico Fishery 
Management Council Offshore Aquaculture Advisory Panel and a member of 
the State of Florida Aquaculture Task Force. These bodies are tasked 
with helping to develop local and regional regulations on open water 
aquaculture.
    It is a privilege to submit the following for your review and 
consideration.
    There are many concerns about development of offshore aquaculture, 
far more than I can cover in a few pages. I will therefore concentrate 
on the primary concerns that I and the various people I work with have 
regarding S. 1195. The first is pollution: both of wild fish 
populations and the environment. The second is user conflicts.
    Pollution of wild fish populations is the intermixing of 
aquacultured fish with wild fish through escapes from cages and pens in 
open water. Offshore aquaculture of finfish currently uses a cage or 
pen to contain the fish. Some fish will escape from these containers 
into the open ocean from various complications like severe weather, 
predators tearing at netting, faulty equipment, human error and a 
number of other possibilities. Because these fish are captive and bred 
for profit they are often different from wild fish. They may be exotic 
species, from a different area entirely to introduce a new product to a 
local market. Aquacultured fish can mutate in captivity for unknown 
reasons, or because of inbreeding. Some fish behaviors are learned from 
natural communal interactions, so even unaltered captive fish can have 
different behaviors than wild fish and if released, the aquacultured 
fish can change natural behaviors in the wild. Perhaps most disturbing, 
fish used for aquaculture might be genetically modified in a lab to 
create faster growing and larger fish or might be continually 
selectively bred to achieve the same result. Escape of fish that are 
different from wild fish could change the ecosystem and natural fish 
populations permanently.
    Pollution of the environment refers to wastes coming out of the 
aquaculture facility into our waters, like excess food, fish waste, 
parasites and other diseases, excessive algal growth, dislodged cage or 
other facility materials and antibiotics or other chemicals. These all 
can destroy important habitat, like corals and seagrass, even far from 
the facilities, carried by currents. Debris and wastes can contaminate 
our water and cause safety hazards for boaters, fishermen and divers 
and of course, harm wildlife.
    Because offshore aquaculture facilities will take up real space in 
the marine environment, various user conflicts are expected between 
offshore aquaculture and other ocean uses. Contributing to this is the 
express provision in S. 1195 that allows creation of buffer zones 
around aquaculture areas in which no activities will be permitted other 
than those relative to the aquaculture facility. Some of the most 
likely and troubling conflicts are those regarding fishing grounds and 
routes to those fishing grounds, other vessel traffic lanes, military 
sites and areas of concern regarding national security, marine reserves 
and otherwise protected or vulnerable areas and areas of significant 
multiple use, for example boating, diving, and swimming. Essentially S. 
1195 will re-allocate public resources for private gains without 
protecting existing uses.
    Another area of significant conflict involves composition of 
aquacultured fish feed. Cultured species are often directly fed wild 
caught species or products that contain wild species. This is an 
inefficient use of the available natural protein resources. Lower 
trophic level species like krill, squid, and other small coastal 
pelagic fish are a crucial part of the marine ecosystem, serving as 
prey for marine mammals, birds and fish yet are still used to make 
captive fish feed. Many commercially and recreationally important fish 
species depend directly on the availability and abundance of such prey 
species for their survival and recovery. Prey species also support 
diverse marine mammal and seabird communities in the world including 
several species of endangered marine mammals and seabirds. In order to 
effectively protect and restore our natural ocean resources, it is 
critical to protect the health of prey species. Wild fish populations 
can only recover if the ecosystem upon which they depend is intact. Use 
of wild fish in creating feed for captive fish creates a very real 
problem for wild fisheries.
    These are all serious issues nationwide, but particularly here in 
the Gulf of Mexico, many people are very concerned about expansion of 
offshore aquaculture. We are coastal people and are known for our 
commercial and recreational fisheries including shrimp, crab, lobster 
snapper, grouper and more. Tourism, based on our environment, is a key 
economic factor and so many of us live here to enjoy the benefits of a 
coastal lifestyle: relaxing on white sand beaches, swimming in clear 
blue waters, boating and every water sport imaginable. Also, the severe 
hurricanes of the past 2 years make us very vulnerable to any further 
alterations in our marine world.
    I will provide one local example to illustrate regional concerns 
about pollution. It involves the use of oil rigs as sites for 
aquaculture facilities. This past year the Gulf of Mexico had several 
violent storms. A number of oil rigs were destroyed, some even being 
carried miles to shore. Had offshore aquaculture been developed on 
these rigs at the time of the storms, there would have been massive 
releases of captive fish, feed and other pollutants into the Gulf of 
Mexico.
    Our region is taking steps to protect unique local resources 
because S. 1195 in its current form is insufficient to do so. The Gulf 
of Mexico Fishery Management Council has been developing an amendment 
to the fishery management plans for the Gulf of Mexico to regulate 
offshore aquaculture. I am the Vice Chair of their aquaculture advisory 
panel. Now, the draft regulations contain provisions to deal with many 
of the problems associated with offshore aquaculture. Things like 
preventing use of exotic or genetically modified fish, preventing use 
of antibiotics and certain chemicals, and requiring efficient waste 
management.
    S. 1195 does not provide similar protections. Additionally, it 
removes real authority from fishery management councils to regulate 
offshore aquaculture, though they are in the best position to 
understand local needs. Under S. 1195, regional Councils would be 
demoted to a consulting or consenting role rather than a regulatory 
one.
    In general, S. 1195 in its current form does not protect our 
resources or the people that rely on them and it is not an adequate 
means of regulating offshore aquaculture.
    Specifically, I urge you to consider:

  <bullet> Preventing use of areas like marine reserves, National 
        Marine Sanctuaries and otherwise protected or vulnerable sites 
        for aquaculture facilities.

  <bullet> Establishing buffer zones around areas like marine reserves, 
        National Marine Sanctuaries and otherwise protected or 
        vulnerable sites to prevent potential harm from nearby offshore 
        aquaculture facilities.

  <bullet> Prohibiting the use of exotic species and genetically 
        modified organisms.

  <bullet> Specifying offshore aquaculture can only be developed over 
        sand or mud bottom and in areas where effluent will not impact 
        important and fragile resources.

  <bullet> Establishing stringent environmental requirements before any 
        permits are issued.

  <bullet> Conditioning annual permit renewal on compliance with 
        environmental performance.

  <bullet> Requiring development and submittal of a plan to mitigate 
        potential harms due to unexpected circumstances, including fish 
        escapes, chemical pollution, illness and others, as a permit 
        condition.

  <bullet> Preventing use of oil rigs in offshore aquaculture.

    I appreciate this opportunity to comment on the National Offshore 
Aquaculture Act, S. 1195, and I look forward to working with you and 
others on these important matters.
                                 ______
                                 
     Prepared Statement of George Nardi, Chief Technical Officer, 
                       GreatBay Aquaculture, LLC

    GreatBay is a young, but respected pioneer in the marine 
aquaculture field. We are a 10 year commercial operation and work 
closely with the University of New Hampshire and other research 
institutions around the country. In addition to domestic sales, our 
products are also exported to other countries such as China, Mexico and 
Canada. We operate in a global industry and must compete globally as 
well. We are looking to expand our production base in the region and a 
promising area for future sustainable development is in the offshore 
region of the U.S. EEZ. We have invested considerable resources in this 
investigation.
    It is critical that this legislation is passed as many user 
conflicts will prevent us from developing this industry in populated 
near shore areas, and without this enabling legislation, opportunity 
will be lost--not for the industry, but for the region and the country, 
opportunity for new business development and jobs; opportunity for 
enhancing our national food security position. Industry will simply 
move forward, but to the benefit of another country.
    Without this legislation GBA may have to pursue expansion, not just 
out of the region, but out of the country as the ``price'' to do 
business may become prohibitive and too complicated for innovative 
companies such as GreatBay Aquaculture.
    I support the position of the National Aquaculture Association and 
hope you will support this important legislation, whose true value will 
be measured in the future production of quality protein for all to 
enjoy and benefit from.
                                 ______
                                 
       Prepared Statement of Wenonah Hauter, Executive Director, 
                           Food & Water Watch

    Food & Water Watch, a nonprofit consumer rights organization that 
challenges corporate control and abuse of our food supply and 
freshwater and ocean resources, wishes to thank you for the April 6th 
National Ocean Policy Study subcommittee hearing on offshore 
aquaculture. We are pleased to submit these comments for the record in 
order to highlight some of the issues surrounding offshore aquaculture 
that were not thoroughly examined at the hearing. We urge the 
subcommittee not to move forward on legislation to permit offshore 
aquaculture in the Exclusive Economic Zone (EEZ) until NOAA provides a 
detailed assessment of all the potential negative impacts of offshore 
aquaculture and ways these problems can best be addressed.
    As detailed at the hearing, offshore aquaculture involves the 
raising of carnivorous finfish, such as cod, halibut, and red snapper, 
in often large, crowded cages where fish waste and chemicals flush 
straight into the open ocean. We are very concerned that offshore fish 
farming in the U.S. EEZ may pose many of the same problems for marine 
ecosystems, consumer health, and the economic livelihoods of fishing 
businesses and communities as large-scale industrial farming of 
carnivorous finfish has in other countries. While we were pleased that 
many of these issues were raised at the hearing, many of the issues 
about the likely effects of offshore aquaculture were not adequately 
examined at the hearing:
    Dr. Hogarth did not provide any analysis of the likely individual 
and cumulative environmental and socioeconomic effects of offshore 
aquaculture due to, for example, chemical and nutrient pollution, 
escaped fish, or diseases and parasites transmitted to wild fish 
populations. Such impacts could negatively alter entire ocean 
ecosystems and harm fishing communities dependent on them.
    Dr. Hogarth did not detail NOAA's plans, if any, to minimize the 
discharge of wastes and chemicals from offshore fish farms into the 
ocean environment. In the past, NOAA officials have argued that Clean 
Water Act discharge permits were sufficient. But under EPA's current 
regulations, such permits don't require limits in the use of pesticides 
or other chemicals. Further, EPA's regulations only require companies 
to maintain best management practices to reduce nutrient emissions, 
``to the extent reasonably necessary to sustain an optimal rate of fish 
growth''--regardless of the cumulative impacts of multiple farms. More 
information is needed on how best to limit wastes and why closed 
containment systems are not a better option for aquaculture than 
offshore cages.
    While Dr. Hogarth indicated in his testimony that NOAA supports 
``careful mapping of existing uses'' of the EEZ, he did not provide 
much detail about the agency's plans, if any, to engage in planning, 
zoning, or the development of siting criteria for offshore aquaculture. 
He also did not discuss whether NOAA plans to assess and maintain 
environmental carrying capacities of each region where offshore 
aquaculture is planned. All of these measures are recommended by a 
recent Sea-Grant-funded October 2005 University of Delaware report, 
``Recommendations for an Operational Framework for Offshore Aquaculture 
in U.S. Federal Waters.''
    Dr. Hogarth did not discuss whether NOAA would prohibit the siting 
of offshore fish farms in National Marine Sanctuaries or other 
protected areas. Nothing in S. 1195 currently prohibits such siting.
    Dr. Hogarth did not discuss whether NOAA is opposed to prohibiting 
non-native or genetically modified species in offshore fish farms. 
There are no such prohibitions in S. 1195.
    While Dr. Hogarth's testimony stated that ``technological 
innovation, best management practices, and careful species selection'' 
can limit fish escapes, he did not discuss whether NOAA would support 
requiring offshore aquaculture facilities to adopt these measures and, 
if so, the level of mitigation anticipated using different technologies 
and practices. He did not discuss whether offshore aquaculture 
facilities would be required to tag or track farmed fish or whether 
NOAA was opposed to such measures.
    While Dr. Hogarth's testimony indicated that he believes that 
offshore aquaculture could benefit coastal communities, he did not 
provide a detailed analysis of the likely impacts of offshore 
aquaculture on commercial fish prices and employment.
    Dr. Hogarth did not discuss whether NOAA was planning to provide a 
Legislative Environmental Impact Statement (LEIS), which is required by 
the National Environmental Policy Act. An adequate LEIS would enable 
the subcommittee and the public to thoroughly evaluate all of the risks 
of offshore aquaculture, possible alternatives, measures that NOAA 
would recommend to mitigate these risks, and any unavoidable 
consequences of offshore aquaculture. Unfortunately, NOAA has thus far 
not produced an LEIS, despite the request from 16 members of the House 
of Representatives and repeated requests from conservation and fishing 
organizations.
    These are only some of the most obvious issues that were not 
examined at the hearing. We urge the Subcommittee to not move forward 
on legislation to permit offshore aquaculture in the EEZ until NOAA 
adequately assesses all the potential problems of offshore aquaculture 
and how these can best be mitigated.
    We would be happy to discuss our concerns further and look forward 
to working with you to protect our oceans and America's fisheries.
                                 ______
                                 
       Joint Prepared Statement of Jim Ayers, Vice President and 
         Michael F. Hirschfield, Ph.D., Vice President, Oceana

    We appreciate your long-standing leadership on ocean conservation 
and management issues and urge you to continue that tradition by 
opposing the National Offshore Aquaculture Act (S. 1195), introduced at 
the request of the National Oceanic and Atmospheric Administration 
(NOAA). The upcoming Senate National Ocean Policy Study subcommittee 
hearing to examine current proposals to regulate offshore aquaculture 
will bring much needed attention to the potential threats offshore 
aquaculture poses to our marine resources. In contrast to S. 1195, the 
Natural Stock Conservation Act of 2005 (S. 796), introduced by Senator 
Murkowski, represents a much more progressive policy on offshore 
aquaculture that puts protecting our fisheries and the ocean 
environment that nurtures those resources first.

National Offshore Aquaculture Act (S. 1195)
    The National Offshore Aquaculture Act (S. 1195) would expand 
aquaculture offshore without addressing the large environmental impacts 
that have become apparent from nearshore aquaculture operations. Both 
the U.S. Commission on Ocean Policy and the Pew Oceans Commission 
highlighted the real and significant problems that marine aquaculture, 
in general, poses to our marine resources and ecosystems. Risks to wild 
populations of fish include the spread of disease and parasites, the 
introduction of nonnative or genetically-modified species, 
interbreeding with farmed fish, competition for resources with escaped 
farmed fish, and increasing demand for forage fish to produce fish 
meal.
    Other environmental impacts include pollution and harm to marine 
mammals. Many of the problems found with nearshore aquaculture 
operations, such as escapes, are likely to be magnified in the much 
rougher and less predictable offshore environment. In addition to 
environmental impacts, offshore aquaculture will likely impact fishing 
families by decreasing commercial fish prices with a flood of low-cost 
farmed fish--prices that are low only because the operations are not 
required to pay the true costs to the oceans. The environmental and 
socioeconomic problems of aquaculture need to be fully understood and 
solved before aquaculture is brought into our offshore waters, or we 
will be irresponsibly bringing known problems into new ocean areas.
    We also oppose the State Opt-Out amendment (SA.769) to the National 
Offshore Aquaculture Act (S. 1195). If enacted, this amendment will 
bring a false sense of security from environmental impacts to states 
not participating in offshore aquaculture, and it does not address the 
potential socioeconomic impacts of aquaculture. For example, Alaska, a 
relatively remote state, would be threatened by the expansion of salmon 
aquaculture into the offshore waters of Washington. A few escaped fish 
carrying an exotic disease could infect and cripple Alaska's renowned 
salmon fisheries. In addition, there are already large economic impacts 
to Alaska's salmon fishermen from the flood of farmed raised fish in 
the market. Therefore, we ask you to also oppose the State Opt-Out 
amendment.
    While we urge you to oppose the National Offshore Aquaculture Act 
(S. 1195) altogether, we also note that a Legislative Environmental 
Impact Statement (LEIS) is needed to accurately assess the 
environmental risks of S. 1195. A clear and unbiased assessment of 
those risks will allow members to make informed decisions about this 
legislation. The LEIS on S. 1195 could also be helpful in the 
consideration of standards to protect our fisheries and our ocean 
environment called for in the Natural Stock Conservation Act (S. 796). 
We ask you to request the National Oceanic and Atmospheric 
Administration to conduct a LEIS and a socioeconomic impacts study of 
S. 1195.

The Natural Stock Conservation Act of 2005 (S. 796)
    Fortunately, a good solution is already available. With one 
modification, we support the Natural Stock Conservation Act of 2005 (S. 
796). This bill, which prohibits offshore aquaculture until 
environmental and socioeconomic safeguards are established, would be 
strengthened by an amendment to include a ban on the use of 
genetically-modified organisms in aquaculture. Genetically-modified 
species may act like invasive species if introduced into the wild. They 
may be able to out-compete wild fish stocks, and interbreeding could 
ultimately modify the wild gene pool. With the inclusion of this ban, 
S. 796 is a forward thinking bill that makes sure the socioeconomic and 
environmental problems from aquaculture are addressed before 
aquaculture is expanded into offshore waters.
    The risks of offshore aquaculture are too great to blindly stumble 
forward with an irresponsible piece of legislation. An amended Natural 
Stock Conservation Act (S. 796) with a ban on the use of genetically-
modified organisms in aquaculture represents an opportunity for 
Congress to move forward with their eyes wide open. Please oppose the 
National Offshore Aquaculture Act (S. 1195) and the State Opt-Out 
amendment (SA.769) and push for enactment of an amended Natural Stock 
Conservation Act (S. 796).
                                 ______
                                 
            Prepared Statement of John Connelly, President, 
                   National Fisheries Institute (NFI)

    Chairman Sununu and Members of the Committee:
    We appreciate the opportunity to submit a statement for the 
Committee record on the important issue of offshore aquaculture and the 
promising impacts that this developing technology could have on the 
U.S. seafood industry and the American families who depend on fish and 
seafood as part of a healthy diet and lifestyle.
    The National Fisheries Institute (NFI) is the Nation's leading 
advocacy organization for the seafood industry. Its member companies 
represent every element of the industry from commercial boat owners to 
national seafood restaurant chains. NFI and its members are committed 
to sustainable management of our oceans and being stewards of our 
environment. We endorse the United Nations' Principles for Responsible 
Fisheries, and our members conduct their business in ways that can feed 
Americans now and in the future. Our members value our surrounding 
ecosystems and native species. Our investment in our oceans today will 
provide our children and future generations the health benefits of a 
plentiful supply of fish and seafood tomorrow.
    Mr. Chairman, what might have appeared in a Jules Verne novel is 
coming true. The story of fish farms far off the coast and deep in the 
ocean is no longer the stuff of science fiction; it is becoming 
reality. But until it becomes reality for companies in the United 
States, Americans will miss out on this potential boon to our economy.
    The Senate has pending before it now one of the key outcomes of 
last year's U.S. Oceans Action Plan: a proposal to establish the 
regulatory infrastructure for a national offshore aquaculture program. 
S. 1195, the National Offshore Aquaculture Act, would create a 
framework for the Department of Commerce to issue permits for offshore 
aquaculture. This legislation would streamline the permitting process 
and allow permits to be granted to build fish farms in certain 
geographic areas and for certain types of fish. The permits would be 
renewable. Finally, the permitting process would take into the account 
the views of states, other Federal agencies, and other impacted parties 
(such as fishing vessels operators and off shore oil drilling 
companies).
    A number of nations are already engaged in offshore aquaculture. 
This kind of cutting-edge technology will become essential to meet the 
ever-growing demand for seafood around the world. The U.S. has the 
advantage of being able to rapidly develop the high technology systems 
that would be required to commercialize off shore aquaculture. What is 
missing is the regulatory system to develop this business.
    The National Offshore Aquaculture Act is the beginning of a 
dialogue. The bill's sponsors, Senators Ted Stevens (Alaska) and Daniel 
Inouye (Hawaii), and Congress on the whole will examine these 
recommendations and undoubtedly adjust the initial language as part of 
the legislative process.
    The Magnuson-Stevens Act--legislation that provides guidance for 
management of wild capture fisheries in the U.S.--is the priority fish 
and seafood issue for Congress. The aquaculture bill should not be far 
behind. Many in Congress clearly recognize that we will be unable 
sustain our level of consumption or expected increases in the future by 
relying solely on wild capture. Aquaculture is that complement to wild 
capture fisheries.
    The 80 million metric ton difference estimated by the U.N. Food and 
Agriculture Organization (FAO), or ``aquaculture gap,'' between our 
global wild harvest and the world's demand for healthy seafood needs to 
be met.
    Farm-raised products are sustainable sources of food that help 
retailers and restaurants meet the ever-growing demand for seafood 
across our Nation and around the world. Aquaculture practices--
traditional and marine alike--should be viewed in the public eye as a 
``relief valve'' for wild capture fisheries, not a replacement for 
them.
    Furthermore, aquaculture products are often a cost-effective 
alternative for the producer. That benefit can be passed along to 
consumers by expanding the kinds of fish available and reducing prices. 
Five of the top ten kinds of fish Americans eat are to some extent 
farmed, including shrimp, salmon, catfish, tilapia, and clams.
    Time and again we hear the health benefits of fish and why people 
should include it as part of a healthy diet. Now as the level of 
consumption rises, the Federal Government is working to ensure we have 
the ability to meet that demand. This bill will strengthen that ability 
while ensuring appropriate safeguards are in place.
    NFI looks forward to working with the Congress and with your 
Committee on this legislation that will help ensure a sustainable and 
environmentally sound resource for future generations. I appreciate the 
opportunity to submit these comments, and look forward to working with 
you on this important initiative in the coming weeks and months.
                                 ______
                                 
      Prepared Statement of John R. MacMillan, Ph.D., President, 
                    National Aquaculture Association

    The National Aquaculture Association (NAA) is the largest trade 
organization representing fish and shellfish aquaculture producers in 
the United States. Our members produce food fish, recreational fishing 
stock and baitfish, aquarium ornamental fish and shellfish. The NAA 
strongly supports the development of a national offshore aquaculture 
program that is environmentally-responsible and commercially feasible. 
The NAA offers the following comments regarding development of an 
offshore aquaculture legal framework, and looks forward to working with 
others to support enabling legislation that will assist the United 
States in meeting the seafood demand of present and future generations.

I. The United States Must Establish a Federal Marine Aquaculture 
        Production Program
U.S. Demand Outstrips Current Capabilities
    The U.S. consumer demand for fish and shellfish continues to rise 
at an increasing rate. In 2005, seafood consumption in the U.S. soared 
to 16.6 pounds per person.\1\ Marine and freshwater aquaculture 
production, as well as product from capture fisheries, will be needed 
to meet this demand.
    Presently, foreign imports overwhelmingly dominate the U.S. seafood 
market. In 2005, the United States imported $12.1 billion worth of 
seafood compared to $11.3 billion in 2004.\2\ Fifty-three per cent of 
the 2004 imports originated in Asia.\3\ Accounting for U.S. exports of 
$3.8 billion, our annual seafood trade deficit has reached $8.3 billion 
in 2005 compared to $7.4 billion in 2004.\4\ Remarkably, Americans rely 
on imports for the majority of their seafood.
    Substantial increases in the domestic capture fishing industry 
cannot be expected to meet projected U.S. demand. Maintaining the 
health of our wild seafood stocks requires careful management and 
monitoring. The necessity of limitations on production and fishing 
effort in management of natural populations can interrupt supplies to 
buyers, jeopardize consumer allegiance for domestic product species and 
cause greater demand for foreign product. Despite suggestions to the 
contrary, responsible management of capture fisheries cannot be 
expected to simply adopt aquaculture technologies in such a way as to 
meet demand solely through marine fishing. For example, modern 
hatcheries (aquaculture) produce an estimated forty percent of the 
harvested pacific salmon stock, but simply increasing stocking efforts 
will not provide reliable production increases or meet demand for other 
food fish species. We must look to the use of aquaculture technology to 
provide the substantial increased domestic production required to meet 
our needs for marketable seafood.

Today's Decisions May Write the Story of Our Future
    For the past quarter century, Congress has recognized that our 
dependence on seafood imports adversely affects the national balance of 
payments and contributes to the uncertainty of supplies.\5\ 
Unfortunately, not a single commercial marine finfish facility has been 
established in Federal waters over that period. In terms of offshore 
aquaculture, we have failed to even begin to implement the national 
policy established by the National Aquaculture Act of 1980 to 
``encourage the development of aquaculture in the United States.'' \6\
    Now more than ever, food security is becoming a critical concern 
for all countries, and the United States is no exception. Not long in 
the future, the economic strength of nations, and health of their 
citizens, may reflect the availability of high-quality protein sources. 
Food security may supplant energy security as the strategic issue of 
the day. Our collective inability to develop the means to produce food 
fish in the Federal waters of the exclusive economic zone may have dire 
consequences that should not be ignored today.
    The United States was the world's food basket. Today, in addition 
to unexpected foreign competition in everything from Russian wheat to 
Central American produce, we realize we are not immune to a variety of 
national food production risks. Our critical protein production 
industries are vulnerable to natural disease risks, intentional attacks 
on food supplies by our enemies, transportation disruptions, and trade 
disputes between nations. All such factors could affect the health of 
generations to come. As a nation, we would be remiss not to pursue the 
protein production opportunities provided by offshore aquaculture on 
grounds that we may be faced with challenges, or that we will need to 
resolve our differences of opinion regarding its costs and benefits.

II. Legislation Should Create the Mandate; Regulation Should Provide 
        the Operating Standards
    Congress should create the mandate to pursue offshore aquaculture 
as an important element of our food production strategy for the 21st 
century. However, the legislative, policy development arena is not the 
proper forum for creating the detailed system that must integrate new 
legal authorities with numerous existing legal and regulatory standards 
applicable to aquaculture operations in the exclusive economic zone.
    Aquaculture opponents speculate that a litany of potential dire 
consequences will create insurmountable environmental obstacles to 
development of offshore aquaculture. Those opponents would prefer that 
enabling legislation create numerous, specific aquaculture operating 
criteria without the benefit of public investigation and analysis that 
would be performed in rulemaking. In reality, there also exist many 
environmental standards that can be used to address the primary issues 
raised by opponents. Moreover, only in notice and comment rulemaking 
can all stakeholders have an opportunity to participate in the detailed 
scientific and governmental review required to formulate a supportive 
yet protective program.
    What is needed is a clear legislative directive to guide both 
detailed rulemaking by administrative agencies and potential judicial 
review. Congress must be unwavering in meeting its responsibility to 
clearly restate that the fundamental objective of the offshore 
aquaculture legislation is food production.

Available Water Quality Protection Standards Exist Today, Additional 
        Regulation Is Unwarranted
    Maintaining water quality is a first priority for all successful 
aquaculturists. The technology for doing so is readily available, and 
the regulatory programs to ensure protection of water quality already 
exist.
    In 2004, the U.S. Environmental Protection Agency completed 
approximately 4 years of work to investigate the primary methods of 
aquaculture production (including coastal net pen operations), and 
develop discharge permit regulations.\7\ The USEPA promulgated specific 
effluent limitation guidelines (ELGs); an unfortunate term for 
enforceable permit standards for aquaculture operations.\8\ Aquaculture 
facilities are required to meet these standards as elements of their 
NPDES permit under the Clean Water Act.\9\ In addition, the Clean Water 
Act and its regulations have long required additional permit standards 
specifically tailored for discharges to ocean waters.\10\ The Federal 
ocean discharge regulations act to supplement ELG standards to provide 
an adaptive process to ensuring ocean water quality.
    Ocean discharges are subject to criteria that require an assessment 
of their impact to biological community resources.\11\ In its review of 
a permit application for a proposed ocean discharge permit, the EPA 
must consider the discharge's effect on the receiving water ecosystem, 
and specifically ensure that there is no ``unreasonable degradation'' 
of the marine environment.\12\ The operating conditions required to 
meet this requirement are developed in the permit application process, 
where the project factors such as location, design, proposed stock 
species and receiving water characteristics are taken into account in 
order to develop appropriate safeguards.\13\ Existing Federal 
regulations require an evaluation of ten criteria to determine whether 
an unreasonable degradation of the marine environment will occur.\14\ 
Permits cannot be issued when there is insufficient information to 
determine that no unreasonable degradation will occur, unless the 
applicant can demonstrate that: (a) the discharge will not result in 
``irreparable harm;'' (b) no reasonable alternatives to the discharge 
exist; and, (c) the applicant complies with other permit 
conditions.\15\ Permits issued under this authority are also 
specifically conditioned upon the risk of termination in the event that 
new data demonstrate that the continued discharge would result in 
unreasonable degradation of the marine environment.\16\
    A valid regulatory permit program is available to regulate offshore 
ocean discharges from aquaculture facilities. The proposed legislation 
need not duplicate this program, and efforts to do so will only create 
potential conflicts and unnecessary additional regulation.

Species Restrictions and Stock Escapes
    Potential impacts to native species and natural stock populations 
are legitimate concerns to consider in the development of offshore 
aquaculture facilities. However, blanket legislative prohibitions may 
preclude development of production technologies that are protective of 
native species and provide enhanced food fish production systems to the 
United States and others.
    The aquaculture legislation should allow NOAA to review and approve 
proposed stock species and operating systems on a case-by-case basis, 
and thereby not bar the United States from the benefit of innovation 
and technological advancements. Sufficient levels of security for the 
circumstances may be achieved by incorporating a variety of safeguards. 
Depending on the specific circumstances, appropriate safeguards might 
incorporate stock restrictions (e.g., triploid (non-breeding) stock), 
improved containment designs (e.g., multiple netting, hard containment 
structures, vessel-contained stock) or new methods of protection not 
yet identified.

Offshore Aquaculture's Potential Contribution to Health Quality
    The increase in domestic consumption of seafood is, in part, 
related to greater availability of seafood in the U.S. at competitive 
prices and to increased realization that consumption of seafood high in 
omega-3 fatty acids appears to have profound health benefits. Marine 
fish species, particularly those that are carnivorous, are typically 
high in omega-3 fatty acids relative to many freshwater species. Demand 
for healthy seafood is expected to grow as the U.S. population 
increases and as seafood health benefits become more broadly 
acknowledged. Offshore aquaculture presents a tremendous potential for 
increased supply of fresh, healthy seafood to the American consumer. It 
is incumbent on Congress to provide opportunity for offshore 
aquaculture in the U.S. EEZ to help improve U.S. public health.

Antibiotic Use Is Properly Regulated
    Opponents of aquaculture often allege rampant misuse of antibiotics 
by producers. Such opponents speculate that such misuse will be a 
standard practice if we create a marine aquaculture system. This is a 
red herring issue. Aquaculture opponents never discuss the various 
Federal programs designed to ensure public health and environmental 
safety are maintained when the few available antibiotics are used. 
Critics fail to recognize the scientifically-rigorous U.S. Food and 
Drug Administration drug approval process. There are very few drugs 
approved for use in aquatic animal farming in the United States and the 
three approved antibiotics are only available for a few specific fish 
species. Ongoing efforts to develop vaccines will dramatically reduce 
the need for antibiotics. New drugs are strictly regulated, and must 
pass rigorous evaluation for their potential environmental impacts 
under the Investigational New Animal Drug approval process. Existing 
laws specifically protect the public health and prescribe the standards 
for management of drug use and quality assurance in marine aquaculture.

Alleged Aquaculture Health Risks Are Unfounded
    Some aquaculture critics express fears that antibiotics used in 
aquaculture will harm the surrounding environment or lead to antibiotic 
resistance in humans. In fact, there is no credible scientific 
literature documenting environmental harm from the extremely low 
concentrations of antibiotics occurring in the environment due to 
treatment of aquatic animals. Moreover, antibiotics are not used to 
protect fish (i.e., prophylactic use) nor are they used to promote 
growth in domestically reared fishes. The only antibiotics approved for 
use in the U.S. domestic aquaculture industry are approved to treat 
specific bacterial diseases in specific kinds of aquatic animals. 
Similarly, critics often mistakenly claim that hormones are used in 
aquaculture to promote growth. In fact, there are no U.S. FDA approved 
hormones for growth promotion of aquatic animals. Critics also fail to 
identify the ongoing efforts of the Federal Joint Subcommittee on 
Aquaculture to develop a national aquatic animal health plan. Last, 
opponents of offshore aquaculture argue that farming of aquatic animals 
will create disease or enhance disease of wild fish. In fact, 
infectious diseases affecting farmed aquatic animals already occur in 
the wild. The pathogens causing aquatic animal disease in marine 
species are most frequently transferred from wild fish to farmed fish.

III. Fundamental Issues Must Be Addressed in Legislation in Order To 
        Create a Viable Program

A. The Proper Role of the States
    The coastal states have a legitimate interest in the development of 
offshore aquaculture and may have aquaculture experience that would 
assist in the evaluation of offshore marine aquaculture projects. The 
Federal process for review of offshore marine facilities must include 
state participation procedures. However, the potential adverse impacts 
of aquaculture in Federal waters must be kept in perspective. Unlike 
other projects that may potentially create greater, wide-range impacts 
to state water quality, such as offshore oil and gas production 
facilities, marine aquaculture facilities beyond the limits of state 
waters are unlikely to create similar concerns.
    Offshore marine facilities in Federal waters should not be required 
to receive a formal state consistency determination under the Coastal 
Zone Management Act unless the facility is reasonably likely to violate 
state marine water quality standards or violate an approved state 
coastal management program requirement in state jurisdiction 
waters.\17\ Any land-based operations or related industries that 
support offshore aquaculture should be reviewed under the applicable 
local zoning regulations and related coastal zone management standards 
that are part of that review.

State Veto Authority Must Be Limited
    Giving states the ability to close Federal waters to offshore 
aquaculture creates a dangerous precedent, and is inconsistent with the 
national objectives of the proposed legislation. States should not have 
carte blanche authority in Federal waters; whether it concerns the 
operation of proposed aquaculture facilities, management of fish 
stocks, or the presence of nuclear-powered vessels or armaments in the 
U.S. exclusive economic zone.
    There would be little incentive for private industry to develop 
offshore production facilities if their operation could be terminated 
and investment forfeited by subsequent state opt-out decisions. Any 
opt-out authority provided to states must be reasonably limited in 
scope and reflect a valid public policy purpose. States should be 
limited to a one-time opt-out decision, and should be required to 
notify NOAA of their opt-out decisions within 6 months of promulgation 
of the program regulations. The state opt-out decision also should be 
limited in effect to only the area within five nautical miles from the 
state-Federal boundary. A similar procedure could apply to state-
Federal boundaries areas that create jurisdictional ``donuts.'' The 
five nautical mile boundary area could be considered a rationally 
defined setback area to further protect state waters from potential 
aquaculture facility impacts. Naturally, NOAA would still be able to 
consider specific impact factors and additional, appropriate protective 
standards under regulations established for review of proposed 
facilities.
    An additional limitation needed to support the concept of a 
legitimate decision by states to remove Federal waters from potential 
development would be to condition a state opt-out decision upon the 
existence of a corresponding state prohibition of finfish or shellfish 
aquaculture in state waters. It would be unreasonable to allow states 
to prohibit aquaculture in neighboring Federal waters when such 
activities are allowed in state waters.

B. Aquaculture Is Not a Fisheries Management Issue
    The NAA strongly supports exempting offshore commercial aquaculture 
from regulation under wild fisheries management programs such as the 
Magnuson-Stevens Fishery Conservation and Management Act and the 
jurisdiction of the fisheries management councils.\18\ As is the case 
with other Federal entities with offshore responsibilities, the 
Councils should be provided with an opportunity to comment on proposed 
offshore aquaculture programs but not be provided with approval or veto 
authority, or the ability to regulate aquaculture operations. The only 
proper application of such a management program with respect to 
offshore aquaculture is the regulation of the release of farmed fish 
under wild stock enhancement programs. Otherwise, aquaculture fish 
stocks are to be recognized as private property; they are not part of a 
wild fishery resource.
    Fish farm operations also should not be subject to standards 
established by the Councils that are not part of the regulations 
promulgated under authority of the proposed offshore aquaculture 
legislation. While Congress is only now first considering offshore 
aquaculture enabling legislation, some Councils have already produced 
onerous environmental and operations policies for potential aquaculture 
operations in the exclusive economic zone. These policies have been 
drafted without the benefit of formal rulemaking processes, or 
rulemaking safeguards with respect to economic evaluations, small 
business considerations or protections against anticompetitive effects. 
Congress should confirm that the evaluation, approval and operation of 
offshore aquaculture facilities will be performed under the regulations 
promulgated by NOAA to implement the aquaculture legislation, and that 
such operations are not intended to be regulated by policies created by 
the Councils under the wild resource programs. Of course, there are 
also other existing regulations and specific statutory directives for 
regulating aspects of Federal offshore aquaculture, such regulations 
under the Federal Water Pollution Control Act and regulations of the 
U.S. Environmental Protection Agency.\19\

C. Site Permit Terms
    The proposed offshore legislation establishes a site permit to 
authorize an aquaculture production facility in Federal waters. The 
proposed term of this permit is an initial period of 10 years, 
renewable at 5 year terms thereafter. This approach does not present a 
viable development and investment option. The proposed length of the 
site permit presents a significant obstacle to business and financial 
planning. Offshore aquaculture operations will be expensive, and will 
typically require private sector financing. The uncertainty created by 
potential disruption of established operations after a 10 year initial 
permit periods will create too great a degree of risk. The transaction 
costs attendant to initial permitting of production sites, and 
potential additional costs to re-permit initial sites, or new sites, is 
a substantial burden that must be supported by product prices. These 
significant transaction costs may make product prices unmarketable.
    By comparison, other Federal leases that authorize the consumptive 
use of public trust resources (as opposed to use of a site for private 
resources) provide even longer use periods than the proposed 
aquaculture legislation. Federal oil and gas leases run for twenty 
years.\20\ Federal deep seabed mineral leases run for initial recovery 
periods of twenty years, and indefinitely thereafter if minerals are 
being recovered.\21\ The term of aquaculture site permits should be 
extended to initial periods of twenty-five years, and should be 
renewable for terms of twenty-five years. Shorter periods result in 
business instability, substantial overhead and transaction costs, and 
potential lease speculation that could create bidding wars for 
established production sites. The objective of Federal legislation 
should be reliable production of food fish, not speculative markets in 
production sites.

IV. Aquaculture Development in a Global Market
    Large-scale marine aquaculture of the type likely to be considered 
for development in the U.S. exclusive economic zone is being undertaken 
in many other countries as we speak. In fact, we must recognize that 
this type of operation will be a much larger scale and more capital 
intensive than most other forms of aquaculture in the United States. As 
such, many of those who would consider undertaking these projects will 
readily evaluate foreign development locations as alternatives to 
development in the United States. To the extent that we create 
obstacles to development in this country, marine aquaculture projects 
will be located in Australia, Belize, Canada, Chile, China, Mexico, 
Norway, New Zealand, Scotland, Spain, Vietnam and other countries. The 
transportation requirements do not present a significant barrier to 
U.S. markets from these locations, particularly when we consider the 
disparity in labor costs and regulatory costs.
    If we are to have any hope of creating a commercial offshore 
aquaculture industry in the United States, and addressing food security 
requirements and the current seafood trade imbalance, we will have to 
eliminate existing unwarranted barriers to development and create a 
reasonable program for evaluation and approval of offshore aquaculture 
projects.
    Thank you for the opportunity to provide these comments.
ENDNOTES
    \1\ U.S. Department of Commerce, NOAA, Import and Export of Fishery 
Products Annual Survey 2005 (``Survey 2005''), (http://www.st.nmfs.gov/
st1/trade/documents/TRADE2005.pdf, visited April 2006).
    \2\ Id.; NOAA, Fisheries of the United States 2004 (Fisheries 
2004), p. 53, 
(http://www.st.nmfs.gov/st1/fus/fus04/08_perita2004.pdf).
    \3\ Id., p. 55.
    \4\ Survey 2005, Fisheries 2004, p. 53.
    \5\ National Aquaculture Act of 1980, 16 U.S.C. 2801 et seq., 16 
U.S.C. 2801(a)(2).
    \6\ National Aquaculture Act of 1980, 16 U.S.C. 2801 et seq., 16 
U.S.C. 2801(c).
    \7\ See, 69 FR 51891, 51897 (December 23, 2004).
    \8\ See, 40 CFR Part 451.
    \9\ 33 U.S.C. Sec. 402.
    \10\ 33 U.S.C. 403; See also, 40 CFR Sec. Sec. 125.120 through 
125.124.
    \11\ 40 CFR Sec. 125.122(a)(3).
    \12\ 40 CFR Sec. Sec. 125.121(e), 125.122.
    \13\ 40 CFR Sec. 125.122.
    \14\ 40 CFR Sec. 125.122(a).
    \15\ 40 CFR Sec. 125.123.
    \16\ 40 CFR Sec. 125.123(d)(4).
    \17\ See, 16 U.S.C. Sec. 1456(c)(3)(A); See also, 16 U.S.C. 
Sec. 1453(1).
    \18\ 16 U.S.C. 1801 et seq.
    \19\ 33 U.S.C. 1251 et seq., 40 CFR Part 451.
    \20\ 30 U.S.C Sec. 223.
    \21\ 30 U.S.C Sec. 1417(b).
                                 ______
                                 
   Prepared Statement of Brian O'Hanlon, President, Snapperfarm, Inc.

    Dear Committee Members,
    Many of the negative comments I heard at the hearings unfairly and 
inaccurately portrayed our fledgling industry and products. We (our 
company and colleagues) are very sensitive to all environmental issues 
and other concerns surrounding our industry and work very hard to 
produce some of the most environmentally responsible, healthy and safe 
seafood products available to American consumers.
    The following are some of the key issues I heard being discussed at 
the hearing and my comments on each issue. In an effort to maintain 
transparency with respect to these issues and concerns, we try to post 
as much nonproprietary information on our website as we can. If you are 
interested in additional information to support my comments I will be 
happy to provide it upon request.

        Environmental Impact: Senator Boxer from California worried 
        that offshore aquaculture will ``create clouds of ammonia, 
        phosphorous and other waste''. Dr. Rebecca Goldberg calculated 
        that a $5 billion offshore aquaculture industry will discharge 
        waste equivalent to 17 million people or the entire North 
        Carolina hog industry.
        It sure sounds dramatic and complicated when it is explained 
        that way, but when describing what impact Rebecca's $5 billion 
        industry will really have on the EEZ Randy Cates put it in 
        simpler, less dramatic terms. Norway's entire $1.8 billion 
        salmon industry has the footprint equivalent to a large runway 
        in the U.S. while the EEZ is roughly the same size as the 
        continental U.S. Now consider that this footprint and loading 
        is going to be divided among dozens or even hundreds of farms 
        spread out over a couple of million square miles in the EEZ.
        We must consider the staggering volumes of water that will move 
        through these farms on a daily basis. For example, at our site 
        in Puerto Rico, we have an exchange rate in each cage of over 
        1,000 times per day which equates to over 2 billion liters of 
        clean seawater flowing through every cage every day. Over the 
        past 4 years, NOAA has funded two detailed environmental 
        studies (reports available on our website) at our farm site. 
        Both were conducted by the University of Miami and University 
        of Puerto Rico and both proved that there is no significant 
        environmental impact from our operation. Even if we tried to, I 
        do not think we can create the dramatic impact described by 
        Senator Boxer.

        Social Impacts: Comments were made at the hearings that 
        suggested that offshore aquaculture products will compete with 
        and eventually displace segments of the U.S. fishing industry.
        Whether or not offshore aquaculture develops in U.S. waters, 
        the U.S. fishing industry will compete with aquaculture 
        products in the U.S. markets. If the products are not produced 
        domestically, they will be produced overseas, imported and 
        consumed in the U.S. Offshore aquaculture should grow to work 
        with and compliment the U.S. fishing industry. None of the 
        species of fish currently being produced offshore in U.S. 
        waters are competing with a wild capture fishery of the same 
        species. In addition, it is not biologically, technologically 
        or economically feasible to produce all seafood products 
        through aquaculture.

        Fishmeal Use: Comments were made at the hearings that suggested 
        offshore aquaculture consumes more protein from the wild than 
        it creates.
        Approximately one third of the world's fishmeal and fish oil is 
        consumed by aquaculture while the other two thirds are consumed 
        by pig and chicken industries. Fish are far more efficient at 
        converting fish-based proteins into biomass than any other farm 
        raised animal. In just 4 years operating our farm in Puerto 
        Rico, we have dramatically improved the growth efficiency of 
        our crops. Most of the protein in our feed comes from grain 
        based products, while the smaller amount of fishmeal in our 
        feed comes from a carefully managed fishery in the U.S. One of 
        our primary goals is to constantly improve growth efficiency 
        and reduce the total amount of fishmeal used in our feeds. A 
        tremendous amount of research is being conducted around the 
        world to develop substitute protein sources that still retain 
        the health benefits of fishmeal and fish oil. We strongly 
        believe that the industry will grow to reduce its reliance on 
        wild fish protein. We are already headed in that direction.

        Product Safety: Senator Boxer questions whether this industry 
        will be helpful or harmful to the future health of our children 
        and fisheries. Dr. Rebecca Goldberg questioned the health risks 
        of farm raised fish because of trace levels of PCBs and other 
        contaminants.
        Most foods we consume such as beef, chicken, pork, milk, butter 
        and cheese contain very small traces of PCBs and other 
        contaminants. American consumer ingests far more of these 
        contaminants from these other food items than they would from 
        fish. Our fish are tested for PCBs and other contaminants. The 
        certified labs conducting the tests have not detected any trace 
        of PCBs or contaminants in our fish. In addition, our fish are 
        very high in heart healthy Omega-3's and other essential fatty 
        acids. The reason for our clean, safe and very healthy fish 
        products are the clean, safe and high quality ingredients used 
        in our feeds.
        American consumers should be more concerned with the fact that 
        if we do not produce these fish here in the U.S. where the 
        industry and products will be highly regulated, it will be done 
        somewhere else where there is less, little or no regulatory 
        oversight when it comes to environmental impacts and product 
        safety. If we do not substantially increase domestic 
        aquaculture production, importing foreign aquacultured products 
        will be the only choice for the American consumers increased 
        demand for seafood.

        Consumer Acceptance: Senator Boxer mentioned that consumers in 
        the State of California prefer wild fish over farm raised fish 
        and that this is a trend that will spread across the country.
        While this may be the case for a select group of people, we 
        think that generally, Americans will choose their seafood based 
        on value, quality and availability. This is certainly the case 
        for farmed salmon, shrimp, tilapia and other cultured products. 
        Our customers have a choice when buying our cobia products. 
        They can purchase wild cobia from South America or farm raised 
        cobia from Vietnam. They repeatedly choose our fish over the 
        others even with a 50 percent price premium because of the 
        superior quality, value and the peace of mind knowing the fish 
        has been carefully cared for its whole life.

        Exotic Species: There were concerns from many Subcommittee 
        Members and some panel members about exotic species escaping 
        from the cages.
        We believe that exotic species should not be allowed for 
        culture. Offshore farms should only be allowed to farm species 
        of fish that are native to their waters.

        Escape: There is concern that fish will escape from cages and 
        breed or compete with wild fish for habitat and food source.
        The last thing a farmer wants is to lose valuable crop, but it 
        is nearly impossible to guarantee that no fish will ever escape 
        from offshore farms. If we use native and nongenetically-
        modified fish the risks associated with escape are reduced or 
        eliminated. We are constantly working closely with our cage 
        manufacturers to improve on already great cage designs. 
        Improvements in cage technology are moving at a rapid pace. 
        Just like our computers, the day after our cages are installed, 
        there is a better model available.

        Disease and Drug Use: Concerns were raised at the hearings 
        about disease outbreaks among fish crowded in offshore cages 
        and the disease transfer from the farmed fish to wild fish. 
        Concerns were also raised about the use of antibiotics and 
        other drugs to treat diseases.
        One of the benefits of moving offshore is that we provide a 
        healthier environment for our crops of fish. Because of strong 
        currents, the water exchange rate is very high and because of 
        the depth and vastness of the offshore waters, our fish never 
        see the same water twice. Proper farm management practices such 
        as the use of high-quality diets and reasonable stocking 
        densities also help to prevent disease. We believe that the 
        salmon industry experienced early problems with disease 
        interaction between farmed and wild fish partly because the 
        farms are located in areas that are migratory routes and are 
        frequented by wild salmon. Currently, this is not the case for 
        the species of fish being produced offshore.
        If not properly administered, antibiotics and drugs can impact 
        surrounding ecosystems and product health. However, the drugs 
        used in the U.S. are highly regulated and the frequency of use 
        offshore should be minimal because of the healthier environment 
        described above. The salmon industry has come a long way with 
        the development of vaccines for their crops. With the right 
        resources, this vaccination technology can be modified and 
        adapted for use with a wide variety of marine fish species.
    We do agree that offshore aquaculture expansion should not go 
unchecked and a proper regulatory structure will help weed out poorly 
planned and managed projects. However, the existing regulatory 
structure is too expensive, complex and overburdening for even the most 
serious and well organized businesses. I can easily claim that the 
regulatory system is the single largest constraint to the growth of our 
business. We strongly support the goals of the Offshore Aquaculture Act 
of 2005. However, I have a few comments I would like to make regarding 
the bill.

        Permit Terms: We believe that the proposed time period for the 
        permits (10 years and renewable for an additional 5 years) is 
        too short. Offshore aquaculture operations take a tremendous 
        investment in capital and time to start. It will be difficult 
        to justify this investment without the security of longer-term 
        permits.

        State Opt-Out: It is clearly a state's right to not want this 
        industry to develop just outside of its costal waters. However, 
        the state should make this determination before farms are 
        established. It is not fair to the private industry to have 
        their permits canceled with such short notice if the state 
        decides at a later date that it does not want the industry 
        offshore.

        Government Support: The government must invest substantially 
        more financial and research support to further the development 
        efforts of private, academic and nonprofit organizations. Our 
        company has endured a substantial share of the cost burden in 
        bringing the offshore aquaculture production of cobia to 
        commercial reality in the U.S. The same can be said for the 
        companies in Hawaii with respect to their products.

    Our company and our colleagues are working hard to develop a 
responsible, highly productive industry in the U.S. If you focus too 
much on the misconceptions I heard emphasized at the hearings and not 
the facts, you are going to force the technology, jobs and income to 
other countries where there will likely be less regulatory oversight, 
less regard for the health of the environment and less concern for 
product quality. You have a tremendous amount of influence in the 
future of offshore aquaculture in the U.S. Please consider the facts, 
not misconceptions when determining our future.
    Thank you for the opportunity to provide my input.
                                 ______
                                 
Prepared Statement of William Taylor, President, Taylor Shellfish Farms

    Taylor Shellfish Company is a large (perhaps the largest in the 
United States) producer of farmed molluscan shellfish. Beginning in the 
1880s we've taken five generations of experience and coupled it with 
modern technology to create state-of-the-art production facilities for 
Manila clams, a variety of oyster species, mussels and geoduck clams. 
Most of these are produced on approximately 9,000 acres of tidelands we 
own or lease here in Washington with the exception of mussels which are 
grown suspended from rafts. We ship seed and mature shellfish all over 
the world.
    I am writing today in support of Congress passing authorizing 
legislation that will allow and encourage environmentally responsible 
aquaculture in the U.S. Exclusive Economic Zone (EEZ). Taylor Shellfish 
belongs to the National Aquaculture Association and fully supports the 
detailed comments submitted by them regarding the offshore aquaculture 
legislation. We would welcome Federal legislation which would increase 
opportunity for domestic aquaculture and provide a commensurate 
national research and development program.
    Our company employs approximately 380 people full time at our 
hatcheries, nurseries, farms and processing facilities in the Unites 
States and typically add another 30-40 employees seasonally. 
Collectively these employees earn about $12.3 million annually and most 
have medical, vacation and retirement benefits.
    In recent years, Taylor Shellfish Company has been expanding to 
include operations in Canada, Fiji and Mexico. Our decision to locate 
in foreign waters has in part been driven by opportunities in other 
countries where aquaculture development is supported and encouraged. 
Less stringent environmental standards are not the appeal. In our 
experience they have been similar. Most significantly, aquaculture is 
desired in these countries, public policy facilitates it and there are 
research and development programs which support it.
    In Totten Inlet, Washington, which is in the southern part of Puget 
Sound, our company currently has two mussel farms. We lease 
approximately 11 acres from the state on which we anchor these farms. 
The surface area actually covered by rafts is far smaller. These farms 
were permitted between 1992 and 1994. Together they produce 
approximately 1.5 million pounds of mussels annually. We have been 
attempting to get a third farm permitted in the same inlet since 1997. 
The 58, 30, x 38, rafts proposed for the new farm would cover 
approximately two acres of the surface. Unfortunately recent shoreline 
development, occurring since the earlier farms were permitted, has 
brought with it an onslaught of new competing uses, not the least being 
a desire for an unobstructed view. The legal challenges and 
environmental study required to site this new farm have cost hundreds 
of thousands of dollars and delayed the project years. As none of the 
required studies to date has found evidence of negative environmental 
impact, we anticipate we will ultimately prevail on getting this new 
farm permitted.
    To meet market demand for mussels while fighting to site a third 
farm in Totten Inlet, we have purchased three farms in British 
Columbia. These three farms collectively provide us approximately 250 
acres of surface area on which to anchor rafts and culture mussels. 
Currently we employ 12 people in BC who earn approximately $400,000 
collectively. We are now looking for an appropriate location to build a 
hatchery and processing plant in British Columbia to accommodate these 
farms and facilitate their full development. This will ultimately 
represent 40-50 good paying full time jobs that could have been located 
in the United States.
    While state and local land use laws are the main culprit for our 
problems in Totten Inlet, not the Federal Government, we can't help but 
wonder if the outcome would have been different were the United States 
actually implementing a National Aquaculture Development Plan that 
promoted aquaculture (called for by the National Aquaculture Act of 
1980). Perhaps Washington State would have a State Shoreline Management 
Act that supported the National Aquaculture Development Plan which 
would have provided direction to local governments to do the same. 
Perhaps NOAA would have had aquaculture coordinator positions in their 
regional offices, testifying supportively at local permit hearings. 
Perhaps Washington State would be seeking our jobs instead of shunning 
them.
    Seafood demand as you heard in your April 6th hearing continues to 
rise and demand will not be met by wild fisheries alone. According to 
NOAA's 2002 document The Rationale for a New Initiative in Marine 
Aquaculture, aquaculture is the fastest growing food industry in the 
world. While global aquaculture production has grown at an annual rate 
of 10 percent, the growth of aquaculture in the United States has been 
only 1 percent--and most of that has been in the fresh water 
environment.
    Part of our decision to locate in other countries is because public 
policy here in the United States is not conducive to aquaculture 
development. Actually, to be more accurate, Federal public policy, in 
particular the National Aquaculture Act of 1980 and aquaculture 
policies at the Department of Commerce and National Oceanographic and 
Atmospheric Administration are very supportive.
    Unfortunately the rubber has yet to meet the road when it comes to 
implementing these laws and policies. To the contrary, it has only 
become more difficult in recent years to continue to operate existing 
farms, never mind expanding operations.
    Opportunities for shellfish culture in the EEZ are limited, at 
least with today's technology. That could clearly change in future 
years with advances in technology. Despite the limited opportunity we 
support the legislation to preserve future opportunity. The shellfish 
industry could see immediate growth opportunities if NOAA were to 
develop a comprehensive marine aquaculture program which included 
facilitating nearshore aquaculture development. This could be through 
research and development and aquaculture zoning under Section 309 of 
the Coastal Zone Management Act.
    Thank you for consideration of these comments.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Dr. William T. Hogarth

Regulatory Streamlining
    Question 1. Why does the Administration's bill propose having two 
separate permits for siting and operations? Would these replace, or be 
in addition to, other state and Federal permits? As we now have an 
opportunity to design a permitting system from scratch, how can we take 
steps to reasonably integrate these permits?
    Answer. The two-permit system was designed to give industry long-
term security of tenure along with the flexibility to modify operations 
over time (e.g., in response to changing technology and market 
conditions). The site permit allows a permit holder to use a specific 
area of the ocean for aquaculture for 10 years, renewable every 5 
years. The operating permit covers what the site permit holder could do 
at the site [e.g., type of structure, species, operational details, 
etc.]. If a site permit holder wanted to switch to a different type of 
operation or grow a different species, the operating permit could be 
amended without affecting the site permit.
    The Administration's bill will not override existing laws, but it 
does call for a coordinated permit process to address the legal and 
regulatory requirements under other statutes. It also authorizes other 
Federal regulatory agencies to modify their regulations to implement 
the coordinated permit process. For example, the bill preserves the 
roles and responsibilities of other Federal agencies in establishing 
environmental requirements under current law, while giving the 
Secretary of Commerce authority to impose additional requirements 
specifically relating to offshore aquaculture activities for which 
permits are issued under this Act. The intent is to avoid duplicative 
and/or conflicting requirements, allow the Secretary to fill in any 
gaps or deficiencies in such environmental requirements, and facilitate 
the identification of all requirements that apply to an offshore 
aquaculture operation regardless of which Federal agency has primary 
responsibility.

    Question 2. Should the law mandate an integrated state-Federal 
permitting process, a ``one-stop shop'' for all permits, or other 
specific measures? What other steps could NMFS take to reasonably 
improve the efficiency of the permitting process?
    Answer. As stated in Dr. Hogarth's testimony, an offshore 
aquaculture bill provides the Department of Commerce the authority to 
directly regulate aquaculture in Federal waters, and to establish a 
coordinated process among the Federal agencies. We envision a one-stop 
regulatory shop, coordinated by NOAA, and integrated into NOAA's 
environmental stewardship responsibilities. S. 1195 does not 
specifically address the integration of a state-Federal permitting 
process, as referenced in the question, but the bill does call on NOAA 
to consult with the states in drafting implementing regulations and in 
the review of Federal permit applications.
    NMFS is already taking steps to improve the efficiency of the 
aquaculture permitting process under current law by developing 
guidelines and reference materials for use in the review of proposed 
aquaculture facilities in coastal waters under the Magnuson-Stevens 
Fishery Conservation and Management Act and the Endangered Species Act. 
Future steps could include the designation of aquaculture coordinators 
for each region to provide a local point of contact for permit 
applicants.

Role of Regional Fishery Management Councils
    Question 3. We need to consider the serious issues about how 
offshore aquaculture would affect Federal fisheries management, and 
vice versa. NOAA's proposed bill would exempt offshore aquaculture from 
the Magnuson-Stevens Act, but clearly we have to make sure that 
aquaculture is compatible with the conservation and management work of 
the Regional Fishery Management Councils. NOAA's bill would require it 
to consult with these Councils in the permitting process, and one of 
Senator Stevens' amendments would require Council consultation in 
setting environmental requirements.
    What specific activities does NOAA envision when NOAA ``consults'' 
with Councils under your bill--mere information sharing, or a more 
substantial review and comment process? What else? Should we be more 
specific in the Act about what ``consult'' means?
    Answer. The implementation of an offshore aquaculture bill will 
complement NOAA management responsibilities over wild fisheries and 
resolve some of the challenges the agency has faced trying to manage 
aquaculture under laws, regulations, and fishery management plans 
written for wild harvest fisheries. Once a bill is enacted, NOAA 
envisions that a substantial role for the Fishery Management Councils 
will be developed as part of the implementing regulations. A well-
defined role for the Councils in the consultation process will be 
critical to the success of the permitting process for aquaculture in 
Federal waters.
    Under S. 1195, NOAA would consult with the Councils in the 
development of regulations, in the establishment of environmental and 
other requirements (especially as they relate to interactions with wild 
stocks managed by the Councils), and in the review of individual permit 
applications. In anticipation of the rulemaking process, NOAA is 
working with the Councils to explore an appropriate consultation 
process for Federal aquaculture permits.
    NOAA does not believe a more specific statutory definition of 
``consult'' is necessary. The role of the Councils--including the 
definition of ``consult''--will be clarified as part of the rulemaking 
process once the bill is enacted.

    Question 4. Does NOAA support the amendment to require additional 
consultation with councils in setting environmental requirements? What 
other specific aquaculture-related activities require consultation 
between NOAA and the councils?
    Answer. The Administration supports the inclusion of language 
requiring consultation with Fishery Management Councils in setting 
environmental requirements, as well as in the development and 
implementation of the permitting process. Councils may also be 
consulted to help identify areas of the U.S. Exclusive Economic Zone 
(EEZ) where offshore aquaculture would be least likely to interfere 
with known fishing activities and other marine managed areas.

    Question 5. Although we do not have fisheries management councils 
represented here today, do you think councils now have the staff and 
financial resources to become properly involved in this new 
consultation function?
    Answer. We anticipate that enactment of this legislation will not 
impose significant additional work on the Fishery Management Councils.
Funding Authorizations
    Question 6. Currently the Administration's bill proposes that we 
authorize ``such sums as may be necessary'' for implementing this Act. 
As you can imagine, that is a very difficult request in this budget 
climate. As authorizers, we simply must have more specific information 
from you on what funding is needed and what elements of the program it 
would go toward.
    Given your expertise in the costs associated with regulating major 
industries, how much funding would NOAA require to implement the Act it 
has proposed?
    Answer. NOAA estimates that the cost of implementing S. 1195 would 
be under $2.5 million annually over a period of 3 to 4 years. This 
estimate, which is based on experience with other permit programs, 
includes funding to develop implementing regulations. This estimate 
does not include funds for demonstration projects and other research 
and development in support of regulatory decisions.

    Question 7. Out of this funding, exactly how would NOAA spend it? 
For example, how much would it allocate to research and development, 
program administration, monitoring and enforcement, and so on?
    Answer. Implementation of S. 1195 would include stakeholder 
meetings, Federal Register notices, drafting of regulations, design and 
issuance of the permit system, monitoring requirements, Geographic 
Information System (GIS) mapping, and compliance with NEPA to the 
extent applicable.

    Question 8. Does NOAA currently have the necessary staff and 
expertise ``in-house'' to implement this Act? How many staff members 
would be needed to effectively and efficiently administer this program?
    Answer. NOAA has in-house staff and expertise to begin the 
implementation of the National Offshore Aquaculture Act, and our budget 
requests reflect required staffing. Full implementation of the bill, 
assuming significant industry interest in applying for offshore 
aquaculture permits, could require additional staff, including 
personnel to administer, monitor and enforce permits. Although the 
exact number of additional staff needed will depend on the level of 
permit activity, we expect any increase in staffing to be gradual and 
incremental to address identified needs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Dr. William T. Hogarth

Environmental Concerns, Introduced Species, and Disease
    Question 1. Both nearshore and offshore aquaculture raise many 
environmental concerns, from water quality to disease. For example, 
fish that escape from aquaculture facilities may harm wild fish 
populations through competition or interbreeding, or by spreading 
diseases and parasites. An issue of increasing concern is the possible 
introduction of non-native species. This is a particularly acute 
concern in Hawaii. In the United States, many cultured marine species 
are not native to the area where they are being farmed. Non-natives may 
establish new populations that may out-compete native populations for 
food and habitat.
    How can we ensure the protection of wild stocks from the potential 
dangers of invasive species, genetic contamination, or disease?
    Answer. S. 1195 would authorize the Secretary of Commerce to impose 
specific terms and conditions on permits. NOAA will be able to use its 
authority to require appropriate management measures to protect wild 
stocks and prevent and mitigate adverse environmental impacts. We can 
protect the marine environment--including wild stocks--through careful 
planning, proper management, and the implementation of and adherence to 
environmental standards. Specific examples of planning and management 
actions that will help ensure the protection of wild stocks include 
proper siting, species selection, facility design, implementation of 
and adherence to best management practices, and the application of 
aquatic animal health practices in aquaculture that have proven 
effective. NMFS believes these actions and techniques are the best 
defense against the introduction of invasive species, genetic 
contamination, and disease.
    All of the open ocean aquaculture efforts currently in the United 
States involve species native to the region in which the demonstration 
project or commercial operation is located. For example, the University 
of New Hampshire's Open Ocean Aquaculture project raises blue mussels, 
cod, haddock, and halibut--all native to the Northeast region. The open 
ocean operations in Hawaii raise Pacific threadfin and yellowtail, both 
native to the islands. Under S. 1195, anyone requesting a permit for a 
non-native (and therefore potentially invasive) species would need to 
demonstrate that the risks to the environment or wild stock would be 
negligible. There are well-established scientific protocols for 
considering and testing the use of non-native species. With careful 
broodstock management, selective breeding protocols to minimize risks 
to wild stocks, and technologies and good management practices to 
prevent escapes, the culture of indigenous species should present few, 
if any, risks to wild stocks.
    It is also important to note that aquaculture operations in the 
United States have never raised genetically modified fish in coastal 
waters--another concern often raised in the context of non-native 
species. For years, NOAA and other agencies have studied the genetic 
and other interactions between hatchery and wild fish as part of 
existing stock enhancement programs for commercial and recreational 
fishing. Based on that experience, which includes the deliberate 
releases of finfish, oysters, and crabs for replenishment, it will be 
possible to design appropriate safeguards for conserving wild stocks.
    NOAA is also aware of aquatic animal health issues based on 
research over the past 25 years. Comprehensive aquatic animal health 
programs that entail health experts administering vaccines and 
monitoring aquatic species further reduce the possibility of negative 
impacts on wild resources by cultured aquatic animals. Because aquatic 
animal pathogens occur naturally in open waters and wild marine 
organisms serve as natural reservoirs for these disease-causing agents, 
disease outbreaks may occur in both wild and farmed aquatic animals. 
There is little scientific evidence to link disease episodes in wild 
populations of fish, caused by endemic pathogens, to cultured animals.
    In its work with the U.S. Departments of Agriculture and the 
Interior and with other Federal agencies, NOAA is at the forefront in 
developing a National Aquatic Animal Health Plan that will provide for 
safe national and international commerce of aquatic animals and the 
protection of cultured and wild aquatic animals from foreign pests and 
diseases. Technological and scientific advances also continue to refine 
aquatic animal health practices. For example, as a result of scientific 
advances, the marine aquaculture industry has largely replaced 
antibiotics with vaccinations administered before fish are stocked into 
cages.
    With these factors in mind, NOAA will continue its focus on 
research and technology development that will lead to more 
environmental safeguards. NOAA will also continue its work with 
stakeholders to create an opportunity for aquaculture in Federal waters 
so the industry develops in a predictable, environmentally compatible, 
and sustainable manner, in cooperation with our wild harvest.

    Question 2. What kind of environmental safeguards have effectively 
addressed public concerns about these and other environmental problems?
    Answer. Based on over 30 years of improvements to marine finfish 
aquaculture practices in the United States and abroad, the most 
effective environmental safeguards to address public concerns are 
technological innovation, best management practices, careful species 
selection, and proper site selection.
    Today's aquaculture cages, pens, and anchoring systems are more 
robust, and have dramatically reduced the number of escaped fish. We 
expect these types of technological innovations will continue to 
develop. For example, new equipment for open ocean conditions has been 
developed and refined in the past 10 years.
    Best management practices to ensure that aquaculture operations 
minimize risk and operate safely and securely have also been developed 
and refined over time. Some standard management practices used today to 
reduce or mitigate the risks associated with aquaculture include:

  <bullet> Regular inspections by divers to ensure the integrity of 
        nets and net infrastructure.

  <bullet> Cameras and surveillance to monitor efficient use of feed, 
        which reduces discharges of uneaten feed into the marine 
        environment.

  <bullet> Regular health inspections to prevent disease.

  <bullet> Comprehensive sanitary and biosecurity programs to prevent 
        the introduction and/or spread of pests or diseases from one 
        farm site or cage to another or into the marine environment.

    Another key environmental safeguard, species selection, is one of 
the most effective techniques available to reduce the impact of 
escapes. The knowledge NOAA and other agencies have gained with regard 
to species selection from over 30 years of stock enhancement research 
and programs to support commercial and recreational fisheries will 
allow managers to design safeguards for conserving wild stock.
    NOAA is advocating careful site selection as one of the keys to 
minimizing environmental risk and maximizing environmental benefits of 
aquaculture--no matter what organism is under culture. Local site 
characteristics will dictate the proper organism or mix for that site, 
as all areas do not have the same environmental conditions and 
concerns. In some cases, it may be important to encourage a mix of 
organism types, including cultured finfish, filter feeding mollusks, 
marine algae, and other taxa. These decisions will depend on which 
species, or mix, will provide the maximum benefits with the smallest 
ecological footprint.

    Question 3. What are realistic expectations of what aquaculture can 
do for the United States to improve our economic returns, food supply, 
and balance of trade?
    Answer. Economic returns will ultimately depend on market 
conditions and costs of operations, including the costs of complying 
with government regulations. Offshore aquaculture has great potential 
to make a significant economic contribution, but this potential will be 
realized only if we can provide the regulatory certainty for businesses 
to make sound investment decisions. S. 1195 will give NOAA the 
authority it needs to provide that regulatory certainty.
    By enacting legislation to allow offshore aquaculture to develop in 
the United States, we are creating opportunities for coastal 
communities struggling with issues of overcapitalization and limited 
harvests in commercial fishing. With a more robust domestic aquaculture 
industry, boats used for fishing could also be used to service 
aquaculture operations. Similarly, seafood industry infrastructure 
could be used for the processing and distribution of aquaculture and 
wild harvest fishery products. Domestic aquaculture could provide a 
steady, year-round source of product and, in some locations, it could 
prevent processing facilities from closing down altogether due to 
insufficient harvest from wild fisheries.
    NOAA is working with top social scientists and economists across 
the Nation to analyze the economics of marine aquaculture as it relates 
to commercial and sport fishing, market opportunities, global trends, 
underused processing capabilities, value-added niche markets, and 
coastal job development. The results of this analysis will be available 
in late 2006.
    Preliminary economic assessments by NOAA indicate that the 
development and expansion of marine aquaculture in the United States 
could trigger a ripple effect throughout the economy. Additional jobs 
and economic benefits from aquaculture production could accrue 
throughout the U.S. seafood value chain and among suppliers to the 
aquaculture industry, such as boat owners, fishermen, feed and 
equipment manufacturers, processing, feed suppliers (e.g., the soybean 
industry), cold storage operators, seafood marketers, and the food 
service industry.
    Preliminary production estimates indicate that the United States 
could increase domestic aquaculture production of all species to 1 
million tons per year by 2025. The additional production could include 
760,000 tons from freshwater and marine fish aquaculture, 47,000 tons 
from crustacean production and 245,000 tons from mollusk production. Of 
the 760,000 tons of finfish aquaculture, 590,000 tons could come from 
marine finfish aquaculture.

    Question 4. How much growth can we reasonably expect for the U.S. 
offshore aquaculture industry with all the competing uses of our 
coastal areas, particularly when combined with our need to provide 
adequate protection for wild stocks, environmental conditions, and--of 
course--the people who have to live with the choices?
    Answer. Prospects for future growth of offshore aquaculture in the 
United States depend on many factors, including the details of the 
regulatory structure that would be developed under S. 1195. The 
industry will be operating and competing in a global market, where a 
range of economic factors (e.g., consumer demand and the costs of 
labor, capital, and competing products) will determine the commercial 
viability of U.S. operations.
    It is also important to address concerns for protecting the marine 
environment. Based on 25 years of scientific research, technology 
development, extension work, development of best management practices, 
and advances in stock enhancement techniques, NOAA is confident that 
concerns can be addressed effectively through proper siting and 
operation of aquaculture facilities, followed by careful monitoring.
    The U.S. Exclusive Economic Zone is 3.4 million square miles. NOAA 
is confident there are enough appropriate sites where aquaculture 
facilities could operate without compromising the protection of wild 
stocks, environmental quality, or people's livelihoods. In the long 
run, U.S. fishing communities will be harmed more by foreign 
competition than by a robust domestic aquaculture industry. The 
challenge is to find ways for our domestic fishing industry to benefit 
from the use of aquaculture technologies to produce additional 
seafood--as fishermen are doing in some parts of the United States and 
in other countries.
Foreign Ownership
    Question 5. The Administration's bill allows for foreign ownership 
of aquaculture permits. However, we do not allow foreign fleets to fish 
in the EEZ, and we require that fishing companies be U.S. owned or 
controlled. Senators Inouye and Stevens introduced an amendment to the 
bill that deleted the Administration bill provision that would have 
allowed foreign citizens to hold permits.
    The Administration's proposal would have allowed for foreign 
citizens to own and operate offshore aquaculture facilities in the U.S. 
Exclusive Economic Zone (EEZ). Why was this provision necessary?
    Answer. With the Inouye-Stevens amendment, the provision would 
require that offshore aquaculture permit holders be a citizen or 
resident of the United States, or a corporation, partnership, or other 
entity organized and existing under the laws of a state or the United 
States. This provision was included in the bill because the development 
of offshore aquaculture by foreign entities can provide many of the 
benefits to the United States that operations by U.S. entities would 
provide--from creation of jobs in the United States to reductions in 
the U.S. trade deficit. The Administration bill does not foreclose 
offshore aquaculture opportunities to foreign persons, as long as such 
persons agree to be subject to the jurisdiction of U.S. courts with 
respect to activities related to a permit. The provision is consistent 
with our international trade obligations.

    Question 6. How much foreign investment and ownership do you 
anticipate in offshore aquaculture?
    Answer. Most of the interest in offshore aquaculture to date has 
come from U.S. entrepreneurs and investors. However, given the more 
advanced development of aquaculture in other countries, it would be 
unrealistic to expect zero investment by non-U.S. citizens and 
aquaculture companies. Foreign investment and ownership will depend on 
market and regulatory conditions in the United States and other 
nations. Many U.S. investors have established aquaculture operations in 
other countries in the absence of a clear regulatory regime in the 
United States.

    Question 7. How does allowing foreign ownership contribute to the 
Administration's stated interest in increasing U.S. competitiveness and 
improving our balance of trade?
    Answer. The U.S. aquaculture industry can learn from overseas 
companies, practitioners, and partners who, in many cases, may have 
greater expertise and experience in aquaculture operations. By allowing 
foreign participation in offshore aquaculture, we will also maintain 
good investment and trade relations with other nations, which may also 
import seafood produced by the U.S. offshore aquaculture industry. The 
more our domestic aquaculture businesses can produce, the greater the 
opportunity to reduce imports or to increase exports and reduce the 
almost $8 billion annual seafood trade deficit in the United States. 
Our challenge is to integrate aquaculture into domestic seafood 
production so our fishermen, processors, and seafood marketing 
companies can benefit directly from aquaculture.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                         Dr. William T. Hogarth

    Question 1. What are NOAA's specific recommendations for mitigating 
some of the likely cumulative and individual environmental and 
socioeconomic effects of offshore aquaculture? Would NOAA oppose 
incorporating these protections into this legislation?
    Answer. NOAA believes that offshore aquaculture will present 
benefits as well as challenges. The benefits will include more 
resilient coastal communities that will have another compatible option 
to produce seafood. These communities will benefit from the ripple 
effect created by expansion of local industry. S. 1195 would provide 
the necessary authority to require, through regulations or permit 
conditions, appropriate measures to avoid, minimize, or mitigate 
unacceptable environmental and socioeconomic impacts. The bill also 
provides authority to monitor operations and to take emergency actions 
to address unanticipated impacts in a timely manner. NOAA expects that 
the public rulemaking process will address specific mitigation steps in 
more detail.

    Question 2. What are NOAA's specific recommendations for minimizing 
the possible human health problems surrounding the consumption of 
farmed fish, such as the effects of antibiotics and PCBs? Is NOAA 
opposed to incorporating these protections into this legislation?
    Answer. NOAA's mission includes a focus on human health and safety, 
and NOAA seeks to maintain a positive connection between human health 
and seafood. Unfortunately, there is misinformation about the safety of 
our seafood supply and some published research has been shown to be 
inadequate, flawed, or biased. The issue of seafood safety requires 
clarification based on the latest information from leading scientists, 
nutritionists, and medical and healthcare professionals. Studies, 
including those presented at the international Seafood & Health 
Conference in December 2005, link seafood consumption to higher 
intelligence in babies and children, lower heart rates in adults, lower 
cholesterol, lower blood pressure, and lower body weight. As stated in 
Dr. Hogarth's testimony to the Subcommittee, the health benefits of 
eating seafood far outweigh the risks due to trace level contaminant 
exposure. Seafood has been scientifically shown to fight cardiovascular 
disease, cancer, Alzheimer's disease, and many other major illnesses.
    To help clarify the issue of antibiotics and aquaculture, it is 
important to understand that the marine aquaculture industry in the 
United States has largely replaced antibiotics with vaccinations 
administered before fish are stocked into cages. If an antibiotic is 
necessary, it is applied under the supervision and prescription of a 
licensed fish veterinarian, and is governed by Federal legislation and 
regulations.
    All food, including beef, chicken, seafood, grains, and vegetables, 
contain trace levels of persistent organic chemicals such as PCBs, 
because these chemicals are everywhere in our environment in very small 
quantities. The U.S. Food and Drug Administration regularly monitors 
food products--including cultured seafood--to ensure they are safe to 
eat.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Dr. William T. Hogarth

Protein Conversion Ratio
    Question 1. Many of the people I talk with in Washington State are 
on the whole positive about aquaculture of shellfish, catfish, and 
other herbivorous or filter feeding species. Carnivorous species, 
however, are less well received--a perception that comes in large part 
from negative environmental and economic experiences with net pen 
salmon farming. I am concerned that carnivorous finfish culture, as 
currently practiced, creates a net-loss of ocean protein and that large 
scale exploitation of forage fish species used for fish meal could have 
profound ecosystem effects. How has NOAA encouraged or sought solutions 
to overcome the reliance on wild fish stocks as feed, which in many 
ways seems to be an Achilles heel for any large-scale carnivorous 
finfish aquaculture operation?
    Answer. On a global scale, significant advancements have been made 
in reducing the reliance on fish meal and fish oil for feeds used in 
aquaculture, and NOAA plays a vital role in this research. For example, 
scientists at NOAA's Northwest Fisheries Science Center, along with 
scientists from other agencies and industry, are active participants in 
ongoing research focused on the development of alternative feed 
ingredients for cultured species, including finfish.
    Among the most notable advancements in feeds are plant-based 
alternatives to fish meal and fish oil. This groundbreaking research--
using soybeans, barley, rice, peas, and other crops as alternatives--is 
expanding in the United States and across the globe. Other meals such 
as canola, lupine, wheat gluten, corn gluten, and various plant protein 
concentrates--many of them grown in the United States--have already 
been shown to be highly palatable and digestible for fish. As the price 
of alternative ingredients drops below that of fish meal, those 
ingredients will be substituted for fish meal and fish oil.
    Further development of plant-based feeds also represents a huge 
opportunity for American agriculture, as the United States produces an 
abundance of high-quality proteins and fats that could be used in fish 
production. Increased production of high-protein by-products from bio-
diesel production, and high-protein and high-fat by-products from 
ethanol and bio-plastics production are likely in the future. Feed 
experts believe these by-product meals will be ideal for fish 
production.
    Although the amount of fish meal and fish oil in feeds will be 
reduced as alternative ingredients come online and the cost drops, they 
likely will not disappear from feed altogether. Research on plant-based 
oils has found that maintaining some fish oil or suitable alternatives 
derived from algae, for example, in fish feed is important to maintain 
the health benefits to humans of eating marine fish, including the 
long-chain Omega-3 fatty acids.
    Scientists are most concerned about two healthy fatty acids--
decosahexinoic acid (DHA) and ecospentanoic acid (EPA). These fatty 
acids are not produced by fish, but fish concentrate them in their fats 
from the prey they eat. DHA and EPA are made by algae and 
microorganisms and are passed up the food chain. These organisms can be 
cultured directly to produce concentrated DHA and EPA. In fact, all the 
DHA currently used in baby formula in the United States comes from 
production of micro-algae, not from fish oil. Although it is costly, 
experiments have shown that a small amount of this concentrated algae 
oil can be added to vegetable oil to restore the healthy fatty acids in 
the final product. In addition, other healthy fats, such as the shorter 
chain Omega-3 fatty acids found in olive and flax oil, can also be 
incorporated into the cultured fish. NOAA and other Federal agencies 
are working with industry on research to develop lipid substitutes, 
such as marine micro-algae production, to reduce reliance on fish and 
oils. The agencies, research institutions, and others will continue to 
partner with grain and feed companies and with feed researchers to find 
suitable alternatives for fish meal and fish oil.
    From a purely economic perspective, it is also well understood that 
feed is a major component of the cost of production in an aquaculture 
operation. Typically, the cost of feed accounts for over 60 percent of 
operating costs, so there are strong economic incentives for the 
industry to help develop suitable alternative ingredients for feed 
formulas, and to become more efficient in converting feed into product.

    Question 2. If the current bill is passed, will NOAA in any way 
encourage or offer incentives to operations that raise herbivorous or 
filter feeding organisms?
    Answer. We do not intend to promote any particular type of 
aquaculture in the implementation of an offshore aquaculture act. NOAA 
plans to consider the risks and impacts associated with proposed 
offshore aquaculture facilities in making permit decisions. NOAA will 
also consider any research proposals relating to these and other types 
of aquaculture for possible funding under our competitive grants 
program, the National Marine Aquaculture Initiative.
    Few truly herbivorous marine fish are of significant commercial 
value. The majority of herbivores in the marine ecosystem are 
microscopic zooplankton. Emphasizing herbivorous or filter-feeding 
organisms could diminish the tremendous opportunity for American 
agriculture to provide plant-based feed ingredients for finfish (as 
addressed in the previous answer) and to supply the market with marine 
fish that are in high demand and provide important nutritional benefits 
to U.S. consumers.
Regional Fishery Management Council Oversight
    Question 3. S. 1195 contains specific instructions for the 
Secretary to ``consult'' with the appropriate Regional Fishery 
Management Council before issuing an offshore aquaculture permit. In 
his testimony, Mr. Vinsel insisted on more than consultation and stated 
that Councils should have some degree of authority throughout the 
process. What specifically do you see as the Councils' role in planning 
for a sustainable offshore aquaculture industry? Please describe the 
Councils' probable role in permitting individual sites and oversight of 
a permitting regime?
    Answer. NOAA has a long-standing working relationship with the 
Regional Fishery Management Councils established under the Magnuson-
Stevens Fishery Conservation and Management Act. S. 1195 requires NOAA 
to consult with the Councils in developing and implementing the 
regulatory regime for offshore aquaculture. NOAA would consult with the 
Councils in drafting implementing regulations, in the establishment of 
environmental and other requirements (especially as they relate to 
interactions with wild stocks managed by the Councils), and in the 
review of individual permit applications. NOAA intends to use the 
rulemaking process to define the Councils' role in permitting 
individual sites once the bill is enacted. In the meantime, NOAA has 
identified opportunities to begin discussing the consultation process 
with the Councils on an informal basis.
Multiple Use Planning
    Question 4. In an October 2005 NOAA-funded University of Delaware 
report titled ``Recommendations for an Operational Framework for 
Offshore Aquaculture in U.S. Federal Waters'' the authors recommend a 
multiple use planning process in order to identify suitable areas for 
offshore aquaculture and avoid those susceptible to environmental harm 
or prone to potential user conflict. According to the report, mapping, 
planning, or zoning activities should take place before the EEZ is 
offered for aquaculture leasing. If S. 1195 becomes law, will NOAA 
engage in such an exercise? What would such a plan look like and would 
it follow this report's Chapter Four recommendations?
    Answer. NOAA values the recommendations provided in the University 
of Delaware report, which was intended to inform the policy process as 
we move forward with the development of offshore aquaculture. We agree 
on the need for comprehensive mapping of offshore areas to identify 
areas suitable for the offshore aquaculture industry, and we are 
already working with partners in several regions who are interested in 
completing this type of GIS mapping exercise. As we move forward with 
rulemaking following enactment of an offshore aquaculture act, we will 
consider the options proposed by the University of Delaware study for 
the placement of offshore aquaculture operations. These range from a 
case-by-case approach to the establishment of pre-permitted sites, 
designated areas for pilot projects, zoned areas, and marine 
aquaculture parks. We will seek public input on these approaches as 
well as the criteria to be considered in the siting of offshore 
aquaculture.

Legislative EIS
    Question 5. Does NOAA plan on conducting a legislative EIS on S. 
1195 as required by the National Environmental Policy Act of 1969? If 
not, please explain your reasoning. If yes, please describe the process 
and what it will accomplish.
    Answer. NOAA acknowledges and understands the environmental, 
economic, and social concerns associated with marine aquaculture. NOAA 
agrees that these issues need to be considered as part of an evaluation 
of implementation of any legislation regarding offshore aquaculture. It 
is clear that the offshore aquaculture bill will be amended as it moves 
through Congress. It is also likely that the various aspects of the 
bill analyzed through a legislative environmental impact statement 
(EIS) process would change. With that in mind, NOAA does not currently 
plan to prepare a legislative EIS.

    Question 6. Will NOAA conduct a programmatic EIS if S. 1195 becomes 
law? If not, please explain your reasoning. If yes, please describe the 
process and what it will accomplish.
    Answer. Yes, NOAA will focus its efforts and resources on preparing 
a programmatic environmental impact statement once legislation is 
passed. This programmatic EIS will contain many of the same components 
as a legislative EIS, and will be available for full public comment.
    The process will be driven as outlined in Sec. 4(d)(2) of S. 1195--
Criteria for Issuing Permits. As stated in the bill, the Secretary 
shall consider risks to and impacts on natural fish stocks, the coastal 
environment, water quality and habitat, marine mammals and endangered 
species, and the environment.
Socioeconomic Concerns
    Question 7. Please describe NOAA's process for considering the 
socioeconomic impacts of their actions. To your knowledge, has NOAA 
analyzed the potential socio-economic impacts of offshore aquaculture 
development? If so, can you please provide me with copies of relevant 
documents? If such a study has not been conducted, will one be in the 
future?
    Answer. NOAA is working with top social scientists and economists 
across the Nation to analyze the economics of marine aquaculture as it 
relates to commercial and sport fishing, market opportunities, global 
trends, underused processing capabilities, value-added niche markets, 
and coastal job development. The results of this analysis will be 
available in late 2006.

    Question 8. Does NOAA have a strategy to balance or minimize the 
economic and social impacts of increased offshore aquaculture on 
fisheries-dependent communities? If so, please describe and provide me 
any relevant documents.
    Answer. NOAA believes that offshore aquaculture will present 
benefits as well as challenges. As noted above, NOAA is working on a 
comprehensive analysis of the economics of marine aquaculture. We 
anticipate that the benefits will include more jobs and more 
opportunities in coastal communities that can benefit from the ripple 
effect created by expansion of local industry. S. 1195 would provide 
the necessary authority to require, through regulations or permit 
conditions, appropriate measures to avoid, minimize, or mitigate 
unacceptable impacts. The bill also provides authority to monitor 
operations and to take emergency actions to address unanticipated 
impacts in a timely manner. NOAA expects that the public rulemaking 
process will address specific mitigation steps in more detail.

Improving the Bill
    Question 9. After listening to today's testimony, I still have 
serious concerns about the environmental, social, and economic impacts 
that might result from passage of S. 1195 as it is currently drafted. 
Would you be willing to work with Members of this Committee to make 
changes to the bill so that these concerns are addressed?
    Answer. Yes, NOAA is willing to work with the Committee to address 
specific concerns about the bill. As Dr. Hogarth stated in his oral and 
written testimony to the Subcommittee, NOAA views S. 1195 as a starting 
point, and the agency is willing to work with the Committee to address 
concerns about the bill as well as the amendments.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Dr. Richard Langan

Environmental Concerns, Introduced Species, and Disease
    Question 1. How can we ensure the protection of wild stocks from 
the potential dangers of invasive species, genetic contamination, or 
disease?
    Answer. The starting point is to be clear that systems must be 
designed to ensure this outcome, rather than viewing these as add-ons. 
Experience in aquaculture, agriculture, and other fields, all suggest 
that effective independent research and demonstration programs are 
critical in making this happen. It costs money to learn the best ways 
to raise fish, and early investment in developing environmentally wise 
approaches will pay big dividends.
    At this point, I don't see the need for introducing non-native 
fish. There are many native warm and cold water fish that are good 
candidates for culture. The most effective way to protect wild stocks 
is to use native species that are produced from wild broodstock and 
genetically identical, or at minimum genetically very similar to the 
wild populations in the region. That way in the event that fish do 
escape, they will not have any negative impact on wild stocks. This is 
the approach we have followed in our demonstration project.
    It would be unwise to absolutely rule out the culture of non-native 
fish. But doing so depends on two factors. One is the development and 
demonstration of systems that are highly reliable over extended 
periods. The other is to put in place procedures that ensure careful 
consideration of all potential impacts of escaped fish before allowing 
the culture of non-natives.
    Disease is a very serious issue and disease management is at the 
top of the list of concerns for fish husbandry. While there has been a 
lot of discussion about the potential for diseases and parasites to be 
passed from farmed fish to wild fish, it is very important to remember 
that diseases and parasites also can be passed from wild to farmed 
fish. In the past decade, the aquaculture industry has made good 
progress in developing vaccines and this trend should continue. Salmon 
farmers have been able to reduce the use of antibiotics by more that 99 
percent during the same time that production has increased by 300 
percent. Good fish health is also achieved though good nutrition and 
low stress levels, so we need to provide the right feed in the right 
amounts and create low stress environments for the fish. Fish farmers 
routinely develop and implement biosecurity plans for all phase of 
culture that include inspection for potential signs of disease and 
prescribed actions should an incident occur.
    As with all other aspects of aquaculture, consistent maintenance of 
fish health needs to be designed into operating systems from the 
outset, not viewed as a reaction-based treatment issue. Our project has 
invested significant sums in innovative monitoring systems, such as 
real-time video monitoring of cages and electronic tagging of specific 
fish, in order to identify ways of designing systems that maximize the 
right outcome--healthy fish. To cite but one small example, our work 
with cod revealed an unexpected tendency to crowd into any available 
distant corner rather than utilize open spaces. This has implications 
for fish cage design, and ultimately fish health.

    Question 2. What kind of environmental safeguards have effectively 
addressed public concerns about these and other environmental problems?
    Answer. There have been many lessons learned over the past two 
decades of nearshore aquaculture expansion here and abroad. Many 
pollution issues can be addressed through proper siting of farms and 
responsible farm management. Insuring adequate dispersion of fish 
wastes by locating farms in areas with sufficient water circulation and 
carefully monitoring fish feeding behavior with video cameras in the 
cage so that food is not wasted can significantly reduce accumulation 
of organic materials on the seafloor. It should be noted that waste 
from farmed fish is not the same as, nor does it pose any of the human 
health risks as human sewage or swine wastes. It is in fact, identical 
to waste from wild fish. The ocean has been assimilating fish wastes 
for millions of years and as long as too much isn't concentrated in one 
place, there is no harm done to the environment.
    Coupled with siting and farm management, there must be 
scientifically appropriate environmental standards and monitoring 
programs to insure that these standards are met. There are a number of 
good examples to draw from. The States of Maine, Washington and Hawaii 
have established good environmental standards, as have Norway and the 
European Union. There is a recently published multi-author document 
entitled Recommendations for an Operational Framework for Offshore 
Aquaculture in U.S. Federal Waters that was produced by Center for 
Marine Policy at the University of Delaware. This document provides 
guiding principles and specific provisions for leasing and permitting 
of aquaculture facilities, site planning and assessment, potential 
environmental ramifications and steps to mitigate them, and proposed 
monitoring strategies for facilities raising native fish, shellfish and 
seaweeds. This document and the U.S. State and European programs can be 
used as model guidance for offshore development.
    The use of fishmeal and fish oil for formulated feeds is often 
cited as a major environmental issue for aquaculture development. It 
certainly is true that we need to continue to do research on developing 
alternative protein and lipid sources for fish. However, it should be 
recognized that when this issue is raised, it is usually done so 
without the proper context. Fishmeal and oil are produced from several 
species of small, short-lived fish that are rarely consumed by humans. 
The primary fishery that supports the global fishmeal supply is the 
anchovy fishery off the Pacific coast of South America. It is one of 
the best-managed fisheries in the world and catches have been stable 
for more that two decades.
    Perhaps more important, however, is the fact that aquaculture 
currently uses about 30 percent of the fishmeal supply; the remaining 
70 percent is fed to poultry and swine. Fish are several times more 
efficient in converting fishmeal protein into edible flesh than both 
poultry and swine. Because of this conversion efficiency, it is likely 
that a greater percentage of fish meal will go toward feeding fish in 
the future. It is, however, a finite resource, therefore, we must 
continue to conduct research into alternatives to fishmeal if we wish 
to vastly increase our aquaculture production. Just as we cannot rely 
on wild caught fish for all of our seafood requirements, so too we 
cannot rely on wild caught fish for feeding captive fish.

    Question 3. What are realistic expectations of what aquaculture can 
do for the United States to improve our economic returns, food supply, 
and balance of trade?
    Answer. In 1999, the Department of Commerce released an initiative 
to increase domestic aquaculture production from a $1 billion to a $5 
billion dollar per year industry by 2025. This is an ambitious goal 
that will require substantial new development. Some increases can be 
gained through expansion of nearshore and land-based culture, however, 
expansion to this scale will require significant offshore development. 
We may not entirely reverse the trade deficit by 2025, but if we are 
successful in developing offshore farms, U.S. consumers will have much 
greater access to high-quality domestically-produced seafood to the 
benefit of the local and regional economies. It should be recognized, 
however, that this is unlikely to happen without public sector 
investment into research and technology development and demonstration 
so that operational, economic and environmental risk is well understood 
by practitioners and regulatory bodies.

    Question 4. How much growth can we reasonably expect for the U.S. 
offshore aquaculture industry with all the competing uses of our 
coastal areas, particularly when combined with our need to provide 
adequate protection for wild stocks, environmental conditions, and--of 
course--the people who have to live with the choices?
    Answer. There are certainly many competing uses in the ocean and 
areas that are environmentally sensitive that need to be protected, 
however, the actual production space needed to produce $5 billion worth 
of seafood annually is about 350,000 acres, or about 0.01 percent of 
U.S. EEZ waters. It is essential that we move well offshore, rather 
than trying to do too much in the heavily utilized nearshore areas. Our 
project is about six miles offshore, and utilizes cages that are 
totally submerged. There are substantial engineering challenges in 
developing viable, secure systems for operating in the open North 
Atlantic Ocean. However, we are showing that it can be done. Provided 
that we are willing to invest what it takes to do this right, then it 
should be feasible to successfully operate such systems far offshore. 
And by ``successfully'', I mean with containment systems that meet all 
of the standards needed to ensure successful growing of fish, and also 
protection of wild stocks and the environment. With offshore 
aquaculture, the big choice involved is to commit ourselves to doing it 
right, designing it for success, and designing it to be environmentally 
friendly. Done right, it is entirely possible to locate farms at this 
scale such that user conflict is avoided and environmental impact is 
minimized.

Public Outreach
    Question 5. There have been many concerns raised in local 
communities about the effects of offshore aquaculture. Many feared that 
they would lose access to productive fishing grounds or that areas that 
were once public would become private. Mr. Cates mentions that many 
concerns were raised by the communities--some that were valid and some 
that were not questions.
    Many on this Committee are concerned about the effects of offshore 
aquaculture on local communities which rely on the sea for income from 
tourism and other uses. Please tell us about how we can work with local 
communities to address their concerns and to involve them effectively 
in the decisionmaking process.
    Answer. Aquaculture needs local community support to succeed. I 
believe that Mr. Cates and Mr. Sims from Kona Bluewater were successful 
in obtaining permits for their offshore farms because they engaged the 
local communities to hear and respond to their concerns. They designed 
and now operate their farms in way that benefits rather than impacts 
the social and economic fabric of local communities. I believe this 
approach is the proper one, and that local communities must have a 
voice. Public venues, whether they are informal events organized by the 
entrepreneurs or required by the regulatory process, are an important 
component of the permitting process. Convening meetings with local fish 
cooperatives and associations are also another way to engage the 
community.
    I also believe that the public should be provided with third party, 
independent, and scientifically valid information on the costs, 
benefits, and potential impacts (economic, environmental) of 
aquaculture. We must find some way of providing unbiased information to 
local communities so they can decide for themselves what is best. There 
are many scientists and extension educators in the fields of biology, 
public health, and environmental studies, as well as economists and 
social scientists that are capable of providing unbiased information. I 
believe their services should be enlisted to provide information that 
is backed by scientific fact.

    Question 6. What are some of the valid concerns and lessons learned 
at the state and local level that we can apply to this Federal process?
    Answer. I have addressed some of the concerns such as proper siting 
in my answers to previous questions, and determining the right location 
for farming operations is certainly an important first step in avoiding 
user conflict and potential environmental impacts from fish wastes. 
This requires the informed input of the local resource users 
(fishermen, boaters, whale watchers, environmentalists, commercial 
industry, etc.), and knowledge of physical and biological oceanographic 
conditions. Baseline knowledge of the local ecosystem is important in 
order to select the appropriate environmental indicators and to set 
environmental standards. The proposed infrastructure (e.g., cages and 
moorings) should be carefully evaluated by knowledgeable individuals to 
insure the equipment is appropriate for the oceanographic conditions at 
the proposed location. Operator qualifications and management plans for 
operations, biosecurity and containment should also be evaluated by 
experts.

    Question 7. Which groups and issues should we be sure to include?
    Answer. Potential user and cultural conflict can be assessed by 
engaging local and regional resource users, and knowledgeable and 
unbiased engineers, environmental and social scientists, and economists 
can provide informed assessments of the viability and anticipated 
economic, social, and environmental impacts of proposed operations. 
NOAA should also consult with state and Federal agencies charged with 
enforcement of statutes that may be affected by proposed operations.

    Question 8. Is there a model process used in other permitting 
schemes that could be incorporated into legislation for offshore siting 
of aquaculture?
    Answer. A number of states, including Maine, Washington and Hawaii, 
have developed permitting processes that include engineering, 
environmental and economic evaluation, as well as opportunity for 
public input. While they may not work perfectly in all cases, their 
frameworks are applicable to offshore permitting and can be used as a 
starting point. Norway and the European Union have also developed 
permitting processes that balance economic development with protection 
of natural and cultural resources, and have established appropriate 
environmental standards for farm operations. The document I mentioned 
earlier that was published by the University of Delaware also contains 
relevant information about the permitting process.
    Massachusetts has developed Geographic Information System (GIS) 
mapping inventories of their nearshore waters that include natural and 
cultural resources, human activities such as fishing grounds, shipping 
lanes, recreational areas and aquaculture sites. A similar approach can 
be taken with offshore waters. With the additional of tools such as 
physical and biological oceanographic modeling, remote sensing and 
ocean observing, similar mapping resources can be developed to identify 
both appropriate and inappropriate locations for siting offshore farms.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Dr. Richard Langan

Research and Development
    Question 1. The Open Aquaculture Program at the University of New 
Hampshire is making great strides in research and development of 
offshore aquaculture operations in New England, and you have unique 
insight into the technical, economic, and ecological feasibility of 
such an industry. And you know, perhaps better than most, exactly what 
further research is needed to develop the industry. The 
administration's bill does include, in Section 6, language authorizing 
a research and development program, but it is somewhat vague and open-
ended in its proposal.
    Could you please elaborate on how you think the bill's section on 
research and development could be improved? Right now, is the language 
specific enough to authorize the research and development program you 
describe in your testimony?
    Answer. First, I'd like to thank Senator Snowe for the opportunity 
to comment on this aspect of the Bill. The discussions that followed 
the witness testimony at the hearing on April 6 did not address the 
topic of R&D.
    I agree that the language as currently written is vague. Coupled 
with the history of minimal Federal financing for marine aquaculture, 
the language offers little assurance of the kind of effort needed to 
successfully establish a well-designed offshore aquaculture industry.
    Building on what I described in my written testimony, I would 
suggest that this section be restructured to achieve the following:

  <bullet> Include the designation of regionally relevant centers and 
        demonstration projects and a comprehensive and strategic 
        competitive, peer-reviewed national program for funding R&D.

  <bullet> Engage the services of technology transfer professionals to 
        link practitioners with the most recent advances in science and 
        technology.

  <bullet> Be very similar to the USDA model for agriculture industry 
        sectors and would be a collaborative effort between the Federal 
        Government led by NOAA, and appropriate research institutions 
        in the regions.

  <bullet> Include specific features like SBIR and STTR funding from 
        SBA to foster innovations and startups.

  <bullet> Engage State Sea Grant/Cooperative Extension Programs for 
        outreach.

    Some of these components are already in place. NOAA has a small but 
effective national marine aquaculture competitive program based at the 
National Sea Grant Office in OAR. Unfortunately, this program has 
received little or no funding in the past, severely constraining the 
potential impact of the research it supports. In addition, the Sea 
Grant program has funded some marine aquaculture activities over the 
years. Finally, each state Sea Grant program has extension agents that 
connect local and regional stakeholders to research results. This 
program could be strengthened and expanded to lead technology transfer 
efforts for offshore development.
    There are currently three regional centers either in operation or 
in development, ours in the Northeast, and centers in Hawaii and the 
northern Gulf of Mexico. Formal designation and consistent funding of 
these three and perhaps others in the future would provide the 
stability needed to integrate research findings, demonstrate and 
evaluate technologies, and conduct environmental and economic 
assessments. These three centers are already working as envisioned and 
are places where integrative research or broad utility can occur that 
benefits many open ocean aquaculture sectors (e.g., fin fish, 
shellfish, specific regional stock culture).
    Translating this response into a specific suggestion, I might offer 
the following, using the proposed National Aquaculture Act as a 
starting point. Add a new subsection to Section 6, as follows:
    (c) The research program shall include, at a minimum, the following 
elements--

         (1) At least three regional Marine Aquaculture Centers 
        operating sites for research, development, and demonstration of 
        innovative and best practice technologies,

         (2) A national competitive research program, and

         (3) Regional competitive research programs managed by or in 
        cooperation with the Marine Aquaculture Centers.

    Question 2. How should NOAA set research priorities for this 
program? Would you advise us to direct research toward certain topics, 
or should we allow NOAA develop its own criteria for pursuing research?
    Answer. Ideally, setting research priorities should be a 
collaborative effort between NOAA, the research community, the 
practitioners, nongovernmental organizations (NGO's), and 
representatives from the states. One such example is important to 
highlight as it is already a model for a national integration system. 
On behalf of our center, I have proposed to NOAA a process in which the 
regional centers, in collaboration with NOAA, engage stakeholders to 
develop regional priorities. The centers and NOAA can then come 
together to share regional findings, set national priorities, and 
develop a comprehensive R&D strategy for a five-year period, and set 
performance measure to evaluate success. NOAA and the regional centers 
would then meet annually to evaluate progress and adjust the research 
strategy as needed.

    Question 3. How much funding should Congress authorize for this 
research and development program?
    Answer. The amount the government should invest in R&D should be 
commensurate with the goal (a $5 billion offshore industry by 2025) and 
the size of the problem (an $8 billion trade deficit). I would think 
$50 million per year over a five-year period would be the minimum 
amount needed to begin to have the desired impact. This amounts to an 
investment each year equivalent to 1 percent of the $5 billion industry 
goal. Typically, R&D and technology transfer expenditures in a new 
business area would be much higher (>10 percent), but the figure I 
suggest reflects the budget realities for the current Federal budget 
and for NOAA at this time.
    We should also take a careful look at what the investments by 
foreign governments (e.g., Ireland, Norway, Japan and South Korea) have 
yielded for their aquaculture industries as a measure of what would be 
needed.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                           Dr. Richard Langan

    Question. From your research, do you think that herbivorous or 
filter-feeding organisms can be profitably raised in the EEZ, or is 
offshore aquaculture likely to be dominated by carnivorous species such 
as salmon, black cod, and halibut?
    Answer. We have had great success in developing offshore 
technologies, operational methods, and business planning tools for 
producing high quality filter feeding shellfish (blue mussels) in New 
England. Our research has led to a commercial venture that if 
successful, could lead to a thriving regional industry and an important 
business opportunity for underemployed commercial fishermen. These 
technologies could be adapted for use with filter feeders indigenous to 
other regions of the country. Farms for filter feeders can be operated 
independently or in conjunction with fish farms to balance the addition 
of nutrients from fish feeds by removing suspended particulates and 
algae that grow in response to nutrient additions.
    Regarding your question about herbivorous fish, most marine fish 
that are palatable to humans are carnivores and require a high protein 
diet, which for most species now requires the use of fishmeal in order 
to meet their nutritional requirements. There has been some success in 
substituting vegetable proteins for some of the fishmeal, however for 
some marine fish, vegetable proteins like soy meal in its current form 
contain anti-nutritional factors. Further research on the properties of 
soy may solve these problems, however, research on proteins from other 
plants such as seaweeds should continue as well.
    The use of fish meal and fish oil for formulated feeds is often 
cited as a major environmental issue for aquaculture development, and I 
agree that we need to continue to do research on developing alternative 
protein and lipid sources for fish. However, it is important that we 
address this issue in the proper context. Fishmeal and oil are produced 
from several species of small, short-lived fish that are rarely 
consumed by humans. The primary fishery that provides the global 
fishmeal supply is the anchovy fishery off the Pacific coast of South 
America. It is one of the best-managed fisheries in the world and 
catches have been stable for more that two decades. Aquaculture 
currently uses about 30 percent of the fishmeal supply; the remaining 
70 percent is fed to poultry and swine. Fish are several times more 
efficient in converting fishmeal protein into edible flesh than both 
poultry and swine and because of this conversion efficiency, it is 
likely that a greater percentage of fish meal will go toward feeding 
fish in the future. It is, however, a finite resource, therefore, we 
must continue to conduct research into alternatives to fishmeal if we 
wish to vastly increase our aquaculture production.
    Your question does highlight an important benefit from a 
substantial, creative research and development program. Industry 
necessarily focuses on the easiest, most profitable opportunities. 
However, there are always potential activities that warrant 
exploration. Some degree of ongoing investment in a wide variety of 
environmentally advantageous species is needed. For example, we have 
explored sea scallops, others at my university are working with sea 
urchins, and we are interested in such things as seaweed. Clearly, 
profitable culture of various filter feeders would open the way for 
environmentally beneficial development. From an industry perspective, 
these are not obvious candidates for investment, however, so the only 
way we can get them to that point is through methodical research and 
demonstration.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             John R. Cates

Fish Escapes, Introduced Species, and Disease
    Question 1. Although you use native fish in your farms, some 
believe even native fish escapes may have negative impacts on wild 
populations. Have you experienced escapes at any of your facilities?
    Answer. We have not had any escapes on our site. In my opinion is 
due to the type of cage and gear that we use, all of which is submerge 
40 feet below the surface.

    Question 2. What are the specific concerns in Hawaii about non-
native species as well as escapes?
    Answer. The issue on non-native species as well as escapes has been 
addressed here in Hawaii several years ago when we developed our Ocean 
Leasing policy. The policy clearly states that we can only use native 
species. Our fish are the same as what are being used for stock 
enhancement.

    Question 3. Are there concerns about genetic contamination?
    Answer. The issue of genetic contamination has also been addressed, 
our leasing law states that we use wild broodstock, thus our 
fingerlings are F1 generation which addresses this issue.

    Question 4. What preventative measures can be taken to avoid this 
from happening?
    Answer. As stated above, if we use only native fish this issue goes 
away. Alaska has the most experience with this issue, that state 
releases millions of fingerlings into the wild every year. This issue 
can be managed properly.

    Question 5. Are you using sterile fish to eliminate this concern?
    Answer. No, we do not use sterile fish.

    Question 6. What research is necessary to answer these questions?
    Answer. More research could be done, but I believe we already have 
enough information on this issue to do it safely, Alaska is a good 
example. Though many in Alaska state that they have banned aquaculture, 
in fact, that state has the most production from hatcheries and release 
them into the wild every year.
Environmental Concerns, Introduced Species, and Disease
    Question 7. How can we ensure the protection of wild stocks from 
the potential dangers of invasive species, genetic contamination, or 
disease?
    Answer. If we follow the above examples, we can proceed safely. Man 
has for a very long time been affecting the genetics of our fisheries. 
The policy of keeping bigger fish and releasing smaller fish has had an 
impact on the genetics of the population. The new technologies in 
fishing can now catch entire schools of fish in large scale operations 
which affect the genetics.

    Question 8. What kind of environmental safeguards have effectively 
addressed public concerns about these and other environmental problems?
    Answer. Once again, if we follow similar policies that both Hawaii 
and Alaska have developed, we can proceed safely. Hawaii has developed 
ocean farming, and Alaska has developed hatcheries and releasing them 
into the wild. Much work has been done on the genetics with salmon and 
this issue.

    Question 9. What are realistic expectations of what aquaculture can 
do for the United States to improve our economic returns, food supply, 
and balance of trade?
    Answer. Aquaculture can achieve two different things, first, it can 
start to fill the gap with the shortfall from our wild fisheries. Every 
year, more and more closures, and less production from our wild 
resources. Second, it can raise awareness with the public about the 
state of our fisheries, and the need to act responsible and grow our 
seafood as we do with all other protein sources.

    Question 10. How much growth can we reasonably expect for the U.S. 
offshore aquaculture industry with all the competing uses of our 
coastal areas, particularly when combined with our need to provide 
adequate protection for wild stocks, environmental conditions, and--of 
course--the people who have to live with the choices?
    Answer. This is a very difficult question because growth depends on 
the political status of each area, many will always say ``not in my 
back yard.'' But for potential, I like to use the fact that in Norway, 
they have over a billion dollar industry, and the square footage 
footprint of all of the fish cages would fit on any large airport 
runway in the U.S. It is not a very large area when compared to the 
ocean.
Public Outreach
    Question 11. There have been many concerns raised in local 
communities about the effects of offshore aquaculture. Many feared that 
they would lose access to productive fishing grounds or that areas that 
were once public would become private. Mr. Cates you mentioned that 
many concerns were raised by the communities--some that were valid and 
some that were not.
    Many on this Committee are concerned about the effects of offshore 
aquaculture on local communities which rely on the sea for income from 
tourism and other uses. Please tell us about how we can work with local 
communities to address their concerns and to involve them effectively 
in the decisionmaking process.
    Answer. In our experience, many have benefited from our operations, 
fishermen routinely use our site to assist them with commercial 
fishing, and we are a good source for their bait. Also dive operations 
continually asked to use our site as a popular dive location. But to 
answer this in a better manner, once we as a society make the 
commitment to grow our food, we will find the right locations. Our site 
would not be appropiate to locate off of Waikiki, but off of Ewa Beach, 
2 miles out, we have had no conflicts.

    Question 12. What are some of the valid concerns and lessons 
learned at the state and local level that we can apply to this Federal 
process?
    Answer. Each community must have a voice and choice in this. Also 
each new company should have community acceptance, and also each 
community should be respectful of change. Also, I feel strongly that 
each new company trying to conduct this business, should have to prove 
that it is capable of conducting such an operation in a safe manner for 
both the environment, and for its personnel.

    Question 13. Which groups and issues should we be sure to include?
    Answer. Each area will be different, but for Hawaii, we need to 
include native Hawaiians, fishermen, and all ocean users. In my case, I 
did all of the above and more, but also I used our Kupuna's Knowledge 
to assist me in my siting and operations. There is valuable information 
out there, we just need to be respectful and ask for it.

    Question 14. Is there a model process used in other permitting 
schemes that could be incorporated into legislation for offshore siting 
of aquaculture?
    Answer. I am not sure, but for Hawaii, it has worked very well thus 
far, and not everyone that has tried has been successful.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                             John R. Cates

    Question. Mr. Cates, I understand that a 3 to 1 feed conversion 
ratio for carnivorous finfish culture is fairly typical--that is, it 
takes 3 pounds of wild caught fish to produce one pound of farmed fish. 
Could you please tell me what the feed conversion ratio is for your 
aquaculture operation? Are you or others working on improving your 
operation's feed conversion ratio?
    Answer. I do not believe that the feed conversion ratio that was 
stated is correct. I have for years heard so many different numbers 
being used, but I can tell you for a fact that on our operation we have 
been and are achieving numbers lower than 2 to 1. Salmon farming is 
even lower. But you must remember that the feed that I use is 60 
percent wheat and soy bean, and only 40 percent is fish meal. There are 
solutions to the fish meal issue, but it doesn't make sense to me that 
as a society we feed fish meal to chicken, pork, and cattle with not 
much concern, but when we use it in fish feed, all of a sudden we are 
committing some sort of sin. We need to have a more balanced approach 
to this issue, and to all of our fisheries.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              Mark Vinsel

Environmental Concerns, Introduced Species, and Disease
    Question 1. How can we ensure the protection of wild stocks from 
the potential dangers of invasive species, genetic contamination, or 
disease?
    Answer. For wild stocks to be protected from risks of invasive 
species and genetic contamination, permits should not be issued for the 
farming of any species that is not indigenous to an area, and if the 
farming of species that occur naturally is to be considered, then 
natural local stocks should be used.
    To protect from the possibilities of disease transmission, fish 
should not be raised in concentrations that exceed the natural 
population distributions for fry and juvenile fish, or after 
assessment, do not risk exceeding ocean carrying capacities identified 
as being necessary to the well-being and productivity of local fish 
populations. Fish farms should not be located in areas where natural 
fish occur.

    Question 2. What kind of environmental safeguards have effectively 
addressed public concerns about these and other environmental problems?
    Answer. Offshore finfish farms have not adequately addressed these 
environmental problems. A recent report on a finfish farm operation in 
Hawaii suggests that the presence of fish farming has caused diminished 
species diversity and eutrophication. We feel that large scale finfish 
farms cannot help but pose unacceptable risks to naturally occurring 
fish populations in the area.

        (Lee, Han et. al ``temporal Changes in the polychaete infaunal 
        comminuty surrounding a Hawaiian mariculture operation'' Marine 
        Ecology Progress Series, Vol. 307. pp 175-185, January 2006--
        for abstract see: http://www.int-res.com/abstracts/meps/v307/
        p175-185/)

    Question 3. What are realistic expectations of what aquaculture can 
do for the United States to improve our economic returns, food supply, 
and balance of trade?
    Answer. We see little help available in the domestic seafood food 
supply or balance of trade. While increased volume of fish may occur, 
environmental problems that they bring suggest to us that the fish farm 
production will create a significant cost to existing seafood 
production.
    Regarding the seafood balance of trade, costs of domestic 
production will necessarily include wages and environmental standards 
concurrent with U.S. standards, which history indicates will be 
undercut by foreign producers. If domestic production of high volumes 
of fish were to occur, prices for U.S. wild and farmed raised fish 
would likely suffer, eroding any net economic gain.
    Alaska's coastal communities rely on the local fishing economy to a 
high degree. Many of these communities do not have the basic 
infrastructure that most U.S. citizens take for granted to support 
alternate business. A good example of the economic problems caused by 
fish farms is shown in the price of salmon during the 1990s to the 
present, as foreign salmon farms proliferated. Operations initially 
produced fish at approximately $4 per pound, and were planned to be 
profitable at that price. Production in excess of market demand soon 
caused a drop in price, even of foreign farmed fish, to around $2 per 
pound, and at this price point the foreign fish farms were no longer 
profitable, and domestic producers and communities were devastated by 
the impacts on domestic wild salmon prices. Salmon farm businesses are 
not the profitable business ventures they were projected to be, and 
consolidation is occurring that is moving ownership away from local 
businesses to foreign corporations.
    Meanwhile in Maine, wild Atlantic Salmon are nearly extinct and 
have suffered from diseases and escapes from salmon farm operations.

    Question 4. How much growth can we reasonably expect for the U.S. 
offshore aquaculture industry with all the competing uses of our 
coastal areas, particularly when combined with our need to provide 
adequate protection for wild stocks, environmental conditions, and--of 
course--the people who have to live with the choices?
    Answer. The projections of $5 billion, compared to current domestic 
wild fisheries ($4 billion?) is a grossly optimistic expectation. If 
finfish farms, under the current levels of technology were to reach 
that high level of production, it would necessarily come with some 
diminishment of current domestic seafood production. The push for fish 
farms seems more likely to shift the economic benefits from current 
wild catch industry to new fish farm corporate businesses, with no net 
economic benefit to the country as a whole, and also putting at risk 
the general health of our oceans.
Public Outreach
    Question 5. There have been many concerns raised in local 
communities about the effects of offshore aquaculture. Many feared that 
they would lose access to productive fishing grounds or that areas that 
were once public would become private. Mr. Cates mentions that many 
concerns were raised by the communities--some that were valid and some 
that were not.
    Many on this Committee are concerned about the effects of offshore 
aquaculture on local communities which rely on the sea for income from 
tourism and other uses. Please tell us about how we can work with local 
communities to address their concerns and to involve them effectively 
in the decisionmaking process.
    Answer. A public process is needed with meaningful local community 
and stakeholder input, under the overriding guidance of state-of-the-
art science, with attention also given to the local and wider economic 
effects on other users of the ocean resources and participants in 
competing markets.

    Question 6. What are some of the valid concerns and lessons learned 
at the state and local level that we can apply to this Federal process?
    Answer:

        Do not raise finfish in net pens.

        Do not disrupt existing markets through production in excess of 
        market demand.

        Do not bring polluting enterprises to oceans.

    The model of Alaska's aquaculture associations may be suitable for 
helping to restore populations of diminished local stocks. If 
aquaculture were to be conducted with the intention of helping in the 
rebuilding of stocks, it may well be welcomed by local communities. It 
may be possible to conduct ocean ranching operations to raise fry or 
fingerlings then release them, avoiding the long-term cumulative 
enegative environmental effects. With thermal otolith or other genetic 
markings, and sampling of catch among commercial and sport fishing 
communities, it may well be feasible to allow compensation of the 
producers to allow profitable ventures with fewer of the negative 
effects.

    Question 7. Which groups and issues should we be sure to include?
    Answer:

        Commercial fishermen
        Fisheries Scientists
        Market economists
        State fisheries management
        Federal fisheries management
        Seafood processors
        Aquatic environmental organizations
        Coastal community representatives
        Large and small business representatives interested in 
        developing offshore aquaculture

    Issues:

        1. Biological relationships and physical ocean impacts on 
        potential aquaculture sites.

        2. Economic integration with existing local industry and 
        impacted communities, both in immediate region and in the 
        global markets.

    Question 8. Is there a model process used in other permitting 
schemes that could be incorporated into legislation for offshore siting 
of aquaculture?
    Answer. We feel that the North Pacific Fishery Management Council 
is the closest thing we have to an appropriate body for permit 
authority over offshore aquaculture permitting. A standing committee on 
offshore aquaculture, tied to a Science and Statistical Committee, with 
ongoing economic analysis, would fit within the existing council 
process and should be required.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Rebecca Goldburg, Ph.D.

Environmental Concerns, Introduced Species, and Disease
    Question 1. How can we ensure the protection of wild stocks from 
the potential dangers of invasive species, genetic contamination, or 
disease?
    Answer. Congress should require that NOAA ensure that the risks 
posed by escapes and disease are evaluated prior to issuing site and 
operating permits which meet a legal standard of negligible risk to 
marine life.
    Escapes of farmed fish from native species that are not more than 
two generations removed from local, wild populations ``local fish'' 
should generally pose negligible risk (except possibly from disease--
see below). Congress should create strong incentives to raise such fish 
by creating a two-tiered regulatory process which requires stringent 
regulatory review for permits to raise ``non-local'' fish, including 
completion of a qualitative or quantitative risk assessment that 
provides strong and convincing evidence that raising ``non-local'' fish 
poses negligible risk to marine life. In addition, Congress should 
create accountability for fish escapes by requiring that all ``non-
local'' farmed fish be marked, or otherwise identifiable, so that they 
can be traced to their farm of origin should they escape.
    Both native and non-native farmed fish can potentially introduce or 
magnify diseases (including parasites) and spread them to wild fish 
populations. Preventing disease and ecological impacts from disease is 
best accomplished through a suite of measures--use of specific 
pathogen-free stocks, use of vaccines (when available), disease 
monitoring, moderate stocking densities, siting facilities away from 
wild fish aggregations, fallowing sites, and more. Congress should 
require that NOAA develop guidance on preventing the occurrence and 
spread of disease, including emergency responses to disease outbreaks, 
and that all applicants be required to develop a fish health plan 
consistent with the guidance to be enforced as a condition of a farm's 
operating permit.
    Congress should also stipulate that operating permits for farms 
require reporting to NOAA of fish escapes of disease incidence, and 
that this information be available to the public. Not only do escapes 
and disease potentially affect public resources, but the potential for 
public scrutiny should act as an incentive for escape and disease 
prevention.

    Question 2. What kind of environmental safeguards have effectively 
addressed public concerns about these and other environmental problems?
    Answer. To date, none have successfully addressed the suite of 
concerns about marine net cage aquaculture. Coastal salmon farming--the 
primary model for offshore aquaculture--continues to be dogged by 
environmental problems.
    However, there are some instances where environmental measures are 
helping to address specific problems associated with marine 
aquaculture:
    In response to concerns about rising antibiotic use, the Norwegian 
government and salmon farmers developed vaccines for common bacterial 
salmon diseases, which have sharply reduced the use of antibiotics in 
the production of Atlantic salmon in much of the world.
    In response to concerns about the genetic impacts of farmed 
Atlantic salmon on endangered, wild Atlantic salmon, the State of Maine 
is now requiring that farmed fish be of local genetic origin and be 
marked (so farms are accountable for any escapes).

    Question 3. What are realistic expectations of what aquaculture can 
do for the United States to improve our economic returns, food supply, 
and balance of trade?
    Answer. Aquaculture can provide jobs to U.S. communities, but it is 
probably unrealistic to expect that U.S. marine aquaculture production 
will make a major difference in the U.S. balance of trade in seafood. 
Projects to train individuals in fishing communities as shellfish 
producers, for example, have helped provide income to local 
communities. However, labor and other costs in the United States make 
it difficult for many aquaculturists (e.g., tilapia producers) to 
compete with producers abroad. In the case of offshore aquaculture, 
technology developed in the United States to produce marine finfish may 
be taken to countries where fish can be produced more cheaply and 
easily near shore--where facility and transportation/energy costs are 
lower than in offshore locations. The one exception may be Hawaii, 
which as a volcanic archipelago has open ocean conditions in nearshore, 
state waters.
    It is important to recognize that all the U.S. open ocean fish 
farms built to date have had some type of public subsidy (for example, 
production in publicly-financed hatcheries of fish to stock farms). It 
remains to be seen whether offshore aquaculture in the U.S. can be 
competitive in world markets.

    Question 4. How much growth can we reasonably expect for the U.S. 
offshore aquaculture industry with all the competing uses of our 
coastal areas, particularly when combined with our need to provide 
adequate protection for wild stocks, environmental conditions, and--of 
course--the people who have to live with the choices?
    Answer. As in my answer to Question 3 above, a major factor 
limiting growth of U.S. offshore aquaculture will almost certainly be 
lower costs in other countries, including the ability to farm fish near 
shore. Nearshore production in the United States is of course possible, 
but subject even more than offshore aquaculture to concerns from 
competing users of public waters.
    Offshore aquaculture finfish production may also be limited by feed 
prices. The marine finfish species targeted for production are almost 
all carnivores, and thus have diets high in fish meal and oil made from 
wild caught fish. Until and unless new, inexpensive alternative feed 
ingredients are developed, booming global demand for fish meal and oil 
(which are used in feed for terrestrial animals as well as fish) may 
result in high feed prices and favor production of freshwater 
herbivorous and omnivorous fish, such as tilapia and catfish, which do 
not receive large amounts fish meal and oil in their diets.
Public Outreach
    Question 5. There have been many concerns raised in local 
communities about the effects of offshore aquaculture. Many feared that 
they would lose access to productive fishing grounds or that areas that 
were once public would become private. Mr. Cates mentions that many 
concerns were raised by the communities--some that were valid and some 
that were not.
    Many on this Committee are concerned about the effects of offshore 
aquaculture on local communities which rely on the sea for income from 
tourism and other uses. Please tell us about how we can work with local 
communities to address their concerns and to involve them effectively 
in the decisionmaking process.
    Answer. It is essential that any bill to pursue the development of 
offshore aquaculture include provisions requiring public notice and 
comment for all permitting decisions, including the opportunity for 
public hearings. The permitting process must also be transparent, so 
that public participation can be meaningful. Information in submissions 
to NOAA relevant to evaluating the environmental impact of facilities 
must not be allowed to be held as confidential business information or 
trade secrets. Otherwise the public may not have access to information 
critical to decisionmaking about public waters.

    Question 6. What are some of the valid concerns and lessons learned 
at the state and local level that we can apply to this Federal process?
    Answer. One lesson is the importance of a credible and 
comprehensive permitting process. The Texas shrimp farming industry 
provides a good example. In the mid-1980s through early 1990s, shrimp 
farms sprouted along the south Texas coast in response to a lucrative 
market for shrimp and state encouragement. Among other things, the 
Texas State government exempted shrimp farms from discharge permit 
requirements as an incentive for development.
    The shrimp farming industry quickly became unpopular with coastal 
homeowners and recreational and commercial fishermen. Shrimp farms were 
discharging into the Laguna Madre--a coastal estuary--about 10 to 20 
percent of their pond water every day. The result was clearly visible 
water pollution and offensive odors. Moreover, viral diseases of shrimp 
ravaged many of the farms, and commercial shrimp fisherman feared that 
the viruses would infect local shrimp population.
    In the mid-1990s, grassroots organizations, Environmental Defense's 
Texas office, and local governments such as the Aransas County 
Commissioners, all joined together to press lawmakers and agencies for 
changes in shrimp farm practices and regulation.
    The upshot of this activity was that in the late 1990s a new law 
and agency actions created a new framework for environmental regulation 
for Texas coastal shrimp farms. These new regulations, coupled with the 
realization by shrimp farmers themselves that their large water intakes 
and discharges were contributing to their problems with shrimp viruses, 
led to major changes in shrimp farm practices. Most farms now only 
discharge water at harvest, all settle or filter water before 
discharge, and there have been no recent outbreaks of shrimp viruses.
    Texas shrimp farming is no longer highly controversial. And, 
Environmental Defense recommends Texas farmed shrimp as an 
environmentally-preferable seafood choice for consumers.

    Question 7. Which groups and issues should we be sure to include?
    Answer. Commercial and recreational fishing organizations as well 
as conservation organizations are currently particularly interested in 
offshore aquaculture legislation. However, all interested groups should 
be able to participate in NOAA decisionmaking about offshore 
aquaculture. As in my answer to Question 1, a transparent public 
process is essential.
    Along with key environmental issues (water pollution, fish escapes, 
disease, feed), the Committee may wish to include issues concerning the 
socioeconomic impact of offshore aquaculture development. For example, 
what are the consequences of fostering greatly increased production of 
fish for which there is already a profitable commercial fishery? One 
recent study by a Canadian economist suggests that large scale fish 
farm development may significantly lower prices, hurting fishermen and 
ultimately aquaculturists. Consumers would benefit, but if most fish 
are exported (e.g., to Japan), these benefits may accrue abroad. See 
www.fisheries.ubc.ca/publications/reports/report13_3.php

    Question 8. Is there a model process used in other permitting 
schemes that could be incorporated into legislation for offshore siting 
of aquaculture?
    Answer. The California legislature on May 11, 2006, passed the 
Sustainable Oceans Act (S. 201), which if signed into law by the 
Governor, will establish the most comprehensive environmental standards 
in the Nation to guide the growth of the marine aquaculture industry.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                        Rebecca Goldburg, Ph.D.

Fish Health and Environmental Impacts
    Question 1. I understand your concerns with the potential 
environmental impacts that could result from poorly regulated offshore 
aquaculture. Aquaculture could certainly affect surrounding waters, 
just as the quality of waters could affect the suitability of offshore 
aquaculture sites. This argues for a great deal of coordination in 
managing and monitoring offshore habitats.
    What is the best way to achieve coordination in managing and 
monitoring offshore habitats? How should NOAA work with states, other 
Federal bodies, industry, and other organizations on environmental 
quality and fish health on an ongoing basis?
    Answer. Ideally an offshore aquaculture system would operate within 
a broader offshore regime that minimized conflicts and meet 
environmental and economic objectives, including those of 
conservationists and fishermen. The U.S. Commission on Ocean Policy and 
the Pew Oceans Commission both made a number of recommendations which 
could help Congress create a larger framework for ocean governance 
which includes offshore aquaculture development.

    Question 2. Can you elaborate on how you think the non-governmental 
organizations--including the scientific community and public interest 
groups--should be involved throughout the regulatory process?
    Answer. The establishment of a scientific advisory committee, which 
includes scientists who specialize in aquaculture, marine conservation, 
and fisheries science, as well as scientists from the public interest 
community, should make a regulatory process more credible.

    Question 3. Based on the environmental concerns you outline in your 
testimony, do you think it would be better to forgo Senate action on 
this bill altogether--even if this means maintaining the status quo, 
allowing offshore aquaculture to proceed without any regulatory 
framework in place?
    Answer. I urge Congress to forgo passage of S. 1195, given its 
numerous deficiencies, as discussed in my written testimony. Even 
without passage of this legislation, offshore aquaculture facilities 
are subject to permit requirements under the Rivers and Harbors Act, 
administered by the Army Corps of Engineers, and the Clean Water Act, 
administered by the Environmental Protection Agency. Operation of an 
offshore aquaculture facility may also require amendment of applicable 
Fisheries Management Plans under the Magnuson Stevens Act, as 
administered by NOAA. This existing regulatory structure is 
problematic, but prevents unfettered development. There is no need for 
Congress to rush to pass offshore aquaculture legislation, especially 
if it means passing legislation without careful consideration of the 
associated issues and policy alternatives.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                        Rebecca Goldburg, Ph.D.

    Question. You state in your testimony that S. 1195 has many 
failings, but specifically three improvements are needed: (1) clear 
environmental standards, (2) better public participation, and (3) 
multiple-use planning and management. In your mind, if these 
improvements are made, can development of an offshore aquaculture 
industry be guided in such a way that the result is an environmentally 
sustainable, economically viable, and socially fair outcome? 
Specifically, as lawmakers, how can we ensure such an outcome and 
dispel some of the current ambiguity in the bill?
    Answer. The steps articulated in my testimony would go a long way 
to resolve environmental and socioeconomic issues associated with 
offshore aquaculture. However, some issues would remain.
    Regulation would not resolve environmental issues for which no easy 
solutions are currently available. As discussed in my testimony, 
cultivation of most marine finfish requires that more wild fish be used 
as inputs in feed than is ultimately harvested from fish farms. This 
net loss of fish protein results in several problems and will likely 
increase global fishing pressure on wild fish populations as demand and 
prices rise for limited supplies of fish meal and fish oil. Alternative 
feed sources are currently in research and development, but truly 
sustainable marine aquaculture will not be possible until alternative 
feeds are readily available at reasonable cost to fish farmers.
    The economic viability of offshore aquaculture in U.S. waters is 
another issue. As discussed in answers to questions above, it remains 
unclear whether U.S. offshore fish farming can compete economically 
with production abroad.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Sebastian Belle

    Question 1. Following up on your testimony, can you please 
elaborate upon why the additional two permits in the proposed bill 
would lead to unnecessary and redundant regulations? How much money 
could your operations save simply by having a single, streamlined 
permitting process?
    Answer. My concern about two permits stems from our experience in 
Maine. In general, the more permits one has to apply for the longer the 
process becomes and the less assured the process outcome is. For 
example, in Maine we now have three principle permits we must apply 
for. Multiple agencies are involved and multiple public hearings and 
meetings take place. This process can easily take up to 3 years for a 
judgment to be rendered. It is entirely possible to go through the long 
process, spend large sums of money and in the end be turned down. Even 
worse, it is possible to go through the process get two out of three 
permits and be unable to start operations because of the lack of the 
third permit. Multiple permits increase the complexity and uncertainty 
involved in the permitting process. Please remember that no business 
activity can begin until ALL the permits are granted. Aquaculture is a 
risk laden business to begin with; it is new, occurs in an 
unpredictable hostile environment and involves keeping animals alive 
for long production cycles. Add to these risks permitting complexity, 
uncertainty and long processes and it is difficult to convince private 
capital to risk investing.
    It is difficult to estimate accurately how much money would be 
saved by a single streamlined permit process without knowing what the 
proposed process would cost. Perhaps the best way is to look at the 
Maine model. At one time Maine had a one agency, one stop permitting 
process. That process has now devolved to a multi-agency, multi-permit 
process. When the process was a one stop process the average permitting 
costs ranged from less than $2,000 for a small scale shellfish 
application to around $10,000 for a modest finfish application. Today 
under the multi-agency, multi-permit model, the average application 
costs range from a minimum of $3,500 to well over $100,000. On larger 
finfish applications these costs can easily exceed $300,000.
    What is important here is that these costs make it very difficult 
for family-owned smaller operations to startup. If environmental 
institutions are concerned about large ``corporate'' operations, then 
they should support a tiered application process that allows smaller 
operations to start with lower permitting requirements initially, good 
monitoring requirements that document whether operations are having 
unacceptable environmental impacts and provide for a step-up series of 
permits linked to the level of operations. The key would be 
establishing initial threshold levels for the step up permits that 
would allow activity levels high enough to generate adequate economic 
returns in the startup phase. If these thresholds were established too 
low then initial investment would not be likely to occur.
    In an offshore environment, acceptable thresholds might be 1-2 
million animals stocked per year. If a farm wanted to stock above these 
levels, an operation would have to go through a more comprehensive 
permitting process with full environmental impact assessment. Below 
these levels, a quick permitting system that would examine potential 
user conflicts could be employed. At the lower permitting level, in 
order to protect against unacceptable environmental impact, annual 
environmental monitoring would be required. Above the thresholds, a 
full environmental assessment would be required before operations 
began. However, once operations began, assuming the original 
environmental assessment included impact modeling, field monitoring 
would occur only at the end of each production cycle to ground true 
environmental impact predictions.

    Question 2. Exactly how do you think the regulatory framework 
proposed in Federal legislation should be streamlined? Are these issues 
that could be worked out in the rulemaking process? If not, why not?
    Answer. Combine the two proposed permits into one with interagency 
consultation between NOAA and other concerned agencies and 
jurisdiction. We oppose categorically giving the regional fisheries 
councils permitting authority as is currently being proposed. There are 
two reasons for our opposition: (a) The track record of the councils in 
terms of effective management is poor. This has been confirmed by 
numerous external reviews. There is widespread interest in reforming 
these jurisdictional bodies. To embed aquaculture in these entities as 
well as require multiple permits from NOAA would preclude any 
aquaculture development. Instead of waiting for a long drawn out 
permitting process which then has to go through a decisionmaking body 
that has no aquaculture or environmental impact expertise, investors 
will invest overseas. (b) The regional fisheries councils are in many 
instances effectively controlled by commercial fishing interests. Some 
of the interests may produce products that aquaculture products will 
compete with in the market. Is it good public policy to give the 
regulatory oversight of one industry to a competing industry, 
particularly if both sectors operate under a license to use a public 
resource? How likely is it that a regional council, controlled by 
commercial fishing interests that may view (whether rightly or not) 
aquaculture as a threat, will grant an aquaculture permit in a timely 
fashion? Is this an effective way to help our country begin to realize 
the economic potential of a powerful economic development tool?
    The closest answer we have to these questions can be seen in 
Alaska. Commercial fishermen pushed to have laws passed that precluded 
net pen culture in the state. They assumed that if they prohibited 
finfish aquaculture they would continue to be the major producers of 
salmon and would control the market. As an aside, having been a 
fisherman, I can tell you that fishermen never control markets, 
processors do. History has shown us that the Alaskan fishing 
communities assumptions were wrong. More salmon is farmed today than 
caught in Alaska. Fishermen find themselves out-competed, and out-
priced as price takers. The reaction has been to aggressively try to 
distinguish wild salmon from farm salmon in the market place, in some 
cases by using irresponsible food scare tactics. Although the tactics 
may have at times been irresponsible, market segmentation and product 
differentiation is a good thing. Consumers like choice and price 
spreads allow consumers of varying means to choose what product is good 
for them. Two important facts remain however; the highest annual salmon 
catches that have ever occurred in Alaska would only supply 4-6 months 
of the U.S. market. Alaskan fishermen have lost the ability to use 
aquaculture as a tool to increase their competitiveness. In salmon, it 
is too late to catch up with countries like Chile and Norway. If 
Alaskan fishermen had chosen a combination of aquaculture and effective 
wild fishery management they would be the world leaders in salmon 
production today and our country would have a dramatically lower trade 
deficit. I would argue this is not a model we want to use if we are 
serious as a nation about using offshore aquaculture development as a 
powerful tool to diversify coastal communities economies, protect the 
security of our national food supply and reduce our trade deficit.
Government Financial Support
    Question 3. In your testimony, you stated that direct government 
financial support is necessary to help get aquaculture operations off 
the ground. I think we should hear more about this proposal and what 
benefits the government might expect to be returned on this investment.
    Could you please elaborate on what you think is the proper role of 
government support and investment in aquaculture? How should such a 
program work, from your point of view?
    Answer. Our Nation has built many significant economic sectors 
through the careful investment of public funds; commercial fisheries 
and land-based agriculture are just two examples. Countries that my 
constituents compete with every day have invested tens of millions of 
dollars in commercial aquaculture development. These countries view 
aquaculture as a new and powerful tool with which they can diversify 
the economic base of coastal communities and vest those communities in 
environmental stewardship of marine resources and ecosystems. We need 
to do the same. Historically, Federal aquaculture involvement and 
expenditures have focused on three principle areas: policy and 
regulatory development, large-scale demonstration projects and a modest 
investment in applied research. While these efforts can be helpful, 
they do little to directly stimulate investment and innovation.
    We need to refocus these efforts onto community and business 
development structures. Significant investment tools such as tax 
incentives, loan guarantees and outright development grants should be 
the focus of a Comprehensive National Aquaculture Development Program 
(CNADP). The program's express goal should be to achieve national goals 
established by a private sector advisory board. Goals should include 
measurable metrics such as the number of new farms started per year, 
pounds produced, gross sales, numbers of people employed, percentage of 
seafood produced domestically and levels of private capital invested. 
This program should include a core staff with actual private sector 
operational aquaculture experience, not just experience at research 
institutions. The program should also include staff with significant 
economic development, business management and agricultural financing 
experience. The focus of the program should not be natural resource 
management. We have numerous state and Federal jurisdictions and 
entities already charged with this responsibility.
    The CNADP should be given authority for any Federal funds to be 
expended on aquaculture research including Sea Grant in order to 
eliminate duplication of efforts and focus research efforts on critical 
bottlenecks in the development cycle. The program should include a 
research advisory board made up largely of private sector 
aquaculturalists and university researchers who do not have conflicts 
of interest. This advisory board should include advisors from outside 
the United States from countries with growing and successful 
aquaculture sectors. Both the national program and research advisory 
boards should develop 5, 10, and 30-year plans with measurable 
benchmarks. The 30-year plan should be reassessed every 5 years to 
ensure it is technically relevant and achievable. At that review, a new 
5 and 10 year program should be developed. The Director of 
Comprehensive National Aquaculture Development Plan should report 
directly to the Secretary of Commerce and Co-Chair of the Joint 
Subcommittee on Aquaculture with a USDA representative of similar 
stature. The CNADP should have resources adequate to discharge its 
responsibilities and after 15 years, the level of funding for the 
program should be dependent on significant progress in the measurable 
goals established in the plan. The CNADP should have resources similar 
to the combined budgets of the USDA land grant research budgets and all 
USDA development programs combined.

    Question 4. How much funding is needed to help launch commercial 
operations? Following this investment, how much economic activity would 
the industry generate for our country? What other social benefits could 
be realized?
    Answer. This depends entirely on the type of operation being 
started. Typical offshore projects in other countries have ranged from 
$1 million to over $40 million. If a project is successful internal 
returns on investment vary from 10-18 percent. There are widely varying 
estimates in terms of appropriate multiplier rates to use when talking 
about economic activity and impact of aquaculture operations. I 
personally am very suspicious of multipliers because they are often 
used by project proponents to justify investment. Having said that, I 
can report on our actual experience in Maine. These figures can give a 
sense of the potential level of contribution offshore aquaculture 
development might make. In a two recent independent studies that used 
actual reported production and audits of internal company books, the 
following ranges of economic impacts were reported. Please remember 
that these figures are being reported for a period during which our 
three largest salmon producers left the state due to the listing of 
local wild salmon stocks as endangered species. This means that the 
gross revenues and employment figures are significantly down. The 
economic impact ratios should however be representative. Another thing 
to remember is that our operations are a mix of fresh and saltwater 
finfish and shellfish operations. These operations are all located 
within state waters.
    Historically, direct aquaculture sales in Maine have been as high 
as $130 million. During the two recent study periods direct annual 
sales for the aquaculture sector in Maine varied between $50 and $82 
million. Of those revenues, between $32 and $50 million was spent on 
direct inputs. An additional $30 to $48.5 million was contributed 
through indirect spending. Between 800 and 1,400 Maine citizens were 
employed and earned between $32 and $56 million. Average compensation 
level was $40,000, significantly higher than the state average and 
almost double the averages in the two counties where many operations 
were located. Finally, these businesses paid between $5.6 and $9.7 
million in state taxes. An examination of Federal tax contributions was 
not made.
    Offshore operations will likely have some different economic 
characteristics, however, based on these actual figures, it would be 
reasonable to assume the following returns on offshore investment. For 
every $100 million in gross sales, $60.9 million in direct inputs, with 
an additional $59 million in induced and indirect economic activity. 
Employment numbers and taxation figures are more difficult to project. 
I would however assume that average compensation rates would be higher 
that for inshore operations.
Fish Health and Environmental Impacts
    Question 5. As you know, aquaculture could certainly affect 
surrounding waters, just as the quality of waters could affect the 
suitability of offshore aquaculture sites. This argues for a great deal 
of coordination in managing and monitoring offshore habitats.
    What is the best way to achieve coordination in managing and 
monitoring the impacts of aquaculture on offshore habitats? How should 
NOAA work with states, other Federal bodies, and the industry on 
environmental quality and fish health on an ongoing basis?
    Answer. To some extent, I answered this in the first question. In 
terms of environmental quality, appropriate site selection is the key. 
This can be difficult in instances when the species is being cultured 
for the first time. Without having actual farming experience with a 
species, it is sometimes difficult to know what site characteristics 
are important to maintain animal performance and minimize environmental 
impacts. This is another argument for the tiered permitting approach. 
Allow a modest operation to start up, monitor it well and encourage 
farmers through incentives and disincentives to farm within the 
carrying capacity of the specific site. Every site is different and 
will react differently to different production cycles and species. NOAA 
currently has little to no expertise in assessing these issues. EPA has 
expertise and a permitting process that would be required anyway. Why 
reinvent the wheel or impose an additional requirement of operators. 
NOAA should consult with EPA on all environmental impact matters.
    In terms of aquatic animal health, this is a relatively new field 
and no Federal agency has extensive expertise in it. There are 
individual professionals within NOAA, USFWS and USDA that have some 
expertise. There is only one Federal staffer to my knowledge that has 
any experience with production aquatic animal veterinary care. In the 
face of this lack of expertise, there are significant misconceptions 
about the risks associated with commercial aquaculture facilities. This 
is a very serious situation that is significantly contributing to 
public misconceptions and inhibiting the development of both inshore 
and offshore aquaculture in the country. NOAA, USFWS and USDA have 
signed an interagency MOU to try to improve interagency coordination. 
From the private-sector's perspective this has achieved nothing other 
than the agencies saying they will continue to do what they have been 
doing and to talk to each other. It is my view that all aquatic animal 
health expertise and resources should be housed within USDA. This 
agency has extensive animal health experience and expertise. They 
understand production veterinary animal health management and have an 
established structure for regulating private farm operations. NOAA 
should consult with USDA on all aquatic animal health issues.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                            Sebastian Belle

    Question. Can you please share with me some of the most important 
lessons learned from the Maine aquaculture experience?
    Answer. The most important lesson has been to allow incremental 
development with appropriate monitoring and adaptive management. This 
approach does not inhibit investors risking capital in an uncertain 
field but does ensure that inappropriate environmental impacts do not 
occur. The other lesson has been that without significant government 
investment in the early development stages, it is very difficult for 
domestic operations to compete with overseas competitors. Maine's 
aquaculture farms began operations in the 1970s. So did Norway's. 
Chile's started a little later. Norway and Chile are now world leaders. 
Although Maine leads the U.S. in marine production, we supply less that 
2 percent of the U.S. market. Although there are a number of reasons 
for this disparity, perhaps one of the largest is that both Chile and 
Norway have invested hundreds of millions of dollars in economic 
development funds to grow the sector. Please see my answer to the 
question above on governmental financial support. Finally, the most 
encouraging lesson we have learned in Maine is that significant 
economic development can occur with very low environmental impact. 
Maine has a thirty year track record of rigorous environmental 
monitoring. This has allowed us to see when we are making mistakes, 
learn from them and correct our methods before those mistakes become 
critical. Maine farmers have developed some of the most innovative and 
environmentally-friendly farming methods in the world. These methods 
can be easily applied to offshore operations. We do not need to 
reinvent the wheel. As a country, we cannot afford to delay aquaculture 
development. Our economy and national food security depends on it. Our 
working waterfronts will wither without it. Our marine environments 
will loose citizens who are vested in their stewardship because they 
rely on healthy ecosystems in order to make their living.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
